State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3
court for the death sentence is mandatory. Ariz. R.Crim. P.
26.15 and 3 1.2(b). This court has jurisdiction under Arizona

190 Ariz. 129

Constitution article VI, section 5(3), and Arizona Revised

Supreme Court of Arizona,

Statutes sections 13-^031 and-4033(A). We affirm.

En Banc.

STATE of Arizona, Appellee,

I. Facts

V.

On May 18, 1989, Ruby Reid spent the evening at the Red

Christopher John SPREITZ, Appellant.

Dog Saloon in Tucson. She had been a regular patron for
a number of years. On the night in question, a bartender

No. CR-94-0454-AP.

friend saw Ms. Reid leave the bar at approximately ] 1:30 p.m.
Because she did not own a car and the bar was near her home,

Sept. 11,1997-

she was on foot as usual.

Synopsis
Defendant was convicted in the Superior Court, Pima County,

Meanwhile, defendant spent several hours drinking with his

No. CR-27745, William N. Shen-lll, J., omrst-degree murder,

roommate at another bar in the vicinity. At about midnight,

sexual assault, and kidnapping, and was sentenced to death.

defendant and his roommate returned home. The roommate's

Me appealed. The Supreme Court, Jones, V.C.J., held that:

girlfriend testified that shortly after they arrived, defendant

(1) defendant's speedy trial rights were not violated; (2)

remarked that he was going out to see if he could "pick up

erroneous admission of gruesome photographs of victim's

a date."

body was harmless; (3) defendant was not enlilled to Miranda
warnings after officers stopped defendant's vehicle; (4)

Between 12:35 and 12:45 a.m., Tucson Police Officer Ramon

probable cause existed for issuance of warrant to search

Batista noticed a man he later identified as defendant drive

defendant's home; (5) evidence regarding victim's "habit"

into a convenience store parking lot across the road from

of never accepting rides from strangers was admissible; (6)

where Batista was parked. Officer Batista noted the make

defendant was not denied effective assistance of counsel; and

and color of defendant's car. After watching defendant talk to

(7) evidence supported imposition of death penalty.

another man for a few minutes. Officer Batista drove through

Affirmed.

was wearing torn jeans over spandex shorts and a white T-

the convenience store parking lot, observing that defendant
shirt.
Attorneys and Law Firms

At approximately 1:45 a.m., Officer Batista again noticed

*A1264 *133 Grant Woods, Attorney General by Paul
J. McMurdie, Chief Counsel, Criminal Appeals Division,
Jon G. Anderson, Assistant Attorney General, Phoenix, for
Appellee.

defendant's car in downtown Tucson. Contrary to the earlier
convenience store sighting where the officer recalled the car
was running clcanly, the car was now smoking heavily and
leaving a U'aS) of oil. Officer BaUsta pulled defendant over,
and with defendant out of his car, observed that his hands,

Law Office of David Alan Darby by David Alan Darby, Julie

arms, legs, shoes, and shirt appeared to be smeared with
bloud and fecal mailer, his shift was torn, and he smclled of

L.C. DuvaEl, Tucson, for Appellant.

f'eces. The officer noted thai defendant had removed his jeans
and was now wearing spandex shorts with the same T-shirt.

Explaining his condition, defendant said he had fought with

OPTNTON

the man seen with him by the officer earlier that evening.

JONES, Vice Chief Justice.
Another police officer, Sergeant Victor Chacon, drove by
Christopher John Spreitz (defendant) was convicted of first

and stopped when he observed defendant's appearance.

degree murder, sexual assault, and kidnapping. His victim

Sgt. Chacon expressed concern about the condition of the

was Ruby Reid. The trial court sentenced Spreitz to death

man with whom defendant had allegedly fought and asked

for the murder and to fourteen-year consecutive prison terms

defendant to take the officers lo the scene of the fight.

for each of the non-capital convictions. Appcai to this

Defendant rode unrestrained in the back seat of Officer

WESTLAW © 2020 Thomson r^utor;:,. Nn clmrn to origiEidl U.fi. C-Kjvfirninorit Wofl<o.

A-1

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep. 3
Batista's patrot vehicle. Upon arrival aL the purporled scene,

a.in. on May 25 and arrested him based on the outstanding

however, the officery were unable lo find any signs of an

warrants,

altercation, injuries to the other mw, or the cause of the oil
leak in defendant's car. Sgl. Chacon called another police

At the police station, defendant was advised of his Miranda

officer to take photographs of defendant, who consented to

rights and, upon questioning, confessed to the murder of

being **126S A134 pholograplied. OlHcerBatista noticed

Ruby Reid. He claimed that he "picked up" Ms. Reid at

that defendant was flushed and his breath smelled of beer

a convenience store and that she voluntarily went with

and concluded that he had been drinking. However, Officer

him, intending to "party." Ariel- they arrived in the desert,

Batista also testified that defendant's actions evidenced

defendant said that Ms. Reid reneged on her promise to

no physical or mental impairment. Officer Batista issued

have sex with him and thai they fought. He stated that Ms.

defendant a repair order for his car and released him no later

Rcid slapped him and thai he punched her in the mouth. He

than 2:30 a.m. Friday, May 19. After defendant arrived home

admitted further that he removed her clothing and had vaginal

a short time later, he told his roommate's girlfriend thai he had

intercourse with her. Finally, defendant confessed that he hit

had a fight with a man and he was not certain if Ihe man were

Ms. Reid in the head with a rock more than once to make her
stop yelling. He then left, not knowing if she were alive or

alive or dead.

dead. Shortly thereafter he was stopped in downtown Tucson
On Monday morning, May 22, a horseback rider discovered

by Officer Batista.

Ruby Reid's naked and decomposing body in the desert on the
outskirts of Tucson. At the scene, police detectives observed

When the detectives searched defendant's car, they found

tire tracks leading back to the pavement, oil stains in the

blood spatter in various locations inside the trunk. The

dirt, footprints, and drag marks in the dirt leading away from

investigating criminologist was able to determine that some

the body. They also found feces-stained pants, tennis shoes,

of the blood was not consistent with defendants blood

socks, a used tampon, and a torn brassiere. Two blood-staincd

characterislics.

rocks lay next to the body.
The medical examiner testified thai, due to the advanced

IT. Procedural History

state ofdecomposition, he could not determine t1ie full extent

A. The Arrest, Indictment, Pretrial Proceedings, and

and nature of the victim's injuries. For the same reason, the
examiner was unable to confirm or reject the presence of
semen. The injuries he was able to catalog included: bruising
on the legs, arms, and back; bruising and abrasions on the
buttocks; several broken ribs; internal bleeding; a broken jaw;
several head laccrations; and a skull fracture where the skull
had been "shoved in." The examiner concluded thai Lhe cause
of death was blunt-forcc trauma to the head.

Trial
Defendant's arrest occurred May 25, 1989. On June 2, 1989,
he was indicted by a grand jury on counts of first degree
murder, sexual assault, and kidnapping. The trial court fixed
a pretrial conference date for August 8, 1989, but continued
it at dependant's request until August 30. At the prctrial
conference on August 30, defendant waived his Rule 8 speedy
U-ial rights, and the court set trial for February 14, 1990.

The police were initially unable to develop leads in the
case. However, on Wednesday, May 24, at the police station,
the officer who had photographed defendant the previous
Friday morning encountered the investigating detective in the
Rcid murder. The events of Friday morning. May 19, were
mentioned during their conversation, causing the detective
to sense Ihal the blood- and feces-covered driver might be
connected to the murder. Accordingly, the defective obtained
a search warrant for defendant's apartment and car. In
addition, the detective ran a computer check and discovered
that defendant was subject to several outstanding warrants for
unaatisfied traffic citations. The defendant was at home when
the detective and other officers executed the warrant at 1:30

Defendant thereafter waived Rule 8 speedy trial rights in
writing numerous times, obtaining several new trial dates
between August 8, 1989, and April 23, 1991. The reasons
for continuing the trial included claims Llial analysis ot'DNA
evidence was not yet complete, that defendant **1266
*135 was attempting unsuccessfully to engage another
attorney, that defense counsel was ill, and that defense counsel
had not received materials necessary to interview an FBI
laboratory supervisor.
In April 1991, defendant requested that the court continue the
trial date pending a Frye hearing to determine admissibility of
the state's DNA evidence. On April 23,1991, defense counsel
waived the Rule 8 speedy trial requirements to accommodate

WESTLAW © ^C)/)0 ]'h(jrnL;oti l^-;utor;j. No ctnirn to oricjiny) U.S. (^uvatnrnen^ Work;.;.

A-2

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz, Adv. Rep.3
the Fjye hearing. The court consolidated defendanl's action

Criminal Procedure. The court heard arguments on June 28,

with another case for purposes of the Fjye hearing and did not

1994, and denied the motion on July 25, 1994.

at that time set a new trial date.
The trial finally began on August 9, 1994, and lasted seven
In April 1992, defense counsel requested a stay in the Frye

days. On August 18, 1994, the jury returned the following

hearing while she filed a peUUon for special action with the

guilLy verdicts: first degree murder (both premcditatcd and

court of appeals regarding Ihe scope of the hearing. The

felony murder), sexual assault, and kidnapping.

court of appeals declined to accept jurisdiction in June 1992.
Defendant immediately filed a petition for special action with
B. The Sentencing

this court, again requesting a stay and a determination of
scope. The trial court continued the proceedings several more

The court conducted defendant's aggravation-mitigation

times while awaiting disposition of the special action in this

hearing on November 2S, 1994, and found aggravaLion under

court. In a letter dated August 19,1992, the trial judge wrote

A.R.S. § 13-703(P)(6), concluding thai Ms. Reid's murder

this court asking for an early ruling on the petition for review.

was committed in an especially cruel manner. As nonstatutory

This court denied review of the special action in OcLober

mitigating factors, the court determined that defendant was

1992.

raised in a "sub-normal" home environment, that he had
been emotionally immature at age twenty-two when the crime

In August 1993, the trial court required the parties to brief

was committed but had shown emotional growth while in

and argue the effect of this court's decision in State v. Bible,

confinement, that he had no prior felonies, and that he was

175 An'/.. 549, 858 P.2d 1152 (1993), on the DNA hearing.

capable of rehabilitation. After considering the aggravating

After oral argument on October 4, 1993, the trial court took

and mitigating factors, the court imposed the death penalty.

the matter under advisement In December 1993, the trial

The judge concluded that the especially cruel manner in

court ruled that DNA evidence would be admissible if certain

which the victim died substantially outweighed all mitigating

foundational requirements were met. In February 1994, the

factors, whether considered separately or together.

court set a hearing on pending motions for the following April
and reset the trial for June 28, 1994.

**i267 A-136 ITT. Issues

In May 1994, defendant filed motions to suppress evidence

A. Trial Issues

gathered during his arrest, search, and detention, all of which
defendant alleges were illegally conducted. The court heard

1. Speedy trial

oral argument on July 6 and denied all motions by order dated

Defendant argues tliat the trial court erred in not granting

July 19, 1994. Meanwhile, the trial court had continued the

his motion to dismiss for violation of his right to a speedy

trial from June 28 to August 9, 1994 at the request of defense

trial pursuant to Rule 8 of the Arizona Rules of Criminal

counsel.

Procedure. In addition, defendant asserts that he was denied
speedy trial rights under the Due Process Clauses of the

Against ail expectations, the admissibility hearings did not

United States and Arizona Constitutions.

conclude until June 3, 1994 when the court precluded the
use of DNA evidence as a sanction because of the state's
failure to disclose a witness. During the three-year period

a. Rule 8 speedy trial

between April 1991 and June 1994, the trial court continued
the hearing repeatedly at the request of both the defendant
and the state and granted the parties time to analyze complex
DNA evidence and to arrange for the appearance of numerous
expert witnesses. The court also allowed defense counsel to
withdraw and appointed substitute counsel.

Rule 8 grants even "stricter speedy trial righls than those
provided by the United Stales Constitution." State v. Tucker,

133 Ariz. 304, 308, 651 P.2d 359, 363 (1982) (citing State
ex re!. Berger v. Svperior Court, 111 Ariz. 335, 529 P.2d
686 (1974)). Here, defendant complains that his case was not
given priority as required under Rule 8.1, that nonexcludcd

On June 16, 1994, defendant filed a motion to dismiss
for speedy trial violations under Rule 8, Arizona Rules of

time over the five-year period between his arraignment on
June 12, 1989, and the beginning of his trial on August 9,
1994, exceeded the Rule 8.2 time limits, and that several

WE^STLAW © ^0^0 I'liornyon l^outKh1;. No clMirn to oi'Kjii-i9l U.f:i. Oovclrnin(:';rK Work;;.

A-3

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3
continuances granted by the court extended beyond the Rule

agreed to waive his Rule 8.1 speedy trial rights, and the court

8.5 thirty-day limit. We have determined, on Lhe entire record,

continued trial to April 3, 1990. Defendant **}16S *137

filed a signed waiver of his Rule 8.2(b) rights, expressly

that defendant has waived his rights under Rule 8.

acknowledging that the trial date would fall outside the 8.2
Rule 8.2(b) provides that a defendant who is in custody for

time limits.

criminal charges "shall be tried ... within 120 days Irom the
date of the person's initial appearance before a magistrate ...

On April 2, 1990, defendant informed the court that his

or within 90 days from the date of the person's arraignment ...,

mother was attempting, on his beha1 f, to engage new counsel.

whichever is Ihe lesser." Defendant was arrested on May 25,

After defendant freely waived his Kule 8 rights, the court

1989, indicted on June 2, 1989, and arraigned on June 12,

set a tentative trial dale of May 4, 1990. On May 4, 1990,

1989. In the absence of intervening events, defendant's trial

defendant again requested a continuance of the trial because

was required to commence by September 10, 1989 to avoid

his mother had not yel engaged another attorney. With

violating Rule 8. His trial finally began on August 9, 1994,

defendant's express waiver under Rule 8, the court set a

more than five years after the indictment.

trial date of September 11, 1990. On September 11, 1990,
however, defendant again filed a motion to continue, ciling

The trial court ruled that defendant's Rule 8 rights had not

as reasons for delay that interviews of witnesses were not

been violated because: (1) there was a presumption that all

complete, defense counsel had not been able to hire all of the

continuances granted by the trial court were indispensable to

experts needed to testify regarding the admissibllily of DNA

the interests of justice, even though it was likely that the Rule

evidence, and defense counsel had been ill for several weeks.

8.2 limits had been exceeded; (2) defendant had expressly

As was customary, the trial court again advised defendant of

waived his rights on numerous occasions; (3) defendant

his right to an immediate trial or a continuance of no more

impiiedly waived speedy trial rights by failing to assert

than thirty days. Defendant once more waived this right and

the same before the applicable deadlines; and (4) defendant

agreed to a trial dale ofJanuary 24,1991.

violated his obligations under Rule 8 by failing to advise the
On January 14, 1991, defendant moved to continue because

court of the immmence of Rule 8.2 deadlines.

the parties needed more trial preparation, due particularly to
A trial coui'Ls ruling will be upheld unless an appellant

the complexity of the DNA evidence and because the court

demonslrales thai the court abused its discretion and that

would need to conduct a Frye hearing prior to admitting

prejudice resulted. See Slate v. Lukezsc, 143 Ariz. 60, 68, 691

any such evidence at trial. Again, defendant filed a signed

P.2d 1088, 1096(1984).Moreover,thedeterminationofabusc

acknowledgment and waiver under Rule 8.2. Finally, on April

of discretion depends on the facts of each case. See State v.

23, 1991, defendant requested a continuance of the trial date

Mendoza, 170 Ariz. 184, 194, 823 P.2d 51, 61 (1992). On

in order to conduct a Fiye hearing. The court approved

the facts of this case, we find the trial court did not abuse its

the continuance without setting a new trial date, although

discretion, and defendant's Rule 8 speedy trial rights were not

it was apparently the court's understanding that the hearing

violated.

would take at least two months. Defense counsel avowed
that his client again would waive Rule 8 time limits to
permit the continuance. Although defense counseS assured
the court that defendant would provide yet another written

(i) Undisputed time waived by defendant

acknowledgment and waiver of Rule 8, this waiver does not

Defendant concedes that he waived Rule 8 time from August
8, 1989, the date set for the first prctrial conference, through
April 23, 1991, a period of roughly twenty months. Our
review of the record confirms the following sequence of
events. Defendant continued the pretrial conference three
times between August 8 and August 30,1989. On August 30,
the trial court, counseled defendant about his right to insist
on a trial within the Rule 8 limits. Defendant knowingly
and intentionaliy waived his right, agreeing to a trial date of
February 14, 1990. On January 25, 1990, defendant again

appear in the record.
On this record, we find that defendant did waive his Rule

8 speedy trial rights between August 8, 1989 and April
23, 1991. Rule 8.4(a) allows the exclusion from Rule 8.2
time limits for delays "occasioned by or on behalf of the
defendant." All trial delays during this period were clearly
brought about by defendant and were thus properly excluded
within the province ofRulc8.4(a). Significant to this opinion,
we find that defendant repeatedly and knowingly waived his

W^STLAW © 2(P.O 'I'hDtnsnn f?cuteii's. No (.l^ini tn nricjin^i U.^>. Govcirnrnenl Wniks,

A-4

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3

Rule 8 speedy trial rights during this period, usually by filing

special action to the court of appeals. The court denied Lhe

with the court a signed acknowledgment recognizing that the

stay and commenced the trial on August 9.

continuances requested would move his trial outside the Rule
8.2 limits.

Continuances granted defendant for filing special actions and
those resulting from defense counsel's scheduling conflicts
are excluded from Rule 8 limits as delays occasioned by or
on behalf of defendant under Rule 8.4(a). See, e.g., State v.

(ii) Disputed waived time

Rodrignez, 186An^.240,245,921 P.2d 643,648 (1996). This

From April 23, 1991 through the conclusion of pretrial

leaves the periods of lime during which the state sought to

evidentiary hearings on June 3, 1994, defendant did not

admit and defendant argued to exclude DNA evidence, during

expressly waive his Rule 8 time. However, the record does

which the court had not set a trial date. A delay of over five

not demonstrate that defendant ever made an affirmative

years between an-aignmenl and trial warrants intensely close

assertion of speedy trial rights until his motion to dismiss on

scrutiny. The stale concedes that such a delay is presumptively

June 16, 1994, twelve days before his scheduled trial date of

prejudicial, citing Doggettv. United 'States, 505 U.S. 647, 652

June 28. We turn attention, therefore, to the question whether

n. 1, 112 S.Ct, 2686, 2691 n. 1, 120 L.EcUd 520 (1992),

defendant waived Rule 8 time during this period, and If so,

where the Supreme Court deemed a delay approaching one

whether the time waived brings his trial within Rule 8.2 limits.

year "unreasonable enough" to trigger judicial review.

Our review of the record indicates that the protracted Ffye

We are troubled that the eventual disposition of the

hearings were frequently stalled by disputes over discovery,

admissibility ofDNA evidence came, not two or three monlhs

motions to reconsider the court's rulings, and requesls by Ihe

after the hearing process began, but three years later, While a

court for memorandEi on points of law. In addition, between

significant portion ofLhat Lhree-year period was attributable to

April 6 and November 9, 1992, the court continued the

defendant's petitions for special action and other motions, this

hearings while defendant filed special actions relating to the

pretrial process is extremely lengthy. Defendant's claim that

scope of Fiye, first with the court of appeals, and then with

his allorney's waiver on April 23, 1991 cannot reasonably be

this court. On August 17; 1993, the trial court asked the

construed to encompass the protracted hearings that actually

parties to brief and argue the effect of State v. Bible, 175

followed may be facially compelling, but more compelling

Ariz. 549, 858 P.2d 1152 (1993), on the hearings and then on

is defendant's compromise of this argument by never once

December 3, 1993, issued findings of fact and conclusions

objecting to the delay until the DNA admissibility hearings

of law regarding various DNA evidentiary issues. After the

were concluded.

court ruled Ihe DNA evidence admissible on December 3,
1993 and denied defendant's motion to reconsider on January

Rule 8.1(d) requires defense counsel to "advise the court

12, 1994, it held hearings in which the state was required

of the impending expiration of time limits in the defendant's

to establish foundation for the admission of specific DNA

case. Failure to do so may result in sanctions...." Thus, a

evidence. Previously, on February 18, 1994, the court had set

defendant may waive speedy trial rights by not objecting to

a hearing on pending pretrial motions for April 27, 1994, and

the denial of speedy trial in a timely manner. See State v.

triaHbrJune28, 1994.

Guen-ero, 159 Ariz. 568, 570, 769 P.2d IOI4, 1016 (1989)
(citing State v. Adair, 106 An/. 58, 60, 470 P.2d 671, 673

**1269 *138 During a foundation hearing on June 3,

(1970)). We have held thai once a defendant has let a Rule 8

1994, because the state failed to disclose a material witness,

speedy trial time limit pass without objection, he cannot later

the court determined to preclude the state's use of all DNA

claim a violation Ihal requires reversal. Id. at 570-71, 769

evidence. On June 16, 1994, twelve days before his trial was

P.2d at 1016-17. Our decisions regarding a defendant's duty

scheduled to start, defendant filed a motion to dismiss for

to assert speedy trial rights are predicated in substantial part

speedy trial violations. The next day, defendant moved to

on the concern that defendants may "wait until after Lhe [Rule

continue the pretrial hearing and trial due to conflicts with

8.2 time limit] has expired and then claim a Rule 8 violation

defense counsel's schedule, and the court reset the hearing and

after it is too late for the trial court to prevent the violation."

trial for June 28 and August 9, 1994, respectively. On August

Stafe v. Swensrnd, 168 Ariz. 21, 23, 810 P.2cl 1028, 1030

4, 1994, defendant moved for a stay of the trial pending a

(1991). Moreover, we observe that although Rule 8.2(e) warns
that Rule 8 speedy Irial time limits "may not be extended by

WESTLAW © ^020 't'iiom;;0!i Reulfii's. No c;lni!Ti to orK.jin.-.il IJ,S. ('•iuvr;rnrnnnt Woil<y.

A-5

State v.Spreitz, 190Ariz. 129(1997)
945 P.2d 1260, 252 Ariz. Adv. Rep. 3
stipulation or waiver," in Guerrero we explained that Rule

(1993) (quoting Guerrero, 159 Ariz. at 570,769 P.2d all 016).

8.2(e) was intended solely to prevent voluntary waivers of

Here, we find that although the period between defendant'.s

speedy trial time limits in DUI prosecutions. 159 M'\7.. at 570,

arraignment and trial was unprecedented, defendant waived

his right to object by not objecting when the violation was

769 P,2d at 1016. It is therefore not applicable here.

occurring. We further conclude that defendant and his counsel
Defendant did not file a motion to dismiss for vioiaUon ofhis

knew or should have known of defendant's right to demand a

speedy trial rights until June 16, 1994, after the evidentiary

trial within Rule 8 time limits. During the undisputed waived

hearings were terminated on June 3, 1994, after the court had

time, the trial judge explained this right to defendant each time

excluded all DNA evidence, and alter trial had been set for

the court continued the trial date.

June 28, 1994. Fifty-seven days elapsed between defendant's
arraignment on June 12, 1989 and his scheduled pretrial

Defendant complains Lhal his attorney was not authorized

conference on August 8, AA1270 *139 1989, leaving thiity-

to waive the speedy Iria) lime eventually required for the

three days before the running of the Rule R.2(b) time limit. As

DNA evidentiary hearing because he had expressed to the

noted, however, defendant expressly waived his speedy triaf

court Ins dissatisfaction with counsel. Also, defendant asserts

rights between August 8, 1989 and April 23, 1991. Defendant

that lie himself invoked his speedy trial rights in court on

could have asserted his rights and filed a motion to dismiss

February 17,1993,when defendant remarked to the court that

any time after thirty-three days past April 23,1991; he elected

"after four years, something should be done." We have held

not to do so. Instead, through his attorney, he waived his

that delays agreed to by defense counsel are binding on a

rights for the purpose of the Frye hearings and moved lo

defendant, even if made without the defendants consent. See

dismiss thirteen days after the Frye hearings concluded and

Rodriguez, 186 Ariz. at 244, 921 P.2d at 647 (citing State v.

twelve days before his scheduled trial date. Defendant's trial

Ziick, 134 Ariz. 509, 515, 658 P.2d 162, 168 (1982)); SSaie

was thus scheduled to commence Iwenty-five days after the

v. KiHian, 118 Ariz. 408, 411, 577 P.2d 259, 262 (App.1978)

conclusion of the Frye hearings, well within the thirty-three

("Rule 8.2 does not grant the appellant any 'fundamental

days remaining ofdefendanL's ninety-day Rule 8.2 limitation.

right' which cannot, be waived by his counsel.").

Defendants was the test case in Pima County for

the admissibilily of RLFP DNA evidence. The record

b. Constitutional speedy trial rights

deinonstrates that defendant was represented zealousty during
the Frye hearings in a spirited effort to preclude admission of

Neither the United States nor the Arizona Constitution

this evidence. Defendant now requests dismissal al leging that

requires that a trial be held within a specified time period. U.S.

the inordinate length of process resuited in a compromise of

Const. amend. VI; Ariz. Const. art. II, § 24; see Henry, 176

his rights.

Ariz. at 578, 863 P.2d at 870. In Barker v. Wmgo, the Supreme
Court established a test by which courts decide whether trial

In Commomvealth v. Lanigan, 419 Mass. 15, 641 N.E.2d

delay warrants reversal. 407 U.S. 514, 530-32,92 S.Ct, 2182,

1342, 1345 (1994), the Massachusetts Supreme Judicial Court

2191-93, 33 L.Ed.2d 101 (1972). The four-factor Barker

exempted delays caused by DNA admissibility hearings from

analysis examines '"(I) the length ofthe delay; (2) the reason

the statutory speedy trial time limits because of "special

for the delay; (3) whether the dependant has demanded a

circumstances presented by the hearings, the "public interest

speedy trial; and (4) the prejudice to the defendant." Lnkezic,

reasons Justifying the delay," and because the defendant's

143 Ariz.at 69,691 P.2d at 1097 (citing Barker, 407 U.S. at

pursuit of his speedy trial right was not "zealous." We agree

530,92 S.Ct. at 2192). In weighing these factors, the length of

that there may be adequate public policy reasons for allowing

the delay is the least important, while the prejudice A*1271

extra time for pretrial hearings involving complex scientific
evidence such as DNA.

*140 to defendant is the most significant. See Hemy, 176
Any.. at 579, 863 P.2d at 871. We apply each of the Barker
factors to the facts presented here.

We have earlier decided that the Rule 8 right to a speedy trial
is not fundamental, but "a procedural right, 'not a shield by

A pretriaf period after arraignment of over five years is

which the accused may avoid trial and possible punishment

presumptively prejudicial. See Doggeff, 505 U.S. at 652 n.

by taking advantage of loopholes in the law or arithmetic

I, 112 S.Ct. at 2691 n. 1. This factor, however, must be

errors.' " State v. Hewy, 176 Ariz. 569,578, 863 P.2d 861, 870

considered in concert with the remaining three Barker factors.

WESTLAW 0 ^.(P,0 I'homson F^eutnt!... No f:!Hirn [0 f)ii(.jinni U,''>. ^ovf-irntTii-ii'ii Work;L

A-6

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep. 3
Not surprisingly, delendanl atlribules llie reason for tlie delay

J 353 (9lli Cir. 1983). Our holding in this case is limited to the

pnmat-ily lo the state's desire lo present DNA evidence. In

Facts peculiar to this record. We find no abuse of discretion

fact, the evidentiary hearingy were required when defendant

by the trial court in granting continuances and in allowing

moved to exclude this evidence. We agree wilh the stale that

delays in pretrial hearings because of the novelty of DNA

il would be unjust lo allow defendant lo (brce exclusion of

evidence and the absence of prejudice. We also recognize that

potentially probative evidence where its admission provides

defendants make intelligent decisions to waive speedy trial

a court with an issue of first impression and requires a

time limits and that in certain circumstances there are sound

lengthy evidentiary hearing. Where, as here, a defendant

tactical reasons to do so.

fights to exclude DNA evidence, the delay resulting from
hearings necessaiy to determine admissibility is necessarily
2. Gruesome Photographs

attributable to the defense. See State v. Weeks, 270 Mont.

63, 891 P,2d477,483 (1995). Obviously, we conclude that a

Defendant argues that the trial court erred in admitting several

defendant may contest the admissibility of scientific evidence

autopsy photographs of the victim. The photographs depict

but not that he may do so and then later contend violation of

the corpse as it appeared after decomposing in the desert for

speedy trial rights due to delays occasioned by the contest.

over three days in temperatures exceeding 100°F. The corpse

In so stating, we do not seek to penalize the defendant but

is severely discolored, and in all of the photographs insects

merely to accommodate his wishes without jeopardizing Lhe

are shown partly covering the body. This insect activity is
vividly apparent in the close-ups. Perhaps the most disturbing

state's interest in bringing the matter to trial.

photograph, marked Exhibit 156, depicts the victims face
Here, defendant waived his speedy trial rights in advance of

staring at the camera in a mummy-like mask of death.

the hearings and, for reasons the record does not reveal, never
objected to the court that his rights had been compromised
by the long delay. Thus, we find that the reason for the

**I272 *141 Defendant asserts that under Rule 403
of the Arizona Rules of Evidence, lliese photographs were

delay weighs against defendant's position. Defendant did not

improperly admitted because Lheir probative value was

move to dismiss for violation of speedy trial rights until after

outweighed by the danger thai they would prejudice the jury

the DNA evidentiary hearing process had run its three-year

against him. This court has frequently confronted claims

course. His assertion of rights was thus untimely and bears

that photographs admitted at trial were so graphic that their

little weight in our Barker analysis. Furthermore, defendant

probative value was outweighed by the prejudice they creale.

did not complain of any violation of speedy trial rights until

Recently, this court declared that admissibilily of photographs

twelve days before trial, and the next day he moved to

at trial will be determined under a three-part inquiry in which

continue the trial because of defense counsel's scheduling

a court examines Ihe relevance of the photograph, the "

conflict.

tendency [of the photograph] to incite or inflame the Jury,"
and the "probative value versus potential to cause unfair

Finally, defendant claims no prejudice from the trial delay

preJudice."5to/ev. Murray, 184 Ariz. 9,28,906 P.2d 542,561

other than that arising out of his long period of custody. While

(1995) (citing State v, SfokSey, 182 Ariz. 505, 515, 898 P.2d

five years in custody may have Increased defendants anxiety

454, 464 (1995), cerl. dewed, 516 U.S. 1078, 116 S.Ct. 787,

quotient, we find, on the entire record, that the delay did

133 L.Ed.2d 737 (1996), and Ariz. R. Evid. 40 1 to 403), cert.

not prejudice his ability to defend against the state s claims.

^«W, 518 U.S. 1010,116S.Cfc.2535,135 T-.Ed.2d 1057, and

After weighing each of the Barker factors, we conclude thcit

519 U.S. 874, 117 S.Ct. 193, 136 L.EcUd 130 (1996). The

defendant's constitutional right to an expeditions trial has not

relevance of questionable photographs depends on whether

been unduly disturbed.

they assist a jury to understand an issue. See State v. Roscoe,

Although we reject defendant's claim of speedy trial

Ariz.at28,906P.2dat56I),cer/. denied, 519 U.S. 854, 117

violations, any pretrial delay stretching into a period of years

S.Ct. 150, 136L.Rd.2d 96 (1996).

184 Ariz. 484, 494, 910 P.2d 635, 645 (citing Murray, 184

greatly concerns us. Thus, we issue the following word of
caution. The duty to move criminal cases through the courts

To find that the autopsy photographs of Ms. Rcid were

is a responsibility shared by the prosecution, the defense, and

improperly admitted, this court must find a clear abuse of

the courts. See Rule 8.1(a) and cmt. to Rule 8.1(d), Ariz.

discretion by the trial court. See State v. Gulbrcmdson, 184

R.Crim. P; United States v. Perez-Revehs, 715 F.2d 1348,

Ariz. 46, 60, 906 P.2d 579,593 (1995) (citing State v. Amciya-

WE--STLAW © 2020 Thornuon ['•icutero. No f.bwn to ortcjinul U.S. GovKrnmGni VVorkn,

A-7

State v.Spreitz, 190 Ariz. 129 (1997)
945 R2d 1260, 252 Ariz. Adv. Rep.3

Rub, 166 Ariz. 152, 170, 800 P.2d 1260, 1278 (1990)).

difficulty deciding thai (.he pliotographs are prejudicial. They

Trial courts are permitted broad discretion in admitting

were unduly disturbing because of their gruesome character

photographs. Vor example, in State v. Bracy, the court upheld

and tended to incite or inflame the jury because of the severe

the admission of graphic and inflammatory photographs of

state of the victim's decomposition and the accompanying

victims at the murder scene. The court reasoned that "we

insect activity.

cannot compel the state 'to try its case in a sterile setting.' "

145 Ariz. 520, 534, 703 P.2d 464, 478 (1985) (quoting State

The medical examiner testified clearly about wounds to

v. Chappie. 135 Ariz. 281, 289-90, 660 P.2d 1208, 1216-17

the victim's body, and we conclude that the photographs

(1983)); see also Amciyci-Rwz, 166 Arw. at 171, 800 P.2d at

provide little or no additional aid in that regard. Furlher, Ihe

1279 ("In prosecuting [a murder], the slate must be allowed

examiner did not testify specifically regarding two of the

some latitude to show what actually occurred."). Pholographs

most unsettling ofthe autopsy photographs, Exhibits 150 and

of a corpse in a murder trial may properly be admitted in

156. Accordingly, we conclude that the trial courl abused its

evidence for many reasons, including

discretion, erring on the side of relevance, by not excluding
the autopsy photographs because t1ie resultant danger of

unfair prejudicial effect on the jury substantially outweighed
the photographs' probalive value.

to prove the corpus delecti, to identify
the victim, to show the nature and

Defendant argues, of course, that because the trial court erred

location of the fatal injury, to help
determine llie degree or atrociousness

in admitting the photographs, he did not receive a fair trial

ol' l1ie criine. to coiToborate state

under the federal and state constitutions and that this court

wi Inesses, to i 1 lustrate or explain

must remand for a new trial. We disagree because even if the

testimony, and to corroborate the

trial court abused its discretion in admitting the photographs,

state's theory of how and why the

we need not reverse or remand if this error was harmless.

homicide was committed.

See State v. Moorman, 154 Ariz. 578, 586, 744 P.2d 679,
687 (1987). In State v. At\\'ood, we reiterated that the test
for harmless error depends on whether there is a "reasonable

State v. Chapp/e, 135 Ariz. at 288, 660 P.2d at 1215 (citing
State v, Thomas, 110 Ariz. 120. 130, 515 R2d 865, 875
(1973)). In a case involving a challenge to the admission
of an inflammatory photograph of a close-up of the victims
torso and decomposcd head, the court declared the evidence
admissible "provided it has probative value apart from merely
illustrating the atrociousness of the crime."'' State v. Poland,
144 An-/.. 388, 401, 698 P.2d 183, 196 (1985) (citing State v.

Perea, 142 Ariz. 352, 690 P.2d 71, 76 (1984), q^rf, 476 U.S.
147,106 S.Ct.1749, 90 L.Ed.2d 123 (1986)). However, this
court has declared that it will reverse on appeal if "gruesome
evidence is admitted for the sole purpose of inflaming the
]wy:'Sfaiev. Gerlaugh, 134Ariz. 164,169, 654P.2d 800, 805

(1982) (citing State v. SteeJe, 120 Ariz. 462, 586 P.2d 1274
(1978)) (emphasis added).

probability" that had the error not been made, the verdict
would have been different. 171 Ariz. 576, 639, 832 P.2d 593,

656 (1992) (quoting Slate v. WiHiams, 133 Ariz. 220, 225,
650 P.2d 1202, 1207 (1982)) (quoting Stale v. McVay, 127
Ariz. 450, 453, 622 P.2d 9, 12 (1980)). "Error ... is harmless
if we can say, beyond a reasonable doubt, that the error did
not contribute to or affect the verdict." State v. Bible, 175
Ariz.at588,858P.2datll91 (citing State v. Lundstrom, 161

Ariz. 14J, 150 &n. 1 ], 776 P.2d 1067, 1076 &n. 11(1989)).
While it is impossible to assess the precise effect viewing the
most gruesome autopsy photographs might have had on the
jury, we have no difficulty concluding beyond a reasonable
doubt by reason of the overwhelming evidence against the
defendant, including, most importantly, his own uncocrccd

confession, that the jury would have found him guilty without
the photographs. We thus find the trial court's discreLionary

Applying the thrce-part test for admissibility of the

error in admitting the autopsy photographs harmless.

photographs, we first decide A*1273 *142 that these
photographs were relevant. As stated in Chappfe, "any

3. Illegal detention

photograph of the deceased in any murder case [is relevant

The Tucson Police stopped defendant at approximately

to assist a jury to understand an issue] because the fact and

1:45 a.m. in downtown Tucson because his car was losing

cause of death are always relevant in a murder prosecution.

oil and emitting smoke. After officers noticed that parts

135 At'w. at 288, 660 P.2d at 1215. Conversely, we have no

of defendant's body were smeared with blood and feces,

WESTLAW C;} 2H20 'I'lKirn'ion l-<uuk^r!'>, No (;l;-iitin la oti(jin;,il U.,'.-;. GovnrntriRni: Woiks.

A-8

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3
they questioned him about his appearance and eventually

and finding nothing, returned to his car where police

asked him to take them to the scene of the alleged

photographed him with his consent. Finding no probable

fight. Defendant voluntarily complied. Eventually, the police

cause lo arrest defendant, the police issued a repair order, and

photographed defendant with his permission. The detention

defendant left. At no time did the officers handcuff defendant

lasted approximately forty-five minutes, after which the

or advise hiin that he was under suspicion or arrest. Defendanl

police issued defendant a motor vehicle repair order and

voluntarily cooperated in all of the activities. The police had

released him. Defendant's statements and the photographs

reasonable suspicion to investigate defendant's appearance
and the story he told to explain it, and did not exceed the scope

were used against him at trial.

of that investigation. The forty-five minute duration was fully
Defendant argues that his questioning by police officers in the

justified, given the time to travel in search of the "fight scene,"

early morning hours of May 19, 1989, consliluled an illegal

to return, and to photograph defendant.

detention and that the trial court erred in denying his motion
to suppress evidence gathered during the detention. Under

If defendant's delenlion by the police amounted to custody,

these circumstances, defendant argues, he should have been

the police would liave been required to inform him of

given Miranda warnings. Because he received no warning,

his Miranda rights before commencing an interrogation.

he alleges that use at trial of statements made during the

Miranda v, Arizona. 384 U.S. 436,86 S.Ct. 1602, 16 L.Ed.2d

detention violated his rights under the Fifth and Fourteenth

694 (1966). The test used to determine if a person is in custody

Amendments of the United States Constitution and Article II,

under a Fillh Amendment analysis is whether the person's

section 24 of the Arizona Constitution.

freedom of movement is restricted to the extent it would
be tantamount to formal arrest. See Berkemer v. McCarty,

When police officers conduct an investigation, they may

468 US. 420, 440, 104 S.Ct. 3138, 3150, 82 L.Ed.2d 317

detain persons "under circumstances which would not justify

(1984) (holding that "comparatively non threatening character

an **1274 *143 arrest." State v. Agimre, 130 Ariz. 54,

of detentions [associated with ordinary traffic stops] explains

56, 633 P.2d 1047, 1049 (App.1981). Tn State v. WHey, this

the absence of any suggestion in our opinions that Terry stops

court instructed that a police officer may detain a person

aresubjccttothedictatesorA^/-a/7rfo"); Caltfof'ma v. Behe/er,

for investigative purposes if the ol'Hcer has a "reasonable,

463 U.S. 1121, 1123, 1125, 103 S.Ct.3517,3519, 3520,77

articulable suspicion that a particular person had committed,

L.Ed.2d 1275 (1983) (per curiam) (defendant was "neither

was committing, or was about to commit a crime. 144 Ariz.

taken into custody nor significantly deprived of his freedom

525, 530, 698 P.2d 1244, 1249 (19S5\oveiru!ed on other

of action" even though he accompanied police to station

groimds, 157 Ariz. 541, 760 P.2d 541 (1988). Here, Omcer

where he was questioned); State v. Castellano, 162 Ariz.

Batista was justified in initially stopping defendant on the

461, 462-63, 784 P.2d 287, 288-89 (1989) (under totality of

basis of the leaking oil and excessive smoke from his car.

circumstances, including fact thai noncoercive interrogation

When the officer also discovered that defendant's arms and

took place on public highway, questioning of defendant after

legs were smeared with blood, it was reasonable for him to

traffic stop was not custodial); State v. Stabler, 162Ariz. 370,

investigate the cause. See State v. Briefly, 109 Ariz. 310,

375, 783 P.2d 816, 821 (App. 1989) (defendant was subject of

316, 509 P.2d 203, 209 (1973) (finding police search of truck

traffic stop, police advised him that he was not free to go and

reasonable when, after stopping truck for malfunctioning

questioned him; nevertheless, court found that defendant was

headlight, police noticed driver had blood on his chest, arms,

not in custody and thus Miranda rights did not apply).

hands, and face); Patton v. UmtedSlales, 633 A.2d 800, 81415 (D.C.App.1993) (defendant, bleeding from a cut, flagged

Defendant argues that he was not free to leave afLer the

down police, who transported him to crime scene, then to

initial traffic stop and states that he was, in fad, in cuslody.

hospital, and later to police station where they interrogated

Tn support of his claim, defendant emphasixes thai he was

him with his consent; court held that police actions would "not

interrogated at length, transported to and from the alleged

exceed the bounds of a permissible Teny stop.").

fight scene in a police car and photographed, and that the
detention lasted forly-five minutes. In Bef'kemer, the Supreme

A detention of nearly forty-five minutes merita scrutiny.

Court warned that "[i]f a motorist who has been detained

During this period, defendant was questioned about his

pursuant to a traffic stop thereafter is subjected to treatment

appearance and condition, accompanied Officer Batista to the

that renders him 'in custody' for practical purposes, he will

supposed fight scene lo search for the alleged co-participanl,

WEiSTLAW © ,?U?,0 Thon'ison Rnutcru, Nn (;!;-)irn to ori(jinai U..S. Govi-mment Work^,

A-9

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep. 3
be entitled to the lull panoply of protections prescribed by

pointed out that the United States Supreme Courts Fourth

A^wirfa"468 U.S. at 440, 104 S.Ct. at3150.

Amendment analysis focuses on 'an objective assessment
of the officers actions in light of the facts and circumstances

**I275 A144 In this case, the interrogation and detention

confronting him at the time.' " 163 Ariz.293, 295, 787 P.2d

were noncoercive and driven in part by concern both for

1089, 1091 (App.1989) (quoting Maryland v. Macon, 472

defendant and the unidentified participant of the alleged fight.

U.S. 463,471, 105 S.Ct. 2778,2783, 86 L.Ed.2d 370 (1985));

Moreover, on this record, defendant's inleraclion with the

see aho Whren v. Umied Slates, 517 U.S. 806, —, 116

police was entirely cooperative. The iength of the delenLion

S.Cl. 1769, 1774, 135 T..Rd.2d 89 (1996) (eliminating pretext

seems unusual but appears to have been no more than thai

defense and holding that "subjeclive intentions play no role

necessary to accomplish a reasonable investigation of the

in ordinary, probable-cause Fourth Amendment analysis.").

unusual circumstances the officers encountered. To overturn
the trial court's denial of defendant's motion to suppress

Citing various slate court decisions, the Jeney court reasoned

requires that defendant prove clear and manifest error. See

that "[m]ost state courts have now adopted the view that

State v. Stcmley, 167 Ariz. 519, 523, 809 P,2d 944, 948

so long as the police do no more than they are objectively

(1991); State v. Harris, 131 Ariz. 488, 490, 642 P.2d 485,

authorized and legally permitted to do, their motives in

487 (App.1982). We find that the facts presented here do not

making an arrest are irrelevant and not subject to inquiry."
163 Ariz. at 296, 787 P.2d at 1092. The Jeney court expressly

support a finding of clear and manifest error.

endorsed the objective test for determining the reasonableness
Additionally, defendant's argument to suppress evidence

of an officers search. Id.

gathered during the detention seems pointless because the
most; damaging evidence resulting from the stop and delenLion

Under the facts presented here, the traffic warrants relied on

was defendant's soiled condition and general appearance. This

by the arresting onicet-s were valid, and, as was the case in

is nontestimonial evidence the officers observed in plain view.

Jeney, "[rjegardless of the officer's subjective intent, they had

Such evidence would have been admissible even if defendant

an objectively valid reason to make the arrest. There is no

had been in custody and had not been given his Miranda

suggestion that the traffic warrants were held or issued for any

warning. See State v. Lee, 184 Ariz. 230, 233, 908 P.2d 44,

purpose other than their execution for a traffic offense." Id.

47 (App.1995).

That police could have arrested defendant on the basis of the
search warrant expressly permitting them to seize defendant
for the purpose of taking hair and blood samples provides

4. Illegal arrest

further support for the state's position.

Defendant, claiming his arrest was illegal, asks the court

to find thai the trial judge erred in denying the motion to
**1276 *145 5. Illegal search warrant

suppress evidence thus obtained. The basis for the alleged

Hlegality is that the officers initially told defendant he was

Defendant contends that the police provided false or

being arrested on outstanding warrants for traffic citations

misleading statements to the judge as the basis for issuance of

when in reality they sought custody to interrogate defendant

the search warrant for defendant's house just after midnight

on the homicide. Thus, defendant argues, the arrest was illegal

on May 25, 1989. He asserts that the trial court erred when
it found only one of the affiant's statements to be false and

because it was merely a pretext,

concluding that the affidavit provided sufficient probable
The argument and accompanying analysis arc without merit.

cause to support the search warrant.

The case on which defendant primarily relies, Taglavore v.

Umfed States, 291 F.2d 262 (9th Cir.1961), is not dispositive

For evidence thus seized to be ruled inadmissible, a defendant

of the facts here. The warrant at issue in Taglavore was not

must prove by a preponderance of the evidence that the

preexisting, but rather stemmed from a IraHic citation issued

at'fiant's statement to Ihejudge was knowingly or intentionally

by a drug inspector on the basis of violations observed by the

false or was made in reckless disregard for the truth, and that

inspector the day before he made the defendant's arrest for a

the false statement was necessary to a finding of probable

suspected drug offense. Id. Both federal and Arizona case law

cause. See Franks v. Delmvare, 438 U.S. 154, 171-72, 98

clearly allow police to use valid, preexisting traffic warrants

S.Ct. 2674,2684-85,57 L.Ed.2d 667 (1978); State v. Buccim,

to effect an arrest, even if the arrest is made to investigate

167 Ariz. 550, 554, 810 P.2d 178, 182 (1991). To overturn a

other suspected crimes. In S/afe v. Jeney, the court of appeals

trial court's ruling on a defendant's motion to suppress, this

WESTLAW © 2U20 Thnirmnn l^juto]-';. No claim in uiif.jinyl U.S. GovocrHnoni: Wofk(.;.

A - 10

10

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3
court must find the trial court committed clear and manifest

decline to consider defendant's constitutional claims. We

error. See State v. GuJbrandson. 184 Ariz. 46, 57, 906 P.2d

observe simply that Rule 406 of the Arizona Rules of

579, 590 (1995) (citing State v. Stanley, 167 Ariz. 519, 523,

Evidence states:

809 P.2d 944, 948 (1991), cert. dewed, 518 U.S. 1022, 116
S.Ct. 2558, 135 L.Ed.2d 1076 (1996)).
[e]vidence of the habit of a person
Even if we consider nothing but defendant's version of how

or of the routine practice of an

he came lo be soiled, along with undisputed statements by the

organisation, whether corroborated or

affianl, we are left with the following information. Defendant,

not and regardless of the presence

covered with blood and feces, was stopped during the early

of eyewitnesses, is relevant to prove

murning hours not long after, and not far from, the place

that the conduct of the person or the

where the victim was last seen. Defendant's explanation for

organization on a particular occasion

his condition—that he had been in a fight nearby, where he

was in conformity with the habit or

had also damaged his car—was immediately investigated by

routine practice.

police, who found no corroborating evidence. The victims
pants, found near her body, were smeared inside and out with
feces. Two bloodied rocks were found near the victim. The
victim's body appeared to have been dragged from where she
was stripped and assaulted to where her body was found.
The officer who stopped defendant for the traffic violation
had seen defendant less than two hours earlier, wearing the
clothing he wore when he was stopped, except that when first
observed, neither defendant nor his clothing had been soiled,
and he had worn a pair of jeans. When Officer Batista later
stopped defendant for the traffic violation, defendant wore
only the spandex shorts, but no jeans. When the officer earlier
observed defendant, his car had not been smoking, but less
than two hours later it was smoking heavily.

A*U77 A 146 Arizona courts have held that habit evidence
is of a "semi-automatic and regular character." State v.

Mnngnfa, 137 Ariz. 69, 72, 668 P.2d 912, 915 (App.1983);
see also Slate v. Serna, 163 Ariz. 260, 266, 787 P.2d 1056,
1062 (1990), Courts have taken pains to distinguish between
habit evidence indicating a person's "regular response to a
repeated specific situation" and evidence introduced to show
character, generally describing one's predisposition. Bowe/f
v. Phoenix Newspapers, Inc., 152 Ariz. I, 4, 730 P.2d 178,

181 (App.'1985) (citing McCormick, La\v of Evidence § 162
(1954) and 2 Wigmore, Evidence § 375 (1979)), approved as
supplemented, 152 Ariz. 9, 730 P.2d 186 (1986). This court

On these facts, we conclude that defendant has failed to show
that the trial court commitled clear and manifest error in
denying his motion to suppress evidence obtained pursuant to
the search warrant.

has held Ihat evidence that an employer warned an employee

againsl speeding suggested that the employee habitually
drove rapidly between jobs. State v. Walden, 183 Ariz. 595,
613, 905 P.2d 974, 992 (1995), cert. dewed, 517 U.S. 1146,

116 S.Ct. 1444, 134 L.Ed.2d 564 (1996). Tn Bowel/, we
ruled that evidence a reporter always obtained the correct
spelling of names at the start of an interview was admissible

6. Habit Evidence
We also reject defendant's argument that the trial court erred
in admitting testimony regarding the victim s habit of never
accepting rides from strangers and seldom accepting rides
1'rom friends. Defendant complains that by admitting this
evidence he was denied a fair trial under the Fourteenth
Amendment of the United States Constitution and article IT,
section 24 of the Arizona Constitution.

to show that she had obtained the correct spelling of names
of mtcrviewees in a speciHc instance. 152 Ariz. at 4, 730 P.2d
at 181.
Habit evidence is admissible, while character evidence is
usually not. See BosweH, 152 Ariz. at 4,730 P.2d at 181; Rule
404, Ariz. R. Evid. Our standard of review is that "[a]bsent
a clear abuse of discretion" this court will not "second-guess

This court "will not consider an evidentiary theoiy when
it is advanced for the first time on appeal." Sfafe v. Bo/fon,

182 Ariz. 290, 304, 896 P.2d 830, 844 (1995) (citing
State v. Schaaf, 169 Ariz. 323, 332, 819 P.2d 909, 918

a trial court's ruling on the admissibility or relevance of
evidence." State v. R.odriguez, 186 Ariz. 240, 250, 921 P.2d

643, 653 (1996) (citing Amaya-Ruiz, 166 Any. at 167, 800
P.2datl275).

(1991)). At trial, defendant failed to raise objections on
constitLilional grounds. This court may therefore properly

WEiStLAW © 2020 Thomiion i'-i^ui.oi^. No olylin i'o orifjiny! t.J.'-;. Oovoi-nmont Worky,

A - 11

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3
The state argues that the trial court's admission of evidence

determined that "defense counsel is not required to argue

of the victim's habit of rarely accepting rides was probative

the absurd or impossible." Stale v. Roscoe, 145 Ar)7. 212,

to show that on the night of her murder she would not have

225, 700 P.2d I312, 1325 (1984). It was strategically sound

willingly accompanied defendant in his car, as he claimed,

for defense counsel to admit defendant's ''responsibility" For

and that instead she was kidnapped. Witnesses tesUHed

the victim's death, but to argue that under the law defendant

variously that the victim never took rides, that of twenly-

was guiity of only manslaughter or second degree murder.

five to thirty offers of rides from acquaintances, the victim

Rather than abandoning all defenses, defense counsel argued

accepted ten lo fifteen percent, IhaL oP'very frequent" offers,

against a finding of kidnapping and sexual assault in an effort

she would '"most often" decline, and Ihat of twenty to forty

to forestall a verdict of felony murder. Although defense

offers, she accepted none.

counsel was unsuccessful in this attempt, his representation
of defendant during the opening statement satisfied the

The trial coiu-l did nol abuse its discretion in determining

essential prerequisites of effective assistance. See Stnckkmd

that this was habit evidence. The cases cited by defendant to

v. Washington, 466 U.S. 668, 687, 104 S.Ct.2052, 2064, 80

support exclusion of the disputed evidence did not involve

L.lLd.2d 674 (1984); State v. Wahon, 159 Ariz. 571, 591-92,

parties acting in response to a specific, repeated situation. See

769P.2d 1017,1037-38 (1989), affd, 497U.S.639, HOS.Ct.

Mimgma, 137 Ariz. at 72, 668 P.2d at 915 (where evidence

3047, 111 L.Ed.2d511 (1990).

that victim frequently "bummed" drinks was inadmissible as
habit); State v. Williams^ 141 Ariz. 127, 130, 685 P.2d 764,
B. Sentencing Issues

767 (App.1984) (testimony that victim normally carried gun
when intoxicated was held inadmissible). In this case, the
state introduced ample evidence to show that the victim's
"scmi-automatic" and "regular" response to specific, repeated

offers of a ride was lo refuse. We find no error.

1. Independent review
We have performed a detailed independent review of
defendant's death sentence, as required by law. A.R.S. §
13-703.01. In conducting this review, we have examined
the entire record to weigh and consider the aggravating and
mitigating circumstances as set forth in A.R.S. sections 13—

7. Ineffective Assistance of Counsel
Defendant claims that he was denied effective assistance

703(F) and (G). Our review confirms the trial court's finding

of counsel in violation of the Sixth Amendment when trial

beyond a reasonable doubl that the aggravating factor of

counsel admitted guilt in front of the juiy in the opening

commission of the murder in an especially cruel manner under

statement. By so doing, defendant asserts that his counsel in

section 13~703(F)(6) was present and that the miligaling

effect abandoned all defenses. Defendant asks this court to

factor of immaturity under section 13-703(G)(5) was also
present. In addition, several nonstatulory mitigating factors

remand for a new trial.

were found to exist.
This court will not "resolve an ineffective assistance of
counsel claim on direct appeal unless the record clearly
indicates thai the claim is meritless." Stale v. Maiumna, 180

Ariz. 126, 133, 882 P.2d 933, 940 (1994) (citing Stale v.
Afwood, 171 An/, at 599, 832 P.2d at 616). We find this claim
entirely without merit and decide the issue against defendant.
Defendant's argument incorrectly states that by admilling
defendant's responsibility for the victim's death, his trial
counsel abandoned all defenses. Counsel had no choice but
to face facts established by defendant's own conduct and
statements. Defendant had confessed causing the victims
**1278 *147 death. The state possessed contemporancous
photographs of defendant covered in blood and feces. While
defendant suggests that "effective representation requires
that counsel pursue all available defenses," citing Sfa/e v.

Schulfz, 140 Ariz. 222, 681 P,2d 374 (1984), this court has

2. Aggravating factor of especially cruel circumstances
A court will not impose the death penalty unless it finds
at least one aggravating circumslance under A.R.S. section
l3-703(F) beyond a reasonable doubt. See State v. Brewer,

170 Ariz.486,500, 826 P.2d 783, 797 (1992). Here, the state
argued and the court found as one aggravating circumstance
that defendant murdered Ms. Reid in an especially cruel
manner. A.R.S. § 13—703(F)(6). Defendant challenges the
court's finding.
A finding of cruelty is warranted w1ien the defendant inflicts
on the victim mental anguish or physical abuse before the
victim's death. State v. Murray, 184 Ariz. 9, 37, 906 P.2d

542, 570 (1995) (quoting State v. Walton, 159 Ariz. 571, 586,
769 P.2d 1017, 1032 (1989)), affd, 497 U.S. 639, 110 S.Ct.

WESTLAW © ^.020 T[iorn;:>(fn i^-iiitoi^, No clHft'n i'o niic'.jifi<;ii I.J..S. CovcrmnoFiL Wufki

A - 12

•\?.

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3

3047, 111 L.V,d.2d 511 (1990). Such a finding depends on

fully discredil Iiis version o+ the events. We agree with

the sensations and anxieties experienced by the victim. Id.

the state that iL strains reason to suppose that defendant,

A finding of mental anguish depends on whether a victim

using two rocks, first knocked the victim senseless with fatal

experiences significant uncertainty as to [her] ultimate fate.

blows lo the head, after which her unconscious body was

Id. (citing Brewer, 170 Ariz. at 501, 826 P.2d at 798). Cruelly

slripped naked, beaten thoroughly, raped, and dragged to

is found when the victim [is] conscious at the time of the

its final resting place. Under this scenario, defendant must

offense in order to suffer pain and distress. When evidence

have carried the bloody rocks along and placed them next

of consciousness is inconclusive, a Finding of cruelty is

to the victim s body. Ironically, if this court were to accept.

unsupported." Amay'a-Huiz, 166 Ariz. al 177, 800 P.2d at

defendant's "equally plausible" hypothesis, it would most

1285 (citations omitted).

certainly then find the (F)(6) aggravating factor ofdepravily.
Moreover, defendant ignores his own admission that he beat

In its special verdict, the sentencing court found that the

her as she fought back and hit her with the rock when she

victim suH'ered Iremendous mental and physical pain when

would not stop yelling. This is clear evidence of conscious

she was forced into defendant's car trunk and transported

suffering.

to the desert where she was beaten, sexually assaulted,
and eventually murdered. Defendant did not confess to

We find defendant's version of events is not "equally [as]

kidnapping the victim, but did admit to beating her as

plausible" as the version accepted by the sentencing court.

she fought back, removing her clothes, having intercourse

The reasonable version is that provided by defendants

with her, and smashing her in the head with a rock when

confession and physical evidence at the scene: defendant beat

she would not stop yelling. The courts finding of the

and raped the victim in a brutal assault that lasted many

victim's abduction depended primarily on evidence of blood

minutes before he crushed her skull. The court did not err in

compatible with the victim (and not defendant) in the trunk of

finding the murder to be especially cruel beyond a reasonable

defendant's car. Physical evidence at the scene corroborated

doubt.

defendant's confession. The victim's clothing, including her
torn brassiere, was strewn in one area of the murder scene.

Photographs of the area vividly depict AA1279 *148 drag
marks running from this area to the spot where the victim
and the bloody rocks were found. The court also considered
significant to its finding of mental anguish that the victim

3. Mitigating circumstances
Defendant does not appeal the findings of the sentencing
judge concerning mitigating circumstances. We have
independently reviewed the record for all mitigating
circumstances in order to determine whether the Lrial Judge

defecated in and on her clothing.

properly sentenced defendant to death. See State v. Jones, 1 85
Because the medical examiner testifying at trial did not state

Ariz. 471,492,917P.2d 200, 221 (1996) (citing A.R.S. § 13-

definitively that the lethal blow to the victim's head occurred

703.01; Gulbrandson, I 84 Ariz. al 67, 906 P.2d at 600). Tn our

after her other injuries, defendant argues that there is no

review, we have been mindful that the sentencing judge must

evidence that the victim suffered prior to death. Defendant

consider "any aspect of the defendant's character or record

urges this court to find that, under the evidence admitted at
trial, the possibility that the victim was rendered unconscious
before suffering any other injuries is as plausible as the
scenario argued by the state. Defendant suggests that without
proof of the victim's conscious suffering, the court erred in

and any circumstance of the offense relevant to determining
whether the death penalty should be imposed." State v. Kilex,

175 Arix. 358, 373, 857 P.2d 1212, 1227 (1993) (internal
quotations omitted). We further note that the weight accorded
such evidence is within the sentencing judges discretion,
State v. Ramirez, 178 Ariz. 116, 131, 871 P.2d 237, 252

finding the aggravating factor of cruelty.

(1994), and that a defendant must prove the existence of any
To avoid a finding of physical pain and mental anguish,

mitigating circumstance by a preponderance of the evidence.

defendant suggests a scenario under which the victim was

See State v. West, 176 Ariz. 432, 449, 862 P.2d 192, 209

rendered unconscious before suffering any of her other

(1993).

injuries, including broken ribs, a broken jaw, and internal
injuries. Further., defendant asserts that this scenario is equally

At sentencing, defendant argued as statutoiy and nonstatutory

plausible to the sequence of events promoted by the state.

mitigating factors: (I) his dysfunctional family life and lack

Defendant's confession and physical evidence at the scene

of socialization; (2) a history of alcohol and drug abuse;

(3) his expressions of remorse; (4) his impaired capacity

WESTLAW © 2020 Thom;;nn t-.;nL^Kt-;.:,, Nf) clc.iirn fn oilcjlnal U.H. GovKiTiment Works.

A - 13

1:1

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260. 252 Ariz. Adv. Rep. 3
to appreciate the wrongfulness of his conduct, A.R.S. §

defendant provided evidence of remorse in his sentencing

13-703(G)(1); (5) his good behavior while incarcerated;

memorandum, (2) the state rebutted such evidence, and (3)

(6) his lack of adult convictions; (7) no prior record of

defendant told the judge at his sentencing hearing he was

violent tendencies; and (8) his age al the time of the

sony for killing the victim. The judge issued the sentence

murder, A.R.S. § 13~703(G)(5). The sentencing judge found

a brief time later that day. We have no reason to doubt

as a mitigating circumstance Ihat defendant was raised in

that the sentencing judge weighed defendant's remorse in his

a sub-normal home and had endured a disruptive middle

balancing ofmiligaling and aggravating circumstances.

childhood. The **1280 *149 judge concluded, however,
that defendant's longstanding history of substance abuse was

Additionally, we have expressly considered evidence of

not. a mitigating circumstance that significantly impaired his

defendant's remorse in our review and rcwcighing of the

ability to recognize the wrongfulness of his actions when he

aggravating and mitigating factors. We have no need to

took Ms. Reid'.s life,

remand lo the trial court for resentencing because we find no
error in the trial court's exclusion of mitigating evidence or in

Similarly, the judge was not persuaded that defendant had

not reflecting adequately the evidence presented. See A.R.S.

shown by a preponderance of the evidence that defendant

§ 13-703.01(0).

suffered from any emotional disorder impairing his ability
to recognize the wrongfulness of his actions. The judge

We agree with the sentencing Judge that defendant's

acknowledged defendant's emotional gl-owlh and personal

upbringing was subnormal. The record supports the judge's

improvement during incarceration. The judge did not find

conclusion that defendant's home life was sadly lacking

defendant's age of twenty-two to be mitigating but decided

and thai his mother's erratic behavior toward defendant

that defendant's emotional immaturity was inconsequential

inhibited his emotional development and social skills. We

in the circumstances of this case. Although the judge found

also find significant the conclusions of the psychologist

that defendant had no histoiy of felonies and no history of

lesli Fying on defendant's behalf at the sentencing hearing, who

propensity for acts of violence, he refused, in light of the

staled that defendant "did not suffer acute, dramatic abuse."

murder, to conclude that defendant posed no risk of future

Although we recognize defendant's upbringing as a mitigating

danger.

circumstance, we accord it little weight. While defendant's
inadequate upbringing may have contributed to his emotional

After weighing the mitigating circumstances both

immaturity and undeveloped humanitarian skills, we concur

individually and cumulatively against the aggravating

with defendant's statement at his sentencing hearing that

circumstance, the trial judge concluded the aggravator of

"people that have had as bad a background or worse haven t

especial cmdty outweighed all other circumstances and

killed. And T don't want what everyone has said about my

sentenced defendant to death.

background to be an excuse for what's happened."

In our independent rcwcighing of the aggravating and

The record demonstrates defendant's longtime substance

mitigating circumstances, we find the record provides no

abuse problems. We note, however, that defendant's general

basis on which to alter the sentencing judge's decision.

problems with substance abuse are not essential to our

We note that defendant argues thai because the sentencing

decision here. We therefore decline to conclude that defendant

Judge did not specifically discuss Lhe issue of remorse in

was impaired by alcohol **1281 *150 consumption to an

his special verdict, the judge did not consider remorse in

extent that St interfered with his "capacity to appreciate the

weighing the aggravating and mitigating circumstances, thus

wrongfulness of his conduct or to conform his conduct to the

violating defendant's rights under the Eighth and Fourteenth

requirements of the law." A.R.S. § 13—703(G)(1); see also

Amendments of the U.S. Constitution and under article

State v. Medmno, 185 Ariz. 192, 194, 914 P.2d 225, 227

II, sections 1, 4, 15, and 24 of the Arizona Constitution.

(1996) (citing Stokley, 182 Ariz. at 520, 898 P.2d at 469).

Defendant's argument lacks merit. We have held that a special
verdict is not defective because it "does not discuss all the

As discussed earlier, we find that defendant expressed

circumstances argued by the defense to be mitigating." State

remorse for the victim's death on more than one occasion.

v. Ape!/ (Michael), 176 Ariz. 349, 368, 861 P.2d 634, 653

At his sentencing hearing, defendant said, "I'm sony for

(1993) (citing State v. McCaH, 160 Ariz. 119, 125, 770 P.2d

putting everyone in this situation, I am sorry to the family for

1165, 1171 (1989)). The record clearly indicates that (1)

causing this death of Ms. Reid." To a presentence investigator,

WE-'STLAW ©2020 'I'ham^.in Rcutftrs, Mn ciaim tn m'Kjinyl U..S. (^uvoi't)tnont Workn,

A - 14

State v. Spreitz, 190 Ariz. 129 (-1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3
defendant remarked, "A lady died, thai really sucks. It was
senseless that she died." Tn his November 17, 1994 typed

The sentencing judge also acknowledged thai defendant

feller to the sentencing judge, defendant declared,

had experienced personal growth in prison and had caused
no problems, without specifically finding Ihis lo be a
mitigating factor. This court has previously rejected prelnal

I should be held accountabie....

and presentence good behavior during incarceration as a

Knowing I was the cause of Ms. Reid's

mitigating circumstance. See Stokley, 182 Ariz. at 524, 898

death is something I will have to live

P.2d at 473 (citing State v. Lopez, 175 Ariz. 407,416,857 P.2d

with. Believe me, it s not an easy thing

1261, 1270 (1993)). As we indicated in Lopez, a "defendant

that I can just forget about. It does not

would be expected to behave himself in county jail while

matter t1iat T am locked up. Even it I

awaiting [sentencing]." 175 Arix. at 416, 857 P.2d at 1270.

was free T would still think about her

Thus, we decline to find defendant's good behavior while in

and know if it wasn't for me, she would

the Pima County Jail a miligaling factor.

be alive today.
We agree that the record supports the sentencing judge's
findings that defendant had no previous adult felony
At the bottom of this letter, defendant added in his own hand,
"I am truly sorry I have caused Ms. Reid's death, Your Honor."

We recognize remorse cis a nonstatutory mitigating factor. See
Bfwer. 170 An/.. at 507, 826 P.2d at 804; see also State v.
Gallegos, 185 Ariz. 340, 345-46, 916 P.2d 1056, 1061-62
(\996);Sfaiev.Ga!!egos, 178 Ariz. 1,19, 870 P.2d 1097,1115
(1994); Siaie v. WaUace. 151 Ariz. 362, 364-65, 728 P.2d
232, 234-35 (1986). We find that since his arrest, defendant
has demonstrated remorse and accepted responsibility for Ms.
Reid's murder. However, defendant's remorse for his aclions

convictions, no prior record of acts of violence, and Lhat
defendant is capable of rehabilitation. We also find thai the
sentencing judge correctly rejected defendant's age oflwentytwo as a mitigating circumstance and properly found thai his
emotional immaturity was not a significant mitigating factor.

After examining the entire record and reweighing the

applicable aggravating and mitigating **1282 *151
factors, we find that the aggravating circumstance of especial
cruelty in defendant's murder of Ruby Rcid outweighs all
factors mitigating in favor ofleniency.

does little to counterbalance especial cruelty as a serious
aggravating circumstance in Ms. Reid's murder. According to
defendant's confession, when he left Ms. Reid in the desert
early the morning of May 19, 1989, he did not know whether
she was alive or dead. He confessed that he rode his bicycle
out to the murder site several days later to see if her body
was still there, hoping that it would not be, that she was still
alive. We would find defendant's remorse a more compelling
mitigating factor if, for example, il had prompted him to
report his actions toward Ms. Reid lo the authorities.

The sentencing judge found that defendant's ability to
appreciate the wrongfulness oFhis conduct was not impaired
on the night of the murder to any significant extent by
substance abuse, emotional disorders, situational stress, or by
a combination of these. Our review of the record convinces
us that the trial court's finding was proper. In fact, Dr. Plynn,
the forensic psychologist who testified for defendant at the
sentencing hearing, advised the court that defendant did not
suffer from an emotional disorder or any cognitive disorder

affecting his ability to distinguish right from wrong or to
conform his behavior to the law.

C. Other Issues
Defendant makes a number of additional arguments to
preserve them for future appeal, although each has previously
been considered and rejected by this court.
The death penalty is per se cruel and unusual punishment
in violation of the Eighth and Fourteenth Amendments. See
Gulbrandson, 184 Ariz. at 72-73, 906 P.2d at 605-06.
Execution by lethal injection is cruel and unusual punishment.
See Staie v. Spears, 184 Ariz. 277, 291, 908 P.2d 1062,1076

(1996).
Arizona's death penalty stalule is unconstitutional because
it requires the death penalty whenever an aggravating
circumstance and no mitigating circumstances are found. See
State v. Bolton, 182 Ariz. 290, 310, 896 R2d 830, 850 (1995).

Arizona's death penalty statute is unconstitutional because
the defendant does not have the right to dcath-quatify the

W^STLAW © 2020 I'hnrnyon F'<OU(^)'R, No c,}wm [o oricjiruil U.S, c-lovGmrneni Wntki;.

A - 15

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep.3
senlencing judge. See Gulbrandson, 184 Ariz, at 11, 906 P.2d
at 605.

Caucasian, in violation of the Eighth and Fourteenth
Amendments of the United Stales Conytitution and article II,
sections 13 and 15 of the Arizona Constitution. See State v.

Arizona's death penalty statute fails to provide guidance to
the sentencing court. See Spears, 184 Ariz. at 291, 908 P.2d
at 1076.

StokJey, 182 Ariz. at 5 J 6, 898 P.2d at 465.
The trial court improperly considered a presentence report
that contained statements from the victim's sister regarding

Arizona's death penalty statute violates the Lighth
Amendment by requiring defendants to prove that the))' lives
should be spared. See Gulbrandson, 184 Ariz. at 72, 906 P.2d
at 605.

her opinion as to the proper sentence. See Spears, 184 Ariz.

at 292, 908 P.2d at 1077.
The presentence report contained inaccurate and unreliable
hearsay information. See Gvlhmndson, 184 Ariz. at 66—67,

Arizona's death penalty statute violates the Eighth and
Fourteenth Amendments and article II, sections 4 and 15 of
the Arizona Constitution because it does not require multiple
mitigating factors to be considered cumulatively or require
the trial court to make specific findings as to each mitigating
factor. See Apeif, 176 Ariz. at 368, 861 P.2d at 653.

906 P.2d at 599-600.
Defendant's rights to due process and a fair and reliable capital
sentencing proceeding were violated by the Joint sentencing
hearing on both the capital and noncapilal of'fenses. See id.
A proportionality review of defendant's death sentence is

Arizona's death penalty statute violates the Eighth
Amendment because it does not sufficiently channel the
sentencer's discretion. See State v. Roscoe, 184Ariz.484,501,

constitutionally required. See id al 73, 906 P.2d at 606.
We continue to reject these arguments in this case.

910 R2d 635, 652 (1996).
Arizona's death penalty statute is constiluLionally defective

** 1283 * 152 DISPOSITION

because it fails to require the stale lo prove that death is
appropriate. See Spears, 184 M'\'/.. at 291, 908 P.2d at 1076.

We have conducted an independent review of defendant's
aggravating and mitigating circumstances as required by

The Arizona death penalty statute is unconstitutional because

A.R.S. section 13-703.01 and find that the mitigating

the aggravating factor of cruel, heinous or dcpravcd is vague

circumstances cumulativcly are not sufficiently SLlbstanlSaI to

and fails to perform its necessary narrowing function under

warrant leniency in relation to the aggravating circumstance

the Eighth and Fourteenth Amendments. See Gulbrandson,

of cruelty. A.R.S. § 13-703(F)(6). We affn-m clefendant's

184 Ariz. at 72, 906 P.2d at 605.

convictions and sentences.

The Arizona statutory scheme for consideration of
mitigating evidence is unconstitutional because il limits lull

ZLAKET, C.J., and MOETJ.ER and MARTONE, JJ., concur.

consideration of that evidence. See Spears, 184 Arix.at 291,

NOTE: Justice STANLEY G. FELDMAN recused and did

908P.2datl076.

not participate in the determination of this matter.
The prosecutor's discretion to seek the death penalty is

All Citations

unconstitutional because it lacks standards. See id,
The death sentence has been applied discriminatorily in

190 Ariz. 129, 945 P.2d 1260, 252 Any.. Adv. Rep. 3

Arizona against poor males whose victims have been

Footnotes

WESTLAW CO '/W.(} Thoniiiun !<entefrj. No cl.iim i'o oiiijinal U.S. Govutnm^nl, Work?;.

A - 16

-IR

State v. Spreitz, 190 Ariz. 129 (1997)
945 P.2d 1260, 252 Ariz. Adv. Rep. 3

1 The Sixth Amendment of the United States Constitution reads: "In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial...." Arizona Constitution article 2, section 24 requires: "In criminal
prosecutions, the accused shall have the right... to have a speedy public trial...."

2 The court concluded, "by failing to notify the court of the impending passage of 1 50 days prior to such passage,
[defendant] has violated his obligations under Rule 8 of the Arizona Rules of Criminal Procedure." Because
the defendant was in custody, the correct time limit applicable under Rule 8.2(b) was 90 days, not 150 days.
3 In State v. Tucker, this court suggested that Rule 8.1 (d) applies only to cases where, as here, "a pretrial
motion or hearing causes a trial to occur later than the expiration of the original Rule 8.2 time limit." 133Ariz.
at 308 n. 5, 651 P.2d at 363 n. 5.
4 Rule 403 requires that "[a]lthough relevant, evidence may be excluded if its probative value is substantially
outweighed by the danger of unfair prejudice, confusion of the issues, or misleading the jury, or by
considerations of undue delay, waste of time, or needless presentation of cumulative evidence."
5 In Poland, the probative value of the photograph was in the fact that the victim could be identified partly by
the uniform he had been wearing in the photograph, that the photograph helped to establish that the medical
examiner had difficulty in determining a cause of death, and that the victim's stopped watch was visible,
aiding the investigation to deduce the time of the murder. State v. Poland, 144Ariz. 388,401, 698 P.2d 183,

196(1985).

End of Document © 2020 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW «"> ?.(}/;(} Thrjtti:;on Kciiteru, Nn cl.iim lo otKfin;:il U..S. (•:iovr;mnu;ni WO!I<;L 17

A - 17

.

-

.

PRESENTENCE REPORT
THE ADULT PROBATION DEPARTMENT OF
THE SUPERIOR COURT IN PIMA COUNTY

.- .·-

j

Probation Officer: Paula R. Schlecht
Case No: CR-27745

'

Sentencing Judge: William N. Sherrill
Sentencing Date:. 1 2/21 /94
Div: XVIII ·

PERSONAL DATA
Name
Address
Phone
AKA

ID Marks

SPREITZ, Christopher John
Pima County Jail
Tucson, Arizona 85713
None
Msg. None
Christopher John Jackson (True
Name); C. J. Curtis; C. J. Spreitz;
Chris Curtis; Chris Sprites; C. J.
Sprites; Chris Jackson; C. J. Jackson;
Chris J. Jackson; Chris John Jackson
Scars on right arm, right leg, and left
arm

Employer

None

Occupation

None

Marital
Children
Education

Single

Ethnic
Gender
Eyes
B
tizen of
irth lace
SN
Bl NO
Driver's Lie#

w

Ht
Wt
Hair
Age

6'0"
200
Brown.
28

M
Brown
6/10/66; 6/10/65
USA
Santa Barbara, CA
660-71-6314; 560-71-6314
641 054 KA6
None

Military History
Branch
Entry Date
Discharge Date/Type

None

1
11 + GED

ARREST DATA
Arrest Date
5/24/89
!near. Date
5/25/89
Arrest Agency TPD
Agency#
89-05-22-0230

lndictr;";nt Date
6/2/89
In Custody Without Bond
Rel. Date/Status
Days Jail This Arrest 2,036 (5 yrs 7 mos 1 day)
Guilty By/Date
Jury 8/1 8/94
Defense Atty Marshall Tandy, Apptd, No Fee
Prosecutor
Kathleen Mayer

Codefendants/Dispositions - None

FAMILY DATA
Spouse/Relatives/Children
Name
Relation
Raymond Jackson
Father
S/Mother
Linda Jackson
Susan Mendenhall
Mother
Kathryn Spreitz
H/Sister
Gretchen Jaeger
Sister
Melissa Blanton
Daughter
Tammy Blanton
Ex-G/Friend

Age
48
40+
46
12
24
6
Unk

Address
1548 McCoy Ave., San Jose, CA
"

840 Via Covello, Santa Barbara, CA
"

8245 Auberry Dr., Elk Grove, CA
St. Joseph, Ml
"

Phone
(408) 370-1537
"
(805) 964-9123
"
(91 6) 682-51 68
Unknown
"

M-E
F:\USERS\OFFICERS\SCHLECPR'-.:!7745 _01.FAC-112894- ! I :53

B-1

*SEE ADDITIONAL PAGE(S) OF FACE SHEET

'r:

•. ...

---

...-

CASE NO.

DATE

CR-27745

5/18/89
through
5/1 9/89

'

Count One, First Degree Murder.
ARS 13-1105; 13-703.

•

•
•

•
•
r.

•

•
•

PENALTY:

•

•
•
•
•

•

F:\USERS\OFFJCERS\.SCHLECPR\27745_0! .FAC-112894-! I:53

NCIC

F1

0999

F2

1199

F2

1099

7 years imprisonment (min. 5.25 yrs;
max. 14 yrs)
Up to $150,000 fine available (plus 37%
surcharge)
$1 00 Victim Compensation F~nd
$1 2 fee per ARS 1 2-11 6 for time
payments
The defendant must serve sentence
imposed
Probation is not available
Count Three, Kidnapping.
Nondangerous; Nonrepetitive.
ARS 13-1304(A)(3) and (8).

5/18/89
through
5/19/89

CLASS

Death or life imprisonment without the
possibility of release until 25 calendar
years have been served
Up to $150,000 fine available (plus 37%
surcharge)
$1 00 Victim Compensation Fund
$1 2 fee per ARS 1 2-11 6 for time
payments
Count Two, Sexual Assault.
Nondangerou~; Nonrepetitive.
ARS 13-1406(A) and (B).

5/18/89
through
5/19/89

PENALTY:

Sentencing Judge: William N. Sherrill
Sentencing Date:
1 2/21 /94

'

OFFENSE/ARS CODE

•

PENALTY:

CR-27745

' ·~

FACE SHEET PAGE 2

Defendant: SPREITZ, Christopher John
Case No: CR-27745

CR-27745

.:,

-_, __

7 years imprisonment (min. 5.25 yrs;
max. 14 yrs)
Up to 7 years probation available
Up to $1 50,000 fine available (plus 37 %
surcharge)
$100 Victim Compensation Fund
$12 fee per ARS 12-116 for time
payments
The defendant must serve 1 /2 of sentence
before release

B-2

M-E

*SEE ADDITIONAL PAGE(S) OF FACE SHEET

"

-

-~

FACE SHEET PAGE 3

Defendant: SPREITZ, Christopher John
Case No: CR-27745

CASE NO.

DATE

PLEA AGREEMENT:

Sentencing Judge: William N. Sherrill
Sentencing Date:
1 2/21 /94

'

OFFENSE/ARS CODE

CLASS

NCIC

None. The defendant was found guilty by
a iury.
Pursuant to ARS 1 3-3821, the defendant
shall register in the county of his
residence.

F:\USERS\OFFICERS\SCHLECPR\27745 _01.FAC-J 12894-! I :53

B-3

*SEE ADDITIONAL PAGE(S) OF FACE SHEET

.
•

. ...

Defendant: SPREITZ, Christopher John
Case No: CR-27745

Page 2 •

PRESENTENCE REPORT - PART ONE
GENERAL STATEMENT:
As the Court is the trial Court of record and is fully conversant with the
facts surrounding this case, only a brief synopsis of the offense will be provided.
STATEMENT OF OFFENSE:
Offense: During the late evening hours of May 18, 1989 through the
early morning hours of May 19, 1989, the defendant came in contact with the
female victim. The defendant drove the victim to a desert area near Silverbell and
Camino Del Cerro, Tucson, Arizona, and engaged in sexual intercourse with the
victim, who did not consent to this activity and began to scream. The defendant
beat the victim over the head with a rock. He dragged the victim a short distance
and left the body there. According to available documentation, the victim died of
blunt force trauma to the head.
On May 19, 1989, at approximately 12:30 a.m., a Tucson Police
Department (TPD) officer heard the defendant's vehicle's squealing tires at a
convenience market in the area of 1st Avenue and Broadway Boulevard. He was
observed talking to a black male on a bicycle at that location. The officer
documented his observations and left.
At approximately 1 :45 a.m., the same officer observed the defendant's
ve~.icle in lhe Area of Church /.venue and Broadway Boulevard. The vehicle was
emanating fumes from the exhaust and made a traffic stop. Upon making contact
with the defendant, he observed he had blood and fecal matter on his hands, arms
and the front of his clothing, along with concentrated amounts on his legs and
shoes. The officer questioned the defendant as to how the blood and fecal matter
got on his person. The defendant reported he made an ethnic remark to the black
male, whom the officer had observed him with earlier, and they fought, which
caused the blood to be on his person. The officer noted the defendant had not
been beaten up nor did he have cuts, scratches, or anything else which would
collaborate his story.
Other police officers responded to the area and questioned the defendant
as to the blood and fecal matter. The defendant drove the officers to the area of
Broadway and 1-10, where he indicated the fight had taken place. He also stated it
was the location he "busted out" his oil pan; however, there was no evidence at
the scene. At this time, officers knew a crime had been committed; however, they
did not know the location or where a victim may be. Officers documented their
observations, the state the defendant was in, and took photographs of the
defendant and his vehicle. The defendant was issued a citation for Excessive
Smoke and Released.

M·E

F: \USERS\OFFICERSl.SCHLECPR\27745 _01.PSR- I 12894-12:34

B-4

.

Defendant: SPREITZ, Christopher John
Case No: CR-27745

-··

.'

...

':

~-

..

..
..... ...
Page 3
.

.

During the morning hours of May 22, 1989, a woman riding horseback
discovered the victim's body lying in the desert location where she had been left.
The woman rode to a nearby house where she reported the finding to authorities.
Homicide detectives arrived at the scene and began their investigation. On
May 24, 1989, the detectives made contact with the uniformed officers who
initially stopped the defendant on May 18. Officers secured a search warrant for
the defendant's residence and ran a records check on his name. Several
outstanding traffic warrants for misdemeanor offenses were located, and the
defendant was initially placed under arrest for those offenses.
When detectives questioned the defendant about being stopped on
May 19, 1989, he admitted his involvement in the instant offense. He told the
detective the victim was not known to him prior to May 19, 1989. He had picked
her up at a local convenience market in the area of Grant Road and Miracle Mile.
He drove her to the area where the body was found and pulled into the desert
area. He indicated the victim wanted to drink and party. They exited the vehicle
and, when she discovered he had nothing in the car to drink, she began to yell at
him. At that time, he struck her several times with his fist to make her be quiet.
She fell to the ground where he engaged in sexual intercourse with her. Because
the victim would not stop screaming, he picked up a rock and beat her to death.
Following questioning, the defendant was transported to the Pima County
Jail where he was booked. He has remained in custody in the Pima County Jail
since May 25, 1989. He was held in lieu of $1,000,000 bond until the jury verdict
was returned and hP, was held without bond.
Defendant's Statement: The defendant reported he and his roommate
had been drinking the night prior to the instant offense. There was a bar which
was selling beer for five cents each. He lost count and does not know how many
he consumed. His roommate, on the other hand, was getting sick and they
returned to their apartment. The defendant stated he made a few telephone calls
to a female friend because he wanted to see her. On his way to her residence, he
stopped for more beer, and he was "feeling no pain." It was then that he
encountered the black male who was observed by the officer. The defendant gave
the black male a ride, and they used cocaine together. Reportedly, they did a
"couple quick lines," then the defendant left for his friend's residence. When he
got to her residence, she would not answer the door. The defendant stated he
was drunk and obnoxious, and remembered sitting there for a minute or two. He
got back in his vehicle and drove down the road, which was when he saw the
victim sitting on a curb.
The defendant stated he does not know if he stopped at the convenience
market for gas or beer but he ended up talking with the victim. He recalled she
seemed like she wanted something to drink. He opened the car door for her, as it
was hard to open, and they left. They ended up in the desert, where they engaged

F:I USER510FFICERS\SCHLECPR\2TI45 _0 l. PSR-112894- J2:34

B-5

M-E

"

''. ·• ·t-. ...

Defendant: SPREITZ, Christopher John
Case No: CR-27745

'·-~ --~:._.

Page 4

>~-_-:)..:~'. ·:f·)~..;: -

...

in "heavy petting." He stated he has a difficult time remembering the exact
sequence of events but that she exited the car. He recalled his pants and her top
were left in the car. The victim began to yell and he began hitting her. She was
pulling his hair and, "I just wanted her to stop. I hit her. I don't know if a rock
was used or not at this time." He recalled the yelling stopped and she died. "I
knew I had to get out of there because something went wrong. A lot of things
happened real quick. A lot to remember or even hard to remember." He recalled
he left the area, and the next thing he knew he was getting pulled over by law
enforcement officers.
The defendant recalled the state he was in was "real weird." He was
"up and down ... my brain down and my body up. In a fog ... but not. The
adrenalin was flowing and I was all pumped up but my brain wasn't working. I
was not sure what I perceived happening happened."
The defendant stated when officers first questioned him about the
occurrences, he was scared and not thinking clearly. "I was not sure what
transpired ... I said I had a fight with the black guy. Things were foggy." He
recalled taking officers to an area west of some train tracks and stated they let him
go after they took pictures of him. He recalled thinking he just needed to "crash,
because this couldn't be real. I just wanted it to go away. It could not have
happened. I was a private duty nu;se, I increase life not take a life."
The defendant now realizes "a lady died, that really sucks. It was
senseless that she disd."
Victim's Impact Statement: The victim's younger sister has written a
lengthy letter to the Court. During telephone conversations with her, she revealed
she has suffered psychological, emotional, and physical traumas from the loss of
her sister. She is currently unable to hold a job, which has hurt her career. She
recalls the instant offense has also "cost me the most precious thing I ever had;
my marriage of twelve years to a wonderful man, of which I am devastated over.
believe he could no longer handle my depression; crying and terrible nightmares.
Sometimes I find myself sitting in a corner and crying and don't know why. I've
had terrible, terrible nightmares, ones which I've had to express to my therapist to
make sure I am sane."
The victim's sister stated she has to sell her home and, at the age of 42,
start her life over again. "I really don't wish to go through all of that again, I've
raised my two children, and now I'm all alone, completely, as you see this
'monster' didn't just take a gun to my sister's head; no, he tortured my one and
only sister, only family I had, and the best friend I ever had. We were extremely
close as our mother ran off and left us with our father, who at the age of twelve
(me) my father died of cancer. We had five of the worst stepmothers Cinderella

F:\USERS\OFF!CERS\SCHLECPR \1n45_Ol .?SR-112894-12:34

B-6

M-E

\•

Defendant: SPREITZ, Christopher John
Case No: CR-27745

-.

,

.. ,; ····---_· -.'·.

.

'·-·-.

.,,
'•. '-•

'

~

Page 5

'
could only imagine. The last of whom remains in my memory most and was very
emotionally disturbing to both of us girls. Which only made us closer."
In closing the victim stated her sister "never made it to forty years old,
and my wish is that Mr. Spreitz does not either. He took all of this lovely person
away from me - I'm totally without family and this hurts very deeply. He also took
a vibrant, wonderful, intelligent, lively human being away from not only me but the
world as well, he had no right to do so. This senseless, inhumane act is what he
has done."
The victim's sister is currently in financial upheaval and requests
reimbursement for all funeral expenses, including the headstone and grave site.
She requests $3,928.21, documents were presented to the County Attorney's
Office shortly after her sister's burial.
SOCIAL HISTORY:
The defendant was born in Santa Barbara, California. His father works as
middle management for a company which manufactures computer hard drives. His
mother has worked in the printing field and has also earned a master's degree.
Currently, she is unemployed and looking for work. The defendant has one
younger sister.
The defendant's parents divorced when he was approximately three
years old. It appears he did not h<::ve contact with his father until the defendant
was i 8 year:; old. Soon after the divorce en individual, who later became the
defendant's stepfather, moved in with them. His mother and stepfather were
married when the defendant was approximately eight years old. His stepfather
was a mechanic for a major commercial airline company.
The defendant reported a hectic lifestyle. The defendant and his sister
had to fend for themselves due to his mother and stepfather's work schedules and
his mother's college attendance. As he grew up, there was less communication
between family members. He stated most of the com-munication within the family
was by "yelling." Discipline was usually administered by spankings by his
stepfather or hitting by his mother. By the time he was approximately 12 years
old, the corporal punishment ceased, and he was disciplined by "groundings."
The defendant's half-sister was born in 1982. By this time, he was at
home as little as possible. Also during this period of time, his sister left home to
reside with their father.
When the defendant became 17 years old, he was "kicked out" of the
family home. The formal reason for this action was his mother's automobile
insurance would be cancelled if he was still living in the house. This action was

F:\USERS\OFF!CERS\.SCHLECPR\27745 _0 l. PSR-112894-12:34

B-7

M-E

..

...

-

.

- Defendant: SPREITZ, Christopher John
Case No: CR-27745

Page 6 · ·

going to be taken by the insurance company because of the numerous traffic
citations the defendant had received. In reflection, the defendant stated he should ·
have gone to military school, as his mother had always threatened him, or he
should have gone to live with his father.
The defendant reported he had a "pretty good relationship" with his
mother. She is a "hot and cold" type of mother. For a period of time, they had
contact approximately once per week, but there were also times when they would
not have any contact for six months. He has maintained contact on a weekly
basis with his stepfather. The stepfather considers the defendant as his son.
Reportedly, the defendant has gotten to know his father over the past
five years. He stated his father is not the "jerk" his mother portrayed him as
being. The father afforded the defendant "great support" for the past five years.
The defendant reported he got along with classmates at school. In high
school, he had two main groups of friends: one was the "guys" that were on the
football team with him, which kept him out of trouble, and the other were the
individuals he lived near, which got him into drinking and abusing drugs. These
two factions placed him on a constant "see-saw." During his formative years, he
reported he had a bad self-image. Drinking alcohol and "doing drugs" made him
feel better about himself. He reported the more he "drank and drugged," the
"cooler" he thought he was. After completion of the football season, during his
senior year, reportedly things started going downhill, which was due to not having
the football team as a "stabilizing" influence. Since his incarceration, most of his
friends from tne team have shown support and how much he means to them. T!1e
defendant reported "partying" was his greatest interest while growing up. He
always tried to stay away from home an entire weekend, if he could manage it.
The defendant reported "getting through school was terrible." He started
his education by going to a strict, private Christian school. He transferred to public
school for the sixth grade. At that time, he was so far ahead, he coasted through
the sixth grade and part of the seventh. By the time he was finally tested and
placed in the correct class, he had forgotten how to study. He also stated, since
he was responsible for himself from the seventh grade, he seldom ate breakfast or
lunch; consequently, he constantly fell sleep in class. Therefore, not trying to
succeed became very easy. He completed the 11th grade but dropped out of
school entirely when he was kicked out of the family home at age seventeen.
During his incarceration, he has obtained his GED and has become interested in
learning again.
When he was kicked out of his family residence and upon dropping out of
high school, the defendant obtained employment and slept in his truck for about
five months. During that period of time, he saved enough money to get an
apartment with a friend.

F :\USERS\OFFICERS\SCHLECPR\2n45 _0 I. PSR-1 12894-12:34

B-8

•

Defendant: SPRElTZ, Christopher John
Case No: CR-27745

The defendant has never been married but does have a daughter, who is
approximately six years old. Her mother and the defendant started fighting long
before she was born, and mother and daughter relocated to Missouri. Prior to the
defendant's arrest for the instant offense, he and his daughter's mother were
working at attempting a friendship; however, since his incarceration, he has lost all
contact with his daughter and her mother.
During the defendant's incarceration for the instant offense, he has come
to realize he had an alcohol and drug problem. This revelation came to him after a
dream from which he woke up in a cold sweat and his fingernails were deeply
pressed into the palms of his hands. The dream was of him holding a beer mug
and friends trying to take it away from him since he would not give up the mug.
The defendant has been writing to an uncle, who is a psychiatrist, and
the letters have helped. Reportedly, prior to these communications, he was
impulsive; however, now he believes he is able to thoroughly think out situations.
The defendant would like to seek further education in nutrition and sports
science. "If I vvas ever released, I would like to be a health and fitness
consultant." He wants to contact the University of California at Irvine or California
State University at Haywood to obtain textbooks. He is not worried about
obtaining a degree at this time but would like to just work toward this end.
Current Life Situation: The defendant has resided in the Pima County Jail
since May 25, 1989. Reportedly, when he was first incarcerated, he was real
despondent and ~.is feeling was, "Let's just get it over with." Since then, he has
been reading cind reported the librarian at the jail finds him many books to read.
He has been studying health and nutrition and he has redirected his goals. His
plans for the future, although limited, are to study health and fitness. He would
like to be certified as a fitness trainer. In 1990, he obtained his GED through the
Pima County Jail. He has been working in the PALS lab, helping the teacher as
often as possible, and attending as often as possible. Once per week he is able to
work with the computer.
During the last five years, the defendant has attended church off and on.
He has his own sense of spirituality and does not feel he needs an organized
church service. He goes out to the yard when able and has spent time working on
his penmanship.
Reportedly, the defendant "now have my head straight" and wants to
keep it straight. He stated prior to going to jail, the only thing that concerned him
was "partying," consuming alcohol and drugs. During his incarceration, he has
learned about alcoholism and the effects of drugs. He can only better himself
now. He is helping make something better of this situation. He does not know
why, but there is a reason this situation occurred. He would like to do the rest of

F'.\USERS\OFF!CERS\SCHLECPR\2n45_Ol .PSR-112894- I2:40

B-9

M-E

. ... ..

•

.

I

~

.

.--· .·'· .· "'{·.··
~::·

·~--~·-·~··.

.
·,

~-

- .'

.;:,.~-- ,...;

-~

.

Defendant: SPREITZ, Christopher John
Case No: CR-27745

Page 8

~-,

his time "straight." He does not want to take even prescribed medication because,
in his opinion, alcohol and drugs are "what got me in here."
During the five years of his incarceration, he has spent a total of seven
days in lockdown. He recalled receiving one write-up when he threw cold water at
an inmate while in the shower. His second write-up was that his cellmate was a
"slob," who left things on the defendant's bed. Then, when the defendant asked
him to clean it up, the cellmate began to yell. The defendant yelled back, and the
correctional officer believed there might be a fight, so they were both taken to
lockdown.
The defendant has contact with his family a minimum of once per week.
They visit as often as possible;-however, since they live in California, it is difficult
for them to make the trip often.
The defendant stated his plans for prison include obtaining an education.
"Do whatever I can to get skills. Continue to improve myself." He expressed a
desire to stay fit physically and mentally, and he expressed a desire to write a book
or article, in addition to speaking to children from closed circuit television. He
would like to explain to children the effects of alcohol and drugs. He would like to
explain this is not the kind of life to lead and not to waste opportunities. "I wasted
them all."
The defendant would like the Judge to know he is not afraid to die, "If
that's what it's going to take to keep people out of this ... but I don't know. If I
can keep one person out, then that would be good. Maybe 25 years would be
best so that I could do something. To have more impact on someone ... to help,
the best thing possible."
A psychological evaluation was prepared to assist the Court in a
sentencing disposition at the request of the_ defense. It was the sole purpose of
the evaluator to assess the defendant for mitigating circumstances. The appended
12-page report included statements from many of the defendant's family members,
who consistently describe the defendant as a person who virtually never had
successes in developing an emotionally close relationship with a woman. The
doctor also noted due to available information, the defendant had a long-standing
problem with alcohol, which probably reached a level of physical dependence.
What is unclear is the defendant's state of mind on or about the time of the
offense. It was determined from the defendant's Minnesota Multiphasic
Personality Inventory (MMPI) that his code type tends to have angry, resentful
qualities and trouble modulating and expressing those tendencies. They view the
world as hostile and other people as rejecting and unreliable. In the defendant's
case, "this is aggravated by an elevation on the scale of ruminative anxiety.
People with an elevation on this scale tend to be unable to get insults and ego
injuries out of their heads. The disturbing thoughts roll over and over in their

F:\USERS\OFFIC ERS\SCHLECPR\2n45 _01. PSR-112894-12:40

B - 10

M-E

..• . .. • .
. ·--·- :-~:·'-f.~~--'. ::; , . ---~ ··::··~-'.:.:~t.~;.~I---~-~-f~:;~-~·:·.~~~~~,-:i~:'.;i-~::~:~~~-~-::·_
-.

.,

. " • . _;$ . •

..

. '·

Defendant: SPREITZ, Christopher John
Case No: CR-27745

·

Page 9:

··:·

'

minds. Mr. Spreitz probably used drugs, alcohol, and distracting activities as
means of shutting off these disturbing thoughts."
It was the clinical psychologist's opinion that possible mitigating factors
include the defendant's alcohol abuse and the pathogenic, emotionally neglectful
home environment in which he was raised. Apparently, the psychologist will
testify at the defendant's mitigation hearing set forth on November 28, 1994,
where he will, in all likelihood, discuss additional aspects of his report.
CRIMINAL HISTORY:
Information under this heading is contained in PART TWO of this report
and is for disclosure only to th!'l Court, the prosecutor, the defense attorney, and
other authorized criminal justice agencies, per ARS 13-4425.
EVALUATION:
Evaluative Summary: It appears the defendant became involved in the
senseless commission of the instant offense due to his alcohol and drug abuse.
After five years in custody, he now admits his substance abuse problem; however,
this does not condone his involvement in the offense. It is unfortunate the victim
died before the defendant had his revelation. Unfortunately, a sentence of natural
life is not available to the Court, who must now decide whether to sentence the
defendant to death or a minimum of 25 years.
Third Party Risk Assessment: In consideration of the defendant's
involvement in the commission of the instant offense, he poses a reasonably
foreseeable risk to the community and to recidivate.
Aggravation and Mitigation: In aggravation, regarding Count One, First
Degree Murder, pursuant to ARS 13-703(F), the Court may wish to consider the
defendant committed the offense in an especially heinous, cruel or depraved
manner. Regarding Counts Two and Three, the Court may wish to consider the
alcohol and drug consumption, the defendant's prior arrest record, and the trauma
to the victim's family.
In mitigation, regarding Count One, the Court may wish to consider the
defendant's age. Regarding Counts Two and Three, the Court may wish to
consider additional mitigating factors as the defendant's dysfunctional childhood,
his stated remorse, his realization of alcoholism and drug abuse, his good
performance while in the Pima County Jail, and his educational endeavors.

F:\USERS\OFFJCERS..SCHLECPR\2n45_Ol .PSR-l 12894-12:40

B - 11

M-E

''\

.-f:

•

....... -:-; .• ·~ ! '

···-·

:'

··Page 10:

Defendant: SPREITZ, Christopher John
Case No: CR-27745

ASSESSMENTS

VICTIM COMPENSATION FUND $100 per Felony and F6/M 1 Count

$

VICTIM COMPENSATION FUND $25 per Misdemeanor Count

$_ _ _ __

ARS 1 2-116 $1 2 for time payment

$ _ _1_2_ _

PROBATION FEE $ 40 per month

$ _ _ _ __

FINE (including surcharge)

$ _ _ _ __

INITIAL ATTORNEY FEE

$ _ _ _ __

ADDITIONAL ATTORNEY FEE

$ _ _ _ __

INTERSTATE TRANSFER FEE $200

$ _ _ _ __

$500 DNA TESTING FEE

$ _ _ _ __

$10LABFEE;

$35 SURCHARGE;

$40 SURCHARGE

300

$_ _ _ __

OTHER:

$ _ _ _ __

COMMUNITY SERVICE HOURS

- - HOURS
* * * * *

RESTITUTION

LOSS
CLAIMED
VICTIM _1_ of _1_

$

3,928.21

TOTAL
ORDERED

MONTHLY
PAYMENT

$- - - - - - $- - - - - -

Respectfully submitted,

APPROVED BY:
lecht, Senior Deputy
Investigation Services Division

November 28, 1994
el
Sentencing Date: 12/21 /94

SS =ZI 11d 8Z AON q661
NG1JvisoCJd llnov
Al HnOJ vi.11 d
F:\USERS\OFF!C ERS\SCHLEC?R \27745 _0 I. ?SR-112894-12:40

B - 12

M-E

•
- :--

Defendant: SPREITZ, Christopher John
Case No: CR-27745

Sentencing Judge: William N. Sherrill
Sentencing Date:
12/21 /94

CONFIDENTIAL
CRIMINAL HISTORY
PART TWO
PER ARS 13-4425
FOR DISCLOSURE ONLY TO THE COURT, PROSECUTOR,
DEFENSE ATTORNEY, AND OTHER AUTHORIZED
CRIMINAL JUSTICE AGENCIES

CRIMINAL HISTORY
CONVICTIONS
FELONY
INCARCERATIONS PRISON
ESCAPE
SUPERVISIONS
PROB

0
0
0
0

MISD
JAIL
OTHER
PAROLE

0
0
0
0

JUV

0

OTHER 0

CRIMINAL HISTORY:
The defendant and local, state, and national law enforcement agencies
document the following police contacts:
DATE/PLACE

OFFENSE

DISPOSITION

Grand Theft Auto.
SBPD 84012496.
The defendant was charged with
Possession of Stolen Property.

Released to parents.

8/19/84
Santa Barbara, CA

Grand Theft.
SBPD 8444662.

Unavailable.

8/16/87
Tucson, AZ

Injury With Auto.
PCSD 87-08-16-1 54.

Unavailable.

JUVENILE:
3/8/84
Santa Barbara, CA

ADULT:

F:\USE RS\OFFICERS'..SCHLECPR 'Qn45 _0 ! .PSR- ! J.2894-12:41

B - 13

-•

, ,

Defendant: SPREITZ,
Case No: CR-27745

~hristopher

John

•

Other Legal Status or Detainers: The defendant currently has an active
warrant issued June 6, 1989, for Failure to Appear out of Casa Grande Justice
Court for the original charge of Speeding. The bond amount is $141.

Respectfully submitted,

APPROVED BY:

~dd~
Paula R. Schlecht, Senior Deputy
Investigation Services Division

Investigation Services Division
November 28, 1994
el

St :ZI Hd 8Z AON 4661

1-1011vSOCJd llnov
Al~inOJ 'v'~Jld

F:\USE RS\OFFICER.5\.SCHLECPR\27745 _OJ. PSR- ! J2894-12·4 l

B - 14

·.

Todd C. Flynn, Ph.D.
CEnird t:M Fwmsic Psychologist

Nov

er 21,

22W l'.:::::t River Roo.d, Suii:,,, Ul .
•. . "'Tu=n. Ariza= R5718
(602) 577.3652

199~

FAX 577-3510

Marshall D. Tandy, Esg.
La?N OfficliS
453 south Ma.in
Tucson, Arizona 85701
RE:

Christopher Spreitz

Dear Mr. Tandy:
At your.request, I conduc~ed a fo~ensic evaluation of Christopher Spreitz in order to adqress the presence or absenc~ of
mitigat.?.-ng circumstances. Inlaccordance with the Ari.zona Revised
Statues Criminal Code, paragrjph 13-703 (G), I -understand the
statutory factors to include, "any aspect of the· defendant's character, propensities, or record, and any of the circums·~an·ces of the
offense including but not lilll.ite.a to the following:
.
.

the.w~ongfulness

1. The defendant's capaclty·to appreciatQ
of
his conduct or to con£onn hisfconduct to the rGquirame~ts of the ·
law was significantly i:mpaired, but not so ilnpaired as to constitu"t:.e a defense. to ·prosecution

s.

The defgndant's age " ARS 13-704 [GJ)

Ey cay m!de::-s::.andi:1g, no:r.-~i::i-tn~o;..-y ~tigatir.g- factor::; may a).so
bG considered by the Ccurt· and rel~vant to the expertise of a

.:torensic psychologist. .

I

.

The evaluation of Mr. Spriitz consisted of the

fo~lowing:

1. A two-hour clin.iqal interview on October 5, -1994, as
well as a one-b.o-µ.r interview
Octob~r 11, 1994;
·
.

In

2. A telephone inte~iew with John and Rafaela Graciela
Spreitz on October 10, 1994; IMr· and Mrs. Spreitz are Chris• aunt
and uncle by virtue of their elationship with his ex-stepfather,
Stephen Spreitz;
3. A telephone inte iew with Gretchen Jaeger, .Chris'
sister; 1/2·hour on 10/24/94.

JUVER. RO.AD CONSU TlNG P5YCHOLOG!STS, LTD.

M·E
B - 15

Letter to Marshall _. Tandy,.
November 21, 1994

Isq~
.

/.RE:

Chris

~-

.eit<:

Page 2

4. The Minnesota Multiphasic Personality Inventor:/ und the
Substance .Abuse Subtle Screenilng Inventory were admin.i~c;tered on
October 4, 1994, at' the Pima ~ounty Jail;
5 ..

Review of the

.to~lowing

collateral in.fonr :tion:

a. the intervieJ between.Detective Mill,:·::one and Mr.
Spre..itz, apparently conducted on May 25, 1989;
b.

an- 8/15/94 llilttar from John and

Raf''·'~"-3.

Spreitz;

' .
c. · a letter froJ Richard W. "Bozich of \-i0stern Inves- ·
tigative Services concerning interviews made at Sant~ Barbara High

School- concerning Mr• Spreitz1

.

.

d. a letter from Richard w. Bozich of We-stern Investigative Services concerning tterviews with John. and Durbara Jewitt and Scott Jewitt;
·

e. a variety of other j..nterviews conducted by Mr.
Bozich of Western InvestigatiTe Servic:s, to include:
'

1.)

a 10/8/90 interview with Susan '.c.:endenhall;

the mother of Mr. Spreitz;

J

2.)

a 10/9/90 triillscribed interview with Stephen

3.)

a

4.)

a 10/8/lO interview with Mr. auC. Mrs. Gaylord

spreitz, Christopher spreitz' ex-stepfather;
dated 10/9/90;

transc:ribed interview with Gro-::chen Jaeger,

I

Spreitz;

5.) a 10/10/90 transcribed i.ntEirviDw between
Raymond and Linda Jacbo.n, the natural father and stepmother o.f
Christopher Spreitz;

I

·

6.) a 5/31/89 transcribed interview ·,:-ith Lucy
Eramik, an ex-girlfriend 0£ M±-. Spreitz;
,i.b.d'
.
b.
.
7. ) ·a transcr e interview etween Detective R.
Wright (#3519) and Lucy Eramif on 5/31/89;
.
.

8. )

a transcribed -interview between Detective
J.E. Salgado and El!UIB Ow.ens f~eginning ith page £our; dat.e
unknown) ;

w.

I

·
9. ) a transcribed interview betiNeen Don Jorgenson, an inve~tigator with Pim1 County Attorney's Offlce,. and

Christie Thrash on 2/15/91;

M-E
B - 16

I
Letter.to Marzhall . . Tandy, Esq. I RE:
November 21, 1994

Chris .

_-eitz

Page 3

"topher Spreitz 1
California_

10.) informa ion· in your files concer:1ing Chrlspolice record in his hometown of Santa Barbara,

·
:

Th
vailable information on Christopher Spreitz . ::ihows;ci.'.ilis;;;.·_;:rupted:,·J!liddle -cchildhood;c: characterized; by:·. a- p\ln.itive#"£oritrollilig~~
·em()tional.ly• cold ·motlier';"?""poor· sociai•·adjustment witL roers, and the
__ab~euce:-~fJ•·a-.healthy.•.male .._rol ·.mode.!:··;·:- Drug and ·alcoli:...;l:.ahuse. dom''-£

inataa'; ~s~~teenaga":years':0:·St"":1:c'. :S2'.::IJ'E""''"'". --=-~

B - 17

• - · · · ·.. -·"" :: :c...i.,.:..,· - ..: : .. :::; ·. ...· : ·. ,

M-E

Letter to Marshall D. Tandy,
November 21, ·1994
Page 4

sq. / RE:

Chris

~~reitz

hea'Vy drinker.

This .i.n'.cludes a second cousin, Scott Jt_:witt, who
ajority of· the time, 11 when he was
visiting Santa Barbara a week before the current.offcn:.;e. To the
int~rviewi.ng investigator,· Mr. Jewit1;. also described,. "several diffsr.snt occasions when Chris Ms blackouts," while drin!:ing alc?hol.

·sai.r him to be intoxicated, "a

The records shows that Mr. spreitz was involved in u variety of
J?ropi;irty. offenses as a t'1.G1.:1agei7. ··There. i~-.110-e~idenc*':'."'c;>:f'.'Yiolence~ fJ
.in~his history; .. '!\- Rather, his jistGi.r describes him aio ~..2ing pe~ -·
ceived as something of a wimp by his age-:-mates, partially because
he was a.scrawny teenager. Santa Barbara Police Dspar-tm~t. records
describe.'him as between·s11111 /and 6 1 tall and between 145 and 150
pounds when he was 17. Presumably, he was still ~mall'.?.r in earlier
yea.rs. An aunt des=ibed his mother '3;Dd stepfather G.S encouraging
him to play football. He was small, notably unsucces::d:ul at that
sport, a.rid mostly sat on the ~ench. The teachers reported to Western Investigative Services th~t he. was under-developed. ath.J.,etically
and treated as a social outsider at the school.

Apparen~ly

because o:f a iJng series of tratiic violations and
problems with the mother's i~urance company, she.ultiIIlately kicked
him out of the house at age 1~, shortly before.the end of his
senior year in high school. Homeless and working to support hbnself, ·he d.id not graduate. Fq:t:" a while, he continued to live and
work .i,n Santo. Barl~»ara. Ultimcj.tely, he moved to Tucso!l to live with
his natural :father and stepmother.
The availahla information sugges~s that this problem ·"1:1ith
accQptanca with peers in high school extended to teenage girls.
On interview, he appeared embarrassed at admitting that he did not
data in high school except for a couple of quasi-dates in which
he woul~ stay by a girl ·when 1f.:?e two o'f them were in a larger
group of people. Ho then recalls a steady.girlfriend oJ.der .than he
by a few years, wt8.l'l he w~ 18.
She was a nice, ro~llcw oerson with
w~om he had £~w ai·su:ments.
A~parently, s~8 shared his problem with
alcohol and they, "drank 2. lot, 11 together. Ultimately, she. joined
the Navy in the hope of strai~hteni.ng her own life. He perceived
that as an abandonment and was angry at her.
0

After. he moved to Tucson, he clai.nied to have had :.;.n easy time
He says, "there are a
lot.of women everywhere. Women are so easy to meet - bar-s, banks,
restaurants, .·worJs and. friends
His sister describ(:;:..; him as, "more
party animal,"'.after moving_tcp Tucson. It was her impression that
he slept around more in Tucso~. Inte.rv~ews conducted' by Wester:n
rnvestig_a.tive S.ervices of women who knew him do not suggest. any
particular social skill or success with 'women_ In the interviews
with western Investigative Services, Lucy Eramik and Christie
Thrash expressed no special attraction to him. A couple of people·
describe him as talking about,his sexual exploits in a manner that
was no't completely believable
When I asked him. about his contact

mee"t::ing and dating a large nwjiber of women.

t" ·

M-E
B - 18

Letter to Marshal_ -'· Tandy,
Noyember 21, 1994
Page 5

I RE:

Chris

with prostitutes, he responde , 11 I don't· know why. So111.::times I' got
'lonely and it didn 1 t matter wl::lo I was with as long as 'i:.!lc:y are with
you." He went on to say that .l::le would seek the company of prosti- ·
tutes to, "at least be with s~ebody for a while. My $ister and I
both use sex as our rneans of ~~ve_- we ~quat7d sex t~ celf-es~eem
and love. 11 He acknowledg~s an jincident i n which he· picl::ad up a
prostitute when he didJJ. 1 t hav~ any money, yelled at he~ when she
refused sex, and essentially ~ntimid~ted he~ into having sex with
him:.-:.~ :i:~~~ ~li~le:·.~efore .1he c~~-~t-ofxense.
.
.,..'"':""':. 0-Vera~li-" th~,;availabl~iJ:i~oma1;-J.on •. o~ -~i.s_·}~pre.i,tr-,;.,~~-1'.1,;8on-:-- .: ......,
: sistentl:Y:descrihes· a person who .virtually_neyer~had success at .
!
, d~ve..loping. an~emo.
. tional.ly_ c:1:-_c;>~~~j:ela~ioni:-_~rp:~~-.i.~-~~~f~o3nqn:~~His ..!l.. _...
mother;cis · consistent.ly~descr.:i_qed· as cold; 0,pqnitive, '\:i.ud o1rercon-. . :
trollipg.·-'··None' of•the' collateral sources··destriheh.int as· being ·
able to ple'ase her or to elic.ilt any sign of love from ber. The
info:anation from the intervie~s suggested that, in splte of the
fact that· he came .to be a sturdily built, good-look.in.0 young man,
that he did not have the social skill, the .social insight, or the ·.
smooth talk ~equirad for him to be a ladies• man. It i8'nty i.inpression that he substituted brag1'ing for actual accomplishments,
although he was obviously not totally _unsucces~ful with wom~n- It
also appears that he oriented toward woman oldar than he. The
woman that he dated in early May, l989, was thirteen years his
:senior. The victim was almost 17 years·older than he.
'

__

~e

It appears completely clei _:Eron
available in:f«:.rmation that
Chris Sp:r:_:eitz_,had,:;a',long,._.St,an¥1;tg. p;i:oblem with alcohol w~ch prc;i-:
bably··reached the'level'of ph~sical 'dependence. He described himself .. as-.drinking in the morn.i.llg as early as age ls. Virtually
everyone else who spent much ti.me with him described hi.m as a heavy
driuke"r. H.i:s . cousi:n reinember~ episodes in which he would black out
from alcohol. The possible s~gn.ificance of physiological d~pen­
dcr,ce includes the .. i:1creasecL likelihood of a sign.lfi~ant t.qJ...e:r.~_..:.t.:...
~to.._ci.lcoJl.ol. (The;> tern 11 tolsrffi'
'ceu means, "the need for great~
increased, amounts of the· subs. ance to achieve .. iiltoxication; •• or a
mark.edly,_d.imini.shed effect wi
the continued-use of the.sain·e· ....
"
amelln.t'-of the substance (nSM...:tv}. II /People who develop a tolerance
~o alcohol as
art of their alcohol dependence may not appear as
intoxicatQd as the blood level of-a'lcohol would indicate. The
alcohol dependent pQrson is :m.ihre likely to be able to drink large
amounts .until a threshold is rQached a£ter which there is an
incraase·d probability of an afcoholic blackout. This suggests the
possibility that Ml:. Spreitz pay.not haVQ appQarad to be intensely
intoxicated 'to the officers w~o stopped him the night of tlie
.
offense more because ·of tolerance effects than becausG of blood
alcohol level.

M-E
B - 19

•

Letter to Marshall ,,. Tandy, · sq. / RE:
November 21, 1994

Chris L .:eitz.

Page 6

·CLINICAL PRESENTATION:
---1~,,.-.~!f''Jo..,...._... ,,,,,,--·~·-·. . ~·~.-.~~;.".'
.

·c:. .ir·_ ·. -·:·~=-:"~.,...--: -""'~""';,~-~~·'.".""~--~-.-.-..-... ---"'!-...,,. __

s? current. cli ical~ presentation Ts· 0c:cicrilly~·t=e-,~
1 markaole~·t•,. Heidoesc: not·: show
:·"cunentVs"i·-~·;.or-'·s· ··-;;c;_:._;;,-·"o{' an ·,,.,.,,,._ ·.
;;aciite'i<"'emotionii:i~·,disOrder: f He resents" as~a-28 year~".;J_d Caucasian'
male· of--· approximately. average height, with a sturdy :~:l.ild, good
looks, and a pleasant social inner. Re has good t.:.:.'lllltunication ·
skills ~lthough he lacks the
oath talk of good ve:.b::.l manipulators. He shows good voc;ab lary and intact .cogni .i V·~ processing
abil.ities. Although he makes Isome re!erences to th·.n!shts, feelings
and values, he does not preserlt as especiaf.ly intro.;pc,ctive no:i:fM:i:'·;~;:·spreitz'

parti.cul.arly sen~itive to sub~le emotions in himselZ or others . .

In~QrQstin~ly,

S~reit~

m"otJi~r

Mr.
descr.i.bes his
in less nega-·
tiva terms than does his sist~r or others. He manages ev~n to .
describe her overcontrolling nature in positive terms. In h..is
words, "my mother is a really Istrong person. .What she says goes.
My stepfather:' couldn't ov.erride her boundaries. • • she 1 c th.e boss,
pretty much rules thin.gs.· Sh~ likes to control whatever is going
on. Not to say that she is ndt a nice person, she alw2ys wan.ts to
remein the person.who has to qontrol.the situation. I never·
..
thought of her as super demanding. It is hard to expiain.. 11 He
did not question her failure to acknowledge h.i.s drinking or drug
use even though, by h..is descrllption; her father; her sister, and
two of her wicles were obviou~ a..lcoholics. Nor did i t seem unreason.able to him that· she k.icke4 hiln out o:f th"' house in May of hls
senior year in high school because he had too man,y speeding tickets. He ev;:.;n coJ.nmented on bej: unwillingness to provj_dc ·him with
any level .of .monetacy support - even foqd mol:!-ey - a£tu:r:: he left the
home as.though that were a-reasonable action for a caring mother.
In ·fact, Mr. spreitz "did not qomplain about any woman in his-life.
He r~members bei.D.g angry at aIJ.d abandoned.by the girlfriend who
left hiJ,1 to join to the Navy ·r{hen ·be w<1s 18. ne remembers beingun.b.app/ wi·::b. ot...'"er girls bnt qenies ev0r cC!n..fronting then. :ne
agr~es he was angry at the prostitute who re=used to have sex but
acknowledges only yelling at her. He voices virtually no insight
into the sense of intimidation that he feels from women or the
intense anger that he feels a~ the women who criticize and reject
him.

.

-···~-~--:--:-·-··

.

·-I

.

-

.

1

"

-

1

_
The. availabl~:. information suggests _that his . control of: angry
>
.:lmpttlses had, heen slippJ.ng'·iri the weeks 'or· months~ .. leading'tip'to:"the.,
·__offense. ··Although there· is virtually not:bin.g in the record to sug- ·
gest that be had been an aggressive or violent person during his
tee~age years even when be waJ drinking intensely, there are two
references to aggressive i.mpuises in the weeks leading up to the
offense: the first occurred ~pparently when he became a.ngxy at a

McDonald's and put his fist t*rough a window. The nezt would be
the inc.i.dent in which he intimidated th~ pro~titute into permitting
him to have sex with her.
··

M-E
B - 20

'I

•

Letter to Marshal
November 21, 1994
Page 7

D. Tandy, Esq. / RE:
'

.J

Chris

It does not suriJrisi; me th t the o'ffense occu:.:red ~ :10rtly a£ter
'his most recent girlfriend reff,sed him entrance to her ho~e when he
arrived there late at night
drunk. The research oit viol&.nt
behavior shows a strong correl tion with alcohol in·;: ·:,:ication.
Given his history, I can see
perceived rejE?ction lj ::wo wo:m.en in
the same evening as especiall c;listurbing to him, l?' · :·:.icularly w~en
intoxicated, to the point at
ch he lost aggress.i.. ... .:ontrol, disinbi hited by the alcohol into 'cation.

inf

obviously, r. cannot know
e sequence of events '.:l .. 1t led :UP to
the homic1de on that night
arch, 1989. Mr. Spr". :~·~;; 's descripti?n. of t:be evening includes
e sketchy memory cop ..::!..::; tent wi ttl the
impaired memory characteristi of alcohol intox;Lc<~'\::i.on. His
·
description of hitting the viiim during an argument in which she
vas yelling at him is also co sistent. First, the available information on the victim suggests hat she could be irritable when
intoxicated. Next, Mr. Sprei z•s ·history is consistent with his
striking out at· an older woma.ti yelling at him angrily und'critically. I infer this not fro_m lthe early history ~1hich suggests that
he would normally remove himself from such a confrontation.
Rather, it is the JD.ore recent !history that sugges·ts the loosening
of his phy~ically aggressive ~endencies. Given the ha~sh descriptions of his.mother by others combined with his benevolent view of
her, it is more probable than not that h~ harbored years of
pe~t-up, repressed anger at her, that was seeping out in the- months
leading_ up ~a the offense and exploded forth during it.
Psychological testing does not provide much in£ormntion .on
.
Mr. Spreitz and it is unclear to what extent current psychological
testing could ~eveal anything about his state' of mind on or about
the time of t:be offense. The Minnesota Multipbasic Personality
I~ventory-2 (MMPI-2) validity scales show that he read the items
ca:r;-e:fully and responded in a D).ildly self-critical -manner which
sh"lUld result in a valid clidcal profile. There· is r~o evidence of
attempt 1to appear llpre"l j s]±call.~· healt:o.v or 11grealistically
unhe
'rlie · clinical': prof e . shows extreine elevations . (l'.lore . ..,,
an-:four_standa:cd~deviati6ns/abov~ average using the original MMPI
norms) on the scales associated with behavioral. a.ctin~ out and. the •
kin~ ~~- l?erson~~· fragm.eui~a~io~ :~;;;i;~e~1:i.tY,}~.i.:f~1;1,S,ion: ~}la.t}le,~_yes ~:- ..
people -disorganized,and 1ll-:able·:to•develop1·emotionally· close,· mut- ·
ually, satisfyi.ng'_ relationship~. '.:i>.-P96ple~:.;~.!-;~_h-:-~this MMPI ··code~type
ten~<tO• have_ angry~: re.sentful 1quaLj.~ies:an.ci.,to~.1?-aV'-l'.'trollbla'"modu:.:--.
la ting and·. expressing .these, tencienci~s -- -•.-They_ view_tho world·· as
hostile and'' other 'people as r~jectinq and :unreliable.· Whe;i thers
is a hif?tory of crimina1:·actitity/~ there_cri.mil:ia1· behavior is
likely c to : be ·disorganized and somewhat bizarre •., In· Mr. -sprei tz,
this is aggravated by an. elevation on the scale--of rurrd.native anxiety.-·~'.People with" an-·elevati~n on this ··scale·tend to. be unable to
get insults and ego injuries. out of their heads •,~;:::The disturbing
thoughts.··.rei11'·'0v'er;and. over-:-i.Il.c·their' minds. - .Mr. - Spieltz ''probably. ~
used. drugs,.'"e.lcohol;,::and disti-acti.:ng activities :·as a n:eans. of"'shut-,

an

ting:'off · tliese'-'·d.iii:turbirig'.1.tho

gh~s.:io:o::-."'~.

··

·. · ·

·· - · -·:..

·

;·:-:... 't..-

B - 21

M-E

I

•

Letter to Marshal:. _,. Tandy / Esq. / RE:
November 21, 1994 ·
P~ge

Chris

reit:::

S

CONCLUSIONS:
· In identifying the psycho ogical :factors contributiJ:ig to the
of:fense, it--:.appears~_appropria e .. to. consider... the. ;family: q
prob1~1;:.:liarslrl'" li. "'sicalli purii mnent:~~;mafernal~fej"ection~and"- other.

•r--·- .. -- -

cu·srjip·~'f.V,~:'.ia::ti5f&Yw1U'cl1::,cliar, ,ct,er.~e.d,~·h.fs~Iife-· -ae: ho:rs~·~"axld".' life~-:~·-

.. ·

0

'."

with peers from the age of 5 ~r -7 .""·In" his early-yen:;::·::.· he - -a:epe~s to have been. anx1 ous
o please and somewhat ::S:.1sitive.
,
Later, he acted out '.behaviora]ly, prilllarily by turni!•'J to alcohol
i.ntotication. Given the e.xte.n't of the reported alcolic2..ism in the
mothar•s family, it is likely !that be not only turned ~o alcohol on
a psychological defense but d~veloped a physiological ~ddiction.
This addictive tendency "tjlen ~ggravated.the ~arlier ~0cial and emotiona,l disruption of developm~nt to turn it into a fuLly dysfunctional young adult lacking co~ing or social skills. F~om the ·
available information, it appears that all of these problems intensified and, :for some reason, ~ccelerated in the month£ leading up
to the offense.

'_
is.· spreitz :did not-suf:!feracute; 'diamati~-:~~-~~ :i ;.;''.,hi-s-·£a.m.:.:~
ily: hOme.:··-~- He did:'-'su££er'pervdsive. subabusive eJJ1otio11al. battering '
and· neglect~1··ca.J.o:ricj'wi th-" inattt'!nti.ori."'~to· his"developmen.t_al;,needs ••
,,
.._, one;,() -""-·~ e:~;;. ..
onna ;io
,
7 c;ne_ environ- - ;
ment ·was - · nunimall heal th - on -- fo - eve loping .childr~n
Chr.l.
sister foµght more strongly. Her battle too · ..
~
the home
at a you~ger age. Reports by relatives suggest that she, also,
suffered intense emotional
behavioral tunnoil, including serious, self-harmful sexual acti g out. She describes herself as
being saved :from the pathogen c home environment by mc;ving out at
about age 12 and.seeking helpi
.

anl

Chris .fought a quieter, p~rsonal battle. In the early years,
b'1 tri'1d to please. For his ef£orts, he walked away 1-1ith a sense
of failure to live up to his ifoth8r'B sta.ndards or e~r~ her love.
Be then slipped quietly into alcoholic nUJDbness. Next came th~
more self-destructive alcoholic acting-out involving nonviolent
crimes, traffic tickets, accidents, and his ejection from the home.
·
For Chris Spreitz~ as for other' chronically~_neglected,..,.~,,.,.,.,.,,. -.·
rejected~:, devalued children, . there:was~'no~:e'scaping,tfiC-'.,'.deep.::.s·e.ifea':-··,
~ ang~r ~and,_.~esen.tment-;__ His ·cf~ye~o:Pine!:iit'a.I·.. ·f.ail~e inclt:d~:l the .
_non-developm,ent .C>f personal in..sight_,and_ con:flict resolution skills-:cc,_
He.__ co_tilct'.~ncit~:and'Clid ii:ot-~deal /with.,the;.~ger.·;___ He numbed .it with
alcohol and acted it out indi:i;ectly''by·orienting to older women,
attempting sexual conquests with them (probably as a symbol of his
current desirability to older/womeri as mother substitutes), and
then bragged about real and imagined sexual adventures as a means
of convincing himself that he was now in a dominant position over
the women who. intimidated him.

.

.

It wa.s, however, a poorly built, fragile facade which age-mates

readily identified.

It was also personally ·unsatisfyiug because it

M-E
B - 22

•

.!

Letter to Marshal.
November 21, 1994
Page 9

). Tandy,

sq. / RE:

Chris

_,reiti::

was largely a sham. Each fai ure with a woman made t~1'., attempts at
self-deception more apparent o himsel~- The early i:l!:'._::-c:r never
resolved and continues to fes er. New failures added ~till morQ
anger _and more resentment of
e women whom he could ·)!either please
nor control. He turned to 'pr stitutes for company, o:r· ,. more
likel~r, control via money.
T e control of his aggi'lilss i.ve impulses
eroded. My hest guess is that! he was drunk, hurt and '=gry at the
unwillingness of his girlfrienld to let h.i1tl into her ap•1rtment,
startled into an. alcoholic ra 'e at the angry confrontation by the
victim, and ended up venting
e yea.r;s of stored up race at her.
There ris- no· evidence ··of t e··patter1;i-'.of v-iolent behavior from an
early-· age-that· is most predic · ve-- of ·a.pervasive: pattern '.of: vio- ' -·,
llilnce" as·an adult.· ~·There is.$ _evidence"'of·''the'~pattern.··of''behavior.
indicati:'e.:,c;>f., an..An.t.is~~i~:,.J?: son~lity: Di~o~de:::::- 9l'.".:moro_· v~olently ...
d7s~r.·uc:. 't;l.'\113, .psy
..· chc;>pa~. .C...;;.•cli~o. r;r
..•·.::;i;;T.hez.::13rJ.~?,;~~. _Jo,;s;;..e.-_mo_t;;i,.on.al .. ..
·
disorder,:; t~r: drive': £uture·;~viol t ',behavior' uncontroll<tn.1.y ~- '.- T There . J..S
, "al'coh.olism_~.;-'.pne :e>:f ·th,7:c·~trol:l9Jist co·rrela~es· of-vi.ol(,::: behavior~·. ·· · . An.d;·~·there::J..s the· em.otl.ona.1, · siexual :inalad)ustment, th<-·:. comes from
·· his lifet.iine of misdirected d elopment in a. dysfunct.: ..:nal :EaJD.ily, .
combined with arrested and/or ·started adult develop.,,cnt because
of th~ alcoholis~.
.-·:m
, .a .

POSSIBLE MITIGATING.

FACTORS~

1------~~ ......_

, The first i;;ta,~ry-tliit.ig ing factor addresses impaired ca acit
pp~e wrong:fulness or con£onn his conduct-to the Ia .

I~Cou~

finds th.c.t
facts of thi= case sur;:,ort a scenari'o ·in which he and the
-were voluntarily tog8ther0V;
n the
desert, when the homicid~ too plac&, thG following factors are
likely to. fit this aspect of itigation.

~e,1

~J.coholism

by-:-~ariety

the histo::y of
corrc.Onr'ited
of collateral s:;iurces and ti:ie fketchy memo·ry that is cre>.dible in
the sense of fitting the common patteni of alcohol-induced memory·
impainnent (and not with att~ts at malingered runne~ia), a sief:ni.ficant but \lllknown degree of) alcohol intoxication is likely.
·
Alcohol intorication has a wel -documented disinh.ibiting effect
~hich frequently includes loss s of control of angry emotions and
aggre~sive behavior~

2. The history strongly ~ ggests years of early experiences
likely to have caused a buildjrp oi pent-up angry, aggressive
feelings toward women generallr (and older women especially) which
may have burst forth with uncoµtrollable intensity witJ: or without
alcohol intoxi.catj.on. Only trlivial provocation is required for .
this type of aggression explos on, termed an Intermittent Explosive
Disorder by DSM-IV.
3. Still.more likely i~ t a t a combination of 1. and 2. above
contr'ibutei:i to an uncontrollab e outburst of aggression.

M-E
B - 23

I

Letter to Marshal· l. Tandy, Esq. I RE:
NOVenibe~ 21, 1994
Page 10

Chris

reitz

The fifth statutory factor is age. Mr •. Spreitz w~~ in his
·early 20's at the· time of the of£ense. He is ve:r:y lilr.:~ly :to have
been socially and emotional:ly immature for the follo•.- ·· ..i.g rGasons:
1.) Years of alcoholism · ntoxication wipe out ma;;v of the
healthy experiences and healt y developmental procQss0;: requisite
to age-appropriate social and emotional maturity.
2.) 'The pathogenic, emot anally neglectful home ;::,-ivironment,
including the absence of· a he lthy nurturing mother fif;ure or positive male role model are expe ed to impair healthy cc:,._:ial and
emotionaL development.

3. ) The combination of 1.) and 2. ) above can be e:i;:pected to
cause· major deficits in social and emotiona.l developrnc.r,.t and
maturity.
I do not clailn to know all of the non-statutory fa::tors which
the Court might consider. The efore, I will µiclude all aspects of
my evaluation which from the c e law a~d the £orensic literature
might be relevant. ·
· 1.

Future potential for

"olent behavior:

The two best predictors of violent behavior '?Xe:
a,)

b.)

lon~ histo~

b~havior·

a
of past yiolent
which
extends i:z:ito the early teenage year;:c, and
a person who rits the designation a~ n psychopath by the cic.:l,.teria established by ~cobert
Hare, Ph.D. )l'he psychopath. takes th·~ ·
characteristips c£ the Antisocial Pa:·sonality ·
Di~;o;:der to
dc..structi ve : extremG.
.
:·

al

. I am aware of only the thrfe incid€nts 0£ violent beba~ior
noted. above. The collateral information
docwnents
none in his
I
.
teenage years. ~n~ of the latpst three was toward property. one
was verbal. one was the current offense. The latter two, no
mattQr"how severe, do not constitute a pattern. Mr. Spreitz
clear~y does not meet the risk factor described und~~ a'.) above.
Nor does he meet the Hare criteria for designation as a psychopath. Nor does he even· :meer' the DSM-IV criteria ::':c·~ Antisocial
Personality Disorder.
A somewhat weaker set of rfsk fac~ors from the research -0n
violent. behavior includes· substance abuse (alcohol inc.!.uded) and
the presence of a major mood or thought OJ,sorder,. espc~ially in
young mo..les. He bas neither of tbe emotional disorder~ and would.
not fit the "yoUllg" category eyen after a mitigated sentence. He
h~~ the intelligence, verbals 'lls, _and E111otional neediness
.
.

M-E
B - 24

Letter to Marshal.
November 21, 1994
Page 11
required to benefit
'£or the psychopath,
a~er age 45-50 for
possible for him to

D..

Isq.· I

Tandy,

Chris

.~J?reitz

from subs ance abuse rel:iabili ~atio:,. Except
the ris~
violent behavior dr~p~ dramatically
all group
By my und~rstanclillJ,~, :'..t is not
get out o prison before age 45 ( :.·:: older).

2. The failure of the p
abuse· in Mr. spreitz•s teenag
.

RE:

Mr. Spreitz reports, and

nts to provide treat:.. ; :::. £or alcohol

lljis sister con.:f.inns, ye

.:~··.~ 0£ alcohol
-~her•s home.

abuse and associated prob~ems_fhile he lived in his.
Given the intensi.ty and durat~n described, the moth ·: ("and step-.
father) were either so uninvoliV'ed with him to have f ::.. :.ed to not.ice
the problem, or they 'Were awa
of it and failed to · ..cange (or
attempt to'arrange) for an app opriate rehabilitatic ?!:"ogr~m.
Tb.is failure links to the ffense both because : · ::ontributed
to the years ~f intoxication and associated i.mmaturi:l:y r:md lack of
coping skills and social skillf which (as described above) contributed individually or in combination to the offense.

3. The emotionally depriid, physically punitive home environment described by the sister
d- others, and the abuse of.hereditary parent-child relationship are likely to have contributed to
the offense and may be conside ed a
It is "the· responsibility o
of home environment conducive
cognitive develop1nent, heal th
of destructive hcibits and pro
behaviara+ controls. It is al
to create a_healthy parent-chi
mation suggests the absence o

nonstatut~ry

mitigating.factor.

the parent to provide n. nourishing
o healthy social, emotional and
habits and activities, the absence
ctive coping skills and emotional/
o the parental responsib.ili ty
d relationship.
Collateral inforall of the above.

The collaterai .i.n£or:matio also strongly suggests a pathological mo~h~r-son.relationship w ·ch contributed to Mr. Spreitzrs
poor, emotionally unsatisfyin relationships with·womefi generally.
as well as' the hypothesized pent-up, repressed anger at women,
·
which ~ described above as l j l y to have _produced the explosion of
aggression toward the victil!l. . ·
A healthy Iather-son rela 'onship

o~

a healthy stepfather-son

relationship might have compeµib;~ted for or taken.Mr. Spreitz out of
the pathologi'cal home enviroilllllent in Santa Barbara.

I~ther

~ept

clos~ e~oug~

If the natural
had
in
touch with his
son and daughter to recognize ~he harm done to them, he :might.have
successfully sought custody anl:i put Mr. Spreitz in an alcohol
rehabilitation program.
·

B - 25

\

Letter to Marshal
November 2l, 1994

D.

I

Tandy, Esq. I RE:

Chris

...->r'eit::

Page 12

Alternatively, the stepfatiher might have provided :1 compensatory, supportive, nourishing :iTelationship and.encourac;.:.d relation.ships with and attachments to !surrogate mother figure~ (such as his
aunt in the Northern California Bay Area) •.

k~nds

.
The sister forced these
of changes .in living arrangements
and adult relationships, andclees herself as ·saved by h~r own
as~ertive acting out.
By her report, Mr. Spreitz w~ ruore passive
and 8!1%ious to please as a c ld and, as a conseguence, suffered
l!!Ore from the action
inact!on·of the parents.

or

other:
..
. I rQalize that statutory mitigating factors may also, £al.ling the statutory threshold, ~e appropriately consider8d and
weighed by the trial judge asjnonstatutory mitigation. By my
non-lawyer 1 s understanding, that prerogative is the province of the
trial judge an·d not· a forensic!: psychologist.
4.

~

.

.

. . I

.

.

I also reali~e that the ahsence of a prior felony record and/or
good behavior while incarcerated or the recommendation of a police
officer kiiowledgeable about tlie case, can be considered· as nonstatutory mitigation. Again, II do not see how rny expertise as a
forensic psychologist might aid the Court better than can witnesses
or evidence directly.

In no way do·I intend these observations or opinions to excuse

Chris Spreitz for a senseless homicide. _I __ j.ntend only~to-:-'distin- _,,,_,_
' ish- hlJ:n from the habituall v · ent·· conscienceless victimizer o:fv'
ot ers '·~and ,,to; e
e court understa.D.d··t e ·
c
~
s .
_ that·'hrought bim to this
t 1 s my understaricling·''that,these~.'
are the issues relevant to mi gation.

You:z:-s,

~ ~ 0__;1.J;
Todd C.

F~;D.

Clinical Psychologist

B - 26

1

2
3

'Bvunev & Up~ P.C.
P.O. Box 591
Tucson, Arizona 85702
520-624-8000
By Sean Bruner, PCC #6984
Attorneys for Defendant/Petitioner

4

5

IN THE SUPERIOR COURT FOR THE STATE OF ARIZONA

6

IN AND FOR THE COUNTY OF PIMA

7

Plaintiff~

8
9

v.

10

CHRISTOPHER J. SPREITZ,

11

Defendant.

12
13

NO. CR-27745
PETITION FOR POST -CONVICTION
RELIEF PURSUANT TO RULE 32

1. Defendant/Petitioner's name is Christopher John Spreitz. His prison number is
110042.
2. He is now confined on death row of the Arizona State Prison, SMU II, Eyman Unit,

14

15

]
]
]
]
]
]
]
]
]

STATE OF ARIZONA,

PO Box 3400, Florence, Arizona, 85232.

16

3. (A) Defendant was arrested on May 25, 1989. On June 2, 1989 he was indicted for,

17

count one, first degree murder, count two, sexual assault, and count three, kidnapping. (ROA 1f

18

He was arraigned on June 12, 1989. (ROA 14). Petitioner was convicted by jury verdict on

19

August 18, 1994 offirst degree murder, in violation of A.R.S. § 13-1105; sexual assault, in

20

violation of A.R.S. § 13-1406, and kidnapping, in violation of A.R.S. § 13-1304(A)(3) and (B).

21

(ROA 285).

22

(B) Defendant was sentenced by the Honorable William N. Sherrill of the Pima County

23

Superior Court on December 21, 1994, a£ter spending five years, seven months and one day in

24

jail. Judge Sherrill sentenced defendant to death, count one, fourteen years (aggravated) as to

25
26

27
28

l

ROA refers to the clerk's record on appeal. The number refers to
the number in the index to said record.

C-1

-1-

1

count two and fourteen years (aggravated) as to count three. (ROA 301, 302). The sentence as to

2

count two was consecutive to count three. Id.

3
4

5
6

(C) Defendant's judgments of guilt and sentences were affirmed on appeal. State v.
.S.preitz, 190 Ariz. 129, 945 P.2d 1260 (1997) (en bane).
The file number of the case is the same as that listed above in the caption of this
document.

7

4. Defendant/Petitioner is eligible for relief for the following reasons:

8

4.1 He received ineffective assistance of counsel at the guilt/innocense phase of his trial,

9

in violation of the Fifth, Sixth, Eighth and Fourteenth Amendments to the United States

10

Constitution, and Art. 2 §§ 4, 13, 15, and 24 of the Arizona Constitution and other rights

11

discussed in Attachment A

12

4.2 He received ineffective assistance of counsel at the sentencing phase of his. trial, in

13

violation of the Fifth, Sixth, Eighth and Fourteenth Amendments to the United States

14

Constitution, and Art. 2 §§ 4, 13, 15, and 24 of the Arizona Constitution and other rights

15

discussed in Attachment A

16

4.3 He received ineffective assistance of counsel on appeal, in violation of the Fifth,

17

Sixth, Eighth and Fourteenth Amendments to the United States Constitution, and Art. 2 §§ 4, 13,

18

15, and 24 of the Arizona Constitution and other rights discussed in Attachment A.

19

4.4 Various jury instructions given bythe court violated the United States and Arizona

20

State Constitutions, and constituted fundamental and structural error, as more fully set forth in

21

arguments V-VII contained in Attachment A.

22

4.5 The court found non-statutory aggravation in sentencing defendant to death, in

23

violation of the Fifth, Eighth and Fourteenth Amendments to the United States Constitution and

24

Art. 2, §§ 4, 13, and 15 of the Arizona Constitution and other rights discussed in argument

25

VIII contained in Attachment A

26

27

28

4.6 The court wrongfully failed to consider mitigation and applied wrong legal principles

C-2

-2-

1

in weighing mitigation in violation of the Fifth, Eighth and Fourteenth Amendments to the

2

United States Constitution and Art. 2, §§ 4, 13, and 15 of the Arizona Constitution and other

3

rights discussed in arguments IX-X contained in Attachment A.
5. The facts and legal authorities in support ofthe alleged errors upon which this petition

4
5

is based are contained in Attachment A.

6

6. The following exhibits are attached in support of the petition: See appendix.

7

7. Defendant/Petitioner has taken the following actions to secure relief from his

8

convictions or sentences: He filed his automatic direct appeal to the Arizona Supreme Court,

9

which was denied on May 3, 1996. See State v. Spreitz, 190 Ariz. 129, 945 P.2d 1260 (1997) (en

10
11

12

bane).
No other post-conviction pleadings, including habeas corpus proceedings, have been filed,
nor any special actions taken.

13

8. Defendant/Petitioner was represented by the following lawyers:

14

First by William G. Lane, no longer an active member of the Arizona bar. During pre-trial

15

proceedings by M. Josephine Sotelo, 160 South Third Avenue, Suite A, Yuma, Arizona, 85364-

16

2223, 520-329-8707.

17

During the guilt/innocense phase and sentencing phase of trial by the Marshall D. Tandy, a

18

convicted felon whose license to practice law was suspended and who will be disbarred, 453

19

South Main Avenue, Tucson, Arizona, 85701,520-624-9119.

20

21
22

On direct appeal to the Arizona Supreme Court by David Alan Darby and Julie L.C.
Duvall, 530 South Main Avenue, Suite B, Tucson, Arizona, 85701, 520-620-0000.
9. The issues which are raised in this petition have not been finally decided nor raised

23

(except for the reasons therein indicated) before because: of the ineffective assistance of counsel,

24

because they were in violation of the Constitution of the United States and/or the State of Arizona,

25

because the sentence imposed was not in accordance with the sentence authorized by law, because

26

newly discovered material facts probably exist and such facts probably would have changed their

27
28

C-3

-3-

1

verdict or sentence, because there have been significant changes in the law that if determined to

2

apply to defendant's case would probably overturn his convictions and/or sentences, because the

3

verdict and sentence resulted in a decision that was contrary to, or involved an unreasonable

4

application of, clearly established Federal law as determined by the Supreme Court of the United

5

States, because the verdict and sentence resulted in a decision that was based on an unreasonable

6

determination of the facts in light of the evidence presented in the State court proceeding, because

7

the claims herein rely on new rules of constitutional law, made retroactive to cases on collateral

8

review by the Supreme Court, that were previously unavailable, and because a factual predicate

9

that could not have been previously discovered through the exercise of due diligence and the facts

10

underlying the claims would be sufficient to establish by clear and convincing evidence that but

11

for constitutional error, no reasonable fact-finder would have found defendant guilty ofthe

12

underlying offenses.

13

14
15

16
17

10. Because of the foregoing reasons, the relief which the defendant desires is release
from custody and discharge, or a new trial, and/or a correction of the sentences. ·
11. Defendant/Petitioner is presently represented by Sean Bruner, Bruner & Upham, P.C.,
P.O. Box 591, Tucson, Arizona, 85702, 520-624-8000 (phone), 520-622-1094 (fax).
Respectfully submitted March 28, 2000.

18

19

e Bruner
Attorney for Defendant

20
21

I understand that no further petitions concerning this conviction may be filed on any

22

ground of which I am aware but do not raise at this time, and that the information contained in this

23
24
25

26
27
28

C-4
-4-

1
2
3

13v£M~UW

& Up~ P.C.

P.O. Box 591
Tucson, Arizona 85702
520-624-8000
By Sean Bruner, PCC #6984
Attorneys for Defendant/Petitioner

4

5

IN THE SUPERIOR COURT FOR THE STATE OF ARIZONA

6

IN AND FOR THE COUNTY OF PIMA

7

STATE OF ARIZONA,
Plaintiff~

8
9

v.

10

CHRISTOPHER J. SPREITZ,

11

Defendant.

12

Defendant's Personal History

13

Chris Spreitz's Parents:

14

]
]
]
]
]
]
]
]
]

NO. CR-27745
ATTACHMENT A TO DEFENDANT'S
RULE 32 PETITION

Ray Jackson and Susan Mendenhall grew up in families o£ alcoholics. Violence and

15

corporal punishment were the norm. Susan stated that when she learned she was pregnant in the

16

fall o£ 1965 she wanted the baby. She hinted she was already engaged by saying, "There was a

17

ring". Ray felt it was a way for her to get out o£ the house. In his mind, the pregnancy was not

18

planned. Reverend Trouche was called in to discuss the situation, with both families. He

19

performed the wedding ceremony. Susan was 17 and in her senior year in high school.

20

Susan's grandparents were very strict, as was her mother. Susan had problems at home

21

before the pregnancy. She dealt with the problems, by running away several times. The family

22

minister recalled, "The Mendenhall household was always in an uproar." Rev. Trouche went on

23

to say that Susan was very independent which helped her survive through life. Both her brother

24

and younger sister had behavior problems. Reverend Trouche recalled having to counsel Susan's

25

brother, Butch, on several occasions. Susan't sister, Marcia, admitted her problems with alcohol.

26

27

28

Susan's attitudes and way o£ dealing with life carried over into her own family and how

C-5
-1-

1

she raised her children. Her sister stated, "I have never met anyone as cold and mean an

2

individual, as Susan." As Susan got older, Marcy stated, she and her mother, Alice, were afraid

3

of her. Susan was a manipulative liar, who frequently denied something she had said, after she

4

got what she wanted. Both Ray and her second husband, Stephen Spreitz, described similar

5

incidents with regards to how she dealt with life.

6

Ray Jackson freely admitted to physical abuse of Susan and breaking up their residence in

7

fits of rage. Stephen Spreitz, Susan's second husband, went through several years of therapy after

8

their divorce. He admitted to spanking the kids with a belt. Neighbors and friends described

9

Steve as abusing Chris verbally. Chris' reaction to disturbing events was to ignore, or just shrug

10

things off, so they couldn't affect him.

11

12

Birth through Four Years of Age 1966 to 1970:

13

Susan and Ray lived in Ventura at some point after Chris's birth, for a about a year.

14

By their own admission, Chris's parents had a violent marriage. The reasons for their

15

problems depend on who you talk to. According to Ray, Susan cheated on him frequently.

16

Susan stated, "Ray wanted me to pick up strange men, have sex with them and then tell him

17

about it, when I got home." Ray described Susan as a very needy person during their marriage.

18

She found the attention she seemed to crave from various men, including her second husband,

19

Stephen Spreitz.

20

Susan's notations in Chris' baby book are revealing in the way Susan sees herself. She

21

recognizes her own short temper, though she minimizes what was described by various family

22

members as fits of rage.

23

Susan noted in his baby book that Chris was surprisingly quiet the first couple of weeks

24

after birth. By the time he was two months old, she attributed his crying to being ignored and not

25

wanting to play alone. At three months, he was screaming whether he was happy or sad. She

26

had him drinking from a cup at four months old.

27
28

C-6
-2-

1

2
3

By the time Chris was seven months old, Susan wrote, Chris was developing a mind of
his own. "He trys (sic) to scream and yell to get his own way."
At 16 months, he was trying to put his things away. He'd been quite crabby, probably due

4

to his teething. He had a second degree burn on his thumb. She wasn't sure i:Bhe had burned it

5

on the stove, but was keeping the dressing clean.

6

She appears to have found a sitter for Chris, just before he turned two. She was happy

7

with Mary Rosales. At the Rosales home Chris seemed to receive the attention he needed,

8

something Susan feared she couldn't give him. Because of working and the house, Susan

9

admitted she got nervous and impatient. She questioned whether she was showing Chris a

10
11

sufficient amount of love.
Chris spent much o:Bhis time with sitters. Susan denied he spent a great deal of time with

12

her mother, claiming Alice only took him when it was convenient for Alice. She was a good

13

grandmother, but she refused to be a baby sitter. Marcia stated, Susan was always dropping the

14

kids off. Both Ray and Susan worked and after her divorce from Ray and subsequent

15

relationship and marriage with Steve Spreitz, she continued to work and go to school part time.

16

Susan received her bachelors degree in 1992 and her masters in 1994 in business administration.

17

The baby book indicates Chris was cleaning his own dishes by the time he was two. He

18

even tried to clean up his dirty pants when he had accidents. She had him potty trained when he

19

was 161/2 months old, except for accidents and at night. He continued to have a bed wetting

20

problem into his teens. Susan commented, in a baby book entry, she frequently got impatient

21

that he was not completely trained.

22

Chris' sister Gretchen was born several months before Chris turned 4. Susan and Ray's

23

problems continued. The physical abuse was of:Band on. Susan didn't think Chris was affected

24

by the fights. They usually occurred after he was put down for the night, but admitted they were

25

loud enough that a neighbor commented after the divorce that he had heard the fights.

26

27

28

During their marriage she admitted to having left Ray at least once. According to Ray,

C-7
-3-

1

Susan was constantly running to her mother's or to Reverend Trouche. She didn't always take

2

Chris with her when she left. After Gretchen was born, Susan headed to Los Angeles and stayed

3

with Reverend Trouche, but she didn't have Chris with her. Ray remembered going down there

4

and seeing Gretchen. He thought Chris was probably with Alice. Reverend Trouche did not

5

recall the children being with Susan when she was there.

6

When Chris was 4

~

he fell down the steps leading to their apartment. Susan was vague

7

about how the injury occurred. She said her mother took Chris to the hospital for stitches. She

8

had been sick, in bed. She couldn't remember where he'd cut his head or where the stitches were.

9

The medical records department at Cottage Hospital has been unable to locate the older records.

10

The only record we have to date, of when this fall occurred, is a copy of the order for a skull

11

series obtained from Dr. Delgado's practice (Chris' family physician). The first photo after this

12

fall shows Chris' left eye is turned in.

13

Sometime during the divorce, Alice, Susan's mother, approached Ray and wanted him to

14

have custody of the children. He couldn't remember if she ever told him why. He felt Alice

15

wanted the kids and figured if he had custody, she would be able to care for them.

16

Marcia, Susan's sister, stated, Alice was terrified of Susan. This is a fear she instilled in

17

Marcia, who described her sister as an emotional iceberg, with no nurturing skills. Susan also

18

has half siblings, but she is not in contact with them as she stated they are alcoholics.

19

Susan started seeing Stephen Spreitz before the divorce was final and he was still in the

20

military. They started living together in 1971 and married in 1973. Steve admitted punishing

21

Steve and Gretchen by beating them on their bare butts with a belt. Susan denied hitting the

22

children with anything but her open hand, but Steve and Gretchen both remember that Susan was

23

extremely violent, hitting the children with anything that was available, including a favorite

24

board which she eventually broke over Chris' back. She threw whatever was at hand, including,

25

once, an iron, when she was angry.

26
27
28

C-8
-4-

1

Earlv Letters From Chris To His Mom And Stepfather

2

and Family Dynamics:

3

The dates of the letters are not legible. The contents are relevant, as it coincides with

4

witness statements regarding family life. In one letter, Chris indicates he acts like a brat and

5

makes his parents mad and late lots of times. His list of things he will do in order to get a

6

motorcycle fills his day with no time for goofing off, if he performed all the tasks. He appears to

7

feel he is highly responsible for making his parents happy. The handwriting is childish, and very

8

poorly written.
According to witness' statements, at best, Chris's parents were harried working adults

9

10

who had no time to listen or do things with their children. At worst, they were punitive,

11

demoralizing, self centered, autocratic individuals. Their only interest was in only themselves.

12
13

School Years:

14

Christian School of Santa Barbara:
Chris entered Kindergarten in the fall of 1971. He appears to have had problems with

15
16

concentration, even in kindergarten. His teacher, Dianne Hall, noted he was too active at times.

17

His work needed to be neater. He needed to practice counting and had little self control. She

18

also noted, Chris did not look people in the eye when they talked to him. He seemed fearful of

19

trying something new. His stepfather, Steve, also observed that Chris never looked a person in

20

the eye whenyou talked to him. His eyes would dart left or right. He never looked directly at

21

you.

22

His first grade teacher commented, he was reading at the second grade level. She wrote a

23

letter to Susan in February 1973, telling her he talked constantly, had no concern for others and

24

frequently put others down to make himself look and feel more important. She noted he felt very

25

insecure. He had ability, but often sat and daydreamed and frequently had to stay after school to

26

finish his work. She had been trying to spend more time with him and suggested that Susan give

27
28

C-9
-5-

1

him more attention at home; let him know he was expected to do his best at school. She noted

2

that Chris had settled down considerably by the end ofithe school year. He still needed

3

improvement in his work and study habits, though.

4

5
6

During the summer ofi 1974, between second and third grade, Chris rode his bike offia
large boulder or rock and spent two days in St. Francis Hospital with a concussion.
Alice Mendenhall, Chris's grandmother died that year after she was thrown from a horse.

7

A bitter battle ensued between Marcia and Susan over the will. Susan took Marcia to court to

8

contest it. Alice had cut Susan out ofithe will.

9

Chris continued to have problems throughout his years in Christian school. Memorizing

10

verses in bible study was always his worst subject. His grades started to drop. Most ofihis report

11

cards contain checks were he needed improvement, both scholastically and emotionally.

12
13

The teachers usually commented they enjoyed having him in their class. They felt he was
definitely capable ofidoing better. He was a bright and cheerful child.

14

By fourth grade he was paper chewing. His grades improved, but he still did not have

15

acceptable study and work habits. In fifth grade his grades took another dive. He received at

16

least one D, in one out ofitwo semesters, in the following classes: bible, language, spelling,

17

handwriting, mathematics, social studies, music, work and study habits.

18

Jon Whipple was his best friend from 1970 until1975 when the Whipple family moved to

19

Vancouver, B.C. Jon confirmed Chris was frequently in trouble at school, for talking and not

20

paying attention. He confirmed that Chris had problems academically. Chris was small for his

21

age, but athletically he was quick and agile. Jon could not recall Chris ever throwing a ball. He

22

was picked on by other kids, but not severely. The two boys had banded together and decided

23

they would always defend each other. Chris was not as vulnerable as he appears to have been

24

later on. Jon was small for his age also.

25

26
27
28

C - 10
-6-

1

2

Peabody Elementary:
Chris attended Peabody Elementary for sixth grade, starting in the fall of 1977.

3

According to Susan, he was transferred to keep the kids together as Gretchen had to be transfered

4

for her dyslexia. Peabody had an excellent program for this problem. Steve Spreitz thought the

5

transfer occurred for monetary reasons.

6

Chris' sixth grade teacher indicated he was still easily distracted, but his grades improved

7

somewhat. He still received checks in all areas of work and study habits and social development.

8
9

During the sixth grade, medical records indicate Chris either became more accident
prone and/or the teasing from classmates and neighborhood kids became more physical. He fell

10

in the street playing football. He sprained his left wrist in a game at school. He was hit on the

11

back of the head with a fist, in a fight. He fell in the bathroom and hit his forehead and the

12

bridge of his nose. He had to have a small surgical procedure performed to remove blood from

13

under a fingernail, which he had hit on a door jamb.

14
15

In August 1978, he attended YMCA camp and was pushed and hit the back of his head on
a piece of furniture and needed stitches.

16
17
18

La Colina Junior High:
Susan filled out an application for an Intra-District Transfer to enable Chris to attend La

19

Colina. In her application she stated that this would ease her burden of dropping him off and

20

picking him up from schooL According to people interviewed, Chris rode his bike the four miles

21

to school and was not picked up or dropped off on a regular basis. Susan also thought the

22

academic atmosphere was better and more attuned to their expectations for Chris.

23

Chris started seventh grade in the fall of 1978. The only A he received was in Physical

24

Education and his parents received a letter of commendation about his efforts in PE. The first

25

semester he maintained an overalll.50 G.P.A. The second semester his G.P.A. was 2.33. His

26

competency exam scores that spring of 1979 were, Mathematics 100%, Reading 92% and

27

28

C - 11
-7-

1

2

3
4

Writing, pass.
He had two bicycle accidents that October. On one occasion he slid off the bike to avoid
a parked car. The second time he was hit by a car. He missed 2 days of school the entire year.
In eighth grade he maintained a 2.00 average. He took the competency exams in the

5

spring of 1979 and obtained the following scores: Mathematics 92%, Reading 98%, Writing 6

6

out of 10; a passing score being 6.

7

In the fall of 1979 he broke a finger on his right hand playing football. He fell and hit his

8

head on a piece of furniture. That winter and spring he sprained his left hand running into a wall

9

and sustained a puncture wound to his left foot. He also had bronchitis that winter, but does not

10
11

appear to have missed more than 6 days if school the whole year.
In ninth grade, 1980-81, his G.P.A. was 2.00 the first semester and 1.50 the second. In

12

April 1981 he took the minimum competency exam on which he scored a 92% in Mathematics,

13

98% in Reading and a 4 out of 10 in writing. A six is required for a passing result.

14
15

He missed 4 days of school for the year. His physical exam in May 1981 shows he was
5'2" tall and weighed 112 lbs.

16

He attended summer school at Bishop High for Algebra and ended up with a B+, after

17

receiving an F during the school year. A memo from his teacher, that semester, M. Jurgensen,

18

indicated he turned in one test with nothing on it, not even his name.

19

Laurie Poe was in many of the same classes he was. She noticed in eighth grade Chi"is

20

was goofing off in class and always clowning around. She could never understand why. His

21

personality became more outgoing in many ways. He was always smiling and trying to get

22

people to laugh. Unfortunately this frequently occurred at inappropriate times. He was always

23

sweet and extremely kind to her. This niceness seemed to attract the bullies, who would pick on

24

him just because they could.

25

26
27

28

Chris's only close friend during these years was Devon Poe, who he met in the fall of
1977. Devon played football in the YFL League and the two boys were described as being

C - 12
-8-

1

inseparable. Devon was two years younger than Chris.

2
3

High School Years:

4

Chris entered Santa Barbara High School in the fall of 1981, as a sophomore. The school

5

was just changing over from a three to four year school . During the three years he attended, his

6

G.P .A. never went above a 2.0. He was placed on probation in February 1982 for his poor

7

grades, which were attributed to poor attendance.

8
9

He was tested by the school psychologist, Frank Puchi, that February. His test scores
indicated problems in visual perception, visual figure ground, visual closure and visual memory.

10

Susan was vague as to what transpired during the meeting between Dr. Puchi and herself. She

11

couldn't recall if Chris was there. It is not known at present if Chris was aware of the results of

12

the tests, or what he was told. The paperwork which Susan supplied indicates an appointment

13

was to be arranged, but there is no way to verify if it ever took place.

14

Dr. Puchi made several recommendations, among them a visual screening. It does not

15

appear this was ever done. No one in the family was aware of the testing, or the results,

16

including Chris' stepfather. The tests do not indicate if a full emotional testing was conducted.

17

John Spreitz, Chris' uncle, is a psychologist and worked with juveniles in the criminal system for

18

many years. He stated, if one of his patients tested similar to Chris, at the very least he would

19

order a full battery of tests. The tests are also indicative of someone with ADD.

20

In spite of Chris' poor grades, he was allowed to have a dirt bike motorcycle. Chris'

21

sister, Katie, was born in May 1982,just before Chris turned 16. Susan stated he was somewhat

22

embarrassed to have his mother pregnant. After Katie was a couple of months old, he was

23

always proud to show Katie off to his friends.

24
25
26

27

28

Chris attended summer school in 1982 for his Spanish class which he flunked the second
semester. In summer school he obtained a C+.
His uncle Butch died in 1982 of cancer. He had been confined to a wheelchair before he

C - 13
-9-

1

died. Butch used to take Chris to the races with him and they had a fairly close relationship. No

2

one was able to comment as to how Chris felt about his uncle's illness and death, as no one

3

apparently talked to him about his feelings. Feelings were not encouraged in Chris' family.

4

Chris' sister, Gretchen, started vandalizing homes in the neighborhood in the fall of 1982

5

and was subsequently arrested. The family attended counseling for a month or two and Gretchen

6

was placed in the custody ofher father in 1983, who was then living in San Jose. There is

7

nothing regarding the counseling session in the juvenile records. The counselor, Mary Jane

8

Hungerford, passed away in 1999. It is unknown whether records exist, or ifher practice was

9

taken over by someone else.

10

After the arrest and during the court proceedings, Gretchen made allegations of sexual

11

molestation by her step-father, Steve. She still maintains she was molested and she supplied

12

details when she was interviewed. It seems Chris was probably aware ofwhat was occurring at

13

the time.

14
15
16

Two classmates of Chris' died in 1982- a teammate died of cancer in the fall, and a guy
by the name ofWally either jumped or fell off a bridge.
That year Susan became aware that everything that went on in the downstairs portion of

17

their house could be clearly heard in Chris' room, due to the venting system. According to Steve,

18

many of the arguments which took place after the kids were in bed occurred downstairs, so the

19

kids wouldn't hear.

20

21
22

Chris wa:s involved in a fight in school, in June 1983, and sustained a cut to the left side
of his head near his eye and received stitches.
In January 1983, Chris' best friend, Devon, committed suicide by shooting himself.

23

Chris, Dennis Patterson and Devon had worked out in the gym just hours before. Chris was

24

deeply shocked, he called several people, but does not appear to have found anyone to talk with,

25

about it. Gretchen stated her mother told her, "Devon shot himself." Susan turned around and

26

went about her business. Gretchen just stood there and then went to see Chris. He was in his

27
28

C - 14
-10-

1
2

room crying.
Members of the family described Chris' roorri as a filthy pig sty. Gretchen recalled that

3

Chris' room was always kept very dark and he would spend days in it, only coming out to get

4

food, which he took back into the room to eat.

5

Chris' grades continued to spiral downward. He attended the Dubin Learning Center, a

6

private tutoring center in Santa Barbara, in the spring of 1983. Mr. Dubin's letter indicates Chris

7

needed individual assistance in order to deal with his outstanding academic deficits as well as his

8

poor self image and low self-confidence. He was not re-enrolled at the Dubin Center, but he did

9

attend summer school. Chris' mother stated she didn't keep him at the Dubin Center, probably

10

because ofhis rebellion. It is highly likely the real reason was the cost of this private tutoring, as

11

most of the family interviewed stated that Susan's driving force was money. Steve was a home

12

dad about that time. Katie was a year old and Steve had been laid off by Burroughs.

13

Even though Chris' grades remained dismal, his stepfather and grandfather, Gaylord

14

Spreitz, cosigned so Chris could purchase another motorcycle. He rode this bike to and from

15

school and work. He did not follow through and Susan stated she ended up paying off the loan.

16
17

18

His senior year in school shows a change in the type of classes he took, but his grades did
not improve much.
Despite his poor grades, Chris played football all three years. He didn't letter until his

19

senior year. Friends ofhis from the team stated that Chris gave the game all he had, but he

20

wasn't very coordinated and only played when the team was so far ahead they couldn't lose.

21

Chris was good natured about the razzing his teammates gave him and never got angry that he

22

didn't play. He lettered because he was on the scrub team that practiced against the first string.

23

24
25

26

27
28.

Tony Becerra's description of Chris indicates his clumsiness was possibly due to his feet
and joints getting ready for a growth spurt, that didn't occur until he was about 19 or 20 years old.
Chris hung out with the Hispanic portion of the football team. As teens, Richard Becerra
and Dennis Patterson said it was kind of funny, here were all these dark skinned, black haired

C - 15
-11-

1

boys and Chris. They accepted him into their group because he gave the game his all, even

2

though he was so clumsy.

3

Chris didn't date in high school. The group he hung out with consisted of several girls,

4

but they were friends only. They partied pretty hard and Chris drank with the best of them. His

5

personality and attitude did not change when he drank, except that he would talk non stop. He

6

did suffer from frequent blackouts, however. Chris would act fine but the next day wouldn't

7

remember a thing. It was then that his friends realized he had been operating in a blackout.

8
9

In March 1984, Susan and Steve received a notice from the insurance company that their
policy would be canceled due to the numerous speeding tickets Chris had received. Chris was

10

told to move out of the house. Susan claims this was Steve's idea. She did not want Chris to

11

leave, but she felt she had to show a united front with her husband. Steve admitted he threw

12

Chris out once, but it was Susan's idea the second time.

13

Chris traded his bike for a truck and slept in the truck and at work. He appears to have

14

tried to continue school, but he didn't graduate. Records indicated he dropped out in April. He

15

did attend the senior prom that spring.

16
17
18

1984 to 1989:
Juvenile records indicate Chris was arrested in March 1984, for receiving stolen property.

19

According to Vince Owens, his roommate, Chris bought a motorcycle from two co-workers

20

which was stolen. Chris claimed not to have known it was stolen.

21

He had no previous juvenile record. He was made a ward ofthe court, even though he

22

had turned 18 during the court proceedings. He was ordered to pay restitution in the amount of

23

$1,530.00. His mother claimed she and Steve did not know about this incident prior to his

24

moving out.

25
26

27

28

The November 6, 1984 interviews conducted by the probation officer indicate Chris was
working at La Cumbre Chevron, where he slept in his truck. His mother was reportedly in China

C - 16
-12-

1

and unavailable for comment. His stepfather thought Chris was generally a good kid, who had

2

gotten involved with the wrong people~ One portion of the file indicates his biological father's

3

whereabouts were unknown. Considering Gretchen was living with him in San Jose at the time,

4

one wonders why the interviewer was given this information and by whom.

5

When Chris finally got an apartment in 1984, he roomed with Vincent Owens. After

6

Vince moved to Golet, Chris roomed with another fellow who's identity is unknown. This

7

unknown individual is reported to have been heavily involved in drugs.

8

Gretchen returned to Santa Barbara after running away from a group home she'd been

9

placed in, at the recommendation ofher counselor and psychologist, in San Jose. After she ran,

10

her mother sent her a bus ticket, to bring her back to Santa Barbara. She stayed with her mother

11

for several months until she was also thrown out of the house. After bouncing around for several

12

months she ended up living with Chris at his apartment and he attempted to keep an eye on her.

13

By her own account, she was uncontrollable. There is nothing in Gretchen's juvenile record in

14

Santa Barbara to suggest she was a runaway.

15

Information varies as to how involved Chris' mom and stepfather were with regards to

16

helping out financially. Susan stated she paid for groceries and utility bills; Gretchen was not

17

aware of any financial assistance. Ray Jackson continued to pay child support for Chris until he

18

turned 18 and for Gretchen after her return to Santa Barbara. He was not aware Chris or

19

Gretchen had been thrown out of the house until much later.

20

Chris enrolled at Santa Barbara City College in the fall of 1985, but dropped out.

21

In the late spring of 1986, Chris contacted his father, Ray Jackson, who had moved to

22

Tucson. Chris moved to Tucson in June and enrolled in Canyon Del Oro High school in the fall

23

of 1986. He took three classes. It appears he was attempting to make up credits for his high

24

school diploma. The records indicate he fudged about his age, making himself a year younger.

25

He did not finish the semester and withdrew from school.

26

27
28

Ray and Linda Jackson stated Chris was in typical teen mode. Chris always worked at

C - 17
-13-

1

some type of job, and never talked about school or whether he was having problems. His room

2

was always a swamp. You could smell it through closed doors. He drank beer and they had to

3

hide a couple, or he'd drink it all.

4

After about a year, it was obvious it was time he got out on his own. He was keeping

5

unusual hours, sleeping all day and staying up all night, even if it was just to watch TV. They

6

found him an apartment, paid first and last months' rent and bought a month's worth of

7

grocenes.

8
9

10

Shortly after that, Jon Whipple came to Tucson and lived with Chris for 6 to 8 months
before going back to Canada. Chris moved back to Santa Barbara after that.
In 1986 and 1987, he dated many women or girls, both younger and older than he was.

11

Tammy, the mother of Chris' daughter, and Rachel Koester, his serious girlfriend who broke his

12

heart, saw nothing in his demeanor that indicated he had any violent tendencies. Both women

13

admitted to having been more aggressive than he was with regards to their sexual relationship.

14

Chris frequently returned to Santa Barbara throughout the time he lived in Tucson. Ray

15

and Linda Jackson both noted that his mood changed whenever he talked to his mother. They got

16

the impression from Chris that she was always making promises and plans, which always seemed

17

to fall through. Some of these plans included Chris' coming back to Santa Barbara.

18

In 1987, when Chris returned to Santa Barbara, he worked as manager in a Pizza Hut

19

Restaurant. His friends were under the impression that everything was fine. He and Rachel

20

Koester continued their relationship after he moved, until she broke it off several months after he

21

was in Santa Barbara. According to his mother, and Rachel, Chris was very upset when he

22

received the Dear John letter.

23

Chris returned to Tucson in 1988. According to the statement given by Don Alden in

24

May of 1989, Chris answered an ad in the paper in or around May 1988 and came to work for

25

him, as his personal aide and nurse. Don Alden was a paraplegic. He died January 1, 1992,

26

according to the probate records.

27
28

C - 18
-14-

C - 19
28

-15-

1

his employ, by mutual agreements. They remained friends and Chris called him from California.

2

When Mr. Alden visited Chris in jail after the incident, he told Sharon Kubiac, who was also

3

there visiting Chris, "I love Chris. He is the most pleasant boy I have ever known."

4
5
6

Mav 1989:
What transpired when he returned to Santa Barbara in May 1989 is not entirely clear. He

7

spent time with his mother, the Becerra brothers, Dennis Patterson and his cousin, Scott Jouett.

8

Susan stated that Chris told her he wanted to come back horne. She did not tell him he

9

couldn't. She told him he had to go back to Tucson to square things with his employer and

10

roommate. From Chris' letters to his uncle John and from what Chris told Ray, Susan had

11

offered him a job, taking care of the apartments. In return he was to receive an apartment for

12

$125.00 a month. When he got to Santa Barbara, his morn had hired a college student instead.

13

In Susan's original statement to Richard Bozich, she alludes to the apartment and the

14

amount of the rent. She also alludes that it was Chris' idea, not hers, for him to move into the

15

apartment at a discounted rate, in return for taking care of the complex. She claimed at that time

16

that she had no power to make that kind of decision, because of Steve and the divorce.

17

Richard and Tony Becerra and Dennis Patterson stated that Chris didn't mention that he

18

might be moving back to Santa Barbara when they saw him. They had suggested this

19

themselves. Chris told them no, he had a new job in Tucson and he was going back to school. In

20

retrospect, he seemed more hyper and tense at the time.

21

Chris returned to Tucson approximately one week prior to May 18, 1989.

22

Witnesses talked about the fund raising effort, after Chris was arrested. Susan and Steve

23

both stated they had wanted to raise money for Chris' defense. Susan alleged she could not

24

afford to do so on her own. According to the divorce records filed in December, 1989, Susan and

25

Steve owned a million dollars worth of property in Santa Barbara. There were encumbrances on

26

some of it, but Susan was not as poor as she alleged at the time, and still maintains. Susan

27

28

C - 20
-16-

1

complained bitterly about Marshall Tandy's performance, yet she was able to attend only a half a

2

day of the trial and didn't show up for the sentencing. She washes her hands of any

3

responsibility for not hiring a private lawyer, blaming other family members for not contributing,

4

even though Ray paid for the psychiatrist, Dr. Blinder, and psychologist, Dr. Flynn.

5
6

Witness Reactions to Learning about Chris's Situation:
Many of the witnesses contacted did not know Chris was in jail, much less that he was on

7

8

death row. They all stated, it was impossible to conceive that Chris had murdered someone. In

9

the years they knew him, he displayed no temper or any propensity for violence. He rarely

10

displayed anger. He was a kind and gentle person.

11

12

Claims for Relief:

13

I. Ineffective Assistance of Counsel at the Guilt/Innoceil§e Phase of Trial.

(\

Trial counsel for petitioner committed ineffective assistance of counsel at the

14
15

guilt/innocence phase of trial, in violation of the Fifth, Sixth and Fourteenth Amendments to the

16

United States Constitution and Art. 2. §§ 4 and 24 of the Arizona Constitution, in the following

17

respects:
A. Counsel Failed to Properly Contest the Speedy Trial Violation in Defendant's

18
19 ·

Case.
In it opinion in this case, the Arizona Supreme Court recognized the gross violation of

20

21

Rule of Criminal Procedure 8, but laid the blame for the failure to legally vindicate defendant's

22

rights on his attorneys' 1 failure to timely file his motion to dismiss or to notify the trial court and

23

prosecutor of the impending violation. See State v Spreitz, 190 Ariz. 129, at 138-39, 945 P.2d

24

1260, at 1269-70 (1997).

25
26

27
28

1

Defendant alleges ineffective assistance of counsel on this issue
as to both his trial attorneys, William Lane and Marshall Tandy.
C - 21
-17-

1

The time line regarding this issue needs to be set forth. Defendant was arrested on May

2

25, 1989. Defendant was arraigned oh June 12, 1989. (ROA 14). After several continuances,

3

his pre-trial conference was held on August 30, 1989, and the trial was ordered to be set for

4

February 14, 1990. (ROA 23). That date was 264 days after defendant's arrest, and 246 days

5

after his arraignment. Since both dates were well beyond the Rule 8 limits, see Rule ofi Criminal

6

Procedure 8.2(a) and (b), the judge advised defendant that he had a right to have the trial sooner,

7

but the defendant agreed on the February trial date. (RT 8/30/89 at 4-5).

8
9

On January 25, 1990, after the state notified the court that her DNA expert from the FBI
would not be ready until March, counsel for the defendant inexplicably moved to continue the

10

trial date. (ROA 32; RT 1/25/90 at 2-6). The trial was reset to April3, 1990. Id. Counsel was

11

directed to file a written motion to continue and waiver by defendant. In the motion, Mr. Lane

12

referenced the fact that the interviewing ofi state's witnesses had not been completed, in addition

13

to the delay in processing the DNA evidence by the FBI. (ROA 33).

14

At the continued status conference on March 27, 1990, counsel for defendant, Mr. Lane,

15

informed the court that defendant wished to change attorneys and that the family was attempting

16

to hire a private attorney, Jeffrey Bartolino. (ROA 38; RT 3/27/90 at 2-6). On April2, 1990, the

17

court was informed that Mr. Bartolino would know within two weeks whether he was to be

18

retained based on the defendant's mother trying to obtain a loan. The court found the case could

19

not be tried on April 3 for that reason and for the reason that even though the state had received

20

the DNA results from the FBI, they had inexplicably not been disclosed to the defense. (ROA

21

39; RT 4/2/90 at 2-7). Defendant waived Rule 8 again. Id.

22

On May 4, 1990, Mr. Bartolino informed the court that he had still not been hired.

23

Defendant again waived Rule 8 and the trial was reset to September 11, 1990. (ROA 41; RT

24

5/4/90 at 2-9). On May 24, 1990, Mr. Bartolino informed the court that he would not be

25

retained; the September 11, 1990 trial date was affirmed. (ROA 42).

26

27
28

On August 29, 1990 the state filed a motion to compel counsel for defendant to submit

C - 22
-18-

1

dates for witness interviews, expressing frustration that counsel was not diligently pursuing the

2

interviews. (ROA 50). On September 6, 1990, the court gave counsel until September 12 to

3

establish dates for interviews. (ROA 51; RT 9/6/90). On September 11, 1990 counsel filed

4

another motion to continue the trial, citing the fact that interviews had not been completed, that

5

he "wasn't able to arrange to hire the experts necessary to deal with the admissibility o£the DNA

6

evidence" and the fact that he had the flu for two weeks. (ROA 54). The court then continued

7

the trial until January 24, 1991, 20 months after defendant's arrest. (ROA 55; RT 9/11/90).

8
9

Notwithstanding his representation to the court in his motion for continuance, coupled
with the fact that he had been aware that DNA was an issue at least nine months earlier, counsel

10

did not file a motion with the court requesting the appointment o£ a DNA expert until September

11

12, 1990. (ROA 59). On September 17, 1990, the court "reluctantly" granted his request. (ROA

12

61; RT 9/17/90 at 7-10).

13

On January 14, 1991, counsel again filed a motion for a continuance o£the January 24

14

trial date. (ROA 81). The motion cited the fact that witnesses had still not been interviewed and

15

that a hearing still had to be conducted and prepared for regarding the admissibility o£DNA

16

evidence. That same date a hearing was held, although the defendant was not present, and the

17

trial was continued again, this time to April23, 1991. (ROA 82). Defendant thereafter filed a

18

written waiver and an acknowledgment o£the April23 trial date. (ROA 83; RT 1/14/91 at 7).

19

Six days before trial, on April 17, 1991, Mr. Lane filed a motion for appointment o£ a

20

second attorney skilled in DNA. (ROA 92). For the first time, counsel acknowledged that DNA

21

"requires skills that the undersigned does not possess." Id. On April23, 1991, the trial date was

22

vacated and continued, although defendant was not present. (ROA 97). No new trial date was

23

set, only a status conference date. Id. Defendant never submitted a Rule 8 waiver.

24

The rest o£the year was consumed with new counsel's (Ms. Sotelo) handling o£the DNA

25

issues. On November 7, 1991 the court, in a comprehensive minute entry, set dates for the

26

hearing on the admissibility o£the DNA evidence, through December 20, 1991. (ROA 122).

27

28

C - 23
-19-

1

On November 26, 1991, Mr. Lane moved to withdraw from the case based on the fact that

2

his father had been diagnosed as terminally ill. (ROA 130). On December 3, 1991, new counsel,

3

Marshall Tandy, was appointed for defendant. (ROA 131).
On April 6, 1992 the court granted Ms. Sotelo's motion for a stay to file an application

4

5

for special action to the court o£appeals. (ROA 151). The stay was to last until April27, 1992.

6

Id. On April22, 1992, the court extended the stay to May 11, 1992. (ROA page 1576t No

7

further stay was entered, but a minute entry from June 15, 1992 notes that the court o£ appeals

8

declined jurisdiction o£the special action, and a status conference was set for June 22, 1992.

9

(ROA 158). On June 22, 1992, the status conference was reset to July 13, 1992, and the court

10

specifically found that the time was attributable to the defense because a petition for review to

11

the Arizona Supreme Court was being sought. (ROA 159; RT 6/22/92). That status conference

12

was continued to August 14, 1992 (ROA 161) and that status conference was continued, in turn,

13

to September 14, 1992, while awaiting word from the Supreme Court. (ROA 162; RT 8/14/92).

14

On August 19, 1992, the judge sua sponte wrote the Chie£Justice o£the Supreme Court

15

asking for an expedited ruling on the petition for review and noting that the case was now over

16

two years old. (ROA 163). On September 14, 1992 defendant wrote the judge, expressing

17

concern that in the past year he had only seen his attorney, Mr. Tandy, one time for 15 minutes.

18

(ROA 164). The defendant concluded by asking for a new attorney, "who will take an interest in

19

my court case and not just spend the court's money." Id. At the hearing that date, Mr. Tandy

20

assured the court that "I have been discussing this, with Mr. Spreitz, and I don't think we have

21

any kind o£problem, between one and (sic) another at this point." (RT 9/14/92 at 4). The

22

defendant still expressed concern, however, telling the court, "I wonder whether he understands

23

what's going on, and, he could come out and talk to me a little more often." Id.
On November 9, 1992, the record notes that the Supreme Court had denied review.

24

25

26
27

28

2

For some reason, this entry is not contained in the index, so it
is referenced herein by page number.
C - 24
-20-

1

(ROA 169). On November 19, 1992 the court set the remainder o:Dthe hearings on the DNA to

2

be conducted in the latter part o:DJanuary, 1993, more than a year after the original DNA

3

evidentiary hearing was due to be conducted. (ROA 172). The hearings dragged on, however,

4

and on February 1, 1993 the court set resumed hearings through April 23, 1993. (ROA 178).

5

Those hearings were then reset to April28 and 29, 1993. (ROA 180). At that time, the

6

defendant also asked for a hearing regarding Mr. Tandy's representation o:Dhim. Id.
At the hearing on March 3, 1993, Mr. Tandy advised the court that the DNA issues were

7
8

taking all the time and so his presence in the case was not visible. (RT 3/3/93 at 2-4). Defendant

9

addressed the court and stated that he had visitation slips showing that in a year and one-half1 Mr.

10

Tandy and his investigator had only visited him a total o£32 minutes! (RT 3/3/93 at 5). "I'm not

11

exactly sure- but, something doesn't seem right." Id. At the hearing on March 19, 1993, after

12

apparently receiving assurances from Mr. Tandy, the defendant withdrew his motion for new

13

counsel. (RT 3/19/93 at 7). The defendant and the prosecutor noted, however, that defendant

14

had been in custody for almost four years. Id.
On May 5, 1993, the judge ordered counsel to submit proposed findings o:Dfact and

15
16

conclusions o:Dlawregarding the DNA issue by June 4, 1993. (ROA 194). The DNA hearings

17

continued into June, however. No hearings took place after June 3, however, and on August 17,

18

1993, the court set a status conference for August 23, 1993. (ROA 209). On August 23,

19

argument was set for October 4, 1993. (ROA 21 0). On October 4, 1993 the court set a hearing

20

on pending motions for April 27, 1994 and the trial for June 28, 1994. (ROA 213). ·

21

Unfortunately, whatever conversations may have occurred wherein it was decided to set the trial

22

so far

23

long.

24

of~ were

not transcribed, so no record exists on why the court chose to postpone the trial so

Finally, on January 12, 1994, the court made an in-chambers ruling regarding the DNA

25

issues and signed the findings and conclusions which had been submitted by the state. (ROA

26

230). Notwithstanding the October 4, 1993 order setting the trial for June 28, 1994, the court

27
28

C - 25
-21-

1

issued a minute entry on February 11, 1994 setting a status conference for the reason that no trial

2

date was set. (ROA 232). The status conference was then reset for February 18, 1994, but there

3

is no record o£its having taken place. (ROA 233). The next entry in the record is April27, 1994

4

when another evidentiary hearing regarding DNA took place. (ROA 234). There is absolutely

5

nothing in the record to indicate why this delay occurred or that it was excluded time.
On May 27, 1994, almost two and one-hal£years after being appointed to the case, Mr.

6

7

Tandy filed his first substantive motions, to suppress evidence under two similar theories ..

8

(ROA 235, 237). On June 2, 1994 counsel filed another motion to suppress. (ROA 239). On

9

June 3, 1994, during another hearing on DNA the court ruled that DNA would not be admissible

10

at trial for failure of the FBI to comply with disclosure orders of the court. (ROA 241, RT 6/3/94

11

at 54). At the hearing on the suppression motion on June 15, 1994 counsel for the first time

12

advised the court that he was filing a motion to dismiss for violation o£ speedy trial rights. (ROA

13

at page 2090; RT 6/15/94V On June 16, 1994 counsel filed a motion to dismiss and motion for

14

release, citing constitutional and statutory violations. (ROA 247.)
On June 17, 1994 Mr. Tandy, in absence ofthe defendant, and waiving a court reporter,

15
16

asked that the motions hearing be continued and reset to June 28, 1994, the present trial date.

17

(ROA 252). On that date, testimony was taken and argument was set for July 6, 1994. (ROA

18

254). On July 25, 1994 the court denied defendant's speedy trial motion. (ROA 256).4 In so

19

ruling, the court found that the delay was attributable to both the defense and the prosecution, but

20.

that the defense had failed to properly assert defendant's speedy trial rights. The court £urther

21

found that defendant was not prejudiced due to the delay.
This latter point is incorrect, however. Significant evidence which was essential to the

22

23

24

3

For some reason this minute entry does not appear in the index.
25
26
27
28

4

Although the record on appeal states that the July 19, 1994
minute (ROA 255) appears on page 2157, it actually appears on
page 2161, following the July 25, 1994 minute entry.
C - 26
-22-

1

defense, especially for mitigation purposes, was lost as a result o£the delay. For example, Don

2

Alden, an essential mitigation witnesses (as discussed infra) died in 1992 and was, therefore,

3

unavailable to testif:y at the mitigation hearing. Also, had counsel raised the speedy trial issue in

4

the first instance, on January 25, 1990, after the state notified the court that her DNA expert from

5

the FBI would not be ready until March, instead of! inexplicably moving to continue the trial date,

6

(ROA 32; RT 1/25/90 at 2-6), the state would in all likelihood have offered a plea bargain, at

7

least alleviating defendant of! having to face the possibility o£the death penalty at sentencing. It

8

wasn't until August 29, 1990 that the state even noticed its intent to seek the death penalty.

9

(ROA 49).

10

In its ruling in defendant's case, the Arizona Supreme Court found that defendant

11

explicitly waived his Rule 8 rights through April23, 1991. In so finding, however, the court

12

noted that on April 2, 1990 and again on May 4, 1990 defendant requested the continuance

13

because his mother was attempting to hire private counsel. As has been pointed out, during this

14

time, counsel was continually admonished by the court for having failed to conduct defense

15

interviews or notice expert witnesses.

16

It wasn't until April 17, 1991, eight days before trial was supposed to commence that

17

counsel acknowledged that DNA "requires skills that the undersigned does not possess." (ROA

18

92). By that time, defendant had been incarcerated for almost two years and counsel had been on

19

notice that DNA was an issue since before January, 1990. In fact, on January 25, 1990, after the

20

state notified the colirt that her DNA expert from the FBI would not be ready until March,

21

counsel for the defendant inexplicably moved to continue the trial date. (ROA 32; RT 1/25/90 at

22

2-6). That counsel for the defense would request a continuance to allow the prosecution to

23

prepare for its DNA evidence against defendant is egregious. Defendant had confessed; counsel

24

had no reason to believe the DNA evidence would help the defendant.

25
26

27
28

That attorney, William Lane, then withdrew from the case on November 26, 1991 citing
the fact that his father had been diagnosed as terminally ill. (ROA 130). Although that fact is

C - 27
-23-

1

certainly regrettable, it is not a credible reason to withdraw from a case. More likely, counsel felt

2

overwhelmed by the case and did not want to be responsible for the result. Counsel's entire

3

performance to that time, two and one-hal£ years after defendant's arrest, can only be described

4

as dismal. He had not timely interviewed witnesses, he had not followed up on the information

5

received from his mental health experts or sought to correct their misimpressions as to the facts

6

o£ defendant's life through more thorough investigation, he had hired an investigator who

7

submitted interview tapes with so many gaps that they were worthless and who never submitted

8

reports, counsel had failed to file motions and had raised defenses which he was not attempting

9

to prepare. By the time he withdrew, the defense was in shambles.
When Marshall Tandy took over as attorney for the defense, he did no better. A review

10
11

o£ the defense file shows that he did not conduct a single witness interview. The file contains

12

zero work product o£Mr. Tandy from December, 1991 until he finally filed the motions to

13

suppress evidence, in May, 1994.
On September 14, 1992 defendant wrote the judge, expressing concern that in the past

14
15

year he had seen Mr. Tandy only once, for 15 minutes. (ROA 164). While the Supreme Court

16

faulted the defendant for failing to bring to the trial court's attention the fact that the three year

17

delay to litigate DNA issues was a violation o£his rights, see State v Spreitz, 190 Ariz. at 138,

18

945 P.2d at 1269, the defendant cannot be faulted when his counsel spent no more than 15

19

minutes a year consulting with him. A defendant cannot be expected to argue his own motions to

20 ·

the court. The Supreme Court seemingly recognized this when it held that Rule 81.(d),

21

Ariz.R.Crim.Pro. "requires defense counsel to 'advise the court o£the impending expiration o£

22

time limits in the defendant's case."' Id. (Emphasis supplied). "Defendant could have asserted

23

his rights and filed a motion to dismiss any time after thirty-three days past April 23, 1991; he

24

elected not to do so." Id. at 139, 945 P.2d at 1270. Although the first part o£that statement is

25

undoubtedly true, the second part is not. I£ defendant's attorneys never asserted his rights for

26
27

28

5

Mr. Tandy was recently convicted of a federal felony.
C - 28
-24-

1

2

him, defendant was not in a position to do so.
In conclusion, both o:Ddefendant's trial attorneys, Lane and Tandy, were ineffective in

3

failing to timely assert defendant's speedy trial rights. Defendant's judgments o:D conviction and

4

sentences must be reversed.

5

B. Counsel Failed to Present the Insanity Defense.

6

In his statement to police, defendant cried, "I need help." On January 3, 1990,

7

defendant's first counsel, William Lane, filed his Rule 15 disclosure listing insanity and

8

"impulsivity" as defenses. (ROA 29). On August 29, 1990, over eight months later, the state

9

filed a demand for disclosure. (ROA 48). The motion noted that although the defense had

10

disclosed two defenses o:D a psychiatric nature, no expert had been disclosed. The same day, new

11

counsel for the state filed a notice o:D intent to seek the death penalty. (ROA 49).

12

On November 26, 1990, counsel filed a motion requesting that James R. Allender, Ph.D.

13

be allowed a "face-to-face" interview with defendant at the jail. (ROA 71). This is the first

14

indication in the record that counsel had actually made any effort to have defendant evaluated,

15

more than a year after his arrest.

16

In fact, an evaluation o:D defendant had been done almost immediately after his arrest.

17

Martin Blinder, M.D., a psychiatrist, had seen Chris on May 31, 1989 within a week o:Dhis arrest.

18

According to Chris' mother, Susan Mendenhall, Dr. Blinder recommended neurological testing

19

and Mr. Lane requested $1,000 for same from the family. Ms. Mendenhall claims she sent Mr.

20

Lane a check for that amount, but then stopped payment on the check when he did not return her

21

phone calls. Counsel never sought funds from the court to pay for the testing, which was never

22

done. In fact, Dr. Blinder's report is not even contained in the materials received by undersinged

23

counsel and only came to light through the efforts o:Dthe present investigator, Cheryl R. Fischer.

24

It is unknown whether Mr. Tandy had access to Dr. Blinder's report or had any contact with Dr.

25

Allender, due to the fact that nothing appeared in the files given to undersigned related to either

26

the psychiatrist or the psychologist.

27
28

C - 29
-25-

1

On January 2, 1991, the state filed another demand for disclosure requesting any

2

witnesses who would be called in either the defense-in-chief or in mitigation at sentencing.

3

(ROA 206). The motion also asked for a statement to the effect that no mitigation would be

4

presented, if that was the case. Id. The state also let it be known that it would be contesting any

5

claim that defendant was intoxicated at the time of the crime.

6

The fact that counsel filed an insanity defense after Dr. Blinder evaluated defendant can

7

only lead to the conclusion that counsel believed that there was enough evidence of temporary

8

insanity to warrant the use of that defense. Dr. Joseph Geffen, who recently tested and evaluated

9

defendant at the behest of undersigned counsel, came to the conclusion that defendant was

10

temporarily insane at the time of the commission of the offense and that this defense would have

11

been viable under the law in effect at that time, A.R.S. § 13-502.

12

Despite overwhelming evidence that defendant was operating in an alcoholic blackout at

13

the time of the crime (see defendant's statement to police) counsel did nothing to seek an expert

14

with knowledge of that area. Nor did counsel investigate defendant's head injuries as a child, or

15

follow up on Dr. Blinder's suggestion that neurological testing be conducted.

16

At the time of the crime, the old insanity law was in effect and could have been utilized

17

by defendant. That law, A.R.S. § 13-502 stated that, "A person is not responsible for criminal

18

conduct by reason of insanity if at the time of such conduct the person was suffering from such a

19

mental disease or defect as not to know the nature and quality of the act or, if such person did

20

know, that such person did not know that what he was doing was wrong."

21

Notwithstanding the fact that counsel noticed the defense of temporary insanity, he failed

22

to pursue it by investigating defendant's past head injuries, his blackout on the night of the

23

murder, and his overwrought mental state at the time of the commission of the offense.

24

Counsel's conduct was ineffective. But for his ineffectiveness, defendant would probably have

25

been acquitted of the crime based on temporary insanity. The judgments of conviction and

26

sentences must be reversed.

27
28

C - 30
-26-

C. Counsel Never Objected to Irrelevant and Highly Prejudicial Testimonv

1

2

Regarding Homosexuals.
At trial Sgt. Victor Chacon of the Tucson Police Department testified that he interrogated

3
4

defendant by the side of the road on the night he was stopped shortly after the victim was killed

5

(unknown to the police at that time). Chacon testified:
Well, I asked him ifhe was gay, and his response was, well, a little
bit.

6

7

Well, there is a sex act that, I guess, homosexuals involve in where
they insert their hand or an arm into the (sic) their partner's rectum
and there is some transference of fecal matter sometimes or most
ofthe time.

8
9

10

RT 8/10/94 at 251.

11

Counsel never objected to this unbelievably prejudicial and totally irrelevant evidence.

12

Supposedly, Chacon asked the question because he thought that might be an explanation as to

13

why defendant had blood and fecal matter on his clothes, but why he asked the question was

14

totally irrelevant, as was the question regarding whether defendant was a homosexual. All it did

15

was to disgust the jurors and prejudice defendant in their eyes, especially those who harbored

16

bias against homosexuals in general.
Counsel should have anticipated the question and response, first, because it was contained

17

18

in Chacon's police report, but even if counsel never read Chacon's police report, he testified

19

exactly the same during the hearing on the motion to suppress prior to trial. RT 6/28/94 at 64.

20

Not only did not counsel not object or file a motion in limine to prevent the state from inquiring

21

into this highly offensive and prejudicial area, counsel never requested the court to inquire of the

22

prospective jurors their bias towards homosexuals. RT 8/9/94 at 155. (Counsel declined the

23

opportunity to personally voir dire the jurors).6
Counsel's ineffective response to this highly prejudicial line of testimony cannot be said

24

25

26
27

28

6

In fact, not only did counsel not voir dire the jurors himself,
he never submitted any questions for the court to ask.

C - 31

-27-

1

2
3
4

to have been harmless. Defendant's judgments of conviction and sentences must be reversed.
D. Counsel Never Had a Theory of the Defense and Failed to Present Anv Witnesses

or Give Defendant the Opportunity to Participate in that Decision.
After the state rested its case at trial, counsel for the defense rested, as well. RT 8/16/94

5

at 651-652. Counsel informed the court at bench that he had no witnesses. Id. at 651. This is

6

after having informed the jury during his opening that he hadn't decided whether the defendant

7

would testify or not. RT 8/10/94 at 218. ("I will tell you right now that we haven't decided yet

8

whether Mr. Spreitz is going to testify.... So if you are sitting there thinking, we may or may not

9

hear from Mr. Spreitz, that is the right frame of mind. We may or may not hear from him. This

10

11

decision is not made at this particular point in time.")
Counsel effectively conceded the case to the state in his opening. "I think it is going to be

12

certifiable that in this case I'm not going to be here saying to you during the course of the next

13

few days they have the wrong guy." RT 8/10/94 at 211. "[W]e are not denying his responsibility

14

in the death ofRuby Reid." Id. at 212. "That sounds pretty bad. Not much doubt left here as to

15

probably what happened ... " Id. at 212-13.

16

Counsel never had a theory of the defense, although he did, lamely, suggest to the jury at

17

the conclusion of his rambling opening that the defendant was guilty of a lesser degree of

18

homicide than first degree murder. RT 8/10/94 at 218. Given that counsel never had a theory of

19

the defense, despite there being the obvious defense of temporary insanity (see argument IB,

20

supra), it is not surprising that he never presented a defense or called witnesses.

21

Not only was failing to present a theory of the defense a fatal mistake, additionally

22

counsel never discussed the matter with the defendant. In fact, counsel told the defendant that he

23

had lined up several witnesses to testify and that the defendant also may testify, and defendant

24

was surprised when counsel suddenly rested.

25

Again, during his closing, counsel rambled and appeared confused. "I don't remember

26

exactly when it was that we started. I think it was last Tuesday." RT 8/17/94 at 693-94. "You

27
28

C - 32
-28-

1

know, it is difficult, I think, to know exactly where to start." Id. at 695. At the end of his

2

jumbled discourse, counsel finally asked the jury to find that there was no kidnapping, no sexual

3

assault and no premeditation. Id. at 732. ("Christopher Spreitz is not denying, does not deny that

4

he was responsible for the death o£Ruby Reid. What he does deny is that he hldnapped her, that

5

he raped her, and that he did it with premeditation.") He never suggested to the jury what verdict

6

they should respond with, however, even though they were instructed on both second degree

7

murder and manslaughter. RT 8/17/94 at 671-72.

8
9

10

In Hart v. Gomez, 174 F.3d 1067 (9th Cir. 1999), the court found trial counsel's
performance deficient where he failed to adequately investigate and introduce into evidence facts
that would demonstrate his client's innocence or raise sufficient doubt as to that question to

·11

undermine confidence in the verdict. Id. at 1070. Referring to its holding in Sanders v. Ratelle,

12

21 F.3d 1446 (9th Cir. 1994), thecourt stated:
As in Sanders, Hart's defense counsel was presented with
important exculpatory evidence, and like Sanders' attorney, Hart's
counsel failed to conduct any investigation regarding that evidence.
In short, Hart's counsel "failed to fulfill his duty to investigate
[Hart's] most important defense," Sanders, 21 F.3d at 1457, and
was therefore, deficient.
... Our conclusion was based on two factors: 1) the evidence would
constitute a strong defense to the murder charges against Sanders,
and (2) "there was no conceivable strategic or tactical reason not to
use this evidence at the ... trial" Jd. Both factors are present in the
case at bench.

13
14
15
16
17

18
19
20

Id. at 1071.
Those two factors are present in the instant case, as well. Potential witnesses were not

21

located and interviewed. "Where defense counsel is so ill prepared that he fails to understand his

22

client's factual claims or the legal significance of those claims or that he fails to understand the

23

basic procedural requirements applicable in court, we have held that counsel fails to provide

24

service within the range o£ competency expected o£ members o£ the criminal defense bar."

25

Young v. Zant, 677 F.2d 792,798 (11th Cir. 1982). See also, United States v. Cronic, 466 U.S.

26

648, 104 S.Ct. 2039, 80 L.Ed.2d 657 (1984). Since counsel had no theory o£the defense, the

27
28

C - 33
-29-

1

trial became a "meaningless ritual." Douglas v. California, 372 U.S. 353, 358, 83 S.Ct. 814, 817,

2

9L.Ed.2d811 (1963).

3
4

Furthermore, defendant never waived his right to testify:
The right to testify is a constitutional right of fundamental
dimensions.

5
6
7

As the right is fundamental and personal it can only be
relinquished by the person to whom it belongs, the defendant in a
criminal trial. The general rule is clear that the relinquishment of
such a right must be intentional and to be intentional must be
known to the one who gives it up.

8

United States v. Martinez, 883 F.2d 750, 756 (9th Cir. 1989), Qpinion vacated and conviction
9

reversed, 928 F.2d 1470 (9th Cir. 1991), citing Johnson v. Zerbst, 304 U.S. 458, 464, 58 S.Ct.
10

1019, 1023, 82 L.Ed. 1089 (1938).
11

Counsel's failure to present a defense, or to allow defendant to participate in deciding
12

whether to present witnesses or to testify violated his rights under the Fifth, Sixth and Fourteenth
13

Amendments to the United States Constitution and Art. 2 §§ 4 and 24 of the Arizona
14
Constitution. His judgments of conviction and sentences must be reversed.
15
· E. Counsel Never Presented Available Evidence that Defendant Was Intoxicated at
16

the Time of the Commission of the Offense.
17

Intoxication could have been used as a defense in this case. Defendant was charged with
18

kidnapping, which requires intent. See, A.R.S. § 13-1304(A). Also, premeditated murder and
19
sexual assault may require intent. See A.R.S. §§ 13-1101(1); 13-1406(A). At the time of the
20

commission of the crime in the instant case, the legislature allowed the jury to conder the fact
21

that a defendant was intoxicated at the time of the criminal act when determining the defendant's
22

culpable mental state, i.e. intent. A.R.S. § 13-503; see also State v. Rankovich, 159 Ariz. 116,
23

765 P.2d 518 (1988).
24
Although Rankovich and other cases attempted to distinguish crimes that can be
25

committed either intentionally or knowingly as far whether an intoxication instruction had to be
26

given, those cases are wrongfully decided, since there is no logical or meaningful distinction
27
28

C - 34
-30-

1

between the two mental states. See A.R.S. §§ 13-105(9)(a) and (b). It is impossible to give an

2

example ofisomething which is done intentionally but not knowingly, or knowingly but not

3

intentionally. This argument need not be resolved for purposes ofithis issue, however, since the

4

court did give the jury the intoxication instruction. RT 8/17/94 at 673-74; ROA at p. 2276.

5

Given the fact that the instruction was given, it was incumbent upon counsel to make the

6

most ofithe evidence, especially given the fact that the state was trying very hard to convince the

7

jury that defendant was not intoxicated, through the testimony ofithe officers who stopped and

8

interrogated him by the side ofithe road shortly after the commission ofithe crime. 7
Yet counsel never called Lucy Eremic as a witness for the defense. Lucy Eremic was the

9

10

woman defendant was dating at the time. She told police and the defense investigator that

11

defendant called her from the bar that night and sounded intoxicated; he told her he was "really

12

trashed." He then came uninvited to her apartment at 12:40 a.m. and banged on her apartment

13

door and forcefully tried the doorknob, attempting to get in. This is clear and compelling

14

evidence that defendant was intoxicated shortly before he killed the victim.

15

Counsel could also have presented the testimony ofidefendant's cousin, Scott Jouett, as to

16

his behavior when stopped by the police. Scott was familiar with defendant's drinking habits and

17

would have testified that defendant often operated in a blackout when he had been drinking, but

18

that his friends could not tell. "No one ever knew when he was in a blackout until later; his

19

attitude never changed and he could drive a car or bike straight down the road. It wasn't until

20

later when they'd rehash what had occurred the night before that anyone was aware that

21

defendant had been operating in a blackout." Investigator's interview with Scott Jouett at 3.

22

Defendant's high school friends Richard Becerra, Tony Becerra and Dennis Patterson also

23

verified that defendant operated in a blackout when drunk.

24
25
26

27
28

7

Counsel was on notice as early as January 2, 1991 that the state
was contesting any claim that defendant was intoxicated.
(ROA
206).
C - 35
-31-

1
2

Counsel was clearly ineffective in failing to present this evidence. Defendant's
judgments of conviction and sentences must be reversed.

3

F. Counsel Failed to Aggressively Pursue a Plea Bargain for Defendant.

4

Despite the incredible delay in bringing defendant's case to trial, counsel never pursued a

5

plea bargain. Had counsel not continued the trial in order to allow the state to complete its DNA

6

testing, the state would have probably offered the defendant a plea bargain. Furthermore, had

7

counsel attempted to portray defendant in a human light to the prosecutor and shown his many

8

good qualities, he would have been a given a plea bargain to life in prison, sparing the state the

9

expenditure of resources and the victim's family the anguish of a trial, especially given

10

defendant's cooperation with police. See State v. Miller, 186 Ariz. 314, 326, 921 P.2d 1151,

11

1163 (1996), cert. denied, 117 S.Ct. 1088 (1997) (admission of guilt and cooperation with police

12

can be a mitigating circumstance).

13

Instead, counsel did nothing. Plea bargaining is a critical stage of trial. See, e.g. Hill v.

14

Lockart, 474 U.S. 52, 58, 106 S.Ct. 366, 370, 88 L.Ed.2d 203 (1985) (a defendant establishes

15

ineffective assistance of counsel where he shows that counsel's performance "affected the

16

outcome of the plea process ... [such] that absent the erroneous advice, he would have insisted on

17

going to trial."); United States v. DelaFuente, 8 F.3d 1333 (9th Cir. 1993) (counsel's failure to

18

bring plea-breach claim to the sentencing judge's attention constituted ineffective assistance of

19

counsel); United States v. Blavlock, 20 F.3d 1458 (9th Cir. 1994) (failure to communicate plea

20

bargain to defendant constituted ineffective assistance of counsel). Counsel's failure to attempt

21

to obtain a plea bargain for defendant deprived him of his right to effective assistance of counsel

22

in violation of the Fifth, Sixth and Fourteenth Amendments to the United States Constitution and

23

Art. 2, §§ 4 and 24 ofthe Arizona Constitution. His judgments of conviction and sentences must

24

be reversed.

25
26

27
28

G. Counsel Was Ineffective in Failin2: to Request Certain Jury Instructions or to
Object to Certain Others.

C - 36
-32-

1

Under arguments V, VI and VII, infra, defendant raises arguments related to certain jury

2

instructions. Those arguments will not be repeated herein for the sake of efficiency, but they are

3

hereby incorporated herein as if fully set forth. Defendant wants to make clear that he is also

4

claiming that counsel was ineffective for failing to request the instruction which should have

5

been given and were not (argument Vll) and for failing to object to those wrongful and

6

unconstitutional instructions which were given (arguments V and VI). In fact, the only objection

7

which counsel made regarding the jury instructions was based on the court's failure to give a

8

negligent homicide instruction. RT 8/16/94 at 656. Where counsel fails to offer an instruction or

9

fails to object to misleading instructions, it may deprive a defendant of a fair trial. United States

10

v. Span, 75 F. 3d 1383 (9th Cir. 1996). Counsel was clearly ineffective. Defendant's judgments

11

of conviction and sentences must be reversed.

12

II. Ineffective Assistance of Counsel at the Sentencing Phase of Trial.

13

Trial counsel for petitioner committed ineffective assistance of counsel at the sentencing

14

phase of trial, in violation ofthe Fifth, Sixth and Fourteenth Amendments to the United States

15

Constitution and Art. 2. §§ 4 and 24 ofthe Arizona Constitution. See, Bright, Counsel for the

16

Poor: The Death Sentence Not for the Worst Crime but for the Worst Lawyer, 103 Yale Law

17

Joumal 1835 (May, 1994); Ivan K. Fong, Ineffective Assistance of Counsel at Capital

18

Sentencin1!, 39 Stan.L.Rev. 461 (1984); Gary Goodpaster, The Trial for Life: Effective

19

Assistance of Counsel in Death Penaltv Cases, 58 N.Y.U.L.Rev. 299 (1983); see also, Lockhart

20

v. Fretwell, 506 U.S. 364, 113 S.Ct. 838, 122 L.Ed.2d 180 (1993).

21

A. Counsel Never Understood or Researched the State's Theory of Aggravation.

22

The state presented no testimony at the aggravation hearing and relied on the cruelty of

23

the murder as its sole aggravating circumstance. A.R.S. § 13-703(F)(6). Although counsel did

24

make an argument that said aggravation did not exist, (ROA 296 at 13; p. 2341) it was terse and

25

never even discussed the cruelty aspect in detail. ("It is the Defendant's position that cruelty, as

26

defined by case law, does not exist in the instant case. The instances of pain and distress noted in

27
28

C - 37
-33-

1

2

the cases, namely, Correll and Gillies are clearly distinguishable from the facts in this case.")
At sentencing, moreover, counsel demonstrated that he did not understand the legal

3

distinction between cruelty and heinous and depraved, the other F6 factor. Counsel claimed in

4

his rambling discourse to the judge that the leading case on cruelty was State v. Gretzler, 135

5

Ariz. 42, 659 P.2d 1, cert. denied, 461 U.S. 971 (1983), when, in fact, that case is only cited for

6

the issue of whether a murder is heinous and depraved. See id. at 52-53, 659 P.2d at 11-12. (RT

7

12/21/94 at 4-7). The state, however, never alleged that the murder was heinous and depraved,

8

only cruel.

9

What most concerned the court was whether defendant had kidnapped the victim in the

10

classic sense. The state alleged that the defendant transported the victim to the scene ofthe

11

murder in the trunk of his car, not voluntarily, as alleged by the defendant in his post-arrest

12

statement to police. (RT 12/21/94 at 20, 25-27). When given the chance to respond, it is

13

obvious that counsel never grasped the importance of this factor in deciding the cruelty aspect.

14

(See RT 12/21/94 at 27-28: "MR. TANDY: [W]hen I look at the five (Gretzler) factors, being

15

one o£ those apparent relishing of the murder by the killer, and infliction o£ gratuitous violence

16

and that sort ofthing, and I think that perhaps those are -" .... THE COURT: I don't think (the

17

prosecutor) is saying that he relished the murder.")

18

Counsel was totally unprepared to make a plausible argument, leading the court to make a

19

sarcastic comment as to counsel's response. {RT 12/21/94 at 27-29). "THE COURT: You are

20

considering that the blood got in the trunk while everybody is looking for beer, is this before or

21

after he had broken her ribs?" (RT 12/21/94 at 29). Counsel never even pointed out the fact that

22

the criminalist, Steven Clemmons, only found blood in the trunk of defendant's car, but was

23

unable to type it or say with any certainty whose it may have been. RT 8/12/94 at 560 ("The only

24

thing I did on [the sample from the trunk] was, again, collected it, and gave a positive result

25

indicating the presence of blood .... The problem had to do more with the actual size ofthe

26
27
28

C - 38
-34-

1

samples.") 8 Based on this evidence, there was no way the court could find beyond a reasonable

2

doubt that the blood on the trunk indicated that the victim had been placed in the trunk and

3

transported to the scene ofl the murder. It could have been anybody' s blood, or not blood at all.

4

There was surely a reasonable doubt as to whether the victim's blood was in the trunk and,

5

therefore, whether she had been transported in the trunk ofldefendant's car to the murder sight.

6

Counsel never argued this, however, and that failure was crucial.
Notwithstanding the state oflthe evidence, after taking a recess, the judge did find that

7
8

defendant had transported the victim in the trunk and that this constituted an aggravating

9

circumstance (or established the aggravating circumstance oflcruelty). RT 12/21194 at 31-32.

10

Counsel's total failure to understand the state's basis for claiming that the killing was

11

cruel and to properly research that issue and prepare it for sentencing was devastating. The court

12

had not been predisposed to give the death penalty prior to the sentencing hearing. See RT

13

12/21/94 at 31 ("[W]hen I came on the bench my mind was open and I had not made up my mind

14

as to what the sentence ought to be in this case.")
Had counsel properly prepared and addressed the issue ofl cruelty defendant probably

15
16

would not have been given the death penalty. That is because, compared to other cases in which

17

the cruelty factor was rejected, defendant's case was not comparably worse. Had counsel

18

properly prepared and researched this issue, he could have shown the sentencing court that

19

defendant had not acted in an especially cruel manner.
When a defendant purposefully inflicts mental anguish or physical abuse on a conscious

20
21

victim, a murder is especially cruel. State v. Medina, 193 Ariz. 504, 975 P.2d 92 (1999); State v.

22

Schackart, 190 Ariz. 238, 248, 947 P.2d 315, 325 (1997), cert. denied, 119 S.Ct. 149 (1998).

In State v. Hinchey, 165 Ariz. 432, 799 P.2d 352 (1990), cert. denied, 499 U.S. 963

23

24
8

25

26
27
28

On cross-examination, Mr. Clemmons backed up even further,
claiming only that "it could be blood." RT 8/12/94 at 576.
"Based on my test it was highly probable it was blood, but I
cannot say for sure that it was."
Id. at 577.
C - 39
-35-

1

(1991) the Supreme Court reversed the trial court's finding o£ especial cruelty. The defendant

2

therein argued with the woman he had lived with for 12 years about her two daughters from a

3

prior marriage. He shot her four times. He then kicked open the bedroom door where the

4

woman's 17-year-old daughter slept and when she awoke shot her twice in the face. Her infant

5

daughter was also in the room, asleep.

6

Meanwhile, the mother had managed to run outside. The defendant ran after her, caught

7

her, then beat her with the pistol until the trigger guard broke, at which point he beat her head

8

against some rocks. He then returned to the daughter's bedroom. Hearing her moan, he beat her

9

with a bottle o:Dtonic water until the bottle shattered. She continued to moan, so the defendant

10

went to the kitchen, got a knife and stabbed her numerous times, leaving the knife in her

11

abdomen. The mother survived, but the daughter died.

12

The Supreme Court concluded, "As reprehensible as defendant's actions appear, we

13

cannot agree that the evidence supports a finding that the crime was committed in an 'especially

14

cruel' manner, as the term has been defined. This factor depends on the State presenting

15

evidence establishing beyond a reasonable doubt that the victim actually suffered physical or

16

mental pain prior to death." Id. at 438, 799 P.2d at 358.

17

In State v. Wallace, 151 Ariz. 362, 728 P.2d 232 (1986), f!ppeal after remand, 160 Ariz.

18

424, 773 P.2d 983 (1989), cert. denied, 494 U.S. 1047 (1990) the Supreme Court reversed the

19

trial court's finding that the murderwas especially cruel. . Defendant's girlfriend o:Dtwo and one-

20

hal£ years asked him to move out o:Dher mobile home because o:Dbis drug and alcohol use, and

21

because she was seeing another man. The next day, the defendant, who had been drinking,

22

waited for the woman and her two children, 16 and 12, to return home. When she walked in the

23

door, he attacked her from behind with a baseball bat, striking her numerous times about the

24

head, eventually breaking the bat. The victim moaned and defendant forced a portion o£ the

25

broken bat through her throat until it hit the floor.

26

27
28

Defendant then retrieved a pipe wrench and waited for the children to return. When the

C - 40
-36-

1

12-year-old entered the mobile home the defendant struck him repeatedly over the head with the

2

pipe wrench with such force that the skull was fractured in several places and brain matter was

3

clearly visible on the floor. When the 17-year-old came home from work, defendant talked to

4

her. "As she turned to face defendant, he struck her on the side of her head with the same wrench

5

he had used on [the 12-year-old]."

6

The Supreme Court concluded, however, that the State had failed to prove that the murder

7

was especially cruel. It noted that the defendant attacked each of his victims quickly and by

8

surprise. Id. at 367, 728 P.2d at 237. "The state offered no evidence to establish pain or

9

suffering by the victims." Ibid.

10

In State v. Poland, 144 Ariz. 388,698 P.2d 183 (1985), affJ d, 476 U.S. 147 (1986) the

11

Supreme Court reversed the trial court's finding that the murder was especially cruel. Two

12

Purolator security guards were found in Lake Mead. Autopsies revealed that the most probable

13

cause ofJ death was drowning, although in the case of one ofthe guards a heart attack may have

14

been a possible cause of death. There was no evidence that the guards were wounded or tied

15

before being placed in the water, although it was impossible to determine whether they had been

16

drugged. There was no evidence of a struggle.

17

The court noted that "[w]e have interpreted 'cruel' as 'disposed to inflict pain esp. in a

18

wanton, insensate or vindictive manner: sadistic."' Id. at 405, 698 P.2d at 200, quoting State v.

19

Lujan, 124 Ariz. 365, 372, 604 P.2d 629, 636 (1979), quoting Webster's Third New International

20

Dictionary. Finding that there was no evidence of suffering by the guards, the court held that the

21

state did not show cruelty beyond a reasonable doubt.

22
23

24

Focusing on the mind of the killer, the court also found that the murders were not
especially heinous or depraved.
In State v. Ortiz, 131 Ariz. 195,639 P.2d 1020 (1981), cert. denied, 456 U.S. 984 (1982)

25

the Supreme Court reversed the trial court's finding that the murder was especially cruel. Therein

26

the sentencing court found that the victim was "a defenseless woman," that the defendant

27
?Q

C - 41

1

inflicted "multiple stab wounds in the neck and chest areas," that he then stabbed two o£ the

2

victim's children and "poured gasoline on or upon the body o£ the mother and in other areas o£

3

the home so as to prevent the children from leaving when the fire ignited," and then ignited the

4

fire and "left the home blazing, with the victim and the three young children still in the home."

5

Id. at 210, 639 P.2d at 1035. Finding that the state had failed to prove beyond a reasonable doubt

6

"that the victim suffered during the commission oflthe murder," Ibid., the Supreme Court

7

reversed the cruelty finding.

8
9

In State v. Ceja, 126 Ariz. 35, 612 P.2d 491 (1980), the Supreme Court reversed the trial
court's finding that the murder was especially cruel. In that case, the defendant went to the

10

victims' house to steal marijuana. He found the wife at home and she resisted his attempt to steal

11

the marijuana. He shot her twice then dragged her into the bedroom where he shot her again

12

several times, emptying his gun to "finish her oft!." State v. Ceia, 115 Ariz. 413, 416, 565 P.2d

13

1274, 1277, cert. denied, 434 U.S. 975 (1977). Two shots were to the chest, four to the front o£

14

her ear in the temple area, and the seventh shot grazed her back. Ibid.

15

Defendant then loaded the victim's gun, which he found in a drawer. When the husband

16

came home, the defendant ordered him at gunpoint into the bedroom. Defendant then shot the

17

husband twice in the front and twice in the back. His body was found lying in the hall leading to

18

the bedroom.

19

In Ceja I the Supreme Court found that the murder was cruel. Following its opinion in
.

.

20

State v. Watson, 120 Ariz. 441, 586 P.2d 1253 (1978), cert. denied, 440 U.S. 924 (1979), the

21

Supreme Court remanded all death penalty cases to the trial courts for resentencing. Ceja was

22

again sentenced to death and his crime was again found to be cruel, heinous or depraved by the

23

trial court. In Ceia II, however, the Supreme Court reversed its earlier opinion as to the cruelty

24

holding. "[T]he evidence is inconclusive as to whether the victims suffered in such a way as to

25

support a finding that the crime was committed in a cruel manner." at 39, 612 P.2d at 495. See

26

also, State v. Clark, 126 Ariz. 428,436-37, 616 P.2d 888,986-97, cert. denied 446 U.S. 1067

27
28

C - 42
-38-

,

1

(1980) (defendant killed four victims, but "[tjhere is no evidence that any ofthe victims suffered

2

any pain. The fatal wounds appear to have been delivered at vital parts of the bodies of the

3

victims, and death ensued swiftly."); State v. Bishop, 127 Ariz. 531, 534, 622 P.2d 478, 481

4

(1980) (defendant struck victim in the back of the head several times with a claw hammer; no

5

evidence of cruelty).

6

The instant case presents a scenario which is no more cruel than that presented in the

7

cases above where cruelty was not found. Counsel failed to present these cases or argue them to

8

the court, instead focusing on the five factors in Gretzler, which relate to heinousness and

9

depravity, not cruelty. He misunderstood the state's theory of the case and failed to prepare for

10

sentencing. His incompetence was the direct cause of defendant herein receiving the death

11

penalty. This was a close case with only one-half of an aggravating factor alleged by the state

12

and accepted by the court. There was an abundance of mitigation. Had counsel properly

13

prepared for the aggravation/mitigation hearing, defendant would not be on death row today. His

14

sentence of death must be reversed.

15
16

17

B. Counsel Never Presented Available Witnesses at the Time of the Mitigation

Hearing Who Could Humanize Defendant.
In addition to failing to properly prepare to rebut the state's theory of aggravation,

18

counsel totally failed to presentmitigation evidence which would have spared defendant the

19

death sentence even ifthe court found the aggravating circumstance of cruelty.

20

Counsel presented as mitigation only Chris' alcohol abuse, his dysfunctional upbringing

21

and his good behavior in jail. (ROA 296). Although these factors were all present and

22

important, counsel never presented Chris as a good and kind person, which, in fact, he was.

23

Counsel did passingly mention that "Chris was generally a person of good character," and Chris

24

"lacks any anti-social personality traits." Id. These, however, were lumped together with other

25

such non-statutory mitigating factors as, "Chris did not even graduate from high school," and

26

"The theme and destructive effects of continued rejection and ostracism."

27
28

C - 43

1

At the mitigation hearing, counsel presented the testimony of Todd Flynn, Ph.D., a

2

psychologist who had interviewed and tested Chris, and two corrections officers, who had very

3

little to say other than that Chris was not a problem at the jail. The judge must have been left to

4

wonder if these were the only persons willing to testify regarding Chris' character, leaving his

5

past one big blank.

6

In fact, there were numerous witnesses who could have testified as to Chris' personality,

7

his behavior towards women, his helpfulness towards others, his concern for the disadvantaged

8

and generally, the fact that the incident in question was totally out of character for Chris. If the

9

court had been aware of Chris' complete background, it would have been more inclined to look

10

upon the instant incident as one in which Chris did truly "snap" while under the influence of

11

alcohol. Chris was not the type of person to do such a thing. Even though the extent of the

12

beating administered to the victim suggested cruelty, Chris was not and is not a cruel person.

13

Even though the kidnapping aspect of the crime suggested cold-blooded planning and execution,

14

Chris is not cold-blooded nor is he an executioner.

15

During undersigned's investigation, numerous persons were willing to come forward to

16

supply information about Chris' past. These included his mother and former step-father, his

17

father and step-mother, his sister, his aunt, his uncle, former teachers and classmates and

18

childhood friends. Furthermore, women who were girlfriends of Chris' have been contacted,

19

including Tammy Blanton Brunner, the mother of Chris' daughter, and have given the picture of

20

Chris as a normal, polite and sexually timid person. All these persons were available and willing

21

to testify, and some of them had even been interviewed briefly by attorney Lane's investigator at

22

the beginning of the case and the notes of their interviews were in attorney Tandy's files. He

23

never contacted them or requested that they be witnesses for Chris at the mitigation hearing.

24

Another important witness would have been Donald Alden, a person who was well

25

known to Chris but was never even interviewed by counsel. He died on January 1, 1992, almost

26

three years prior to sentencing. Had counsel brought the case to trial more timely, Mr. Alden

27
28

C - 44
-40-

1

would have been available to testify. Mr. Alden was a quadriplegic whom Chris cared for

2

exclusively for approximately one year. Even after Chris left his job by mutual consent, Mr.

3

Alden had nothing but good things to say about Chris. He would have made an extremely

4

compelling witness, given his status as completely helpless and totally dependent upon Chris.
All that exists regarding contact with Mr. Alden is a half,.page report by the prior

5
6

attorney's investigator ofian interview he conducted with Mr. Alden at his home on May29,

7

1989. "Alden stated that even after he had terminated Spreitz they remained friends. They spoke

8

on the phone frequently and Spreitz had called him from California." This briefiinterview was

9

apparently not tape-recorded.
Lucy Eremic would also have made a good witness for Chris. In addition to testifying

10
11

that Chris was very intoxicated on the night ofithe murder, she could have testifed that Chris was

12

kind, considerate, and gentle with women. Rachel Koester Bach would have made a wonderful .

13

witness. Chris was devastated when she broke up with him. Still, to this day, she is willing to

14

help in whatever way she can, and had she been contacted, would have willingly appeared to

15

testifY for Chris. Diane Thrash would also have made an excellent witness and counsel was in

16

possession ofi a one page report from the investigator regarding his contact with Ms. Thrash.

17

Caroline Duck9 and Sharon Kubiak were also contacted by the former investigator and would

18

have made good witnesses. All these women would have shown that Chris was not a predator

19

with women, that he was normal sexually, that he was warm and caring and not violent or

20

aggressive.
Counsel's failure to present witnesses who could humanize defendant and put his life in

21
22

context was inexcusable and certainly constituted ineffective assistance oficounsel. But for

23

counsel's unconstitutional performance, defendant never would have been sentenced to death.

24

His sentence ofi death must be reversed.

25

26

27
28

9

Unfortunately, Ms. Duck died after the mitigation hearing but
before the work began on
this petition.
C -preparing
45
-41-

C. Counsel Failed to Investigate and Document Defendant's Childhood Head

1

2

Injuries.
The significance ofi childhood head injuries in murderers has been documented in several

3
4

studies. Sarapata, Herrmann, Johnson & Aycock, The role of head injurv in cognitive

5

functioning. emotional adjustment and criminal behaviour, Brain Injury, Brain Injury at 821-842

6

(1998); Crocker, Childhood Abuse and Adult Murder: Implications for the Death Penaltv, North

7

Carolina Law Review at 1143-1222 (1999); Crocker, Concepts of Culpability and

8

Deathworthiness: Differentiating Between Guilt and Punishment in Death Cases, Fordham Law

9

Review at 21-85 (1997). Head injuries that lead to behavioral disorders may be considered a

10

mitigating circumstance. See State v. Rockwell, 161 Ariz. 5, 15, 775 P.2d 1069, 1079 (1989). In

11

the instant case, Chris suffered from childhood head injuries. The fust occurred at age 4

12

Chris fell down the stairs. A series of head X-rays was ordered by Dr. Delgado. The records

13

from Cottage Hospital, however, have been destroyed in the past 10 years.

~when

During the summer of 1974, between second and third grade, Chris had a bicycle accident

14
15

resulting in a head injury. He spent two days in St. Francis Hospital. Through perseverance, the

16

records were finally located and show that defendant suffered a concussion which affected the

17

clarity of his thinking at the time. None of the psychiatrists or psychologists who evaluated Chris

18

for the trial and sentencing were aware of these records.

19

In February, 1978 Chris hit his forehead on the floor at school. In August, 1978 Chris

20

was pushed at YMCA camp, causing him to hit his head on soine furniture, requiring stitches,

21

supposedly from Cottage Hospital. 10 In October of that same year, he was hit by a car while

22

riding his bike. Around that time, (Dr. Delgado's report states he was 11 Y2) Chris fell in the

23

boys' bathroom at school and hit his forehead, but was not knocked unconscious. In the fall ofi

24

1979 he fell and hit his head on a piece of furniture.

25
26

27
28

10

Chris' mother claimed she only learned about this from Richard
Bozich, the former attorney's investigator.
C - 46
-42-

1

The entire medical file obtained by defendant's prior attorneys consisted of some old

2

doctor bills. There is not a single medical report or record contained in counsel's file.

3

Obviously, counsel would have had a better opportunity 10 years ago to obtain the medical

4

records substantiating these events. Even 10 years later, undersigned has been able to obtain a

5

significant number of these records; unfortunately, not all.

6

Had counsel obtained these records and shown them to the psychiatrist and psychologists

7

who evaluated defendant, they would have concluded that there was a correlation between

8

defendant's head injuries as a child and his behavior in the instant case. But for counsel's

9

unconstitutional performance, defendant would not have received the death penalty. His

10

sentence of death must be reversed.

11

D. Counsel Failed to Present Evidence of the Extent ofAbuse Which Defendant

12

Suffered During Childhood and the Striking Physical Resemblance Between the Victim

13

and Defendant's Mother.

14

Counsel did present, through the report and testimony of Todd Flynn, Ph.D., the fact that

15

defendant had been abused and lived in a dysfunctional home environment, but the extent of that

16

abuse was never presented to the court. In fact, the court did find as mitigation that defendant

17

lived in a "subnormal home. And obviously Mr. Spreitz suffered a disruptive childhood with a

18

punitive cold mother ... " RT 12/21/94 at 33; ROA at 302, p. 2366. Yet the court, quoting from

19

Dr. Flynn's report, observed that "Christopher Spreitz did not sufferacute dramatic abuse in his

20

family home." Id. The Arizona Supreme Court also emphasized that quotation in according this

21

mitigation "little weight" in its independent reweighing. ,S_preitz, at 149, 945 P.2d at 1280. ("We

22

also find significant the conclusions of the psychologist testifying on defendant's behalf at the

23

sentencing hearing, who stated that defendant 'did not suffer acute, dramatic abuse."') This

24

conclusion is flat out wrong.

25

Had counsel conducted a proper investigation and had he provided to Dr. Flynn the

26

overwhelming evidence of pervasive and violent physical abuse which defendant suffered,

27
28

C - 47
-43-

1

neither Dr. Flynn or the court would have come to the conclusion that defendant "did not suffer

2

acute dramatic abuse in his family home." The prejudice of such failure is obvious: the court

3

concluded that "I don't find that that history is a mitigating factor that impaired his ability to

4

make a judgment as to whether he was acting rightly or wrongly in the death of the victim in this

5

case." Id. at 33-34.

6

The years of physical abuse, especially by defendant's mother, coupled with her sadistic

7

emotional treatment of defendant, certainly impaired his ability to make a judgment regarding the

8

instant homicide. The other factor which makes this argument compelling is the fact that the

9

victim bore a striking physical resemblance to the defendant's mother at the age she was when

10

she was actively abusing the defendant. Had this been brought to the court's attention, the court

11

undoubtedly would have considered the matter in a different light. Instead, the only thing that

12

was brought forth was that Chris "liked older women." This was totally inadequate.

13

According to the defendant's mother, her punishment for her children was "time out," or

14

putting them in a corner. She denied ever spanking them with anything other than her hand; that

15

way she would never hit them too hard. See investigator's report of interview with Susan

16

Mendenhall, at 3. Needless to say, this charitable view of herself is not shared by any of the

17

other witnesses. According to Chris' step-father, Stephen Spreitz, (whose name Chris took, or

18

was given), Chris' mother was a hitter. She spanked and hit the kids with whatever object was at

19

hand, and she was known to shake the kids. She also threw things, whatever was at hand, and he

20

recalled her throwning an iron at him. Investigator's interview with Stephen Spreitz, at 2-3.

21

Mr. Spreitz was also a disciplinarian, hitting the children on their bare butts with a belt.

22

Id.; interview with Gretchen Jaeger, at 1. Going back to the mother, however, she used whatever

23

was handy, according to Chris' sister, including a wooden spoon and a favorite paddle, which she

24

broke over defendant's back once in her zeal. Interview with Gretchen Jaeger, at 1. Ms.

25

Mendenhall herself had been abused as a child, her mother using a strap liberally on her and her

26

siblings. Interview of Marcia Mendenhall Trask, at 1.

27

28

C - 48

-44-

1

In addition to the physical abuse which defendant suffered at the hands o£ his parents, his

2

mother tormented him psychologically and emotionally. Defendant was also exposed to an

3

incredible level o£violence between his parents, both when his natural father was in the home

4

and later, with his step-father.

5

The facts in this case are similar to others in which counsel has been found ineffective at

6

the penalty stage for failure to investigate and present evidence o£psychological problems.

7

Wallace v. Stewart, 184 F.3d 1112 (9th Cir. 1999); Caro v. Claderon, 165 F.3d 1223 (9th Cir.

8

1999); Hendricks v. Calderon, 70 F.3d 1032 (9th Cir. 1995); Clabourne v. Lewis, 64 F.3d 1373

9

(9th Cir. 1995).

10

In the instant case, had counsel performed his duties in a constitutional manner, he would

11

have supplied the appropriate information to Dr. Flynn, or insisted that Dr. Flynn conduct his

12

own interviews, and Dr. Flynn's opinion would have been that defendant did suffer acute and

13

dramatic abuse in his home life. The court would have certainly found such evidence persuasive

14

that defendant was unable to properly control his behavior, especially given the strong physical

15

resemblance between the mother at the time she was abusing Chris and the victim, and he would

16

have imposed a life sentence. See State v. Ramirez, 178 Ariz. 116, 131, 871 P.2d 237, 252, cert.

17

denied, 513 U.S. 968 (1994) (defendant's psychological makeup combined with intoxication

18

deemed mitigating). Defendant's sentence o£ death must be reversed.

19

E. Counsel Never Presented the Available Evidence that Defendant Was
.

20
21

.

Intoxicated at the Time the Offense Was Committed.
This is similar to the argument presented in I E, supra. Defendant incorporates the facts

22

and arguments stated therein as is fully set forth herein. Counsel was ineffective in failing to

23

present evidence to the court that defendant was intoxicated at the time o£ the murder and that his

24

intoxication affected his ability to control his impulses. Intoxication may constitute statutory

25

mitigation. State v. Robinson and Washington, 165 Ariz. 51, 61,796 P.2d 853, 863 (1990), cert.

26

denied, 498 U.S. 1110 (1991); State v. Murray, 184 Ariz. 9, 42,906 P. 2d 542, 575 (1995), cert.

27
28

.

C - 49
-45-

1

denied, 116 S.Ct. 2535(1996).

2

Had this evidence been presented, the court would have found mitigating circumstance

3

13-703(G)(l) as well as non-statutory mitigation. State v. Gallegos, 178 Ariz. 1, 17,870 P.2d

4

1096, 1113 (1994); State v. Arvon Williams, 183 Ariz. 368, 384, 904 P.2d 437,453 (1995);

5

Murray, supra, at 39, 906 P.2d at 572; State v. Danny Lee Jones, 185 Ariz. 471,491, 917 P.2d

6

200, 220 (1996). See argument IX, infra. Counsel's unconstitutional representation of defendant

7

caused defendant to be sentenced to death. His sentence of death must be reversed.

8
9

F. Counsel Was Ineffective in Failing to Object to the Preparation of a Pre-Sentence
Report or to Be Present at the Interview of Petitioner in Connection with that Report.

10

A presentence report was submitted to the sentencing judge, who used information

11

presented therein to render its special verdict of death. (RT 12/21/94 at 3). The use of the

12

presentence report violated petitioner's rights under the Fifth, Sixth, Eighth and Fourteenth

13

Amendments to the United States Constitution and Article 2, §§ 4, 15 and 24 ofthe Arizona

14

Constitution. Additionally, counsel's failure to attend the presentence interview constituted

15

ineffective assistance of counsel under the Fifth, Sixth and Fourteenth Amendments to the United

16

States Constitution and Art. 2, §§ 4 and 24 of the Arizona Constitution.

17

Once a defendant is found guilty of first degree murder as defined in A.R.S. § 13-1105,

18

the law requires the judge to hold a separate sentencing hearing in which the jury does not

19

participate. A.R.S. § 13-703(B). During this hearing, the state may offer evidence concerning

20

any statutorily defined aggravating circumstances, which the defendant may rebut, and the

21

defendant may offer evidence and information concerning any mitigating circumstances, which

22

the state may rebut. Both sides may then argue what the appropriate penalties should be. A.R.S.

23

§ 13-703(C).

24

Aggravating evidence may come from either the trial testimony, or from new evidence

25

which must be admissible under the Rules ofEvidence; whereas any information concerning any

26

mitigating circumstances may be offered without regard to its admissibility under the Rules of

27

28

C - 50
-46-

1

2

Evidence. A.R.S. § 13-703(C).
At the conclusion ofthe sentencing hearing, A.R.S. § 13-703(D) requires that the court

3

return a special verdict setting forth its findings as to the existence or non-existence of the

4

aggravating and mitigating circumstances contained in A.R.S. §§ 13-703(F) and (G).

5

In reaching its special verdict, the court must take into account the aggravating and

6

mitigating circumstances included in subsections F and G of A.R.S. § 13-703 and shall impose a

7

sentence of death if it finds one or more of the aggravating circumstances enumerated in

8

subsection F, and finds that there are no mitigating circumstances sufficiently substantial to call

9

for leniency. A.R.S.§ 13-703(E).

10

The statutory scheme set out in A.R.S. § 13-703, then, allows the court to sentence a

11

defendant to death only upon finding one of the aggravating factors listed in the statute through

12

legally admissible evidence submitted at the sentencing hearing or at trial. Since the hearing is

13

the only means permitted by statute for receiving evidence on the issue of the existence of

14

aggravating factors, any submission of information to the court outside ofthe hearings is illegal

15

under the statutory scheme, and unconstitutional as violative of the Fifth, Sixth, Eighth and

16

Fourteenth Amendments to the United States Constitution and Art. 2, §§ 4, 15 and 24 ofthe

17

Arizona Constitution.

18

The ordinary procedures for sentencing a defendant in a felony case in Arizona do not

19

apply in a capital case because of the specific scheme set forth in A~R.S. § 13-703 andvarious

20

cases of the Arizona and United States Supreme Courts holding that a capital sentencing hearing

21

is more akin to a trial than a non-capital sentencing hearing. Strickland v. Washington, 466 U.S.

22

668, 686-687, 104 S.Ct. 2052,2064, 80 L.Ed. 2d 674 (1984) (''A capital sentencing proceeding ...

23

is sufficiently like a trial in its adversarial format and in the existence of standards for a decision

24

... "to bring into play Sixth Amendment guarantees); Bullington v. Missouri, 451 U.S. 430, 446,

25

101 S.Ct. 1852, 1862, 68 L.Ed.2d 270 (1981) (Double Jeopardy Clause applied to sentencing

26

phase of capital case, which resembles a trial); Arizona v. Rumsey, 467 U.S. 203,210, 104 S.Ct.

27
28

C - 51
-47-

1

2305, 2309, 81 L.Ed.2d 164 (1984) (the sentencing proceeding in Arizona shares the

2

characteristics of the Missouri proceeding that make it resemble a trial for purposes of the

3

Double Jeopardy Clause).

4

The preparation of a presentence report and its submission to the court prior to the

5

sentencing hearing conflicts with the statutory requirement that the court rely only upon relevant

6

evidence presented at the sentencing hearing. Furthermore, any extrajudicial conversations

7

which the sentencingdudge might have with members of the probation department or other court

8

personnel, while appropriate in a non-capital sentencing, are improper given the mandates of

9

A.R.S.§ 13-703 and violate the confrontation clauses of the United States and Arizona

10

Constitutions.

11

Unlike some states, Arizona does not require that the state formally plead in the

12

indictment which statutory aggravating circumstances it will seek to prove in the event of a first

13

degree murder conviction. State v. Blazak, 114 Ariz. 199,206, 560 P.2d 54, 61 (1977). A

14

capital defendant, however, is constitutionally entitled to procedural due process with respect to

15

the sentencing proceeding. State v. Ortiz, 131 Ariz. 195,207,639 P.2d 1020, 1032 (1981). In

16

the context of an A.R.S. § 13-703 sentencing proceeding, Ortiz holds that the defendant has the

17

following constitutional rights:

18

19
20

21
22
23
24

First, he is entitled to notice of the statutory aggravating circumstances the state will seek
to prove;
Second, he is entitled to notice of the evidence on which the prosecution will rely to
establish the statutory aggravating circumstances;
Third, the defendant in a sentencing proceeding is to receive disclosure of the notice
sufficiently in advance of the hearing to give him a reasonable opportunity to prepare a defense.
These due process requirements have since been codified in Rule 15.1 (g)(2), Ariz. R.

25

Crim. P. Ortiz, therefore, establishes that the sentencing hearing required by A.R.S. § 13-703(B)

26

must comply with the due process clauses of the state and federal constitutions. Since both the

27
28

C - 52
-48-

1

statute and the due process clauses o£the state and federal constitutions require that the defendant

2

be able to confront all o£ the legally admissible evidence on which the state seeks to rely in

3

having him sentenced, it necessarily follows that to permit the sentencing judge access to

4

information outside the hearing process offends due process.

5

In the instant case, the presentence report contained a lot o£ information that was

6

damaging to the petitioner and was information not received in the trial or aggravation hearing.

7

For example, the presentence report, on pages 4-5, contains a victim impact statement wherein

8

the victim's younger sister blames numerous problems in her own life on the defendant. Not

9

only was this information prejudicial to defendant, and would not have come to light but for

11

10

counsel's ineffective assistance, the information was also unfounded. Had counsel investigated

11

the situation he would have found that there was virtually no contact between the victim and her

12

sister, that, in fact, the victim even changed her name in order to not have contact with her

13

family, and that the sister cared little about the victim's alcoholism and poverty during her life.

14

None o£that came out, however, and the court was given the impression that the sister's loss o£

15

the victim resulted in her own life falling apart.
Furthermore, the trauma suffered by the defendant growing up was minimized in the

16
17

Social History section o£the presentence report, pages 5-9. In the Defendant's Statement portion

18

o£the report, page 3, and the Current Life Situation portion o£the report, pages 7-9, defendant is

19

portrayed as someone with very little insight into his situation who is minimizing the seriousness

20

o£the offense. According to the report, defendant's comment about the crime was, "a lady died,

21

that really sucks." There is little doubt that comments such as this and others contained in the

22

report had a highly negative effect on the judge.
Regardless o£whether the judge considered the recommendations o£the victim's sister,

23
24

however, the consideration o£the presentence report itsel£was error and deprived the defendant

25
26

27
28

11

In fact, the state presented no extra evidence in mitigation and
relied exclusively on the trial testimony.
C - 53
-49-

1

of his constitutional right to due process and to confrontation. Not only was the prejudicial effect

2

ofthe evidence contained in the report and discussed above extremely damaging to defendant's

3

plea for a sentence less than death, it was emotionally laden and constituted an illegal and

4

unacceptable influence on the sentencing judge. The use of the presentence report violated

5

petitioner's rights under the Fifth, Sixth, Eighth and Fourteenth Amendments to the United States

6

Constitution and Article 2, §§ 4, 15 and 24 of the Arizona Constitution. Counsel's failure to

7

object to the preparation of a presentence report denied petitioner the effective assistance of

8

counsel.

9

Additionally, counsel's failure to attend the presentence interview constituted ineffective

10

assistance of counsel. See, e.g., State v. (Roger) Smith (I), 136 Ariz. 273,279, 665 P.2d 995,

11

1001 (1983) (counsel ineffective for advising defendant not to talk to the presentence officer

12

because his statement could be used against him at retrial, and where no mitigation was

13

presented). Finally, counsel's failure to assist defendant in preparing for the interview and

14

submitting a coherent, intelligible statement to the probation officer or letter to the sentencing

15

judge was inexcusable, given what was at stake.

16

Defendant's letter to the court is rambling and extremely self-centered, communicating in

17

a tone as if talking to a friend. He almost discusses the victim as an afterthought, "Maybe you

18

are thinking, this is all fine and dandy, but what about Ms. Reid? Like I said before, her death

19

was senseless and I should accept responsibility and be held accountable. All I can do is work

20

hard toward a positive goal. Ifl don't do that Ms. Reid's death will never make sense." He then

21

goes on to add a handwritten p.s. "I am truly sorry I have caused Ms. Reid's death, Your Honor."

22

Although this may have been sincere, it gave the impression that Chris is self-centered and has

23

still not come to grips with the magnitude of what he did. The letter worked a disservice on

24

defendant's chances for a life sentence.

25
26

27
28

Although counsel cannot write the letter for a defendant, he can advise the defendant,
make suggestions, and suggest revisions after seeing what the first draft of the letter is like.

C - 54
-50-

1

Counsel did none of this and defendant was deprived of the services of his counsel at a critical

2

stage of the proceedings. His sentence of death must be reversed.

3

III. Ineffective Assistance of Counsel On Appeal.

4

Appellate counsel for petitioner committed ineffective assistance of counsel at the appeal

5

phase, in violation of the Fifth, Sixth and Fourteenth Amendments to the United States

6

Constitution and Art. 2. §§ 4 and 24 of the Arizona Constitution, in the following respects:

7
8
9

A. Counsel Was Ineffective for Challenging Trial Counsel's Effectiveness on Direct
A.p_peal.
Counsel on appeal claimed that trial counsel was ineffective for admitting guilt in his

10

opening statement. See State v. Spreitz, supra, 190 Ariz. At 146-47, 945 P.2d at 1277-78. It is

11

elementary that a post-conviction proceeding is the first instance that ineffective assistance of

12

counsel can be raised. State v. Santana, 153 Ariz. 147, 150, 735 P.2d 757, 760 (1987) (The

13

"unsupplemented record [] will seldom show why the trial attorney did or failed to do

14

something.") Accord State v. Jones, 185 Ariz. 471,482,917 P.2d 200,211 (1996); State v.

15

Maturana, 180 Ariz. 126, 133, 882 P.2d 933, 940 (1994); State v. Apelt, 176 Ariz. 369, 374, 861

16

P.2d 654, 659 (1993); State v. Atwood, 171 Ariz. 576, 599, 832 P.2d 593, 616 (1992); State v.

17

Valdez, 160 Ariz. 9, 15, 770 P.2d 313,319 (1989); State v. Schrock, 149 Ariz. 433,441,719

18

P.2d 1049, 1057 (1986). See also, State v. Watson, 114 Ariz. 1, 15, 559 P.2d 121, 135 ("Even

19

though we have held herein that based upon the record on appeal that the defendant has not

20

shown a denial of adequate counsel, this does not mean that at a hearing on the Rule 32 motion

21

he may not be able to show ineffective assistance of counsel such as would bring him under the

22

cases on this subject.")

23
24

25
26

27

28

Because of counsel's ineffectiveness on appeal, defendant's dudgments of conviction and
sentences must be reversed.
B. Counsel Was Ineffective in Failing to Request Certain Jury Instructions or to
Object to Certain Others.

C - 55
-51-

Under sections V and VI ofthis petition, infra, defendant raises arguments related to

1

2

certain jury instructions. Those arguments will not be repeated herein for the sake of efficiency,

3

but defendant wants to make clear that he is also claiming that counsel was ineffective for failing

4

to challenge those wrongful and unconstitutional instructions which were given, even though trial

5

counsel never challenged them. (See Argument IF, supra).
C. Counsel \Vas Ineffective in Failing to Challenge the Sentence of the Court for the

6

7

Reasons Stated in Arguments VIII-X.
Under sections VIII, IX and X of this petition, infra, defendant raises arguments related to

8

9

his sentence. Those arguments will not be repeated herein for the sake of efficiency, but

10

defendant wants to make clear that he is also claiming that counsel was ineffective for failing to

11

challenge that wrongful and unconstitutional analysis by the court of the reasons warranting the

12

death penalty. Although appellate counsel did challenge the finding by the sentencing court that

13

the murder was cruel, he did not challenge the kidnapping issue raised in section VIII.

14

147, 945 P.2d at 1278. Furthermore, counsel never raised any argument regarding mitigation.

15

Id. at 148, 945 P.2d at 1279.

16

IV. General Legal Principles of Ineffective Assistance of Counsel.

~preitz

at

Defendant is guaranteed the right to counsel under the Fifth, Sixth and Fourteenth

17
18

Amendments to the United States Constitution and Art. 2, §§ 4 and 24 ofthe Arizona

19

Constitution. In order to show ineffective assistance ofcounsel, a defendant must show that: (1) .

20

counsel's performance was deficient, as defined by the prevailing professional norms; and (2) the

21

deficient performance resulted in prejudice to the defense. State v. Vickers, 180 Ariz. 521, 525,

22

885 P.2d 1086, 1090 (1994); State v. Nash, 143 Ariz. 392,397, 694 P.2d 222,227, cert. denied,

23

471 U.S. 1143 (1985); Strickland v. Washimrton, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed. 2d 674

24

(1984).

25
26

27
28

Stated slightly differently, the federal constitutional test requires that in order to prevail
on a claim of ineffective assistance of trial counsel, a defendant must show that but for the

C - 56
-52-

1

ineffective assistance there is a reasonable probability that the outcome would have been

2

different. Strickland, 466 U.S. at 694. "A reasonable probability is a probability sufficient to

3

undermine confidence in the outcome." Id.

4

The analysis cannot be merely outcome determinative, however; attention must focus on

5

whether the result of the proceeding was fundamentally unfair or unreliable. Lockhart v.

6

Fretwell, 506 U.S. 364,369, 113 S.Ct. 838, 842-43, 122 L.Ed.2d 180 (1993).

7

In Kvles v. Whitley, 514 U.S. 419, 115 S.Ct. 1555, 131 L.Ed. 2d 490 (1995) the Supreme

8

Court further defined the second prong of the Strickland standard, (in the context of the

9

government withholding Bradv material) holding that the test does not "require demonstration by

10

a preponderance that disclosure of the suppressed evidence would have resulted ultimately in the

11

defendant's acquittal. ... The question is not whether the defendant would more likely than not

12

have received a different verdict with the evidence, but whether in its absence he received a fair

13

trial, understood as a trial resulting in a verdict worthy of confidence." Id.

14

A "reasonable probability" of a different result is accordingly shown when the procedure

15

"undermines confidence in the outcome of the trial." Id. citing United States v. Baglev, 473 U.S.

16

667, 678, 105 S.Ct. 3375,3381, 87 L.Ed.2d 481 (1985).

17

Since petitioner in the instant case was indigent, he was represented by an appointed

18

counsel at trial. "A necessary corollary of these principles is that the attorney appointed must

19

render competent, effective assistance at trial and on appeal." Zambia v. Bradshaw, 185 Ariz. 1,

20

3, 912 P.2d5, 7 (1996).

21

With these principals in mind, it is clear from the arguments and authorities presented

22

above, that due to the ineffective assistance oftrial counsel, the outcome of the trial does not

23

command confidence.

24

Since the right to counsel is so fundamental to a fair trial, the constitution cannot tolerate

25

trials in which counsel, though present in name, is unable to assist the defendant to obtain a fair

26

decision on the merits. Evitts v. Lucev, 469 U.S. 387, 395, 105 S.Ct. 830, 835, 83 L.Ed.2d 821

27
28

C - 57
-53-

1

(1985). When the state obtains a criminal conviction through such a defective trial, the state

2

unconstitutionally deprives the defendant of his liberty. Cuyler v. Sullivan, 446 U.S. 335, 342-

3

45, 100 S.Ct. 1708, 1715-16, 64 L.Ed.2d 333 (1980). In this case, the cumulative errors of

4

counsel violated defendant's constitutional rights. The errors can be considered cumulatively, not

5

just singularly. Mak v. Blodgett, 970 F.2d 614 (9th Cir. 1995). Given the numerous errors and

6

deficiencies of counsel, taken both separately and considered in totality, there is a reasonable

7

probability to undermine confidence in the outcomes of the trial, sentencing and appeal.

8

Defendant's judgments of conviction and sentences must be reversed.

9

10
11

Substantive Issues.
The following issues constitute fundamental and structural errors and are grounds for

12

reversal ofi defendant's judgments of conviction and sentences, notwithstanding trial and

13

appellate counsels' failure to raise them previously. These errors should be considered by this

14

court as examples first of ineffective assistance ofitrial and appellate counsel but also, secondly,

15

as substantive fundamental and structural errors attributable to the court. Since these are

16

fundamental and structural errors, they cannot be waived for purposes of Rule 32.2(a)(3),

17

Ariz.R.Crim.P. This coUrt has jurisdiction to entertain these arguments, and they are not

18

precluded, since they are based on newly discovered evidence, counsel error for which defendant

19

is not responsible, see Rule 32.1(f), or for which there has been a significant change in the law

20

that ifidetermined to apply to defendant's case would probably overturn his convictions and

21

sentences.

22

V. The Court's Instruction on Premeditation Violated Defendant's Constitutional Rights.

23

The trial court told the jury, '"Premeditation' means that the defendant acts with either

24

the intention or the knowledge that he will kill another human being, when such intention or

25

knowledge precedes the killing by a length ofitime to permit reflection. An act is not done with

26

premeditation ifi it is the instant effect of a sudden quarrel or heat ofi passion." (RT 8/17/94 at

27
28

C - 58
-54-

1

670-71; ROA at p. 2270).
Defendant concedes that this is the statutory definition of premeditation under A.R.S. §

2
3

13-11 01(1); however this definition violates the Fifth and Fourteenth Amendments to the United

4

States Constitution and Art. 2, Sec. 4 of the Arizona Constitution. First degree murder can be

5

committed either intentionally or knowingly, as can second degree murder; the only difference is

6

the requirement that there be premeditation for it to be first degree murder. When actual

7

reflection is not required, however, only that there be "a length of time to permit reflection," it is

8

a difference without substance. Therefore, the jury has no guidance and can convict a defendant

9

of either first or second degree murder based on a whim. That violates due process.
Since the court in the instant case did not instruct the jury that premeditation requires

10
11

actual reflection, defendant's constitutional right to due process was violated.

12

VI. The Court's Instructions on Felony Murder Violated Defendant's Constitutional

13

Rights.
The court instructed the jury as follows:

14

18

With respect to the felony murder rule, insofar as it provides the
basis for a charge of first degree murder, it is the law that there is
no requirement that the killing occur "while committing" or
"engaged in" the felony, or that the killing be part of the felony.
The homicide need not have been committed to perpetrate the
felony. It is enough if the felony and the killing were part of the
same series of events.

19

(RT 8/17/94 at 673; ROA at 2274). Counsel failed to object to this instruction. (RTS/16/94 at

20

656).

15
16
17

21
22
23

To prove felony murder under A.R.S. § 13-1105(A)(2), the State must prove beyond a
reasonable doubt the following four elements:
1.
and

The defendant committed one of the offenses enumerated in the statute,

2.

the defendant or another person caused the death of any person,

3.

in the course ofthe offense, and

4.

in furtherance ofthe offense or immediate flight from the offense.
C - 59

24
25
26
27

28

-55-

1

It is with respect to elements (3) and (4) that the trial court misinstructed the jury. The

2

instruction told the jury that in order for the state to prove felony murder, the state need only

3

prove that the death was "part of the same series of events." The instruction also indicated that

4

the killing need not occur while "engaged in the felony" which clearly contradicts the

5

requirement that it occur "in the course of the offense."

6

7
8

9
10
11

The given instructions were based on the former felony murder rule in effect prior to
October 1, 1978, which stated in relevant part:
A murder which is perpetrated by means of poison or lying in wait,
torture or any other kind oflwillful, deliberate or premeditated
killing, or which is committed in avoiding or preventing lawful
arrest or effecting an escape from legal custody, or in the
perpetration of, or attempt to perpetrate arson, rape in the first
degree, robbery, burglary, kidnapping or mayhem or sexual
molestation of a child under the age of thirteen years, is murder in
the first degree.

12

Former A.R.S. § 13-452. Case law interpreting the above statute held that the state, in order to
13

prove felony murder, only had to prove that the death and the underlying felony be "part of the
14

same series of events." State v. Richmond, 112 Ariz. 228, 540 P.2d 700 (1975).
15

The present Arizona felony murder rule set forth in A.R.S. § 13-1105(A)(2), which first
16

became effective on October 1, 1978, specifically requires that the State prove that the death was
17

"in the course of' the underlying felony and also that it results from action taken to facilitate the
18

accomplishment ofthe predicate felony. State v. Arias, 131 Ariz. 441,443, 641 P.2d 1285, 1287
19

(1982); State v. Hallman, 137 Ariz. 31, 38, 668 P.2d 874, 881 (1983).
20

The felony murder instruction was, therefore, a misstatement oflthe felony murder rule in
21

existence at the time of the instant offense. While the court correctly instructed the jury that the
22

state was required to prove that the death was "in the course of' and "in furtherance of' the
23

crimes o:flrobbery or kidnapping (RT 4/30/93 at 82; ROA at 359), the complained oflinstruction
24

relieved the State of proving both elements of felony murder by stating that there is no
25

requirement that the killing occurred "while engaged in the felony" (eliminating the "in the
26

course of' requirement) and by stating that "it is enough if the felony and the killing were part of
27
28

C - 60

-56-

1

the same series of events." (eliminating the requirments that the killing occur "in the course of' a

2

sexual assault or kidnapping and be "in furtherance of' such crime(s) or immediate flight

3

therefrom).
By relieving the state of its burden to prove the "in furtherance of' element of felony

4

5

murder beyond a reasonable doubt, the instruction violated the due process clause of the Fifth

6

and Fourteenth Amendments to the United States Constitution and Art. 2 § 4 of the Arizona

7

Constitution. In re Winship, 397 U.S. 358, 90 S.Ct. 1068, 25 L.Ed.2d 368 (1970); Patterson v.

8

New York, 432 U.S. 197,97 S.Ct. 2319,53 L.Ed.2d 281 (1977); Sandstrom v. Montana, 442

9

U.S. 510, 99 S.Ct. 2450,61 L.Ed.2d 39 (1979); Francis v. Franklin, 471 U.S. 307, 105 S.Ct.

10

1965, 85 L.Ed.2d 344 (1985); Cabana v. Bullock, 474 U.S. 376, 106 S.Ct. 689, 88 L.Ed.2d 704

11

(1986).

12

In State v. Miles, 186 Ariz. 10, 15, 918 P.2d 1028, 1033 (1996) the Arizona Supreme

13

Court found the complained of instruction not to be error, although it discouraged the use of such

14

instructions. The Supreme Court never addressed the constitutional arguments being made

15

herein, however. Moreover, this portion of the Miles decision is clearly wrong and should be

16

reconsidered.

17

The "in furtherance of' element, not present in the pre-1978 version of the statute,

18

narrowed the definition of felony murder in the version of the law in effect at the time of the

19

crime in question. The decision Miles cited State v. Arias, 131 Ariz. 441, 443,641 P.2d 1285,

20

12 87 (1982) for the proposition that the "in furtherance of' language did not narrow felony

21

murder in Arizona. That was not the holding of Arias at all. Arias held that it was sufficient if

22

the actions resulting in death (the binding and gagging of the robbery victim therein), rather than

23

the death itself, further the felony. "In furtherance of' is still a necessary element of felony

24

murder both before and after the judicial gloss added in Arias. Furthermore, the decision in

25

Miles' case completely fails to explain how the language "no requirement that the killing occur

26

while committing or engaged in the felony" squares with the "in the course of' element.

27
28

C - 61
-57-

1

The court's instruction on felony murder violated the defendant's rights to due process,

2

equal protection and to be free from cruel and unusual punishment, in violation of the Fifth,

3

Eighth and Fourteenth Amendments to the United States Constitution and Art. 2 §§ 4, 13 and 15

4

of the Arizona Constitution. Furthermore, since the court used the old concept of felony murder

5

which had been subsequently narrowed by the"in furtherance of' language, defendant's

6

conviction violated the ex post facto clauses of the United States and Arizona Constitutions. Art.

7

1 § 10, cl. 1, United States Constitution; Art. 2, § 25, Arizona Constitution. The constitutional

8

ex post facto clauses prohibit judicial enlargement of a statutory offense by judicial interpretation

9

which negates an element of the offense. Bouie v. City of Columbia, 378 U.S. 347, 84 S.Ct.

10

1697, 12 L.Ed.2d 894 (1964). The court committed structural error. Defendant's murder

11

conviction must be reversed.

12

VII. The Court Failed to Instruct the Jury that It Did Not Have to Return a Verdict iflt

13

Was Unable to Do So.

14

It is the law ofthis state that jurors should be instructed that they are not required to

15

return a verdict if they are unable to do so without violating their beliefs. State v. Atwood, 171

16

Ariz. 576, 625-26, 832 P.2d 593, 642-43 (1992), cert. denied, 506 U.S. 1084 (1993); State v.

17

McCutcheon, 162 Ariz. 54, 60,781 P.2d 31,37 (1989).

18

In the instant case, not only were the jurors not instructed that they were not required to

19

return a verdict, they were instructed that they had to return a verdict: "All twelve of you must

20

agree on a verdict." (RT 8/17/94 at 750; ROA at p. 2287).

21

The court's failure to instruct the jury that it did not have to return a verdict if jurors were

22

unable to do so violated the defendant's right to due process, in violation of the Fifth and

23

Fourteenth Amendment to the United States Constitution and Art. 2 § 4 of the Arizona

24

Constitution.

25

26
27
28

C - 62
-58-

1

VIII. The Court Found Non-Statutory Age:ravation; Namely that Kidnap_ping Was an

2

Aggravating Factor Justifying the Death Penal tv.

3

In its special verdict, the sentencing judge held, "in this case I do fmd that there are

4

aggravating circumstances, I fmd that the offense was committed in an especially cruel manner

5

and I fmd that there was what I called earlier the classical or common law kidnapping ... " RT

6

12/21/94 at 31; ROA at 302, p. 2365.

7

This was error since in capital cases the trial court may give aggravating weight only to

8

evidence that tends to establish a statutory aggravating circumstance. State v. Gulbrandson, 184

9

Ariz. 46, 67, 906 P.2d 579, 600 (1995). The Arizona Supreme Court never addressed this issue

10

in upholding the cruelty aspect as found by the trial court. Even though appellate counsel did not

11

raise this precise issue, see ,S.preitz at 147, 945 P.2d at 1278, the Supreme Court claimed to have

12

reweighed the evidence in aggravation and mitigation in upholding the sentence of death. Id. at

13

150-51, 945 P.2d at 1281-82.

14

As pointed out in argument IIA, supra, the court erred in finding beyond a reasonable

15

doubt that defendant kidnapped the victim by putting her in the trunk ofihis car and driving her to

16

the desert. The only evidence of this was a stain on the trunk ofi defendant's car which was

17

probably blood, but even if it was, could not be identified as anyone particular person's blood.

18

The only other evidence pointing to the victim being put in the trunk was the testimony of some

19

of the victim's friends that she rarely accepted rides, and never from strangers. This testimony,

20

however, was based on nothing more substantial than the fact that the victim usually walked

21

home from the bar which she frequented, the Red Dog Saloon, which was only a few blocks from

22

her house. Neither one of these two opinions regarding the presence of blood on the trunk or the

23

victim's refusing rides, proves beyond a reasonable doubt that she was taken to the desert in the

24

victim's trunk.

25
26

27
28

But even if the evidence did prove such a kidnapping, that is not an aggravating
circumstance recognized by statute. The court, however, clearly found that it was. First, the

C - 63
-59-

1

court clearly stated that it found aggravating "circumstances," plural, not "circumstance,"

2

singular. Secondly, the court clearly stated that it found the offense to be especially cruel "and I

3

find that there was what I called earlier the classical or common law kidnapping ... " RT 12/21/94

4

at 31.

5

The court's findings on aggravation violated defendant's rights under the Fifth, Eighth

6

and Fourteenth Amendments to the United States Constitution and Art. 2 §§ 4, 13 and 15 of the

7

Arizona Constitution. His sentence of death must be reversed.

8

IX. The Court Wrongfully Believed that Defendant Had to Prove He Was Intoxicated at

9

the Time of the Murder for His Longstanding Alcoholism and Drug Addiction to Be

10
11

Considered a Mitigating Circumstance.
In its special verdict, the court confused the two distinct issues of whether defendant was

12

intoxicated at the time of the offense and whether his longstanding alcoholism and substance

13

abuse could constitute a mitigating factor. The court ruled:

14
15

16
17

18
19
20

On the intoxication, the defendant's history of intoxication
is long, longstanding. There was substance abuse for certainly
close to ten years of his life at the time that he committed this
offense. He was age 22 at the time that this offense was
committed.
But again I don't believe that the intoxication or the
substance abuse impaired his ability and capacity to appreciate the
wrongfulness of his conduct to any significant degree. And in that
I take into consideration that when he was stopped within probably
30 minutes from the time the crime was committed by the police
and photographs were taken at the corner of Broadway and Church
here in Tucson, Arizona, and the officers were repeatedly asked
whether there was any evidence of intoxication, and they
repeatedly said nothing of any significance.

21

RT 12/21/94 at 34; see also, ROA at 302, p. 2366.
22

There are several problems with the court's analysis. First, there was substantial evidence
23

that defendant was intoxicated at the time he committed the crime. He had been with his

24
roommate, and others, at the Tucson Gardens bar from about 9 p.m. to 12 midnight, drinking
25

non-stop. From there, they went home, where the roommate was sick from drinking too much

26
27
28

(although he had been drinking less than Chris). Chris quickly left again, apparently on his way
C - 64
-60-

1

to Lucy Eremic's apartment.

2

Lucy Eremic was the woman Chris was dating at the time. She told police and the

3

defense investigator that Chris called her from the bar that night and sounded intoxicated; he told

4

her he was "really trashed." He then came uninvited to her apartment at 12:40 a.m. and banged

5

on her apartment door and forcefully tried the doorknob, attempting to get in. Finally, when he

6

came back to his house at about 3 a.m. his roommate's girlfriend, who was still awake and

7

watching television, testified that Chris passed out in a chair in the living room after a short

8

conversation.

9

All this evidence, including the crime itself, points to substantial intoxication. Whether

10

the police, with their motive to show that Chris was not intoxicated, noticed how intoxicated

11

Chris was, is only a small factor to consider. How could the court find that after drinking for at

12

least three straight hours, alcohol was not a factor? The fact that Chris was drunkenly banging on

13

his girlfriend's door shortly before the murder is more indicative of how intoxicated he was.

14

The second problem with the court's analysis is that there are two different mitigating

15

factors, not one. There is Chris' intoxication at the time he committed the murder, but there is

16

also Chris' long-standing alcoholism. Even if the court was not persuaded that Chris was so

17

intoxicated that he did not appreciate the wrongfulness ofhis actions at the time of the killing,

18

Chris was still entitled to have the court consider his alcoholism as a mitigating factor. State v.

19

Detrich, 188 Ariz. 57, 67, 932 P.2d 1328, 1338, cert. denied, 118 S.Ct. 202 (1997); State v.

20

Rossi, 154 Ariz. 245,250-51,741 P.2d 1223, 1228-29 (1987); State v. Gretzler, 135 Ariz. 42,

21

57-58, 659 P.2d 1, 16-17, cert. denied, 461 U.S. 971 (1983). The Arizona Supreme Court also

22

confused this issue. ,S.preitz at 149, 945 P.2d at 1280.

23

The third problem is that substance abuse and alcoholism must be considered as a non-

24

statutory mitigating factor even if it does not rise to the level of statutory mitigation under 13-

25

703(G)(l). Lockett v. Ohio, 438 U.S. 586, 98 S.Ct. 2954, 57 L.Ed. 2d 973 (1978); State v.

26

Samuel Lopez, 175 Ariz. 407,414-416,857 P.2d 1261, 1268-70 (1993), cert. denied, 511 U.S.

27
28

C - 65
-61-

1

1046 (1994); Statev. Gallegos, 178 Ariz. 1, 17,870 P.2d 1096,1113 (1994); Statev. Arvon

2

Williams, 183 Ariz. 368, 384, 904 P.2d 437, 453 (1995); Murray, 184 Ariz. 9, 39, 906 P. 2d 542,

3

572 (1995), cert. denied, 518 U.S. 1010 (1996); State v. Danny Lee Jones, 185 Ariz. 471,491,

4

917 P.2d 200, 220 (1996). Yet the court never considered defendant's substance abuse as non-

5

statutory mitigation.

6

In conclusion, the court's confused findings regarding defendant's intoxication on the

7

night ofithe murder and his long-standing alcoholism and substance abuse violated his

8

constitutional rights under the Fifth, Eighth and Fourteenth Amendments to the United States

9

Constitution and Art. 2 §§ 4, 13 and 15 of the Arizona Constitution. His sentence of death must

10

be reversed.

11

X. The Court Failed to Weigh A.R.S. § 13-703(G)(l) in the Disjunctive or to Give Non-

12

Statutory Mitigating Weight to Defendant's Abusive Upbringing.

13

The court found that defendant was brought up in a "subnormal home. And obviously

14

Mr. Spreitz suffered a disruptive childhood with a punitive cold mother ... " RT 12/21/94 at 33;

15

ROA at 302, p. 2366. Yet it appears that the court believed that that evidence could only be

16

considered in the context of the first prong of statutory mitigation under A.R.S. § 13-703(G)(l):

17

"I don't find that that history is a mitigating factor that impaired his ability to make a Judgment as

18

to whether he was acting rightly or wrongly in the death of the victim in this case." Id. at 33-34.

19

A.R.S. § 13-703(G)(l) provides that it shall be a mitigating circumstance that "[t]he

20

defendant's capacity to appreciate the wrongfulness ofihis conduct or to conform his conduct to

21

the requirements of law was significantly impaired, but no so impaired as to constitute a defense

22

to prosecution." The court's special verdict makes clear that it only considered the first prong of

23

the statute, that defendant was able to appreciate the wrongfulness of his conduct. The court

24

never considered the second prong, that the defendant's ability to conform his conduct to the

25

requirements of law was significantly impaired. The factor is phrased disjunctively so that proof

26

of incapacity as to either ability to appreciate or ability to conform establishes the mitigating

27

28

C - 66
-62-

1

circumstance. State v. Wood, 180 Ariz. 53, 70, 881 P.2d 1158, 1175 (1994) cert. denied, 515

2

U.S. 1147 (1995); State v. Stoklev, 182 Ariz. 505, 520, 898 P.2d 454,469 (1995), cert. denied,

3

516 U.S. 1078 (1996); State v. Murray, 184 Ariz. 9, 40-41,906 P.2d 542,573 (1995), cert.

4

denied, 519 U.S. 874 (1996). The Arizona Supreme Court also failed to note the distinction.

5

.S.preitz, at 149, 945 P.2d at 1280 ("Similarly, the judge was not persuaded that defendant had

6

shown by a preponderance of the evidence that defendant suffered from any emotional disorder

7

impairing his ability to recognize the wrongfulnessofhis actions.")
Furthermore, as in argument IX supra, the court was incorrect that it was only able to

8
9

consider the defendant's emotional problems resulting from his upbringing as statutory

10

mitigation. It also should have been considered as non-statutory mitigation. Eddings v.

11

Oklahoma, 455 U.S. 104, 117, 102 S.Ct. 869, 877, 71 L.Ed.2d 1 (1982); Penrv v. Lvnaugh, 492

12

U.S. 302, 321, 109 S.Ct. 2934,2947, 106 L.Ed.2d 256 (1989); Bovde v. California, 494 U.S.

13

370, 383, 110 S.Ct. 1190, 1199, 108 L.Ed.2d 316 (1990); State v. Brewer, 170 Ariz. 486,505,

14

826 P.2d 783, 802, cert. denied, 506 U.S. 872 (1992); State v. McMurtrev, 136 Ariz. 93, 102,

15

664 P.2d 637, 646 (1983).
The court's failure to give non-statutory mitigating weight to defendant's upbringing

16
17

violated his constitutional rights under the Fifth, Eighth and Fourteenth Amendments to the

18

United States Constitution and Art. 2 §§ 4, 13 and 15 of the Arizona Constitution. His sentence

19

of death must be reversed.

20

Ill

21

. Ill

22

Ill

23

Ill

24

Ill

25

Ill

26

Ill

27
28

C - 67
-63-

1

2

Conclusion.
In conclusion, defendant received ineffective assistance of counsel at the trial, penalty and

3

appeal stages of his proceedings. Furthermore, the court committed fundamental and structural

4

error in instructing the jury and in rendering its special verdict. Defendant's judgments of

5

conviction and sentences must be reversed.

6

Respectfully submitted March 28, 2000.

7
8
9

10

Copy mailed this date to:

11

Jon G. Anderson
Assistant Attorney General
Criminal Appeals Section
1275 W. Washington
Phoenix, Arizona 85007-2997

12
13

14
15
16

17
18
19

20
21
22

23

24
25

26
27
28

C - 68
-64-

r:.1

0 p···i I 4: f~ 8

1.~-~;-J tJ •

v U 1 iii!'\ ..J i

1

2
3

13r~

& Uphcuns P.C.

P.O. Box 591
Tucson, Arizona 85702
520-624-8000
By Sean Bruner, PCC #6984
Attorneys for Defendant/Petitioner

C'f· J s-r,...\'1··
~- nr:-ou-1 V
I.-.·.··
•-!'
._ ., ...,,,
J, L:Ll
•

u

•

•

4

5

IN THE SUPERIOR COURT FOR THE STATE OF ARIZONA

6

IN AND FOR THE COUNTY OF PIMA

7

STATE OF ARIZONA,
Plaintiff,

8

9

v.

10

CHRISTOPHER J. SPREITZ,

11

Defendant.

12
·13

]
]

NO. CR-27745

]
]
]
]

APPENDIX TO DEFENDANT'S
RULE 32 PETITION FOR POSTCONVICTION RELIEF

]
]

(Hon. PaulS. Banales)

]

Defendant hereby submits this appendix in support of his Rule 32 petition. The contents
are as follows:

14

1. Report of Joseph Geffen, Ph.D.

15

2. Affidavit ofSusan Mendenhall, notes of current investigator's interview, and

16
17

18
19
20

21
22
23

transcript of prior investigator's interview.
3. Affidavit of Stephen Spreitz, notes of current investigator's interview, and transcript
of prior investigator's interview.
4. Affidavits of Raymond and Linda Jackson notes of current investigator· s interview.
and transcript of prior investigator's interview.
5. Affidavit of Gretchen Jaeger. notes of current investigator's interview. and transcript
of prior investigator's interview.
6. :\tTtdavit uf Juhn Spreitz and notes uf current investigator's interview.

_ _2_4_·--tt---____7_._:_\_fl_id_~_l\_'it_s~lJ_f_R_ichard Becerra an<J.Q_cnnis J)~l(~eE~on ~md notes uf~urrent inv~stigator's
25

26
_27

28

interview.

C ::·-~.: •.-::Gr·t·; Artor::.:y - By Court Runner

.,r.

K. ..\flidavit ut'TlJO)' Becerra and notes of current inve.stigut<;Jr~).:i:1.1..1C.t~yie'<"£-art Mall
Jcd~o - Oiv C 7.·
Dr.:'<md;:mt --R•30 Mall0\?to;·~::.o Attorney - R<10 Mali
C - 69 -1Appeals
f...
/

./ ---

c>d

F""--

(\ \\

/

V'

;!..1-J1A.~~·-V~tt5:4·-------..
J ., : ':. " ' "~

,'i '.1

L

{
..

'

1

9. Affidavit of Tammy Blanton Brunner and notes of current investigator's interview.

2

10. Affidavit ofLucy Eremic, notes of current investigator's interview, and transcript of

3

prior investigator's interview.

4

11. Affidavit of Rachel E. Bach and notes of current investigator's interview.

5

12. Affidavit of Vincent Owens and notes of current investigator's interview.

6

13. Declaration of Jon Whipple and notes of current investigator's interview.

7

14. Affidavit of Laurie Poe and notes of current investigator's interview.

8

15. Affidavit of Sharon Kubiac, notes of current investigator's interview, and notes of

9

prior investigator's interview with her and CarolynDuck.

10

16. Declaration of Doreen Alexander and notes of current investigator's interview.

11

17. Copy of probate of Donald C. Alden and notes of prior investigator's interview.

12

Respectfully submitted March 29, 2000.

13

14

ean Bruner
Attorneyfor Defendant

15

16

Copy mailed this date to:

17

Jon G. Anderson
Asst. Attorney General
1275 W. Washington
Phoenix, AZ 85007-2997

18

19

20
21

22
23
24

25
26

27
28

C - 70-2-

Jo~Eph

§EffEn, fPh.!])., (pc.
Licmic.J <;Pi!JchoLoJiit ·

1~17 dV c-'Wibnot, #321
'7~LaU>n, ~na 85712-4410
Cldr.phoill!. ~20-885-<]9~0
'Jax ~2o-88~-1~8o

03/28/00
Sean Bruner
Attorney at Law
Bruner & Upham, P.C.
P.O.Box 591
Tucson AZ 85702
Re:

CHRISTOPHER J. SPREITZ
DOB: 06/10/66
Case No.: CR-27745

Dear Mr. Bruner:
Referral
The following lS my report of the psychological evaluation of
your client, Mr. Spreitz, whom you kindly referred to me.
I
understood the purpose of this examination was to determine
psychological factors that may be relevant in court, in
determining post-conviction·relief.
From your referral
information, and a review of records you provided, I understand
that Mr. Spreitz has been convicted of first degree murder and
was sentenced to death.
Method
I obtained data, upon which tg base my conclusions and opinions,
from the following sources of information:
1.

Review of collateral records provided by your office and by
ot~ers through your assistance, consisting of copies of:
School records of the defendant from Santa Barbara,
California ~~71 - 1983)
wr::.tt·:::. by :::h,::: defendant, r~~ris Spu::~t:::, I>) hi:::;
uncle John Soreit::: (stepfather's brother (08/29/89 -

L~:::tt,:::rs

------~

-----

Notes written by Chris' mother i~ his babv bock (dates
are hard tg ~ead because of the poor quality of t~e
copi,~s)

C - 71

2

Notes and letters written by Chris, as a child (in the
70's)

- Transcripts of interviews with several persons who knew or
had contact with the defendant:
Craig A. Clark (05/25/89) by Detectives Salgado and
Godoy
Gretchen Jaeger, the defendant's sister, by an
unidentified person, (10/09/90)
Susan Mendenhall, the defenedant's mother, by an
unidentified person (10/08/90)
Lucy Eremik, by Richard Bozich, private investigator
(05/31/89)

Steven Spreitz, the defendant's stepfather, by an
unidentified person (10/09/90)
Raymond Jackson, the defendant's natural father and his
wife Linda Jackson, by an unidentified person
(10/10/90)

Christopher Spreitz, the defendant, by Detectives
Millstone and Wright TPD (05/22/89)
Court Document:
Minute Court Entry:
aggravation/Mitigation Hearing, Judge William Sherrill,
Div.XVIII, 11/28/94
Notes and Test results from a psychological examination
of the defendant by Psychologist James Allender, Ph.D.
Psychological report of Mr. Spreitz by psychologist Todd
Flynn, Ph.D., 11/21/94
Psychiatric report concerning the defendant by Martin
Blinder, M.D., 06/01/89
Social history and background report by Cheryl R.
Fischer, 03/07/00, obtained from interviews with Chris'
mother, sister and bther relatives and persons who were
acquainted with the family.
2.

Clinical interviews with the defendant, Chris Spreitz,
conducted at the A=DOC SMU-2 facility in rlorence, AZ
(02/15/00 and 03/09/00), during which I obtained his
statement of personal history

~.

Psychological tests and procedures administered during
this examination:
-------------

Wechsler Adult Intelligence Scale - Revised (WAIS-R)
as s<c;ss the c l i.·~n t' s i_nt·~ l L~c t ual functioning

C - 72

to

3

Benton Visual Retention Test (BVRT), designed to screen
for possible acquired organic impairment of brain
functioning

Millon Clinical Multiaxial Inventory-III (MCMI-III), A
personality test designed to assess the client's
emotional and social adjustment and to determine the
presence, type and severity of any psychopathology.
Findings of this Evaluation
General Background and History:
According to his own report and the reviewed social history,
Christopher Spreitz is a 33-year old single Caucasian male who
was born to Ray Jackson and Susan Mendenhall, and grew up in
Santa Barbara California.
He was raised mainly by his mother,
since the parents were divorced when Chris was only about three
years old. According to the obtained history, both parents grew
up in alcoholic families who were reported to be very strict and
who handled their children with violence and physical punishment.
The mother's home was described as being always in an uproar and
she and her brother and younger sister were said to have
significant behavioral problems. Susan's sister reportedly
admitted that she had problems with alcohol.
According to the history, Chris' mother, herself, raised her
children in a similar atmosphere. Her own sister was reported to
have said: ~r have never met anyone as cold and mean an
individual as Susan~ and described her as ~an emotional iceberg
with no nurturing skills.~ She was also described as a
manipulative liar who often denied things that she had said.
The
defendant's father, Ray Jackson, reportedly admitted to abusing
his wife physically, and destroying their property in fits of
rage.
Susan's second husband, Chris' stepfather, was reported to
have been physically punitive of the boy and to have abused him
emotionally, as well.
Both of Chris' parents admitted they had a
violent marriage, each accusing the other of sexual misconduct.
Significant facts regarding Chris during his early childhood were
obtained, partly from his mother's entries which she made in his
baby book and diary.
This included a description of him as
crying all the time in his infancy.
She apparently also w0rked
to develop in him a strong sense of independence, which was
. ~nteresting since she herself was described as being very
~~dependent in her childhood and adolescent history.
For
example, Chris was taught to drink from a cup at four months and
-------i:-+'-:~."---'·.v~:1-S---wa-s-l+i-n§----R±-s--ewn---cl-i-s-he-s-by-t-he--a-ge----e-f-tWG---;--H-r:!--wa.-s-t-o-i-l-e-t-------­

trained by the time he was 16 months and even tried to clean his
0wn dirty pants when he had accidents.
Still, he had bedwetting
pr0blems into his teens.

C - 73

4

Reportedly, Susan was concerned that she was not giving her baby
enough love and attention.
She hired sitters for him at about
two years.
She worked and went to school part-time coniinuously
during the first three years, and after her divorce when she
became married a second time, to Steven Spreitz.
During the
marriage to Ray Jackson, Susan reportedly left home at least
once, and she went to stay with Reverend Trouche who had
ministered to her family of origin. It was unclear what she did
with Chris, and with his newborn sister Gretchen.
According to
one report, the baby stayed with her at the reverend's home and
Chris stayed with the grandmother, Alice. According to the
reverend's report, he did not recall any children being at his
home during Susan's stay.
Chris was injured, at the age of four, after falling down some
steps.
Ms. Fischer's report stated that the mother was vague
about the circumstances, saying she had been sick in bed at the
time.
The grandmother took Chris to Cottage Hospital and there
is a record of skull series X-Rays ordered by a Dr. Delgado.
Ms.
Fischer noted that she saw a photograph of Chris, taken after the
fall, which showed that his left eye was turned in.
Chris' history during his school years,described in Ms. Fischer's
report, revealed that he reportedly had problems with
concentration even in kindergarten, and he was described by his
teacher as being ·"too active" and showing little self control.
He was perceived as being fearful, and not looking at people when
they talked to him.
Chris' stepfather also reportedly stated
that the boy never looked people in the eye when he talked to
him.
On the positive side, Chris was reported to be reading at the
second grade level, when he was in the first grade.
The first
grade teacher wrote a report to Chris' mother, stating that he
"talked constantly, had no concern for others and frequently put
others down to make himself look and feel more important."
Although he had ability, he daydreamed a loL and, as a result,
had to stay after school frequently to finish his scholl work.
The teacher suggested to Susan that she spend more time with the
boy and give him more attention.
The same teacher reported that
Chris had improved considerably by the end of the school year,
tut still needed more ~mpr~vement in his study habits.
Chris suffered another injury during the summer of 1994 when h0
r·=:portedly rode his bi;;::~ :oct' J. ~J..c:-g•=: bould~.:: ·::::·r t-ed:.
:-1·-:: sp•::nt:
two to three days at th~ St. ~.::J.ncis Hospica: with a concus~ion.
His maternal grandmother di~d that same yeJ..:: after being thrown
;,.r_,m J. horse-.~chris lJ.t•":'r Jt::-=:nde-d-Lhrtsti..:tn Sch-ccJL·-i-i"n,---~cc·~~a"n~J.=--~~~~­
Barbara, where he continued to have problems scholasticallv and
~~~~'---..:>m,oJ:.iona.ll '.'
Howe'ILer, t.b2 teachers like him and thcught h·~ was
bright and cheerful and capabl~ of doing bet~er.
His progress
was up and down through the fifth grade.
He lat~r ~ransf~rred to

C - 74

·'i

_;

I ,:J

f l j ..

~

"'

5

Peabody Elementary School because the mother wanted to keep him
and his sist~~ together and the sister needed special help for
dyslexia, which she could best get at that school. When
interviewed, the stepfather stated he thought the transfer was
for financial reasons.
In the sixth grade, Chris was described as easily distracted but
his grades improved somewhat. Medical records indicated that
Chris became progressively accident prone and he also had
physical altercations with other students and with neighborhood
children who were teasing him.
In YMCA camp, in 1978, he was
pushed and hit the back of his head on a piece of furniture,
requiring stitches. Chris' mother transferred him to La Colina
High school, apparently because it made it would reduce her
burden of dropping him off and picking him up. He rode his bike
four miles to school and back. His GPA went from 1.50 during the
first semester, to 2.33 and his competency scores in 1979 were
100% in mathematics, 92 in Reading and passing in writing.
He
continued to have accidents, including being hit in a bicycle-car
accident.
Nevertheless, he only missed two days of school the
entire year.
During the eighth and ninth grades his GPA went
down to 2.00 and 1.50, and his performance on the competency
exams yielded scores of 92% in Mathematics, 98% in Reading, and
below passing in writing.
Chris attended summer school in Bishop High School, where he
obtained a grade of B+, after having previously failed with an F.
He was described as always goofing off and clowning around.
His
personality was said to become more outgoing, and he was
described as always smiling and trying to get others to laugh.
His niceness to other students, as described by a girl classmate,
caused him to be picked on by bullies. He had a very close
friend and the boys were described as "inseparable." In 1983,
this friend shot himself, committing suicide. Reportedly, Chris
was shocked but did not get an opportunity to talk to anyone
about his feelings.
According to his sister, the mother told her
that the boy shot himself, then went about her routine business.
She went to Chris' room and found him crying. According to
reports, Chris tended to withdraw into his room for days at a
time, coming out only to get food which he took back to the room.
His room was described as being always dark and a "pigsty."
Chris attended Santa Barbara High School for che next three
fears, where his GPA never went above 2.00 and he was placed on
probation on 02/82 for poor grades ·,vhir=11 ;,.;er·::. attributed t:::· por..::~­
attendance.
After being tested by the Scheel psychologist, Dr.
Frank Puchi, Chris was reported to have problems in visual
------l.~ob+""nr~nc-Tud i ng v l :3 ua 1 Pe .t cr:::pt ic fl'
:1 nJl---""v'cf"i-icsnu:oa--Tl-·"l"'.r"'~crmcro"r"''"/---,,~~.to1-vr~l-cS,--c-------mother met with the psychologist and, reportedly, ~ fallowup
appointm~nt was made for Chris, but the record do~s not show if
it took place.
Dr. Puchi had r.,::c:::mmended that Chris undergo a
'Jisual :3r=r·~·~!:1inr; ;,vhich, a~par·~ntl/, ;,vas not carried r:Jut.
An
-----~--

-~---

-----------~

---------

C - 75

---~---------------------

M-8

--- - - - - - -

6

uncle of Chris, John Spreitz, a psychologist, who was aware of
the report, stated to Ms. Fischer that with those results he
would have ordered a full battery of tests and might have had
Chris hospitalized.
He felt the results were indicative of an
ADD disorder.
Other family developments reported in the social history included
the death of another of Chris' uncles,, Butch, who died in 1982
of cancer.
Reportedly, they were very close but no one has been
able to report about Chris' feelings regarding his uncle's
illness and death.
The history also showed that Gretchen, Chris'
sister, got into trouble and she was arrested in 1982 for
vandalizing homes in the neighborhood. During the court
proceedings, Gretchen alleged that she had been sexually molested
by their stepfather. She was placed in the custody of her
natural father in 1983. The history did not reveal whether or
not Chris was aware of the alleged behavior or became aware of it
later.
The family was referred and attended counseling for about
a month or two, but the counselor passed away and no record of
the sessions has yet been found.
Chris' school progress deteriorated and he began to attend The
Dubin Learning Center, a private tutorial agency, in 1983. Mr.
Dubin reported that Chris needed individual assistance because of
his academic deficits and to deal with his low self confidence
and poor self imag~.
The tutoring was discontinued after the
summer, apparently because of the cost of it.
Yet, Chris'
stepfather and grandfather cosigned a loan to buy him a
motorcycle.
Despite Chris' dismal school progress, he played
football all three years. He reportedly had problems with his
coordination and did not get to play, except when the team was so
far ahead they couldn't lose.
His team mates reported that Chris
took the teasing and never got angry at his limited opportunity
to play.
According to reports, Chris never dated in high school, but hung
around with a group that partied a lot. He drank a lot.
The
only effect this had on him was to make him talk excessively.
Because of Chris' reported many traffic violations, the family
was notified that their insurance would be canceled.
He was
thrown out of the house twice, first by his stepfather, then by
his mother.
Chris traded his motorcycle for a truck in which he
slept and with which he went to work.
He continued in school for
a while but eventually dropped out.
The history shows thac :h~is ~ecame lnvolved with the juvenile
·.::riminal system, includin9 an aru::st in 1984 for r':O:C•::iving stol·:::n
;;c:::;~e:rty.

but
was
was
The
---~

Ap-p~nt !_;

lr•:! cn::cwjik

:1

,rrut-o-r<::y<_l.,; [r _)trr

,_;vo---cuwurkers--,-------~

he claimed he did not know it had been stolen.
The mother
reportedly away in Chi~a and the stepfather stated that Chris
a "good kid who had gott•::n involved with th•:: wrong people.
record stated that Chris got an apartment and roomed with a

---------

----------~-~----------~--~--------

C - 76

7

guy who had been heavily involved in drugs.
Chris/ sister/ who
had been placed in a group home/ ran away and eventually moved in
with Chris.
She herself reported that she_was uncontrollable.
Chris -enrolled at Santa Barbara City College/ but dropped out.
Irr 1986 Chris contacted his father who lived in Tucson and Chris
moved to Tucson in the spring of 1986.
In the fall/ he enrolled
in Canyon Del Oro High School. The father and his wife stated
that they felt he was in a "typical teen mode/" and that his room
was like a swamp. He drank beer and they had to hide some of it
or he would drink it all. After about a year/ he got out on his
own.
He kept unusual hours/ sleeping all day and staying up all
night. After awhile/ Chris moved back to Santa Barbara. He
apparently went back and forth between Tucson and Santa Barbaxa.
Chris father and stepmother stated that they noticed he had mood
swings whenever he talked with his mother/ apparently because she
was always making promises and plans which always seemed to fall
through.
He reportedly dated several women during 1986 and 1987
two of whom were interviewed by Ms. Fischer. Neither of them
observed any violent behavior on his part. They reported that
they had been more aggressive than he was/ in terms of sexual
behavior.
1

1

Chris obtained work managing a Pizza restaurant in Santa Barbara
in 1987 and he continued his relationship with one of the women
he had dated earlier. His friends perceived that everything was
fine with him. However/ several months later/ the woman
apparently broke off the relationship/ leaving him a "Dear John"
l~tter/ which made him become very upset.
He returned to Tucson
and went to work as a personal aide and caretaker for a man who
was a paraplegic. He enjoyed that work and enrolled at Pima
Community College with a major in nursing. He left that job/ by
"mutual agreement" with his employer/ but they remained friends
and got in touch occasionally. His ex-employer died in 1992.
1

Chris dropped out of his college program.
Reports stated that he
became wilder in his partying and began to show signific~nt
changes in his behavioral pattern, including mood swings and
becoming short tempered.
Chris returned to Santa Barbara in May
of 1989 and wanting to go home to his mother.
She had reportedly
offered him a job tak~ng care of her apartments in return for
getting an apartment for himself at $125 a month.
When he got
there/ he found she had given that job to a college student,
instead.
Reportedly, she sent hlm back ~o Tucson so that he
could "square things w~th his empl_·:;yr:;c and room mat·::."
He
arrived back in Tucson about a week before he was arr·::sted for
----~t"~l-'-'1'-"'__.u._k- illi--'lg o E a E2ma.:.. ·~v :_ :::::. ~ :n l. n ''L:l '/ 8 E 1 - " ' H » - = - - - - - - - - - - - - - - - - - - - Witnesses who were interviewed by investigators expressed their
surprise that he was in prison Jnd in death row.
According to
their statements, it was not concei~able that Chris could have
------ --------------------------------- --------

C - 77

8

murdered someone. They had never known him to display a temper
or any sign of violence, and described him as a kind and gentle
person.
Following is Chris report regarding his history prior to his
arrest leading to his-conviction for first degree murder.
Soon
after he arrived back in Tucson in May 14 or 15, 1989, he began
looking for a job. He stated that while he had been staying with
his mother in Santa Barbara, all he did was drink and party.
He
picked up application forms and had about four or five interviews
which, he felt, were unsuccessful.
He had been going out with
Lucy, a woman who was 13 years older than him.
He went out with
her on Wednesday, prior to the event of the murder.
According to
Chris, she "weirded out" because he was so much younger and was
so "flaky" and indicated to him that she may not want to pursue
their relationship. He stated that at the time he didn't
understand it, because he thought he had "got hi-s act together,"
he had been drinking what to him seemed a very moderate amount
(about a six-pack of beer and two to three vodka collins) .
However, he admitted, he had been "stoned, smoking weed and
snorting."
The next day, on Thursday, Chris had gone drinking at a club with
his roommate, consuming large amounts of alcohol (it was "thirsty
Thursday and beer was being sold at 1 or 5 cents). His roommate,
apparently did not have Chris' tolerance for alcohol, got sick
and began vomiting.
Chris took him back to the apartment, about
10:00 P.M .. Afterward he tried calling Lucy several times.
When
she answered, he could tell she was angry at him, probably upset
because of his acting obnoxiously.
He took a 12-pack and was
going to her apartment, but stopped and had a few drinks with an
acquaintance to whom he gave a ride to pick up some cocaine.
He
proceeded to Lucy's place but saw her walking from a bar where
she had been, and was walking home.
She told him to go away.
Chris felt he had to be with someone, saw a woman and went to
talk to her, to ask if he could "hang out with her."
According to Chris' report, she swung a bottle of wine at him.
He punched her and she fell and hit the ground.
From that point,
he reported, he can't remember much of what happened afterward.
He said he recalled that he was very detached as if watching
someone in a film, without sound.
He also remembered thinking "I
gotta go, this is not a 9cod place." He drove out to the desert
and L~ft the victim t:-:~-~r·~.

:n

~esponse

tom~ questis~.

Chris stated that he didn't know if
When he opened the trunk, she
·:·am•-"- 1t·
th~:-~: '1-1'~,.~ SCJlf-f--1-i-ng.
The r:ext.~-------­
thin'-:J f1,~ remembered •t-~as d.::·ivin<:J •. :m a side street on hi.s way home.
He was pulled over by the ~oli.ce, because his car was smoking,
apparently after h~~ had h:..t th·~ ·Ji.L pan (he found out later).
H·~
~r what?
ili.Jn___JI_Li-k~bc]--,cJ'~" J"d

she was drunk or dead

- - - - - - - - - - --------

~---~-------

C - 78

----------

9

had blood over him and told the police that he had been in a
fight ~with a Black guy, ~ and they let him go after citing him
for the car smoke.
He arrived at his apartment and showered and went to bed.
His
roommate was there with his girlfriend and she later told him
that he had talked with her and he hugged her. When he woke up
in the morning and saw his clothes in the bathroom, he could tell
something had happened but could not remember what.
I asked Chris to tell me if he had any fights or engaged in any
violence during the period in his life that he abused alcohol or
othe~Bubstances.
He replied that he did not engage ip any
altercations even when he drank heavily.
He had experienced
several episodes of ~blackouts,~ periods during which he was
apparently conscious and engaged in various behaviors, but was
not able to recall them after he came out of it.
In one example
he gave, he was 16 years old and was drunk. Apparently, another
youth hit him over the eye. Chris apparently never noticed it or
remembered it until he was told about the incident.
He had
previously been hurt in the same eye at school by another youth
who had mistaken him for someone else.
The boy apologized to him
and Chris accepted the apology and did not hit him back.
I also asked Chris to tell me about his relationships with women,
including sexual relationships.
His reply was that he had
several casual and short term relationships. An exception was a
woman who was 2 to 3 years older and that relationship lasted
about two to three years. He stated that he didn't like
relationships with girls or women his own age because they tended
to play ~head games~ and he found it easier to relate to older
women.
He told about a relationship with an older woman with
whom he could talk like to an aunt or surrogate mother and he
felt very confident with her.
They were mostly just friends but
occasionally they would have sex.
She even tried to set him up
with one of her younger friends.
His most intimate friendship, according to Chris was with his
school friend Devon at about the age of sixteen.
The friend
committed suicide by shooting himself. After that, according to
Chris, he could never get into a deep relationship.
Chris was
asked to discuss his relationship with his mother.
He said that
up to the age of 3.5 years, before his sister was born, she spent
a lot of time with him.
He recalled one time when they went to
the ocean and he hung at her neck while she went swimming.
The
f·~·~.:..ing of intimacy he felt from her declined drastically after
the parents divorce, when she worked at two jobs to take care of
----l..W.-+W---___.,;;l_nd his s i-S-t ·2 r--.---l-~--'-t-rememb@±:-dw.g._l~l~i-ng .: : n-an-y----neg-a-l=---1;-'-1-i"'--------feelings, stating that she was doing things to improve herself,
including going to school. When asked if his mother abused him
or neglected him, he denied it and did not seem interested in
discussing it further.

C - 79

10
Chri~ recalled when to his surprise, his stepfathei moved into
their home, when he was about 4.5 to five years old.
He doesn't
remember rli_scussing it with hiS mother~._ :Whereaf' _he recollected
that his natural father had been physically abusive to his
mother, his new surrogate father did not abuse her.
He
remembered that there was an inCident when he heard his mother
and stepfather appearing to be fighting and she cried out, he ran
to the room, jumped on the stepfather and started to hit him, but
his parents both calmed him down and he found that they were
play-wrestling.
Chris stated that he always related well with
his stepfather.
I asked him about who disciplined him and how,
and he responded that they each had a different style.
His
mother would "fly off the handle," while-the stepfather was more
"laid back. "

According to Chris' account, he started "detaching from his
parents at about the age of thirteen. He had several friends and
referred to himself as "a beta male," explaining that in
comparison with the alpha male in a pack who is dominating and
aggressive, he was a follower.
One reason for his becoming more
detached from his parents was that their marriage was going
through rough times and did not pay much attention to him.
They
started to become separated in 1988 and were divorced .in 1989, at
the time he was arrested for stealing a motorcycle.
He said, of
himself, "I've always been a 'go-with-the-flow' person."
Regarding the time of his trial, Chris stated that he recalls
that his attorney never called any witnesses. He had been
examined by three mental health doctors, but only Dr. Todd Flynn
testified at his sentencing. Regarding his statement of
confession to the police, Chris stated that he had repeatedly
answered their questions stating that he didn't recall what
happened at the time the victim died, but that he eventually let
them lead the way and they told him that the victim had gotten in
the car voluntarily and that he raped her after they went to the
desert.
I questioned Chris regarding his drinking history, specifically
about the report~d 'blackouts.' He stated that he never knew
about them until his friends would confront them.
He remembered
one time a friend said to him "I can't beli~ve you did that and
don't r·~memb~r it," aft~r Chris had burned a tJizza that he had
tJUt in the oven.
In another incident he wck~ up with a woman 1n
b~d and did not rem~mber having tJick~d h~r ~tJ.
In anoth~r
incident, he did not rememb~r that he had ~one out with his
cousin, and th~y had switche~ cars.
He k~;t ar~uing with the
cousin about where he had tJUt the car, aft~r he woke UtJ in his
----he-u-se s i.~- ixuur s-1-at-·~·-r--.---------------The reviewed record contained a retJort by Dr . ~odd Flynn who
·~xamined Chris and t~stitied in conn~ction with the sent~ncing.
In the Background section, th~ retJort stated that Chris'
----- ------- -

C - 80

----~-

----------

-~---

11

childhood was characterized by na punitive, controlling,
emotionally cold mother, poor social adjustment with peers and
the ab~ence of B healthy_male role mod~l.
Drug and alcohol abuse
dominated his teenage years." Despite the critical statements by
Chris' sister, his uncle and an aunt which led Dr. Flynn to 'infer
that the mother was punitive and controlling, Chris himself would
look up to her, tried very hard to please her and do anything she
wanted and wanted very much for her to love him.
Dr. Flynn detailed Chris' history of drinking and smoking
marijuana beginning at the age of about 12 or 13.
The effect of
these substances was to relax him and give him confidence.
In
the early years no one had noticed how much he abused alcohol,
which he would take from the family's liquor cabinet and vodka
which he would steal from the liquor stores.
In Dr. Flynn's
judgement the parents did not recognize Chris' substance abuse
problem and he never was taken for treatment.
The psychologist
also cited a report from a cousin that Chris had blackouts·while
drinking.
He concluded that Chris' substance abuse problem
probably qualified as a physiological dependence.
He also
commented that there was no evidence of violence in his history.
The report mentioned an incident which happened a short time
before the "current offense," in which Chris had. acted
aggressively toward a woman, when he allegedly intimidated a
prostitute into having sex with him without paying. He was
described by others as being physically underdeveloped and being
a "social outsider at the school."
Dr. Flynn's view of Chris' sexual adjustment led him to
characterize him as "substituting bragging for actual
accomplishment." He certainly seemed to have more difficulty
with women of his own age, and tended to be oriented toward older
women.
The victim was 17 years older than him.
In his report
Dr. Flynn commented on the connection, based on research, between
increasing alcohol abuse and an increase in risk for violence and
noted that Chris' increasing physiological dependence on alcohol,
his control over anger impulses and his unusual use of aggression
toward a woman seemed to emerge simultaneously in the period
prior to the murder. Noting that Chris had been viewed as a
peaceful and passive individual through his teen years and early
adult life, "there was no escaping the deep seated anger and
~esentment" that had been rooted in childhood, based on chronic
neglect, rejection and evaluation by the parents, speci3lly by
the mother he had tried so hard to please.
Among the qualiti·:::s
Chr~s failed to develop f~~m his dysfunctional familj was .] s~nse
oE personal insight and skills which would help him learn t~
~esolve conflicts and to control the anger that he kept inside
lr·~ 'J•.:'ry r:rucictl. mow:rt_.
r ·:: p o ~ !~ , 0 r . F 1 y n n c:L~ s c ~ ~ o,:_: d a l i ;.: e l y
help•:::d ·:::<plain the:: apparent sensel·::ss killing.
in the weeks ori·::;~ t·:J the fatef·J:. ·::vent, Chris had

r n t h ,:_: con c: l us ion o f hi s

scenario

t~h.Jt~

Accou:iin<j~y,

--~-----·----------------------------

C - 81

12

been steadily escalating his drinking, as he experienced one
failure after another, including rejection by women he was trying
to please, his mother~ his girlfriend_and the stranger he
confronted looking for companionship.
In the short hours
immediately preceding the killing, the full blunt of his
deteriorating control and inhibition was triggered by an
alcoholic rage that brought together all the destructive elements
that led to the tragic death of the victim.
Dr. Flynn's opinion regarding the issue of mitigation of
sentencing was stated as being based on the criterion for
"statutory mitigation," by which the subject is incapable of
conforming his actions to the requirement of the law due to a
mental defect that detrimentally affects his ability to
appreciate the nature of his actions. This defect, according to
statute, falls short of meeting the stricter test for insanity
which requires a more severe impairment of the ability to know
the wrongfulness of one's actions.
Results of Current psvchological tests
Behavioral Observation and Mental Status:
Mr. Spreitz presented himself for this examination dressed
cleanly in his prison uniform and well groomed.
His head was
completely shaven.
He related in a very pleasant and cooperative
manner, openly answering all my questions without apparent
defensiveness and completing all tests that I administered to him
with apparent interest and good effort.
His speech and thought
processes were considered to be clear, coherent and goal
directed.
There was no evidence of any psychotic thought
processes nor of significant depression or anxiety.
The
defendant projected an image of a bright, alert and well informed
individual who was not trying to create any impression, but was
just being himself during this examination. His mood was calm
and congenial and his affect was considered to be congruent with
the mood and context.
Memory and other cognitive functions were
grossly within normal limits with no apparent impairment.
Results of intelligence testing (WAIS-R) and screening for
organic impairment of brain functions (BVRT) :
The client's performance yielded I.Q. scores which fell in the
range of "Av•::rag•::" to "V•::ry Supericr" int•::ll·::ctual func:tioninq.
'J•::rbal I .Q. 3c:::or•:: = 1·1 ,• :, "'I'?Cf :.3up•::::·~·Jr" l•?'I•::l)
!='erformance I .Q. = 10'-! : "i\vr::c:1ge" l,:::v•::l;
The obtained scor•::s w·::·:.:·:: ·::·2nsi•:i•::reJ ::-.o be relLab1·:: i.nc:i~·:.:t'>~<::J ~c
the defendant's curr•::nt abiJ.ity in the various sk.:ll ac•::a:3 tilat
were assessed.
The gap between the VerbaJ. scaJ.es and the

C - 82

(

13

Performance (psychomotor) scales, while statistically
significant, did not seem to reflect any significant clinical
_c:;ondition. _ In fact,_ the .relatively lDwer Perfo:rrnance~ ~I. Q. Score
was considered to be consistent with Mr. Spreitz' history of some
weakness in the area of coordination. While such a relative
weakness may have affected him developmentally, e.g. his lack of
athletic prowess in the football team in high school, there seems
to be no indication of disability or handicap at present.
The BVRT performance while revealing some visuomotor weakness,
did not reach a level that would be considered pathological, and
did not suggest the existence of an acquired organic impairment
of brain functions at present of any significant severity.
The
observed errors, however, were considered to be consistent with
the client's history of visuomotor problems discovered in a
psychoeducational assessment in school, and with the possible
existence of an ADD disorder that was suggested as a result of
that examination, as well as some of the problems that were
described in his educational history.
The current findings were compared to previous results.
Dr.
Allender's administration of the WAIS-R yielded I.Q. Scores which
were not significantly deviant from those obtained in this
assessment.
The I.Q. scores in his testing was reported as
ranging from 104 to 108, in the high side of the Average range.
These scores are somewhat depressed compared to the current
findings, and may reflect the defendant's emotional state at a
time closer to the offense, his arrest and the criminal
proceedings.
The current, more elevated scores probably reflect
a considerable improvement in adjustment, on the defendant's
part, which freed him up for a better test performance.
In any
case, these results indicate a very high potential for learning
in an individual who is intellectually quite capable, even in a
college or university setting.
Certainly, such results were
surprising in view of his quite poor academic accomplishment
through high school.
Results of personality testing:
The subject's pattern of responses was analyzed using a computerassisted program, with norms for correc~ional inmates that
provided statistically likely hypotheses regarding his
psychological adjustment and personality str~cture.
Mr. Spreitz'
::esponses to the MCMI- II I yi,~lded a profile that was cons id,::rr::d
to be valid for interpr::tacicn i~ :~at :he ~uilt-in scales ~or
detecting unusual response sets did net de~ect anv tendenc·1 1n
the subject to manipulate his presenta~ion.
The ~attern a~
-----r:.~·:::,.,~"!--,pensr::s wa::o
rat,:::d :Lo s·h-cwi:ng i~----~>-::: ·~:. rlu ~rrd-I-c-a-t-ii.""""'o~n~r::~h~a"'c~~c+-h~e~-------~
defendant is expected to act out ~iolently. He was depicted as
an inmate who would avoid risk-taking behavior and would not
engage in efforts to escape from or1son.
He was, similarly rated
as unlikely to act impulsively.
The hypothetical profile

C - 83

M-8

14

included a risk, though not substantial, for future suicidal
action and indicated that the subject reported he has had a
. __ previous attempt. _
The personality descriptors identified in Mr. Spreitz' profile
suggested he may be a fearfully dependent and socially anxious,
self demeaning and dejected person. He is considered to be
likely hesitant to assert himself and would prefer to lean on
others for guidance and security. He usually takes a passive
role in relationships. He lacks initiative and appears to lack
an adult level of autonomy. He willingly accepts blame and
criticism even when it is not deserved. He does, however, harbor
feelings of resentment to those he perceives to be abusive and
inconsiderate. His expression of such resentmenc, however, is
indirect, such as withdrawal from the situation.
In conflictridden social situations, he is likely to be conciliatory.
The computer assisted interpretive program includes a comparison
of this profile with respect to DSM diagnostic categories.
In
Mr. Spreitz' case the suggested diagnostic impression includes,
dysthymia, on Axis I, and Dependent, Depressive and Avoidant
personality on Axis II.
It also identified the defendant as
having a proneness for alcohol and psychoactive_ substance abuse.
The MCMI-III results, when contrasted with MMPI-2 results
reported by Dr. Flynn and in Dr. Allender's reviewed materials,
as well as Dr. Blinder's report of results on a different version
of the Millon test. They were found to be consistent in that all
four profiles provided evidence for a tendency toward depressive
illness and a vulnerability for alcohol and other substance
abuse.
The findings of my own testing, combined with the results
reported by earlier examiners, are congruent in providing
evidence for a chronic depressive reaction and a chronic and
S~'rere alcohol abuse in a young adult whose childhood was fraught
with neglect the absence of a nurturing family environment.
Res~ntment and anger that naturally would be generated from such
a background were suppressed in an adolescence and young
adulthood that were characterized by moodiness, below par
~cad~mic achievement and social immaturity and inadequacy.
--=:=n~-=

Lus i(Jns

~iagnostic

Impr~ssicn

303.

'30

Alcohol
and

r~stricted

3LL

Ax~s

II:

1DSM-IV):
D~p~nch~nc·~,
prct~ct~d

Dysthymic Disorder,

P~rsanalit'(

Traits:

<::urr-=ntl'( in
setting

curr~ntly

D~p~nd~nt

C - 84

in

r~mi:3si,::>~l

~arly

partial

in

-::1

15
What is remarkable about Chris Spreitz' present mental condition
is the absence of any apparent significant pathological symptoms
():f beh<3.1.Tioral prob_lems ,_ in_ <::ontr(3.;:;t tg a very _disturbed_
_
adjustment as a child, teen and young adult in a very confusing
social environment, prior to his incarceration.
Improbable as it
may seem, his life in prison has provided him not only protection
from his self-destructive pattern of substance abuse and alcohol
dependence, but also gave him a very predictable and clear social
environment. He has probably matured more during this period of
his life than in his earlier life of "freedom."
The significance of this phenomenon for the current legal issues,
is that it helps provide clarity regarding the question of the
defendant's mental condition at the time of the commission of the
crime, and of his psychological development leading to it - his
cognitive, behavioral and emotional development.
Because of
this, his current period of relative "normalcy" can be seen as
evidence to support mitigation of sentence.
Statutory mitigation requires evidence that a mental condition or
defect rendered the defendant unable to appreciate the
wrongfulness of his actions, at a level short of the criteria
needed for a determination of insanity.
In my opinion, to
reasonable psychological certainty, the data obtained in this
evaluation, gleaned from many separate sources, supports a
conclusion that Mr. Spreitz, at the time of the murder of the
victim in this case, was suffering from the cumulative effects of
severe childhood neglect and abuse expereinced in a severely
dysfunctional family.
Dr. Flynn stated in his report that these
were not dramatic in the usual sense in which we think of abuse
and neglect.
However, he did not have available to him reports
of interviews with Chris' sister, Gretchen and with his
stepfather, Steven Spreitz and others, which contained
information that the boy had been physically abused and beaten.
Emotional abuse can be and, in Chris' case, was very detrimental
in preventing the normal development of characteristics and
behaviors that could have helped prevent the unfortunate outcome
of this case.
The child's emotional abuse and neglect were not perpetrat~d by
monsters.
All of his parents and parent surrogates cared for and
may even have lcw-~d him sti:-·:Jngly, but -each in his/her own way
w~r~ inadequate ta the~~ tasks and r~sponsibilities.
They
th~mselves, according :a the review~d history may hav~ be~n
victims of neglect and 3buse ~~their childhccd families.
Without singling out any one oE them as being purpos~ly
malicious, they were responsible for the boy growing up in a home
______,_.-~,f "liol .::n-ee--amo-ng par :::",L..3, anJ LJt:::k of propc:r L '-::'.ugrr i ~ ~~~n of~h-±-s,-------­
need for attention, nurturance and guidance. This becam~ evid~nt
to its highest extent when th~y fail~d to recognize his pathology
as it d~veloped into a major clinical problem of s~vere substance
abus~ and dependence.
When i: was finally noticed, no parent

C - 85

~.~l-11-B:
HiS
1! ·

16

took the step that they were responsibly obliged to do, that is
to get him professional clinical intervention.
Very predictably, Chris Spreitz became involved in alcohol abuse
at a very early age in childhood and entered adolescence with a
full blown substance abuse disorder which could have been
detected and treated early but was not.
That he probably
suffered from other psychological problems, including the
possibility of ADD and a tendency toward depression, was not as
significant a contribution to the ultimate crime, as was the
development of alcohol abuse and dependence, since these
destroyed the ability the defendant could have had to suppress
and inhibit-destructive angry impulses that led to the killing of
the victim.
It is well known that some individuals are more
prone physiologically than others to become dependent on alcohol.
The outcome of a lifelong dependence disorder is very predictable
both, in terms of physical illness (e.g. liver disease), and
mental illness (depression, bipolar disorder. Many criminal
offenses are probably attributable directly and indirectly to
alcoholism.
One of it's aspects, commonly referred to as
"blackouts" literally renders the person unable to be aware of or
appreciate his actions or control them.
In Arizona, at present, alcoholism or related substance abuse
cannot be used in defense of a criminal action.
However, at the
time of the offense committed by Mr. Spreitz, the statutes were
different.
I was supplied by you with a copy of the insanity
statute, as it existed at the time of the offense, which I
reviewed and considered in forming my opinions.
Therefor, based
on the clinical findings and the legal criteria, it is my opinion
that the defendant does qualify for statutory mitigation and also
did qualify, at the time of his trial, for an insanity defense.
He did not possess, at the time of his offense, the mental and
emotional qualities that would have made it possible for him to
avoid his criminal action.
He was physiologically dependent on
alcohol, which means that he did not have the choice not to
drink.
Had he been given an opportunity for treatment and then
wasted it, he could have been considered culpable.
If he
suffered from a "blackout" at the time of the murder, which is
quite likely~ then he would not even have the conscious ability
to know what he was doing, much less that it was wrongful.
The
key psychological finding, for The Court, is that Mr. Spreitz
could not have conformed to what the law would have required him
to do, due to his mental defects and impairments.
':':C.,:::rr::: are C)ther, non-statutor;r factors whi·:h Th'::: Court can
consider for mitigation.
First, it is clear that with respect to
'~ :~ _:: .:d ,_ o h~d-e-pend-en<_ e , c: ,e d.:: f e nr::ldn t
~ s L <:: Lab-i-t-i-r-ab lo::~,
s±nce·-----t;-,,_=~------­
has, in fact abstained fer ten years.
The results are visible in
terms of improvement in his emotional, beha'lioral and cognitiv8
adjustment.
His record in pri3on was not made available to me,
although I believe it cccld be available.
Based on Mr. Spreitz'

C - 86

17

report, he has had no disciplinary problems and; certainly no
violent behavior. Given his apparent credibility and in the
_----- __ absence- of- a-different -report, . this -could be taken- as evidence -insupport of mitigation. Mr. Spreitz very much likes his "new
self," and will gladly accept any opportunity to redeem himself,
even if he never walks the streets again. His prosocial
disposition and his intelligence leads me to believe that he can
make positive contributions to others, even in prison, and can
further develop his education and competence, given an
opportunity.
Another possible non-statutory mitigating factor is the lack of a
pattern of violence in the defendant's life and lack of previous.
felony convictions. He is very unlikely to present a management
problem in prison and has, in fact, not done so for the past ten
years.
Thank you for the opportunity to assist you in this very
interesting case.
Sincerely,

(!~---

- ~/~~~""'~

/-~~L-,_1
~/

PJoseph Geffen, Ph.D., DABPS, FACFE
Clinical and Forensic Psychologist, Licensed
Diplomate, American Board of Forensic Examiners

C - 87

FILED
PATRICIA A. NOLAND
CLERK, SUPERIOR COURT
July 31,2000 (10:07 a.m.)
By: Judy Etchison

ARIZONA SUPERIOR COURT, PIMA COUNTY

CR-27745

JUDGE PRO TEMPORE: HON. PAUL S. BANALES

CASE NO.

COURTREPORTER:NONE

DATE: July 31,2000

STATEOF ARIZONA

v.s ..
CHRISTOPHER JOHN SPREITZ

MINUTE

ENTRY

RE: PETITION FOR POST-CONVICTION RELIEF FILED MARCH 28, 2000:
PROCEDURAL BACKGROUND:
On August 18, 1994, Petitioner was convicted by a jury of first degree murder, kidnapping and
sexual assault ofRuby Reid. On December 21, 1994, Judge William N. Sherrill, Pima County Superior
Court, sentenced Petitioner to death on count one, the first degree murder charge, and further imposed
aggravated sentences of fourteen (14) years as to count two, the sexual assault charge, and count three,
the kidnapping charge. Sentences as to count two and three were to run consecutively. Defendant's
judgments of guilt and sentences were affirmed on appeal. State v. Spreitz, 190 Ariz. 129, 945 P.2d
1250 (1997)(en bane), cert. denied (1998).
On March 28,2000, Petitioner filed his first Petition for Post-Conviction Relief (PCR) pursuant
to Rule 32, Arizona Rules of Criminal Procedure. In his Petition, Petitioner raises ten (1 0) issues which
are outlined as follows:
1.
2.
3.
4.

Ineffective assistance of trial counsel at the guilt/innocence phase (Claim I, pages 17-33);
Ineffective assistance of counsel at the sentencing phase (Claim II, pages 33-51);
Ineffective assistance of counsel on appeal (Claim III, pages 51-52);
Ineffective assistance of counsel generally (Claim IV, pages 52-54);

D-1

Judy Etchison
Deputy Clerk

MINUTE ENTRY
Date:

Page: 2

July 20, 2000

Case No:

CR-27745

5. The instruction on premeditation violated the Petitioner's constitutional rights (Claim V,
pages 54-55);
6. The felony murder instruction violated the Petitioner's constitutional rights (Claim VI pages
55-58);
7. The Court's failure to instruct the jury that they need not return a verdict (Claim VII, page
58);
8. The Court erroneously found kidnapping as an aggravating factor (Claim VIII, pages 59-60);
9. The trial court applied an erroneous quantum of proof necessary to consider intoxication as a
mitigating factor (Claim IX, pages 60-62); and
10. The trial court erroneously applied A.R.S. § 13-703(0)(1) as it relates to Petitioner's
dysfunctional upbringing (Claim X, pages 62-68).
The State filed a Response to the Petition, opposing any relief requested by Petitioner. 1
.r'etitioner then filed his reply to the State's opposition on June 20, 2000.
II.

LEGAL ANALYSIS AND CONSIDERATIONS:
For the sake of simplicity, the ten issues raised by Petitioner in his PCR can be classified and

consolidated under three main topics-(1) The ineffective assistance of counsel, both trial and appellate (Issues 1 through 4);
(2) The appropriateness of certain jury instructions/failure to instruct (Issues 5 through 7); and
(3) The trial court's consideration, or lack thereof, of mitigating and aggravating factors (Issues 8
through 10).
The Court will address and discuss the issues accordingly.

1

Although the State argues that Petitioner has presented precluded or non-colorable
claims, the State indicates that Petitioner should be allowed an evidentiary hearing to make a
record. See State's Response to Petition for Post-Conviction Relief, at page 14 (lines 11-12).
However, the State does not indicate as to which issue or issues Petitioner should be allowed to
make a record.

D-2

Judy Etchison
Deputy Clerk

MINUTE
Page: 3

Date:

ENTRY

July 20, 2000

Case No: CR-27745

PART 1: INEFFECTIVE ASSISTANCE OF COUNSEL
INTRODUCTION
Petitioner argues numerous instances in which trial and appellate counsel were ineffective. See
the discussion in Part 1, infra. On appeal, Petitioner made only one claim of ineffective assistance of
counsel, arguing that trial counsel was ineffective when counsel admitted guilt in his opening statement
to the jury (thereby abandoning all other defenses). This issue was decided against Petitioner. 190 Ariz.
at 146-47. No other claims of ineffective assistance oficounsel were raised or argued by Petitioner on
appeal. Not having done so, Petitioner has effectively waived any further such claims for Rule 32
purposes. E.g., State v. Herrera, 183 Ariz. 642, 905 P.2d 1377 (App. 1995). However, to the extent that
. 'etitioner is claiming that appellate counsel was ineffective for failing to raise any such claims, the
Court will consider and discuss each issue on the merits.
1.

INEFFECTNE ASSISTANCE OF COUNSEL AT THE GUILT/INNOCENCE PHASE

(Issue 1)
a. Counsel's failure to argue speedy trial violation (Claim lA, pages 17-25):
Petitioner claims that trial counsel was ineffective in that trial counsel failed to argue that his
speedy trial rights were 'violated under Rule 8, supra , as well as under the Sixth Amendment of the
United States Constitution and Art. 2, § 24 ofithe Arizona Constitution. The lengthy pretrial period--five
years from arraignment to trial--was analyzed and discussed in detail on direct appeal by the Arizona
Supreme Court, which rejected Petitioner's claim ofispeedy trial violations under Rule 8 and the Sixth
Amendment theories. The Supreme Court found that Petitioner himself waived his speedy trial rights
under Rule 8; furthermore, the Court noted that Petitioner did not complain about the delay until just

D-3

Judy Etchison
Deputy Clerk

MINUTE
Date:

Page: 4

ENTRY

July 20, 2000

Case No:

CR-27745

before trial. 2 The Court found that counsel was not deficient for failing to protest the delay, much less
that counsel's performance prejudiced the Petitioner. See the discussion in Spreitz, 190 Ariz. at 136-40.
b. Failure to Present Insanity Defense (Claim IB, at pages 25-26):
Petitioner argues that trial counsel was ineffective in not pursuing an insanity defense. In support
ofithis claim, Petitioner attaches a 16-page report by Dr. Joseph Geffen, Ph.D. See Exhibit 1 ofithe
Appendix, as attached to PCR (report dated March 28, 2000). In his report, Dr. Geffen concluded as
follows:
" ... [I]t is my opinion that the defendant does qualify for statutory mitigation and also did
qualify, at the time ofihis trial, for an insanity defense. He did not possess, at the time ofi
his offense, the mental and emotional qualifies that would have made it possible for him
to avoid his criminal actions. . . .Ifihe suffered from a "blackout" at the time ofithe
murder, which is quite likely, then he would not even have the conscious ability to know
what he was doing, much less that it was wrongful... ". See Exhibit 1 at page 16.
First ofiall, it is clear from the record in this case that the facts or evidence simply did not support
an insanity defense. Indeed, Dr. Geffen's opinion that the Petitioner may have suffered from an
alcoholic blackout at the time ofithe offense does not give rise to, nor does it support, an insanity
defense. Cf State v. Schurz, 176 Ariz. 46, 857 P.2d 156 (1993); and see the discussion in Spreitz, 190
Ariz. at 150 (referring to Dr. Todd Flynn's testimony at the mitigation hearing, wherein Dr. Flynn
opined that Petitioner was not suffering from any emotional or cognitive disorder which would have
affected his ability to distinguish right from wrong or to conform his behavior to the law).
Secondly, it is also clear from the record that trial counsel's strategy, in defending Petitioner at
trial, was to concede that Petitioner was in fact responsible for the victim's death but that his conduct did
amount to first degree murder (and thus possibly saving him from the death penalty). Therefore, trial

2

Much ofithe delay was attributed to the fact that Petitioner's case was a test case in
Pima County for the admissibility ofiRLFP DNA evidence.

D-4

Judy Etchison
Deputy Clerk

MINUTE ENTRY
Date:

Page: 5

July 20, 2000

Case No:

CR-27745

counsel's decision not to present an insanity defense was a reasonable, strategic decision.3
c. Failure to Object to Irrelevant and Prejudicial Testimony Regarding Homosexuality (Claim
IC, pages 27-28):
Petitioner argues that his trial counsel was ineffective by failing to object to a police officer's
·testimony regarding Petitioner's alleged homosexuality. 4 Petitioner argues that the testimony of:
Petitioner's alleged homosexuality was extremely prejudicial and would have inflamed the jury,
especially those who may have harbored bias against homosexuals in general.
In the context in which this discussion took place between the Petitioner and the officer, the
statements made by Petitioner to Sgt. Chacon, and the explanation given by Sgt. Chacon as to why he
)sed the question to Petitioner, was far more probative than any possible prejudice. It is obvious, from·
the nature o£his response to Sgt. Chacon, that Petitioner was attempting to alleviate any concerns on the
part o£Sgt. Chacon regarding the officer's observations o£blood and fecal material on Petitioner's
clothes. Regardless, such evidence can be deemed harmless in light o£the overwhelming evidence o£

3

On appeal, the Supreme Court noted that it was strategically sound for defense counsel
to admit Petitioner's responsibility for the victim's death and to argue that Petitioner could only
be found guilty of manslaughter or second degree murder. The Court funher noted that defense
counsel argued against any finding o£kidnapping or sexual assault in an· effort to preclude a .
guilty verdict on the theory o£ felony murder. 190 Ariz. at 147. The fact that a particular course
of: strategy later proves unsuccessful does not constitute ineffective assistance o£ counsel. State
v. Valdez, 160 Ariz. 9, 770 P.2d 313 (1989).
4

Shortly after the Petitioner had killed the victim, he was confronted by Sgt. Victor
Chacon o£the Tucson Police Department, who noticed that there was blood and fecal matter on
Petitioner's clothes. When Sgt. Chacon asked Petitioner i£he was gay, Petitioner responded "A
little bit". Sgt. Chacon went on to testify that homosexuals often transfer fecal matter between
themselves while having sex. See reporter's transcript, 8/10/94 at 251 [hereinafter referred to as
"R.T."].

D-5

Judy Etchison
Deputy Clerk

MINUTE
Date:

Page: 6

ENTRY

July 20, 2000

Case No: CR-27745

Petitioner's guilt.
d. Lack of Defense Theory/Failure to Present Witnesses/Lack of Petitioner's Participation in the
Decision-Making Process (Claim ID, pages 28-30):
Petitioner argues that trial counsel was ineffective for lacking any theory of the defense and for
failure to call any witnesses on Petitioner's behal£ 5 Petitioner further argues that trial counsel never
discussed or consulted with Petitioner the fact that no witnesses would be called, including calling
Petitioner as a witness. Petitioner did not testify.
As previously discussed, insanity was not a viable defense in Petitioner's case. Trial counsel
obviously understood and accepted the fact that the evidence overwhelmingly demonstrated Petitioner's
lsponsibility for the victim's death. The most sound and realistic strategy, in terms of defending
Petitioner at his trial, was to simply admit Petitioner's responsibility for the victim's death but to make
every effort to negate any premeditation (and thus preclude a conviction on first degree murder).
Whether or not Petitioner participated in the decision to call or not to call witnesses in the defense
portion of the case is really ofno consequence since Petitioner is bound by his counsel's trial strategy.
State v. Levato, 186 Ariz. 441,924 P.2d 445 (1996). Nor is there any indication in the record that
Petitioner wanted to take the stand and was not allowed to do so. State v. Allie, 147 Ariz. 320, 327-8,
710 P.2d 430 (1985).
e. Failure to Present Evidence Regarding Petitioner's Intoxication (Claim IE, pages 30-32):
Petitioner argues that trial counsel was ineffective for failure to present evidence of Petitioner's
intoxication at the time of the murder. However, there was in fact evidence presented at trial that
Petitioner had been drinking on the night in question, including the fact that Petitioner may have been

5

For example, Petitioner argues that trial counsel could have submitted the defense of
temporary insanity.

D-6

Judy Etchison
Deputy Clerk

MINUTE
Page: 7

Date:

ENTRY
Case No: CR-27745

July 20, 2000

intoxicated. 6 Petitioner argues that trial counsel should have called certain witnesses, such as Lucy
Eremic, as well as Scott Jouetl According to Petitioner, Ms. Eremic would have testified that he
sounded intoxicated when she spoke to him that evening. Jouett would have testified that Petitioner
often suffered blackouts when he had been drinking. First of all, Eremic's testimony would have been
cumulative. Secondly, Jouett's testimony would not have been admissible since he was not in a position
to comment on Petitioner's condition on the night in question.
f. Failure to Aggressively Pursue a Plea Bargain (Claim IF, page 32):
Petitioner argues that trial counsel was ineffective in not aggressively pursuing a plea agreement.
Petitioner goes on to argue that had trial counsel not continued the trial in order to allow the State to
omplete it's DNA testing, the State would have probably offered the Petitioner a plea bargain. There is
no evidence whatsoever that the State would have, at any time, offered Petitioner a plea in this matter.
Thus, Petitioner's claim that the State would have offered the Petitioner a plea bargain is pure
speculation and does not give rise to any colorable claim. See, for example, State v. Meeker, 143 Ariz.
256, 693 P .2d 911 (1984). Furthermore, a defendant in a criminal case has no constitutional right to a
plea agreement. State v. Draper, 162 Ariz. 433, 784 P .2d 259 (1989).
g. Failure to Request/Object to Certain Jury Instructions (Claim IG, pages 32-3):
Regarding his arguments made under Claims V, VI and VII (which are discussed in Part 2
infra), Petitioner incorporates his arguments regarding certain~my instructions. For the reasons

6

Petitioner's friend, Craig Clark, and Clark's girlfriend, Alana Owens, both testified that
Petitioner had been drinking on the night in question. Clark testified that he had been drinking
"nickel beers" for more than three hours with Petitioner and that he drove Petitioner home on the
night ofthe murder. RT., 8/10/94, at 289,91-92 and 305. Owens testified that Petitioner
"seemed a little drunk" when he came home. RT., 8/11/94 at 336-337. Interestingly enough,
Petitioner himself argues that there was "substantial evidence" that Petitioner was intoxicated the
time he committed the murder. See PCR, Claim IX, at page 60 (lines 22-3).

D-7

Judy Etchison
Deputy Clerk

MINUTE
Page: 8

Date:

ENTRY

July 20, 2000

Case No: CR-27745

indicated by the Court in Part 2, this Court cannot find any basis for relief under Rule 32 based upon
these claims.
2.

INEFFECTIVE ASSISTANCE OF COUNSEL AT THE SENTENCING PHASE (Issue 2):
a. Counsel's Failure To Understand Or Research State's Theory Of Aggravation (Claim IIA,

pages 33-9):
Petitioner argues that trial counsel completely failed to understand the State's sole theory of an
aggravating circumstance, i.e., that the murder was committed in an especially cruel manner. See A.R.S.
§ 13-703(F)(6). Petitioner further argues that trial counsel did not adequately research the case law
regarding cruelty as an aggravating circumstance. The record clearly demonstrates that trial counsel
,Marshall Tandy) completely understood that the sole aggravating factor relied upon by the State in
seeking the death penalty was, to use counsel's own words, the "notion of cruelty". R.T., 12/12/94 at
page 3. The record also demonstrates that trial counsel recognized that the element of cruelty addresses
the infliction of pain on the victim, whether it is physical or mental. In any event, the Supreme Court
conducted its own independent review of the aggravating and mitigating factors in this matter, and
having done so, the Supreme Court determined that the aggravating circumstance of especial cruelty in
Petitioner's murder of Ruby Reid outweighed all factors mitigating in favor of leniency. 190 Ariz. at
151. Thus, even if trial counsel did not completely understand the aspect of ciuelty as an aggravating
factor, or if he did not adequately research it, Petitioner suffered no prejudice since the facts themselves
warrant a finding that the murder was committed in an especially cruel manner.
b. Counsel's Failure To Present Evidence To "Humanize" Petitioner (Claim liB, pages 39-41):
Petitioner argues that his trial counsel was ineffective for failure to call a number of witnesses at
the mitigation hea.rin.g. In his Appendix to the PCR, Petitioner attaches no less than 15 affidavits (and
one declaration) by his parents, former stepfather and stepmother, as well as immediate family members,

D-8

Judy Etchison
Deputy Clerk

MINUTE ENTRY
Date:

Page: 9

July 20, 2000

Case No:

CR-27745

relatives and acquaintances of Petitioner.'
According to Petitioner, all of the witnesses whose affidavits were attached in his Appendix
would have testified at the mitigation hearing had they been requested to do so. In this way, Petitioner
argues the evidence would have demonstrated that he was a good, kind and decent individual, having
suffered from alcoholism and childhood abuse, and that trial counsel failed to adequately demonstrate
this at the time ofthe mitigation hearing held on November 28, 1994. However, a review of these
affidavits leads to the conclusion that these witnesses' testimony would have been cumulative and, in
some instances, counterproductive to Petitioner's theory of mitigation. According to Dr. Todd Flynn,
forensic psychologist, who was called by the defense at the mitigation hearing, Petitioner had a long
_listory of alcohol and substance abuse and clearly suffered from alcoholic blackouts. See R.T., at page
12, lines 4-24. Indeed, Dr. Flynn opined that Petitioner was a "physiological alcoholic" who could
function with a high level of energy after drinking heavily. Id: page 13, lines 19-25 and page 20, line 714. Dr. Flynn also testified that he could find no history of violent behavior in Petitioner's past other
than some minor episodes of recent origin. R.T., at page 24, lines 1-19. Even more significant, Dr.
Flynn indicated that Petitioner lacked the potential for violent behavior and that he found no basis for
diagnosing Petitioner as having an antisocial personality according to the DSM-IV. 8 RT., page 24, lines
20-25; page 25; and page 26, lines 21-23. Dr. Flynn also related facts that supported Petitioner's claim
that he had a dysfunctional upbringing and that he suffered from childhood abuse, both physical and

7

The list includes former teachers and classmates, as well as childhood friends. Also
included was an affidavit from Tammy Brunner (Exhibit 9), who is the mother of Petitioner's
daughter.
8

The Diagnostic and Statistical Manual of Mental Disorders, 4th edition.

D-9

Judy Etchison
Deputy Clerk

MINUTE
Date:

Page: 10

ENTRY

July 20, 2000

Case No: CR-27745

emotional.9
Thus, any further testimony regarding Petitioner's dysfunctional upbringing, alcoholism and lack
of antisocial behavior would have been repetitious and cumulative. Some of the proposed testimony
would have been inconsistent with Petitioner's claim that he may have suffered from an alcoholic
blackout at the time of the offense or that he suffered from severe childhood abuse. For example, Susan
Mendenhall, Petitioner's mother, indicates that she was a considerate, conscientious mother who could
not even recall a single instance in which she argued with Petitioner while he was growing up. Steven
Spreitz, Petitioner's former stepfather, mostly describes his stormy relationship with Petitioner's mother.
Petitioner's natural father, Raymond Jackson, indicates that Petitioner had no alcohol problem when
etitioner was living with him during some of Petitioner's high-school years and that he does not recall
Petitioner ever being drunk or belligerent.
The fact remains that none of the testimony presented at the mitigation hearing, as well as any of
the testimony Petitioner now proposes to introduce in mitigation, would change the sole and most
significant aggravating factor in this case, i.e., that the murder was committed in an especially cruel
manner. See, for example, State v. Smith, 138 Ariz. 79, 673 P.2d 17 (1983) (Supreme Court found that
cumulative mitigation was "significant" but not sufficiently substantial to call for leniency in light of
extreme cruelty and brutality of the offense}.
c. Counsel's Failure To Investigate And Document Petitioner's Childhood Head Injuries (Claim
IIC, pages 42-3):
Petitioner argues that trial counsel failed to properly investigate and document the alleged fact
that Petitioner suffered severe head injuries as a child which may have provided an explanation for

9

This aspect ofPetitioner's childhood was discussed at such great length, prompting
Dr. Flynn to testifY that "we have already talked ad nauseam about the deprived pathogenic home
environment which I would consider nonstatutory factors." R.T., at page 29, lines 11-13.

D - 10

Judy Etchison
Deputy Clerk

MINUTE
Page: II

Date:

ENTRY

July 20, 2000

Case No: CR-27745

Petitioner's behavior in the instant case. There is insufficient evidence to indicate that Petitioner
suffered significant head injuries as a child which would demonstrate, in any manner whatsoever, that he
was unable to conform his conduct to the law or appreciate the wrongfulness of his behavior. There is
no evidence whatsoever that Petitioner suffered from any cognitive deficits, organic or otherwise. Thus,
there is no basis for claiming that trial counsel was ineffective for failing to investigate or document
Petitioner's alleged head injuries as a child. Compare State v. Rockwell, I6I Ariz. 5, 775 P.2d I069
(I989 with State v. Stokley, I82 Ariz. 505, 898 P.2d 454 (I995).
d. Counsel's Failure To Present Evidence Of Petitioner's Extensive Childhood Abuse And The
Striking Resemblance Between The Victim And Petitioner's Mother (Claim liD, pages 43-5}:.
Petitioner argues that trial counsel failed to adequately present evidence of Petitioner's extensive
childhood abuse. Petitioner further argues that trial counsel failed to elicit testimony or evidence of the
"striking physical resemblance" between Petitioner's mother and the victim herein. Neither states a
colorable claim of ineffective assistance of counsel. First of all, there was more than sufficient evidence
of Petitioner's abuse as a child, both physical and emotional. Secondly, any possible resemblance
between Petitioner's mother and the victim in this case, Ruby Reid, would really be of no consequence.
e. Counsel's Failure To Present Evidence Of Petitioner's Intoxication At The Time Of Offense
(Claim liE, pages 45-6}:
Petitioner once again argues that trial counsel was ineffective for failure to present available
evidence of Petitioner's intoxication at the time of the offense, this time arguing that counsel should
have such presented such evidence at the time of Petitioner's sentencing. As previously discussed, there
was more than sufficient evidence of Petitioner's drinking and/or intoxication (on the night in question)
presented at trial and the trial court cenainly considered such evidence at the time of sentencing.
However, such evidence did not qualify as a mitigating factor. See the discussion in Part 3, Section 2,
ifra.

D - 11

Judy Etchison
Deputy Clerk

MINUTE
Date:

Page: 12

ENTRY
Case No: CR-27745

July 20, 2000

f. Counsel's Failure To Object To the Preparation Of The Presentence Report Or To Be Present
At Petitioner's Interview Regarding The Report (Claim IIF, pages 46-51):
Petitioner argues that a preparation of the presentence report in his case violated his
constitutional rights under the United States and Arizona Constitutions. He also argues that trial counsel
was ineffective for failing to be present during his presentence interview with the probation officer.
First of all, the rules require that a presentence report be prepared in every case. Rule 26.4(a),

supra. Secondly, the statutory scheme regarding sentencings in capital cases contemplate that the
sentencing ~udge use information contained in the presentence report at the time of sentencing. A.R.S.
§ 13-703(C); see State v. Clabourne, 142 Ariz. 335, 690 P.2d 54 (1984). Therefore, trial counsel was
_ot ineffective in failing to object to a Presentence Report in this matter.
Nor was counsel ineffective for failing to attend the presentence interview conducted by the
probation officer. Petitioner cites no authority for this argument and the court finds that such a claim is
without any merit whatsoever.
3.

INEFFECTIVE ASSISTANCE OF COUNSEL ON APPEAL (Issue 3)

a Counsel's Failure To Challenge Trial Counsel's Ineffectiveness Per Rule 32 (Claim IliA, page
51):
Petitioner argues that appellate counsel was ineffective for failing to challenge the
ineffectiveness of trial counsel in a Rule 32 proceeding, as opposed to arguing the matter on appeal. 10
While the preferred method of challenging trial counsel's ineffectiveness is by way of a Rule 32
proceeding, the failure to do so does not necessarily constitute ineffectiveness of appellate counsel.

10

As previously indicated, appellate counsel did argue that trial counsel was ineffective
by admitting Petitioner's guilt in his opening statement to the~ury (and in doing so, effectively
abandoned all defenses available to Petitioner at the time). See the discussion in Part 1, section
!,supra.

D - 12

Judy Etchison
Deputy Clerk

MINUTE
Page: 13

Date:

ENTRY

July 20, 2000

Case No:

CR-27745

State v. Valdez, supra. However, as clearly indicated in the instant proceedings, Petitioner has failed to
allege any facts or submit any evidence, iftrue, which would demonstrate appellate counsel's
ineffectiveness. Effective advocacy requires that appellate counsel weed out the more weaker arguments
and focus on those issues or arguments that are more likely to prevail on appeal. State v. Smith, 169
Ariz. 243, 818 P.2d 228 (App. 1991). And once the issues have been narrowed and presented, appellate
counsel's failure to raise other potential claims or arguments constitutes a waiver of those issues and
cannot later be resurrected in post-conviction proceedings under the guise of claiming ineffective
assistance of counsel. State v. Herrera, supra.
b. Counsel's Ineffectiveness To Raise, On Appeal, The Issue Of Requesting Certain Jury
·. structions Or Objecting To Others (Claim IIIB, pages 51-2):
Petitioner argues that appellate counsel was ineffective in not raising, on appeal, the issue of trial
counsel's ineffectiveness in failing to request

certain~ury

instructions, as well failing to object to others

that were given. These arguments are essentially outlined in Part 2, infra, and the Court's findings
therein are incorporated herein by reference.
c. Counsel's Failure To Challenge The Sentence OfThe Court (Claim IIIC, page 52):
Petitioner argues that appellate counsel was ineffective in failing to challenge the sentence of the
Court for those reasons outlined in Claims VIII through X of his Petition. These claims are discussed in
Part 3, infra, and the Court's fmdings therein are incorporated herein by reference.
4.

GENERAL LEGAL PRINCIPLES OF INEFFECTIVE ASSISTANCE OF COUNSEL (Issue 4,

Claim IV, pages 52-4)
Petitioner argues that trial counsel committed numerous tactical or strategical errors throughout
his trial and that the cumulative effect of these errors violated Petitioner's constitutional rights to a fair
trial. Petitioner claims that given the numerous errors and deficiencies of trial counsel, both individually
i collectively, there is a reasonable probability that it would have changed the outcome of the trial,

D - 13

Judy Etchison
Deputy Clerk

MINUTE
Page: 14

Date:

ENTRY

July 20, 2000

Case No: CR-27745

sentencing or appeal.
Petitioner has not outlined or submitted all ofthe alleged errors, deficiencies or mistakes
allegedly made by trial counsel during the course of his trial. Suffice to say even the most capable and
able trial attorney often makes certain tactical or strategical de~isions which, upon hindsight, prove to be
less than choice decisions. The fact that trial counsel did not make an objection in every instance that an
objection could have been made or failed to contest the admissibility of every item of evidence does not
support a claim that trial counsel was ineffective. All that is required is that a defendant receive
effective assistance of counsel. Strickland v. Washington, 466 U.S. 668 (1984). And Petitioner has
presented no claims or arguments herein which, if true, would support a colorable claim for ineffective
...ssistance of counsel, both at the trial and appellate level. E.g., State v.s.. Borbon, 146 Ariz. 392, 706
P.2d 718 (1985).

PART 2: ISSUES REGARDING JURY INSTRUCTIONS
IN1RODUCTION
In terms of the issues raised in Claims V through X of the PCR (see discussion in Parts 2 and 3,
infra), Petitioner argues that there were fundamental and structural errors that warrant a reversal of his

conviction and sentence. First of all, he argues that both trial and appellate counsel were ineffective for
failing to raise these issues, and secondly, that such errors cannot be waived for purposes of any relief
requested under Rule 3 2. 11 As discussed below, each of these claims are precluded under Rule

11

Petitioner apparently concedes that failure to raise these issues on appeal would
normally constitute a waiver and preclusion for purposes of Rule 32. However, Petitioner argues
that they are not precluded since they are based on newly-discovered evidence and that Petitioner
is not responsible for failing to raise theses issues at trial or on appeal. Finally, he argues that
there has been a significant change in the law that requires reversal of his conviction and
sentence.

D - 14

Judy Etchison
Deputy Clerk

MINUTE
Page: 15

Date:

ENTRY

July 20, 2000

Case No: CR-27745

32.2(a)(3), supra. Furthermore, the record does not support any basis for relief under any of the grounds
asserted by Petitioner.
1.

THE JURY INSTRUCTION ON PREMEDITATION (Issue 5, Claim V, pages 54-5)
Petitioner concedes that the jury instruction on premeditation met its statutory defmition under

A.R.S. § 13-1101 (1 ). Nevertheless, Petitioner argues that the instruction violated his due process rights
under the Fifth and Fourteenth Amendments to the United States Constitution and Article 2, Section 4 of
the Arizona Constitution. He claims that the premeditation instruction is inadequate, allowing the jury
to convict an individual on first or second degree murder "based on a whim." Any such argument could
have been raised on appeal. Not having done so, it is waived. State v. Herrera, supra. Also, there was

_. oerror in giving the instruction. State v. Haley, 194 Ariz. 123, 978 P.2d 100 (App. 1998).
2.

THE INSTRUCTION ON FELONY MURDER (Issue 6, Claim VI, pages 55-58)
Petitioner claims that the felony murder instruction submitted to the jury violates his due process

rights under the Fifth and Fourteenth Amendments of the United States Constitution and Article 2,
Section 4 of the Arizona Constitution. Petitioner argues that the jury was erroneously instructed that the
killing need not occur while "engaged in the felony," which he claims is inconsistent with the term "in
the course of the offense." Again, this argument should have been raised on appeal, and not having done
so, it is waived .. Furthermore, there was no error in giving the instruction. State v. Miles, 186 Ariz. 10,
918 P.2d 1028 (1996).
3.

FAILURE TO INSTRUCT THAT THE WRY NEED NOT RETURN A VERDICT (Issue 7,

Claim VII, page 58)
Petitioner claims that his due process rights under the Fifth and Fourteenth Amendment of the
United States Constitution and Article 2, Section 4 of the Arizona Constitution were violated by the
Court's failure to instruct the jury that they need not return a verdict. Not only is this claim precluded,
. t having been raised on appeal, but there is absolutely no requirement to advise a jury that they need

D - 15

Judy Etchison
Deputy Clerk

MINUTE
Date:

Page: 16

ENTRY

July 20, 2000

Case No: CR-27745

not return a verdict. State v. Thomas, 133 Ariz. 533, 652 P.2d 1380 (1982).

PART 3: THE COURT'S CONSIDERATION, OR LACK THEREOF,
OF MITIGATING AND AGGRAVATING FACTORS
I.

KIDNAPPING AS A NON-STATUTORY AGGRAVATING FACTOR (Issue 8, Claim VIII,

pages 59-60)
Petitioner claims that the trial court erroneously found kidnapping as an aggravating factor in
imposing the death penalty inasmuch as kidnapping is not a statutory aggravating factor. See A.R.S.
§ 13-703. First of all, this issue was never raised on appeal (and is thus waived). Secondly, the record

Jes not reflect that the trial court found kidnapping as an aggravating factor. As previously discussed,
the Supreme Court conducted its own independent review of: the mitigating and aggravating factors and
determined that the trial court's imposition of: the death sentence was supported by the record. See the
discussion in Spreitz, 190 Ariz. at 147-51.
2.

THE COURT'S FAILURE TO CONSIDER DEFENDANT'S ALCOHOLISM/DRUG

ADDICTION AS A MITIGATING CIRCUMSTANCE (Issue 9, Claim IX, pages 60-62)
Petitioner argues that the trial court failed to consider Petitioner's long-term alcoholism and
substance abuse as a mitigating factor. Separate and apart from whether or not any residuals from
Petitioner's long-term problemswith alcohol and substance abuse affected his cognitive abilities on the
night in question, Petitioner argues that Petitioner's history of: alcoholism and substance abuse, in and of
itself, constituted a non-statutory mitigating factor which the trial court should have considered at the
time of: sentencing. 12

12

Petitioner argues that the Arizona Supreme Court confused this issue as well.
Court's discussion in Spreitz, 190 Ariz. at 149-150.

D - 16

Judy Etchison
Deputy Clerk

See the

MINUTE
Page: 17

Date:

ENTRY

July 20, 2000

Case No: CR-27745

Once again, this issue was never raised on appeal and is thus waived. Even so, it must be
demonstrated, under A.R.S. § 13-703(G)(l), that there is a causal link between the history of alcohol or
substance abuse and the offense itsel£. E.g., State v. Stokley, supra 182 Ariz. at 523. Without some
basis for explaining or defming the individual's behavior at the time o£the offense, the Petitioner's
history o£ alcohol or substance abuse would be inconsequential (which is exactly what the trial court and
Supreme Court concluded). State v. Kayer, 194 Ariz. 423, 984 P.2d 81 (1999).
At times, the court can and should consider an individual's long-term alcoholism and substance
abuse, usually in conjunction with other factors or diagnosis, as non-statutory mitigation. However, the
impact or effect o£the alcoholism or substance abuse must be substantial and o£such severity that it
rovides a sufficient basis for explaining the defendant's conduct, character or ability to control his
behavior at the time olithe offense. See, for example, State v. Rockwell, supra (where defendant's
alcoholism, violent and unpredictable behavior, as well as destructive conduct in personal relationships,
occurred after defendant suffered severe head injuries and loss o£ right leg in motorcycle accident, court
found that these factors, along with defendant's young age and "unique circumstances olihis
conviction," were sufficiently substantial to call for leniency, notwithstanding the fact that the mitigating
factors failed to make defendant any less accountable for his crime); State v. Herrera, 174 Ariz. 387, 850
P.2nd 100 (1993) (finding that mitigating circumstances taken as a whole, i.e., duress, age, dysfunctional
childhood, borderlinel.Q. and alcohol use at time o£the offense, required leniency); see also State v.
Stevens, 158 Ariz. 595, 764 P.2d 724 (1988) (where defendant diagnosed as alcohol and drug dependent,

as well as having an impulsive, passive-aggressive personality, and where psychiatrist opined that
defendant's heavy use o£alcohol and drugs shortlybefore the murder affected his ability to conform his
behavior to the requirements o£the law, death sentence vacated and reduced to life).
As previously discussed, there is no evidence in Petitioner's case to suggest that he suffered any
1g-term effects from his alcohol or drug abuse that precluded him from controlling his behavior.

D - 17

Judy Etchison
Deputy Clerk

MINUTE
Date:

Page: 18

ENTRY
Case No: CR-27745

July 20, 2000

Petitioner did not suffer from any cognitive or emotional deficits that rendered him incapable of:
controlling his conduct. Therefore, the trial court did not err in failing to find Petitioner's history of:
alcohol or substance abuse as a separate, non-statutory mitigating factor. E.g., State v. Tittle, 147 Ariz.
339, 710 P.2d 445 (1985) (finding that defendant's history of:heroin abuse, including use of:heroin on
the day of: the murder, held insufficient to qualify as mitigation where defendant's drug history or use
did not impair his ability to appreciate wrongfulness of:his conduct).
3.

THE COURT'S FAILURE TO CONSIDER PETITIONER'S DYSFUNCTIONAL

UPBRINGING AS A SEPARATE MITIGATING FACTOR (Issue 10, Claim X, pages 62-3)
Petitioner argues that the trial court failed to consider his dysfunctional upbringing as a separate
m-staintory mitigating factor. As with his previous argument regarding Petitioner's history of: alcohol
and substance abuse, Petitioner argues that his dysfunctional upbringing should have been considered as
a separate non-statutory mitigating factor. 13 This issue was never raised on appeal and is thus waived.
Regardless, there must be some connection or nexus between the dysfunctional or subnormal childhood
upbringing and the offense in question in order for it to be considered as a mitigating circumstance.

E.g., State v. Lee, 189 Ariz. 590,944 P.2d 1204 (1997); State v. Jones, 185 Ariz. 471, 917 P.2d 200
(1996). Thus, a dysfunctional upbringing is a relevant mitigating circumstance only if: a defendant can
show that something in his background had an effect or impact on his behavior that was beyond his
control. See, for example, State v. Trostle, 191Ariz. 4, 951 P.2d 869 (1987) (defendant's abusive
childhood, including physical abuse, sexual abuse and neglect, resulted in long-term psychological
damage; Court concluded that defendant had an impaired ability to conform his conduct to the law's

13

Once more Petitioner argues that the Arizona Supreme Court failed as well to make
this distinction. In other words, Petitioner argues that his dysfunctional childhood should be
considered as a mitigating factor, separate and apart from any consideration as to whether it had
any causative affect on his behavior at the time of: the murder.

D - 18

Judy Etchison
Deputy Clerk

MINUTE
Page: .19

Date:

ENTRY

July 20, 2000

Case No:

CR-27745

requirements). There is no evidence whatsoever that Petitioner's traumatic or dysfunctional childhood
impacted or affected his ability to perceive, comprehend or control his actions. E.g., State v. Hurles, 185
Ariz. 199, 914 P.2d 1291 (1996). Therefore, the trial court did not err in failing to find Petitioner's
dysfunctional family history to be a separate mitigating circumstance warranting leniency. State v.

Smith, 193 Ariz. 452, 974 P.2d 431 (1999) (although defendant demonstrated a dysfunctional
upbringing, court found and concluded that mitigating circumstances, individually and collectively, were
not sufficiently substantial to call for leniency); State v. Poyson, 325 Ariz. Adv. Rep. 11, 16 (July 16,
2000) (defendant failed to demonstrate that traumatic childhood somehow rendered him unable to
control his behavior).

III. FINDINGS AND CONCLUSIONS:

In light of the above discussions, the Court concludes and finds as follows:
1.

Each of the ten issues (including the sub-issues) which Petitioner raises in his PCR could

have and should have been raised on appeal. Not having done so, each of Petitioner's claims are deemed
waived and thus precluded under Rule 32.2(a)(3), supra;
2.

Even if any of the claims were not waived or not precluded, this Court cannot find any

basis or support for concluding that any of Petitioner's arguments give rise to a colorable claim. Even if.·.
Petitioner were able to demonstrate or prove any of the facts or evidence that he submits in support of
each ofhis claims, there is no reasonable probability that it would have changed the outcome of his trial,
sentence, or appeal; and
3.

The Court finds that Petitioner's claims do not present any material issue of fact or law

which would entitle Petitioner to relief or a hearing. Rule 32.6(c), supra.
ACCORDINGLY,
IT IS ORDERED denying Petitioner's claim for relief under Rule 32.

D - 19

Judy Etchison
Deputy Clerk

MINUTE ENTRY
Page: 20

Date:

July 20, 2000

Case No:

CR-27745

IT IS FURTHER ORDERED dismissing the Petition for Post-Conviction Relief filed
March 28, 2000.
IT IS SO ORDERED.

PAUL S. BANALES
JUDGE PRO TEMPORE
cc:

Hon. Paul S. Banales
Criminal Calendaring
Clerk of Court - Appeals
Attorney General - Phoenix
Sean Bruner, Esq., Bruner & Upham, P.C.
Court of Appeals
Jonathan Bass, Esq., Capital Litigation Attorney
Donna Hallums, Arizona Supreme Court, Staff Attorney's Office, 1501 West Washington,
Phoenix, AZ 85007

j

¢

D - 20

Judy Etchison
Deputy Clerk

(1 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 1 of 22

No. 09-99006

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CHRISTOPHER SPREITZ,
Petitioner - Appellant,
V.

CHARLES L. RYAN, et al.,
Respondents - Appellees.

On Appeal from the United States District Court
District of Arizona, No. CV-02-121-TUC-JMR

RENEWED MOTION TO STAY THE APPEAL AND REMAND FOR
APPLICATION OF MARTINEZ AND TO SUPPLEMENT
THE PENDING STAY MOTION

Death Penalty Habeas Corpus Case

JONM. SANDS
Federal Public Defender
TIMOTHY M. GABRIELSEN (NV Bar No. 8076)
Assistant Federal Public Defender
407 West Congress Street, Suite 501
Tucson, Arizona 85701-1310
(520) 879-7614 / (520) 622-6844 (facsimile)
COUNSEL FOR PETITIONER-APPELLANT

E-1

(2 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 2 of 22

RENEWED MOTION TO STAY THE APPEAL AND REMAND FOR
APPLICATION OF MARTINEZ AND TO SUPPLEMENT
THE PENDING STAY MOTION

Petitioner-Appellant Christopher Spreitz ("Spreitz"), through counsel,
renews his pending Motion to Stay the Appeal and for Remand Pursuant to

Martinez v. Ryan, 132 S. Ct. 1309 (2012) ("Stay Motion"), Ninth Cir. Dkt. 49-1,
and moves to supplement that motion with the reports of Pablo Stewart, M.D., a
psychiatrist,

and

Paula

psychopharmacologist.

Lundberg-Love,

Ph.D.,

a

psychologist

and

Those reports are attached as Renewed Stay Motion

Exhibits 1 & 2. The production of evidentiary support for the Stay Motion was
delayed by the federal sequester then in effect. See Dkt. 66-1 at 1-2. The motion
is brought pursuant to Fed. R. App. P. 27(a)(l) & (2), and 28 U.S.C. § 2106.
Counsel for Respondents, Arizona Assistant Attorney General Jacinda Lanum,
indicated on January 26, 2017, that Respondents will await the filing of this motion
before deciding how to respond.
The parties have filed supplemental briefs on the application of McKinney v.

Ryan, 813 F.3d 798 (9th Cir. 2015) (en bane), to Spreitz's pending claim of
ineffective assistance of appellate counsel, which is based on counsel's failure to
raise a non-frivolous so-called causal nexus claim on direct appeal in the Arizona
Supreme Court.

Dkts. 892, 95.

February 13, 2017.

Dkt. 91.

Spreitz will file a timely reply on or before
While Spreitz continues to view that claim as
1
E-2

(3 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 3 of 22

meritorious, it falls short of demonstrating to this Court the full extent of the
deficiencies that plagued Spreitz's capital sentencing hearing.
Accuracy and reliability in the imposition of death sentences are required
under the Eight Amendment. See Sawyer v. Smith, 497 U.S. 227, 243 (1990). A
district court in this Circuit has aptly found "mitigating evidence about the
individual's background and character [significant] to the accuracy and reliability
of the capital sentencing process," and granted relief on a claim of ineffective
assistance of counsel ("IAC") where mitigating evidence was not investigated and
presented. Hendricks v. Calderon, 864 F. Supp. 929, 946 (N.D.Ca. 1994), aff'd, 70
F. 3d 1032 (9th Cir. 1995).
While the causal nexus portion of the IAC claim alleges that Spreitz was
prejudiced where the Arizona Supreme Court failed to attribute any weight to the
non-statutory mitigating evidence of Spreitz's history of alcoholism and drug
addiction between the ages of 12 and 22, the evidence in support of the pending
Stay Motion, including the opinions of Dr. Stewart and Dr. Lundberg-Love, had
they been obtained by trial counsel, would have proven the compelling statutory
mitigating factor, A.R.S. § 13-703(G)(l), that Spreitz's capacity to appreciate the
wrongfulness of his conduct or conform his conduct to the requirements of law at
the time of the offense was significantly impaired. See Renewed Stay Motion Exh.
1 at 8-1 0; Exh. 2 at 6-7. Their opinions would also have demonstrated to the
2
E-3

(4 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 4 of 22

sentencer how Spreitz, with no history of violent behavior, could have inflicted the
injuries on the victim, Ruby Reid. See Renewed Stay Motion Exh. 1 at 9-10; Exh.
2 at 7.

In Detrich v. Ryan, 740 F.3d 1237, 1254 (9th Cir. 2013) (en bane), this
Court remanded for a determination of cause and prejudice pursuant to Martinez v.

Ryan,_ U.S . _ , 132 S. Ct. 1309 (2012). The basis for the decision to remand
in Detrich rather than for the appellate court to decide the matter was that IAC
claims require investigation and factual development; this Court operates "more
effectively as a reviewing court rather than a court of first instance"; this Court had
remanded for the district court to make the "initial decision ... on prior cases";
and, the petitioner "moved in our court for a remand and not for a ruling under

Martinez. " Id. at 1246, 1248-49, 1254. Spreitz meets those criteria for remand.
Thus, Spreitz renews the Stay Motion and respectfully requests that the
Court forego adjudication of the pending appeal and remand with instructions for
the district court to order Spreitz to file a supplemental Martinez brief.

The

remand would serve the interest of judicial economy by eliminating piecemeal
litigation of claims related to the deficiencies in Spreitz's capital sentencing. The
remand would serve to narrow the facts and issues that might be returned to this
Court on appeal after remand.

3
E-4

(5 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 5 of 22

The Motion relies for support on the attached Memorandum in Support, the
two expert reports attached hereto, the initial Stay Motion (Dkt. 49-1) and related
pleadings and exhibits, and the briefs and excerpts of record filed herein.

MEMORANDUM IN SUPPORT
I.

Introduction.

Spreitz moved this Court on March 20, 2013, to stay his appeal and remand
to the district court so that he could attempt to establish cause and prejudice, in the
form of his state post-conviction relief ("PCR") counsel's ineffectiveness, to
excuse the procedural default of two IAC claims based on counsel's omissions at
Spreitz's capital sentencing hearing. See Dkt. 49-1. The stay motion was based on
Martinez, 132 S. Ct. 1309, which answered a question left open by the Court for 20
years, to wit, whether a habeas petitioner has a right to effective assistance of
counsel in state PCR proceedings such that PCR counsel's ineffectiveness under
the familiar standard of Strickland v. Washington, 466 U.S. 668 (1984), might
serve as cause and prejudice to excuse the procedural default of claims of
ineffective assistance of counsel ("IAC") at trial. While the Martinez Court denied
the claim of a constitutional right to effective counsel in PCR proceedings, 132 S.
Ct. at 1315, the Court did find an equitable remedy to excuse the procedural
default of trial counsel IAC claims where a petitioner could demonstrate that PCR

4
E-5

(6 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 6 of 22

counsel rendered ineffective assistance m failing to adequately present the
petitioner's IAC claims in the PCR proceedings. Id. at 1318.
The claims in the § 2254 petition for which Spreitz seeks to excuse the
procedural default are:
Claim 1.4(C)4: Counsel Failed to Present at Sentencing Evidence of
the Extent of Abuse Which Petitioner Suffered During Childhood.
ER 151 (renumbered by district court at ER 360 as Claim 4.2-D); and,
Claim 1.4(C)5: Counsel Never Presented the Available Evidence that
Petitioner Was Intoxicated at the Time the Offense Was Committed.
ER 155 (renumbered by district court at ER 361 as Claim 4.2-E).
Ninth Cir. Dkt. 49 at 8, 12.
While it had not yet been decided when the parties presented oral argument
on this appeal and the Court ordered it submitted, the Court's decision in Dickens
v. Ryan, 740 F.3d 1302, 1319-22 (2014) (en bane), permits a habeas petitioner to

apply Martinez to demonstrate cause and prejudice to excuse his failure to exhaust
facts that would have supported the petitioner's "new" or "newly-enhanced" claim

of ineffective assistance of trial counsel in the state PCR proceedings.1 Dickens
controls and permits the remand requested here.

1

Spreitz cited in his Reply to Response to Motion to Stay Appeal and for Remand
for Application of Martinez v. Ryan, 132 S. Ct. 1309 (2012), orders in three other
capital habeas appeals from Arizona, which were decided prior to the en bane
grant in Dickens in which this Court had already remanded pursuant to Martinez to
determine whether IAC of PCR counsel served as cause and prejudice to excuse
procedurally defaulted facts. Dkt. 66-1 at 3 (citations omitted).
5
E-6

(7 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 7 of 22

Spreitz pleaded in the Stay Motion that, with fact development in the district
court on remand, he would be in a position to plead "substantial" underlying
claims of ineffective assistance of counsel as required by Martinez, 132 S. Ct. at
1318. See Dkt. 49-1 at 2-4, 16-17. Spreitz attached in support of the Stay Motion
undersigned counsel's declaration that described the results of his investigation of
Spreitz's social history, including interviews with Spreitz and his mother. See Dkt.
49-2 at 1-4.2 By the time Spreitz filed his Reply to Respondents' opposition to the
Stay Motion, the FPD was able to secure declarations from both Spreitz and his
mother, which were attached to the Reply, Dkts. 66-2, 66-3, respectively, and
which corroborated the accounts in counsel's declaration of the physical abuse
Spreitz suffered as a child at the hands of his parents and the horrific domestic
violence has saw visited upon his mother by his abusive father.
Spreitz also attached to the Stay Motion an e-mail from Dr. Stewart, a
trauma and addictive medicine specialist, who stated that he reviewed several
documents and found "there is more than enough data to suggest that Mr. Spreitz is
suffering from PTSD," and that "a psychiatric evaluation of Mr. Spreitz [should]
be conducted to determine the presence of PTSD or any other trauma-related
condition." Dkt. 66-5 at 2.

The FPD was appointed very late in this appeal, on July 3, 2012, Dkt. 39, after
prior counsel filed the briefs in this Court and obtained one continuance of oral
argument that was originally set for June 14, 2012. See Dkts. 35, 36.
2

6
E-7

(8 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 8 of 22

In the Stay Motion, Spreitz also cited a report of Dr. Roy Mathew, M.D.,
regarding Spreitz's alcohol and cocaine intoxication on the night of the offense,
and the enhanced psychostimulant effect of their metabolite, cocaethylene.
Although evidentiary development had not been allowed by the district court, and
consideration of Dr. Mathew's report is barred from this Court's review by Cullen

v. Pinholster, 563 U.S . 170, 181-82 (2011), because it was not presented to the
state courts, Dr. Mathew's report was attached in support of the § 2254 petition by
Spreitz' s prior federal habeas counsel, Sean Bruner, and it appears in the Excerpts
of Record filed by Mr. Bruner with Appellant's Opening Brief. See Dkt. 11, ER
667-71. Mr. Bruner was also Spreitz's PCR counsel whose ineffective assistance
is alleged as "cause" in the Stay Motion and, thus, it was Mr. Bruner who failed to
timely obtain a report of the type produced by Dr. Mathew and present it in the
state PCR proceedings to support the ineffective assistance of trial counsel claim
set forth as Claim l.4(C)(5) above.
Spreitz also informed the Court in the Reply that due to the effects of the
federal sequester then in place, the Federal Public Defender was without sufficient
funds to retain Dr. Stewart in this matter to be able to fully plead facts necessary to
support the Stay Motion. Dkt. 66-1 at 1-2. Dr. Stewart's preliminary review of
documents was for no fee. It was anticipated that when the sequester lifted, and

7
E-8

(9 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 9 of 22

Dr. Stewart's schedule permitted, Spreitz would retain Dr. Stewart to perform a
clinical interview and evaluation of Spreitz.

II.

The content of the reports of Dr. Stewart and Dr. Lundberg-Love.
A.

The report of Dr. Stewart.

Consistent with Spreitz's earlier representations to the Court, after funding
was secured and Dr. Stewart cleared space in his schedule, Spreitz was ultimately
able to retain Dr. Stewart.

Dr. Stewart completed the attached Report of

Psychiatric Evaluation (November 1, 2016), Renewed Stay Motion Exh. 1. Dr.
Stewart was provided with a substantial number of relevant documents for review,
which numbered 24 in total, including excerpts of trial transcripts, all prior mental
health evaluations, and the declarations of Spreitz and his mother described above
that detail the abusive family situation in which Spreitz was raised. See id. at 3 11
22, 23. On May 5, 2016, Dr. Stewart travelled from the location of his practice,
San Francisco, California, to the Arizona State Prison in Florence, Arizona, to
perform a clinical interview of Spreitz.
After detailing the substantial physical and emotional abuse suffered by
Spreitz and the domestic violence Spreitz personally observed, Dr. Stewart reports
that Spreitz meets the various criteria under the Diagnostic and Statistical Manual
of Mental Disorders (4th ed. 1994) ("DSM-IV") for a diagnosis of PTSD but, due
to the "extremely high standard established for this diagnosis," he "was not able to

8
E-9

(10 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 10 of 22

conclusively find that . . . Mr. Spreitz sufficiently met the totality of the criteria
required for a diagnosis of PTSD at the time of the encounter with Ms. Reid." Id.
at 9.

He did conclude, however, significant childhood trauma "would have

impaired his capacity to appreciate the wrongfulness of his conduct or to conform
his conduct to the requirements of law." Id. Dr. Stewart's opinion supports the
(G)(l) statutory mitigating factor. According to Dr. Stewart, PTSD and Spreitz's
exposure to trauma in childhood might have resulted in "an exaggerated startle
response or acting impulsively with respect to the encounter with Ms. Reid,"
behaviors symptomatic of persons suffering from PTSD. Id.
Dr. Stewart also reviewed the documents describing Spreitz's history of
alcoholism and his alcohol intoxication at the time of the offense, as well as
Spreitz's cocaine use that night, and the psychopharamacology report of Dr.
Lundberg-Love that quantifies the alcohol and cocaine ingestion, and discusses the
combined effect of alcohol and cocaine intoxication on Spreitz's cognition and
behavior.

See Renewed Stay Motion, Ex. 2.

Dr. Stewart concurs with Dr.

Lundberg-Love that Spreitz suffered from alcohol and cocaine intoxication at the
time he encountered Ms. Reid, but also from the enhanced psychostimulant effect
of the metabolite cocaethylene. Id. at 8.
Absent from the mental health reports of all prior mental health experts in
this case is the observation of Dr. Stewart that Spreitz became an alcoholic at a
9
E - 10

(11 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 11 of 22

young age due in large measure to a "genetic link" based on the alcoholism of his
father and both grandfathers, and possible alcoholism of his mother, whom family
members described as "consum[ing] daily quantities of Jack Daniels." Renewed
Mot. Ex. 1 at 5. As Dr. Stewart stated:
In this case, that genetic loading rendered it more likely that Mr.
Spreitz would suffer from alcohol abuse and/or physiological
dependence on alcohol. Evidence of that genetic loading would have
supported at trial the theory that Mr. Spreitz was a "physiological
alcoholic" whose intoxication would not have been noted by the
officers who stopped and encountered Mr. Spreitz in the early
morning hours of May 19, 1989.
Id.

Yet, the evidence as to how Spreitz was perceived when officers stopped
him after the offense because his vehicle emitted smoke was extremely important.
The sentencing court ruled that Spreitz was not intoxicated and did not meet the
(G)(l) statutory mitigating factor because Officers Ramon Batista and Victor
Chacon testified repeatedly at the guilt phase that when they stopped Spreitz 30
minutes after the offense, they noted "nothing of any significance" to suggest he
was intoxicated. ER 470. See State v. Spreitz, 190 Ariz. 129, 133-34, 945 P.2d
1260, 1264-65 (1997) (summarizing Batista's testimony to the effect that Spreitz
smelled of beer but "defendant's actions evidenced no physical or mental
impairment"). Dr. Stewart reviewed the trial testimony of Officers Batista and
Chacon, and the transcript of Spreitz's post-arrest interview with Detective Mike

10
E - 11

(12 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 12 of 22

Millstone in which Millstone told Spreitz that he was not "fall down" or "blackout"
drunk when he encountered Ms. Reid, which he based on Batista and Chacon' s
observations. Renewed Motion Exh. 1 at 6. As Dr. Stewart concludes, however,
neither of the officers who stopped Spreitz was able as a matter of medical science
to render an opinion with respect to Spreitz's alcohol intoxication at the time of the
offense due to their not having provided appropriate testing. Id. In addition, they
were ignorant of the fact that Spreitz also ingested cocaine just before the offense,
which would have "mitigated the depressant symptoms of his alcohol consumption
so as not to allow police officers who stopped Mr. Spreitz to be aware of the level
of his alcohol intoxication." Id. at 6.
Dr. Stewart describes the physical changes to the brain caused by the
ingestion of cocaine, which he terms the "hijacking of the brain chemistry." Id.
Cocaine alone causes a "euphoria that would have been accompanied by
hyperactivity, hypervigilance, anxiety, anger, impaired judgment, impulsivity, and
aggression."

Id. at 7.

It would have caused deficits in Spreitz's cognitive

functioning that "would have decreased markedly his ability to engage in rational,
appropriate and non-aggressive behavior during a confrontation with Ms. Reid."

Id.

When alcohol was combined with cocaine, a metabolite known as

"cocaethylene" formed that enhanced the psychostimulant effects of the cocaine
described with respect to cocaine above and which would have "significantly
11
E - 12

(13 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 13 of 22

impaired Mr. Spreitz's capacity to conform his conduct to the requirements of law
at the time of the incident involving him and Ms. Reid in the early morning hours
of May 19, 1989."

Id. at 8.

According to Dr. Stewart, the "effects [of

cocaethylene] were well established at the time of the incident and Mr. Spreitz's
trial." Id.
In conclusion, Dr. Stewart states that the physical and emotional abuse of
Spreitz as a child, which resulted in a DSM-IV diagnosis of childhood exposure to
trauma, and the combination of alcohol and cocaine intoxication would have
impaired Spreitz's "capacity to appreciate the wrongfulness of his conduct or to
conform his conduct to the requirements of law." Id. at 9. See A.R.S. § 13703(G)(l).
B.

The report of Dr. Lundberg-Love.

Dr. Lundberg-Love assessed Spreitz's alcohol and cocaine intoxication, and
produced on August 28, 2016, her report of Psychophamacological Consultation.
See Renewed Stay Motion, Exhibit 2.

Dr. Lundberg-Love quantifies both the

amounts of alcohol and cocaine ingested by Spreitz on May 18 and the early
morning hours of May 19, 1989. With respect to alcohol consumption, quantity
was determined based on the trial testimony of Spreitz's roommate Chris Clark, a
prosecution witness, the Presentence Report, and Spreitz's self-report, as disclosed
to Dr. Mathew. Id. at 2. The evidence showed that Spreitz consumed a 12-pack
12
E - 13

(14 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 14 of 22

and two additional beers on May 18th before attending nickel beer night with Mr.
Clark at a Tucson tavern. Id. Spreitz estimated that he drank on the order of 16
cups of beer between 7:30 and 10:30 p.m. Id. Spreitz consumed four more beers
from a six-pack he bought at a 7-11 after dropping Mr. Clark at their residence and
prior to the encounter with Ms. Reid. At 12:30 a.m. on May 19, 1989, Spreitz took
three hits of crack cocaine with a man to whom he gave a ride home from the 7-11.
Id.

Dr. Lundberg-Love applied Julien 's Primer of Drug Action (13th ed. 2014)
to "reliably estimate" Spreitz's "blood alcohol concentration," known by the
shorthand "BAC," based on his weight at that time, 170 lbs., gender, the number of
drink equivalents imbibed, and the rate at which his body would have metabolized
the alcohol. Id. at 3. She calculates his BAC at the time of the offense to have
been approximately .575 grams%, "an extraordinarily high BAC" slightly more
than seven times the legal limit of .08grams% for intoxication. Id. Spreitz was not
"stuporous" due to his "tolerance to the chronic exposure of large amounts of
alcohol," known as "tissue tolerance." Id. Spreitz's "long term, chronic, extensive
addiction to alcohol resulted in a tolerance to impact of alcohol that one would
observe in a lesser addicted or non-addicted person." Id.
She further found that each hit of cocaine administered 250 to 1000
milligrams of cocaine to his blood and brain.
13
E - 14

Id. at 4.

Due to the alcohol

(15 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 15 of 22

consumption m close proximity to the cocame ingestion, liver enzymes also
metabolized the cocaine, forming the compound "cocaethylene."

Id.

Dr.

Lundberg-Love explains that the cocaine Spreitz ingested would have had a halflife of four hours beginning when he ingested it at 12:30 a.m. on May 19, 1989,
and the cocaethylene's half-life was six hours.

Id.

After setting forth the

Mechanisms of Action of Alcohol in the Brain and the Mechanisms of Action of
Cocaine in the Brain, that is, the medical science involved, she reached conclusions
as to how the ingestion of alcohol and cocaine affected Spreitz at the time of the
offense and in its aftermath.
With respect to alcohol intoxication, Dr. Lundberg-Love concludes:
Alcohol's ability to inhibit the activity of glutamate neurons and
enhance the activity of GABA neurons augment one another to
depress the cognitive processes of the brain, which impairs executive
functioning, impairs memory, and impairs the ability of the inhibitory
pathways of the brain to stop inappropriate behavior such as
aggression. In effect, the brain circuitry that mediates one's ability to
make non-aggressive, appropriate choices is hijacked. Thus, one is at
the mercy of one's emotions, and the neural "brakes" that typically
keep those emotions in check, are no longer functioning effectively.
So a person who might not have a history of aggression can become
very angry and aggressive under the influence of alcohol, particularly
given the amounts consumed by Mr. Spreitz.
Id. at 6.

Turning to cocaine and cocaethylene, Dr. Lundberg-Love concludes:
Mr. Spreitz's ingestion of cocaine would have enhanced the activity
of dopamine in the brain by blocking the dopamine transporter and
likely elicited agitation, impulsivity, anxiety, suspiciousness, paranoia
14
E - 15

(16 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 16 of 22

and aggression. Cocaine ingestion makes it more difficult to inhibit
aggressive behavior. When cocaine is ingested with alcohol, the
metabolite cocaethylene is formed, which exacerbates the toxicity of
the cocaine, i.e., it increases the psychostimulant effects of cocaine
described above and contributes to the hijacking of the brain circuitry.
Once aggression is triggered, an individual may engage in what is
known as "stereotypic" behavior which means that the individual may
repetitively engage in aggression/injurious behavior even after a
person with whom he is in confrontation may be defenseless,
incapacitated or deceased. With respect to the initiation of aggression,
adding cocaine and cocaethylene to the amount of alcohol ingested by
Mr. Spreitz was just like metaphorically adding fuel to the fire.
Id. at 6-7. She further concludes:

[T]he dopaminergic stimulant properties of cocaine and cocaethylene
(i.e., increased alertness, increased motor activity, racing thoughts,
enhanced motor activity) do not reverse the neurochemical depressant
effects of alcohol, they can mask the depressant effects of alcohol,
such that the level of Mr. Spreitz's inebriation might not have
appeared to the police officers to be as significant as it was. In effect,
the ingestion of cocaine with alcohol has the effect of rendering one a
much more alert and active "drunk."
Id. at 7. Thus, Dr. Lundberg-Love's psychopharmacological opinion, like the

opinion of Dr. Stewart, is contrary to the officers' assessment that Spreitz was not
intoxicated and impaired at the time of the encounter with Ms. Reid.
III.

The reports of Dr. Stewart and Dr. Lundberg-Love bolster Spreitz's
arguments that his Stay Motion trial IAC claims are substantial.
As Spreitz noted in the Stay Motion, Dkt. 49-1 at 8, Martinez applies only

where the defaulted underlying trial counsel IAC claims are "substantial," 132 S.
Ct. at 1318-19, which triggers consideration of the IAC of state post-conviction
15
E - 16

(17 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 17 of 22

relief ("PCR") counsel as "cause" as part of the test for cause and prejudice to
excuse the procedural default of the claims.

The Martinez Court defined

"substantial" as having "some merit." Id. In support of that definition, the Court
cited the test for when a federal court must grant a certificate of appealability
("COA"). Id. (citing Miller-El v. Cockrell, 537 U.S. 322 (2003)). The standard for
a COA is a "threshold" or "gateway" test that "does not require full consideration
of the factual or legal bases adduced in support of the claims." Miller-El, 537 U.S.
at 336. The petitioner must show only that reasonable jurists could debate the
merits of the constitutional claim asserted. Id. at 338. "Stated otherwise, a claim is
'insubstantial' if 'it does not have any merit or .. . is wholly without factual
support."' Detrich, 740 F.3d at 1245 (quoting Martinez, 132 S. Ct. at 1319).
As Spreitz notes in the Stay Motion, Dkt. 49-1 at 8, the two trial counsel
IAC claims at issue here are substantial for Martinez purposes. The district court
denied relief on each claim in its Order Re: Renewed Motion for Evidentiary
Development, ER 361 , 363, but granted a COA as to both claims in its
Memorandum of Decision and Order. See ER 64 (Claims 4.2-D, 4.3-E). Because
the claims merit a COA under Miller-El, 537 U.S. at 338, those claims therefore
also meet the test of Martinez that requires that the claims be "substantial." The
claims are also substantial because the Supreme Court and federal appellate courts
have recognized the mitigating effect of evidence of childhood trauma and
16
E - 17

(18 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 18 of 22

intoxication at the time of a homicide and expert opinions thereon within the
context of deciding claims of ineffective assistance of trial counsel under

Strickland, 466 U.S. 668.

See Stay Motion, Dkt. 49-1, at 10-11 (gathering

Supreme Court authorities); Doe v. Ayers, 782 F.3d 425, 438-42 (9th Cir. 2015)
(childhood trauma, alcohol and cocaine addiction, and alcohol intoxication at the
time of the offense as mitigation); Styers v. Schriro, 547 F.3d 1026, 1035 (9th Cir.
2008) (PTSD as mitigation); Ainsworth v. Woodford, 268 F.3d 868, 875 (9th Cir.
2001) (alcoholism from age 5 and drug addiction as mitigation); Hedrick v. True,
443 F.3d 342, 353 (4th Cir. 2006) (evidence of alcohol intoxication and genetic
link to alcoholism as mitigation); Hill v. Mitchell, 400 F.3d 308, 312-15 (6th Cir.
2005) (history of cocaine addiction and intoxication at the time of the offense as
mitigation).
IV.

Remand is necessary for a determination
ineffectiveness under Martinez.

of PCR

counsel's

As Spreitz notes in the Stay Motion, the district court set forth in emphatic
terms just how deficient Spreitz's appointed federal habeas counsel Bruner's
performance had been in failing to investigate and produce evidence in support of
the IAC claims sought to be remanded here. With respect to Claim 4.2-D, the IAC
claim premised on the failure to investigate and present Spreitz's childhood trauma
and to produce such evidence to a mental health expert, the district court ruled that,
"[a]lthough Petitioner alleges that [trial] counsel failed to provide 'overwhelming
17
E - 18

(19 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 19 of 22

evidence of pervasive and violent physical abuse,' to [sentencing defense
psychologist Dr. Todd Flynn, Ph.D.], he fails to identify this evidence." ER 360.
While the district court was referring to Bruner's performance in the § 2254
proceeding, the characterization applies with equal force to Bruner' s deficient
performance in the state PCR proceedings. The state PCR court found the meager
evidence Bruner attached to the PCR petition in support of childhood dysfunction
and intoxication to be "repetitious and cumulative" to what was presented at
sentencing. ER 374. The court concluded that: "more than sufficient evidence of
Petitioner's abuse as a child, both physical and emotional," existed at sentencing.

Id.
That characterization is belied not only by the quantum of evidence of
physical abuse of Spreitz by his father produced in support of the Stay Motion and
Dr. Stewart's report, but also the evidence of Spreitz's exposure to the horrific
physical abuse of his mother by his father, which is recognized in the DSM-IV (at
p. 424) to cause PTSD. See Renewed Stay Motion Exh. 1 at 8-9. Spreitz mother
described her ex-husband as an alcoholic with violent tendencies and who, at 6'3",
225 lbs., was vastly superior in size and strength compared to her at 130 lbs. and to
Spreitz who, when severely beaten at age 13 by his father, weighed less than 125
lbs. Stay Motion Exh. 66-3 at 3 ,r 10, at 3-4 ,r 14. The evidence was not presented
at capital sentencing.
18
E - 19

(20 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 20 of 22

Bruner's performance was also deficient with respect to the intoxication
claim in the state PCR proceeding, Claim 4.2-E here, because he failed to unearth
available evidence that his client used cocaine on the night of the homicide. Red
flags existed for Bruner and trial counsel, Marshal Tandy, to explore cocaine
addiction and intoxication at the time of the offense. Dr. Martin Blinder, M.D., a
psychiatrist who performed an evaluation on May 31, 1989, just after Spreitz's
arrest, made a passing reference to Spreitz's personal deterioration "the last several
months" that included use of cocaine. ER 714. The Presentence Report, ER 481,
quoted Spreitz as saying he used cocaine prior to the homicide. However, trial
counsel included neither Dr. Blinder's report nor the Presentence Report in the
materials he provided to the defense sentencing psychologist, Dr. Flynn. See ER
687-89 (report), 388-436 (testimony).
Thus, it is understandable that the PCR court ruled that "more than sufficient
evidence of Petitioner's drinking and/or intoxication (on the night in question) was
presented at trial."

ER 375.

Bruner failed to contradict that assertion with

available evidence and opinions that would have established: 1) Spreitz's cocaine
intoxication and its psychostimulant effect at the time of the offense; 2) the
enhanced or amplified psychostimulant effect of cocaethylene; 3) Spreitz's genetic
predisposition to alcoholism that rendered more likely that he was a physiologic
alcoholic; 4) his "tissue tolerance" based on his historical extremely high volume
19
E - 20

(21 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 21 of 22

of alcohol consumption that caused him to appear not to be impaired even when
intoxicated; and, 5) the ability of cocaine and cocaethylene to "mask" the
depressant effects of his alcohol intoxication when the officers stopped him after
the homicide.
Conclusion

Spreitz respectfully requests to supplement the Stay Motion with the reports
of Dr. Stewart and Dr. Lundberg-Love. He renews his request that the Court stay
his appeal and remand the matter to the district court for consideration of the two
trial IAC claims outlined above and a determination of whether Spreitz has
demonstrated "cause and prejudice" under Martinez to excuse the procedural
default of facts supporting those claims. Finally, Spreitz requests that the district
court be ordered to issue the writ of habeas relief as to Spreitz's death sentence
should he prove the IAC of trial and PCR counsel.
Respectfully submitted this 1st day of February, 2017.
Jon M. Sands
Federal Public Defender
Timothy M. Gabrielsen
Assistant Federal Public Defender

By s/Timothy M. Gabrielsen
TIMOTHY M. GABRIELSEN
Counsel for Petitioner-Appellant

20
E - 21

(22 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-1, Page 22 of 22

Certificate of Service

I hereby certify that on this 1st day of February, 201 7, I electronically
transmitted the attached document to the Clerk's office of the United States Court
of Appeals for the Ninth Circuit using the CM/ECF System for filing and
transmitted a Notice of Electronic Filing to the following registrants:

Ms. Jacinda Lanum
Arizona Assistant Attorney General
Attorney General's Office
400 W. Congress, S-315
Tucson, AZ 85701

s/Teresa Ardrey
Teresa Ardrey
Legal Secretary
Capital Habeas Unit

E - 22

(23 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 1 of 19

Exhibit 1
Report of Psychiatric Evaluation of Christopher Spreitz
November 1, 2016

E - 23

(24 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 2 of 19

PABLO STEWART, M.D.
Psychiatric Consultant
824 Ashbury Street
San Francisco, CA 94117
Tel. (415) 264-0237
Fax (415) 753-5479
REPORT OF PSYCHIATRIC EVALUATION
CHRISTOPHER SPREITZ
Date of evaluation: May 5, 2016
Date of report: November 1, 2016

I.

Purpose of Evaluation

I have been retained by the Federal Public Defender, District of Arizona, to review
records and conduct a psychiatric evaluation of Christopher Spreitz, a 50-year-old (DOB
6/10/66) male incarcerated at the Arizona State Prison in Florence, Arizona. I was specifically
asked to evaluate the effects of alcohol, cocaine and their metabolite, cocaethylene, on Mr.
Spreitz's cognitive functioning and behavior on the night he is alleged to have killed a Tucson
woman, Ruby Reid, in May 1989. I am aware from the Arizona Supreme Court opinion on
direct appeal that Mr. Spreitz was alleged to have picked up Ms. Reid on a Tucson street,
removed her to a desert location, attempted to have sexual relations with her, and, ultimately,
killed her by striking her with a rock. He was convicted and sentenced to death.
I was asked to determine whether, with development of a thorough social history and an
appropriate mental health/substance abuse evaluation, Mr. Spreitz's trial counsel may have been
able to prove the existence of non-statutory mitigating evidence or the statutory mitigating factor
found in 13 A.R.S. § 703(G)(l):
The defendant's capacity to appreciate the wrongfulness of his conduct or to
conform his conduct to the requirements of law was significantly impaired, but
not so impaired as to constitute a defense to prosecution.
After review of all of the records listed below, with the exception of the psychopharmacological
report of Dr. Paula Lundberg-Love, Ph.D., of August 28, 2016, which I reviewed prior to
completing this report, I evaluated Mr. Spreitz on May 5, 2016. The evaluation lasted two hours.
Focus on the effects of the cocaine use, and the combined effect of alcohol and cocaine
intoxication, was particularly important in light of the fact that it appears, from my review of
submitted documents, that the Arizona trial court was never informed of the effects of Mr.
Spreitz's ingestion of cocaine in the period immediately preceding the encounter with Ms. Reid.
In addition, the court was never apprised of the effects of cocaethylene, which formed by Mr.
Spreitz' s combining cocaine with alcohol in the hour or so immediately preceding the encounter
with Ms. Reid. There is no reference in the repoti or sentencing testimony of defense
psychologist Todd Flynn, Ph.D., to cocaine ingestion or the formation of cocaethylene and its

E - 24

(25 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 3 of 19

potent psychostimulant effects on Mr. Spreitz' s cognition and behavior at the time he
encountered Ms. Reid.
I also assess the evaluation of Mr. Spreitz performed by another defense psychologist,
Joseph Geffen, Ph.D., in the state post-conviction proceedings. His evaluation was also deficient
because it omitted any reference to Mr. Spreitz's ingestion of cocaine prior to the encounter with
Ms. Reid. It also failed to address the combined effect of alcohol and cocaine.
I have reviewed the psychopharmacological repmi of Dr. Lundberg-Love and largely
concur with her assessment. I describe below the effects of cocaine, alcohol and cocaethylene on
Mr. Spreitz's cognition and behavior on the date of the offense. I provide diagnoses below based
in pertinent part on the diagnostic criteria of the Diagnostic and Statistical Manual of Mental
Disorders, 4th edition (1994) ("DSM-IV"), which was in use by mental health professionals at
the time of Mr. Spreitz's trial.
II.

Education, Qualifications, and Experience.

I am a physician licensed to practice in California and Hawaii, with a specialty in clinical
and forensic psychiatry. I have appeared as an expert in various state and federal courts in the
United States. I have testified as an expe1i witness in the field of psychiatry and addiction
medicine in the State of Arizona, including at an evidentiary hearing in the Superior Comi of
Pima County in a capital post-conviction case, State v. Miles, Pima Cty. Super. Ct. No. 040238,
April 23, 2015. There I gave testimony on the effects of Cocaine Withdrawal Syndrome and also
diagnosed an alcohol-related neurodevelopmental disorder (ARNO).
I received my Bachelor of Science from the United States Naval Academy, Annapolis,
Maryland, in 1973. Thereafter I served as an infantry officer in the United States Marine Corps.
In 1982, I received my Doctor of Medicine Degree from the University of California, San
Francisco, School of Medicine. I have published numerous articles in peer review journals on
topics that include dual diagnoses, psychopharmacology and the treatment of disorders and
substance abuse. I have designed and taught courses on protocols for identifying and treating
psychiatric patients with substance abuse histories. I have worked with local and state
governmental bodies in designing and presenting educational programs about psychiatry,
substance abuse, and preventative medicine. I have served as an Examiner for the American
Board of Psychiatry and Neurology and am a Diplomat of the same board. I have held academic
appointments in the Depaitment of Psychiatry, University of California, San Francisco, School
of Medicine, since 1986.
My CV, which is attached to this report, highlights my experience in the diagnosis of
persons suffering from addiction to drugs and alcohol who were admitted to inpatient facilities,
including the VA Medical Center in San Francisco and Marin Alternative Treatment in
California. From April 1991 to February 1995, I was the chief of the Substance Abuse Inpatient
Unit at the Department of Veterans Affairs Medical Center in San Francisco. I have also held
numerous positions with responsibility for ensuring the quality of clinical services provided by
community based programs, including the San Francisco Target Cities Project; the
Comprehensive Homeless Center, Department of Veterans Affairs Medical Center, San
Francisco; the Intensive Psychiatric Community Care Program, Department of Veterans Affairs
Medical Center, San Francisco; the Haight Ashbury Free Clinic, San Francisco; and the Westside
Crisis Center and the Mission Mental Health Crisis Center in San Francisco.

2

E - 25

(26 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 4 of 19

In addition to clinical and teaching responsibilities, I have experience in forensic and
correctional psychiatry. A p01iion of my work today involves the evaluation of persons with
cases in the criminal justice system, including in pretrial, trial and post-conviction postures. I
have also appeared as a correctional psychiatric expe1i in several federal court cases regarding
the implementation of constitutionally mandated psychiatric care to California's inmate
populations at different maximum security and psychiatric care facilities. I have recently been
appointed monitor in Ashoor Ras ho, et al. v. Director John R. Baldwin, et al., No.: 1:07-CV1298-MMM-JEH (District Court, Peoria, Illinois.) This case involves the provision of
constitutional mental health care to the inmate population of the Illinois Department of
C01rections.

II.

Records Reviewed
The Federal Public Defender has provided me with the following records:

1.

5/22/89 Post-offense Interview of Chris Spreitz;

2.

9/11/97 Direct Appeal Opinion, State v. Spreitz, 190 Ariz. 129 (1997);

3.

8/10/94 Transcript of Opening Statement, State v. Spreitz, Pima County No. CR-27745;

4.

8/10/94 Transcript of Guilt Phase Testimony of Officer Ramon Batista;

5.

8/10/94 Transcript of Guilt Phase Testimony of Officer Victor Chacon;

6.

8/10/94 Transcript of Guilt Phase Testimony of Craig Clark;

7.

8/11 /94 Transcript of Guilt Phase Testimony of Alana Owens;

8.

8/11/94 Transcript of Guilt Phase Testimony of Detective Karen Wright;

9.

8/12/94 Transcript of Guilt Phase Testimony of Det. Karen Wright (cont.);

10.

8/16/94 Transcript of Testimony of Dr. Thomas Hem-y, M.D.;

11.

1/1/89 Report of Dr. Martin Blinder, M.D.;

12.

11/28/94 Presentence Report;

13 .

11/28/94 Transcript of Penalty Phase Testimony of Dr. Todd Flynn, Ph.D. ;

14.

11/21/94 Report of Dr. Todd Flynn, Ph.D. (Letter to Marshall D. Tandy, Esq.);

15.

12/21/94 Transcript of Sentencing;

16.

3/28/00 Report of Dr. Joseph Geffen, Ph.D.;

3

E - 26

(27 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 5 of 19

17.

2/4/03 Report of Dr. Joseph Geffen, Ph.D.;

18.

3/7/00 Rep01t of Cheryl Fischer;

19.

2/10/03 Report of Cheryl Fischer;

20.

12/9/02 Report of Dr. Roy Mathew, M.D.;

21.

1/3/05 Report of Dr. James Sullivan, Ph.D.;

22.

6/6/13 Declaration of Chris Spreitz;

23.

6/12/13 Declaration of Susan Mendenhall;

24.

8/28/16 Report of Psychopharmacological Consultation of Dr. Paula Lundberg-Love,
Ph.D.

IV.

Mr. Spreitz's history.

I am aware of Mr. Spreitz's history from my clinical interview and review of the above
materials, including the social histories performed by mitigation investigator Cheryl Fischer, the
repo1t and sentencing hearing testimony of Dr. Flynn, the reports of Dr. Geffen in the initial state
post-conviction proceeding and in federal habeas corpus proceedings, and the declarations of Mr.
Spreitz and his mother, Susan Mendenhall. I do not recount that history in its entirety here.
Instead I focus on the portions of that history that are relevant to the issues for which I was
retained to evaluate Mr. Spreitz.

A.

Physical and emotional abuse.

It is clear that Mr. Spreitz suffered physical and emotional abuse and neglect at the hands
of both his mother and father as a child. He was also exposed to the repeated physical abuse of
his mother by his father. It is rep01ted that, on one occasion, Mr. Spreitz's father struck his
mother with his fists, causing her to sustain black eyes, which she covered with sunglasses, and a
bloody lip. Ms. Mendenhall reports that a domestic violence charge was brought against her exhusband for that incident and he was fired from his job as a deputy sheriff. Although Dr. Flynn
minimized the abuse to which Mr. Spreitz was exposed to in the family home, stating the abuse
was not "dramatic" or "acute," the thorough social histories compiled for the federal
proceedings, including the 2013 declarations of Mr. Spreitz and his mother, compel a far
different conclusion. Mr. Spreitz describes in his declaration one incident in which his mother
sent him and his sister Gretchen from their home in Santa Barbara to San Jose, California, to
visit their father. There his father punched him in the head with a closed fist and sent him reeling
across the floor. Mr. Spreitz was 13 at the time and weighed less than 125 lbs., and his father was
a large man his mother describes as having been 6'3", 225 lbs. His mother observed the injury
upon Mr. Spreitz's return to Santa Barbara.

Mr. Spreitz reported that his mother beat him with hand paddles, a belt, a mixing spoon, a
wood brush, and Hot Wheels tracks. She broke a wood paddle over his back when he was a
teenager. As near as I can tell, that is the only incident of physical abuse of Mr. Spreitz to which
Dr. Flynn was privy, and that lone account came from Mr. Spreitz's sister. Mr. Spreitz's mother
4

E - 27

(28 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 6 of 19

claims a lack of memory as to some of the instruments she used to punish Mr. Spreitz, except for
the paddle, but she does not deny the accuracy of Mr. Spreitz's recollection of those events or
instruments. Ms. Mendenhall admits that she understated her abuse of Mr. Spreitz when she was
first approached by a trial investigator. She and Mr. Spreitz each state that her comment to the
trial investigator that Mr. Spreitz was "spanked but he never was knocked in the head or thrown
or struck with instruments" was not true. Mr. Spreitz, his sister and other relatives describe Ms.
Mendenhall as having been an emotionally-distant parent. They also describe her as being a very
controlling mother who, despite his best efforts, Mr. Spreitz could never please. Ms. Mendenhall
acknowledges now that her methods of disciplining Mr. Spreitz when he was young might now
be considered to constitute abuse.
B.

Substance abuse.

As has been detailed in the social histories and prior mental health reports and testimony,
Mr. Spreitz began to consume alcohol at the age of 12. He also experimented with marijuana
and other drugs. By his late teenage years, he suffered from alcohol dependence. He was
frequently intoxicated and reported consuming alcohol mornings prior to attending junior high
school classes. Alcoholic blackouts were described in Dr. Flynn's report, based on information
provided to the defense by a cousin of Mr. Spreitz. The cousin has stated that one could not tell
if Mr. Spreitz was drunk even after a period of heavy drinking. The cousin described Mr. Spreitz
as able to function normally when intoxicated with alcohol, including being able to engage in
conversation and to maintain an automobile within the proper lane. Mr. Spreitz' s continued
abuse of alcohol caused his mother to order him out of the home. On one occasion, according to
his sister Gretchen, he was relegated to sleeping in a doghouse. Family members report that, as
Mr. Spreitz became older, he mixed cocaine use with his abuse of marijuana and alcohol.
Although his parents and his stepfather were aware of his substance abuse, it appears that no
treatment was ever arranged for Mr. Spreitz.
There is a known genetic link to alcohol abuse and dependence. When first-degree
relatives such as parents, siblings, aunts, uncles and grandparents suffer from a drug or alcohol
problem, a child is at much greater risk to develop that problem sometime in life. Mr. Spreitz's
father and his maternal and paternal grandfathers have been described as alcoholics, as has his
mother's sister. Mr. Spreitz's maternal grandfather was treated for alcoholism at Carrillo State
Mental Hospital in California. Family members described Mr. Spreitz' s mother as having
consumed daily quantities of Jack Daniels during his youth and as noticeably drunk on occasion.
Mr. Spreitz recalled his mother drinking Jack Daniels almost every night after work. In this
case, that genetic loading rendered it more likely that Mr. Spreitz would suffer from alcohol
abuse and/or physiological dependence on alcohol. Evidence of that genetic loading would have
supp01ted at trial the theory that Mr. Spreitz was a "physiological alcoholic" whose intoxication
would not have been noted by the officers who stopped and encountered Mr. Spreitz in the early
morning hours of May 19, 1989.
V.

The effects of substance abuse at the time of the encounter with Ms. Reid.
A.

Alcohol intoxication.

Mr. Spreitz reported to Detective Millstone that he experienced blackouts when he drank
a lot of alcohol, and he acknowledged that he drank "an awful lot" and "a hell of a lot" of beer on
the evening of May 18, 1989. Millstone interview, 5/22/89, at p. 7. He estimated that he
consumed 16-17 eight-ounce beers at a Tucson bar prior to smoking crack cocaine, driving to the
5

E - 28

(29 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 7 of 19

home of a female friend, and then picking up the victim. He also consumed beer earlier that day.
Mr. Spreitz's failure to recall the events of May 19, 1989, in his interview with Detective
Millstone and in subsequent interviews, including with other mental health evaluators, is
consistent with someone who suffered from alcohol dependence and sufficient alcohol toxicity to
cause him to black out during his encounter with the victim. Detective Millstone's opinion that
Mr. Spreitz did not suffer an alcoholic blackout that night, which was formed in large part on the
reporting of his Tucson Police Department colleagues who stopped Mr. Spreitz in his car at l :45
a.m. and reported he was not "fall down drunk" or "blackout drunk," is unsupported by medical
science. Millstone interview, pg. 8-9. Mr. Spreitz's physiological dependence on alcohol caused
him to function appropriately while he was in the presence of the Tucson officers and not give
the impression he was intoxicated. The officers, in the absence of any testing, were unqualified
to make a judgment as to Mr. Spreitz's level of alcohol intoxication. The officers also were
unaware of Mr. Spreitz's consumption of cocaine only an hour or so before the officer pulled
him over because his car burned oil.

B.

Cocaine abuse.

Nowhere in Dr. Flynn's letter to defense counsel or in his sentencing hearing testimony
does Dr. Flynn even mention being aware that Mr. Spreitz smoked crack cocaine just prior to the
incident involving him and Ms. Reid or that the addition of cocaine use to his alcohol
consumption in close proximity to the homicide would have greatly exacerbated deficits in his
cognitive functioning and behavior and mitigated the depressant symptoms of his alcohol
consumption so as to not allow the police officers who stopped Mr. Spreitz to be aware of his
level of alcohol intoxication. Of course the officers also would not have known Mr. Spreitz to
have been intoxicated with cocaine and to have suffered the magnified effects of cocaine when
combined with large quantities of alcohol.
Mr. Spreitz first reported his prior use of cocaine to a defense investigator, who relayed
that information to Dr. Martin Blinder, M.D., a psychiatrist who evaluated Mr. Spreitz on May
31, 1989, on behalf of attorney William Lane. Dr. Blinder was informed that "the last several
months [Mr. Spreitz] has been drinking heavily, using cocaine, not cleaning up his room,
exhibiting marked mood swings, etc." Neither in his report nor in his sentencing hearing
testimony did Dr. Flynn state that Mr. Spreitz's defense counsel or a defense team member
showed him the report of Dr. Blinder or that Dr. Flynn knew from any source of Mr. Spreitz's
.
.
pnor cocame use.
A Presentence Report was produced on November 28, 1994, the same date as Dr. Flynn's
sentencing hearing testimony. Although Dr. Flynn testified to the materials that informed his
evaluation of Mr. Spreitz, he did not identify the Presentence Report as something he saw or
considered. Trial testimony of Dr. Flynn, 11/28/94, p. 6. Mr. Spreitz related to the probation
officer that, after dropping off his roommate who had become ill while drinking beer with Mr.
Spreitz, Mr. Spreitz stopped to buy more beer. Mr. Spreitz stated the following with respect to a
man he encountered at the 7-11 :
The defendant gave the black male a ride, and they used cocaine together.
Reportedly, they did a "couple quick lines," then the defendant left for his friend's
residence. When he got to her residence, she would not answer the door. The
defendant stated he was drunk and obnoxious, and remembered sitting there for a
6

E - 29

(30 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 8 of 19

minute or two. He got back in his vehicle and drove down the road, which was
when he saw the victim sitting on a curb.
Presentence Report, 11/28/94, p. 3.
In the clinical interview with me, Mr. Spreitz indicated that he smoked crack cocaine
with the black man he picked up at 7-11. Mr. Spreitz indicated this was only the first or second
time he had smoked crack. He had used cocaine previously, including at his apartment, but had
always snorted it. Mr. Spreitz has also reported to his present defense team that he consumed
four of the beers of the six-pack he bought at 7-11 prior to his attempted encounter with Lucy
Eremic in the early morning hours of May 20, 1989.
A Tucson police officer confirmed that Mr. Spreitz and a black male were at the 7-11 at
12:30 a.m. The same officer later stopped Mr. Spreitz for a traffic violation at 1:45 a.m. From
Mr. Spreitz's post-arrest statement and the prosecution's other trial evidence, it appears that the
entirety of the events described in the Presentence Report happened in that sh01i time span.
The materials I reviewed reflect that, in the subsequent state post-conviction proceedings,
Dr. Geffen reported that Mr. Spreitz stated that he was having relationship difficulty with Ms.
Eremic due to his being "stoned, smoking weed and snorting." Dr. Geffen failed to grasp the
significance of Mr. Spreitz' s cocaine use prior to his encounter with Ms. Eremic, as there is no
mention in Dr. Geffen's report of Mr. Spreitz's "snorting." The first mental health practitioner to
elicit and report Mr. Spreitz' s use of cocaine in proximity to the encounter with Ms. Reid was
Roy Mathew, M.D., who evaluated Mr. Spreitz earlier in the federal habeas corpus proceedings.
Dr. Geffen was again retained in the federal habeas corpus proceeding, and only then did he note
Dr. Mathew's discussion of Mr. Spreitz's ingestion of alcohol and cocaine, and the formation of
cocaethy lene.

C.

The effect of cocaine and alcohol on Mr. Spreitz's functioning.

An essential feature of alcohol intoxication is the presence of clinically significant
maladaptive psychological or behavioral changes such as inappropriate aggressive behavior,
impaired judgment and impaired social functioning. DSM-IV, p. 196. Those changes may also
impair memory. As Dr. Lundberg-Love notes, alcohol intoxication has the effect of depressing
cognitive processes of the brain, which impair executive functioning and memory, and the ability
of inhibitory pathways of the brain that stop aggression. Even in the absence of cocaine
ingestion, Mr. Spreitz's alcohol intoxication would have caused deficits in cognitive functioning
that would have decreased markedly his ability to engage in rational, appropriate and nonaggressive behavior during a confrontation with Ms. Reid. It also impaired his ability to
remember what occurred in the desert.
Mr. Spreitz' s cocaine use in the hour prior to the encounter with Ms. Reid caused him to
experience euphoria that would have been accompanied by hyperactivity, hypervigilance,
anxiety, anger, impaired judgment, impulsivity, and aggression. When the brain communicates
with other cells, neurons (nerve cells) communicate across synapses (spaces) to sites on
receiving neurons called receptors. In the areas of the brain known as pleasure centers, which
are activated by activities such as eating and socializing, the neurotransmitters dopamine and, to
a lesser extent, serotonin and nor-epinephrine, deliver chemical or electrical messages across the
synapses momentarily to the receptors, then return back across the synapses to the neurons.
Cocaine ingestion causes an abnormally large amount of dopamine to flood the synapses,
7

E - 30

(31 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 9 of 19

causing an amplified message to the receptors, and serves as a one-way dam to block the
recycling.
The user experiences an intense pleasure or energy and the additional
psychostimulant effects described above. This actually causes a change or hijacking of the brain
chemistry. In addition, crack cocaine delivers cocaine to the brain faster and more concentrated
than in other forms. That more rapid delivery of crack cocaine at such greater concentrations
intensifies the neurochemical changes in the brain and the corresponding "rush" of the pleasurable
feelings and other psychostimulant effects.
Mr. Spreitz's ingestion of cocaine after having consumed vast quantities of alcohol
formed a metabolite known as cocaethylene. Much is lmown about the effects of cocaethylene,
and those effects were well established at the time of the incident and Mr. Spreitz's trial. The
cocaethylene amplified the psychostimulant effects of Mr. Spreitz's cocaine use at the time of
the homicide. I agree with the descriptions of the effect of cocaethylene given by Dr. LundbergLove on brain science and medicine. Cocaethylene would have significantly impaired Mr.
Spreitz's capacity to conform his conduct the requirements of law at the time of the incident
involving him and Ms. Reid in the early morning hours of May 19, 1989. This impairment is
much greater than one would experience by intoxication with alcohol or cocaine alone.

VI.

The effects of childhood trauma.

I have considered a diagnosis of Posttraumatic Stress Disorder (PTSD), DSM-IV, p. 424,
an anxiety disorder, due to the pervasive abuse Mr. Spreitz suffered and to which he was exposed
in childhood. Mr. Spreitz meets the diagnostic criteria for a diagnosis of PTSD, as set out in the
DSM-IV:
A.

Mr. Spreitz experienced and witnessed events that threatened death or serious
injury to himself or his mother; and, his response involved intense fear,
helplessness or horror.

B.

Mr. Spreitz continues to experience physiological reactivity to cues that
symbolize or resemble an aspect of those events. He continues to experience
anxiety when he observes or hears confrontations between inmates or inmates
and guards at the prison in Florence even at the age of 50 and removed for 30
years from the abuse he suffered or observed as a child.
In his declaration, Mr. Spreitz states:
To this day, my heart rate accelerates and my body shakes when I hear
guards or inmates arguing outside my cell. I believe this is due in
large part to the abuse I suffered and my recollection of altercations
between my father and mother and, later, my stepfather and mother.
The shakes create an inner vibrating feeling. The abuse occurred 30
years ago but I am still affected by it. When it occurs, I attempt to pull
back, to tell myself that it does not involve me but I still find myself
reacting to it.
In or about 1987, when I was 21 years old, I felt that same heart rate
acceleration and fear during an argument with my girlfriend Tammy in
Tucson. We argued on the first floor of a residence. I went upstairs to
remove myself from the argument. She followed me upstairs. I
8

E - 31

(32 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 10 of 19

eventually lowered myself down from a second floor balcony to flee
her and the symptoms I was experiencing.
C.

Mr. Spreitz persistently avoids stimuli associated with the trauma. In the clinical
interview, he demonstrated an aversion to discussing the childhood abuse.

D.

Mr. Spreitz experiences symptoms of increased arousal. I found him to have
difficulty concentrating during the clinical interview. In addition, he
demonstrated hypervigilance, reacting to the sounds that occurred outside the
interview room during the clinical interview.

E.

Mr. Spreitz has experienced the symptoms for greater than one month. He has
experienced them since childhood.

F.

The disturbance causes clinically significant distress in his social functioning.

Even though Mr. Spreitz satisfies the criteria listed above, I was not able to conclusively
find, however, that Mr. Spreitz sufficiently met the totality of the criteria required for a diagnosis
of PTSD at the time of the encounter with Ms. Reid or that he currently suffers from PTSD. This
is due to the extremely high standard established for this diagnosis. Regardless if he meets all of
the diagnostic criteria for PTSD, his experiencing significant childhood trauma would have
impaired his capacity to appreciate the wrongfulness of his conduct or to conform his conduct to
the requirements of law. Of note, the diagnosis of PTSD and/or his exposure to childhood
trauma were worthy of consideration during trial because their occurrence at the time of the
offense might have resulted in Mr. Spreitz engaging in an exaggerated startle response or acting
impulsively with respect to the encounter with Ms. Reid.
Conclusion

I diagnose Mr. Spreitz as follows:
Alcohol intoxication at the time of the offense;
Alcohol dependence;
Cocaine intoxication;
Childhood exposure to trauma, rule out PTSD.
A second diagnosis made by Dr. Flynn was intermittent explosive disorder. While I
diagnose Mr. Spreitz as suffering from Alcohol Dependence, DSM-IV (p. 196), due to his
acquired tolerance of alcohol, and alcohol intoxication at the time of the offense, DSM-IV, p.
196-97, I reject Dr. Flynn's diagnosis of intermittent explosive disorder on the basis that Mr.
Spreitz failed to meet the diagnostic criteria. DSM-IV at 609-10. For that diagnosis, the DSMIV requires that "the aggressive episodes" not be due to the "direct physiological effects of a
substance (e.g., a drug of abuse, a medication)." Mr. Spreitz' s aggression on the evening of May
19, 1989, is unquestionably related to his abuse of substances, alcohol and cocaine, and the
9

E - 32

(33 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 11 of 19

consequent formulation of cocaethylene. In addition, there are insufficient incidents of explosive
violence identified in the records provided to support this diagnosis.
I am able to conclude beyond a reasonable psychiatric certainty that Mr. Spreitz's
capacity to appreciate the wrongfulness of his conduct or to conform his conduct to the
requirements of law was significantly impaired at the time of the encounter with Ms. Reid in the
early morning hours of May 19, 1989, due to his ingestion of alcohol and cocaine, the effects of
those drugs, the effect of the metabolite cocaethylene superimposed upon his history of
significant childhood trauma.

Pablo Stewart, M.D.

10

E - 33

(34 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 12 of 19

Exhibit 2
Psychopharmacological Consultation
August 28, 2016

E - 34

(35 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 13 of 19
1

I 121 E . S . E . LOOP 323, SUITE 204
TYL.ER, TEXAS 75701
PHONE: ( 903) 581-0933

Psychopharmacological Consultation

Christopher J. Spreitz
06/10/1966
Age:
50 years
Gender:
Male
Consultant: Paula K. Lundberg-Love, Ph. D.

Name:
DOB:

Marital Status:
Ethnicity:
Education:
Report Date:

FAX: (903) 581-3977

Single
White
GED

08/28/2016

Reason for Referral:

The case of Christopher J. Spreitz was referred to our office by Timothy M. Gabrielsen,
who is an Assistant Federal Public Defender for the District of Arizona Capital Habeas Unit. Mr.
Gabrielsen requested that I review a number of records regarding this case and opine on the
effects of cocaethylene, a compound that is formed when an individual ingests alcohol and
cocaine, on the behavior of Mr. Spreitz at the time of crime for which he is currently
incarcerated.
Records Reviewed:

The Direct Appeal Opinion State v. Spreitz, September 11, 1997
Trial Day 2 (08/10/1994) Pages 201-11 - The Prosecution's Opening Statement
Trial Day 2 (08/10/1994) Pages 219-3 7 - Trial Testimony of Officer Ramon Batista
Trial Day 2 (08/10/1994) Pages 242-63 - Trial Testimony of Officer Victor Chacon
Trial Day 2 (08/10/1994) Pages 278-308 - Trial Testimony of Craig Clark
Trial Day 3 (08/11/1994) Pages 324-49 - Trial Testimony of Lana Owens
Trial Day 3 (08/1 l/1994) Pages 451-83 - Trial Testimony of Det. Karen Wright
Trial Day 4 (08/12/1994) Pages 493-518 - Trial Testimony ofDet. Karen Wright
Trial Day 5 (08/16/1994) Pages 605-49 - Trial Testimony of Thomas Henry, M.D.
Transcript of Confession of Chris Spreitz (05/22/1989)
Report of Dr. Martin Blinder (06/01/1989)
Presentence Report (11/28/1994)
Capital Sentence Hearing (11/28/1994) Pages 4-52 - Testimony of Todd Flynn, Ph. D.
Report of Todd Flynn, Ph.D. (11/21/1994)
Capital Sentence Hearing (12/21/1994) Pages 31-39
Report of Joseph Geffen, Ph. D. (03/28/2000)
Report of Joseph Geffen, Ph.D. (02/04/2003)
Report 1 of Cheryl Fischer (03/07/2000) Pages 1-15
Report 2 of Chery) Fischer (02/10/2003) Pages 1-43
Report of Roy Mathew, M. D. (12/09/2002)
Report of James Sullivan, Ph.D. (01/03/2005)

E - 35

(36 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry : 98-2, Page 14 of 19
2

Declaration of Christopher Spreitz (06/06/2013)
Declaration of Susan Mendenhall (06/12/2013)
A primer ofdrug action 13th edition (2014) by Advokat, Comaty & Julien (pages 125 142 and 201-211)
Stahl's Essential Psychopharmaco/ogy 4th edition by Stephen M. Stahl (pages 537-575;
34,298)
Mr. Spreitz, Alcohol and Cocaine Use Prior to the Crime for Mr. Spreitz is Currently
Incarcerated:

Based upon a review of information contained in the report of Dr. Roy Mathew as well as
information provided by Christopher Spreitz, himself, Mr. Spreitz had ingested exceedingly large
amounts of alcohol prior to the time of the crime. He had also smoked marijuana and crack
cocaine. Specifically, upon arising at 11 :00 AM on Wednesday, May 19, 1989, Chris smoked
two bowls of marijuana prior to a breakfast of cereal. After breakfast be purchased 12 beers
which he consumed between the hours of2:00-6:00 PM. When Chris' roommate, Craig Clar~
arrived home after 6:00 PM, they purchased 12 more beers, two of which Chris consumed prior
to going to a nightclub with his roommate at 7:30 PM. The nightclub was selling 8-ounce cups of
beer for 5 cents apiece. Chris reported drinking at least 16 cups of beer between 7:30-10:30 PM,
when he took his roommate home because Craig felt sick. Chris then decided to visit his
girlfriend, Lucy. On the way to her residence, he stopped at a Seven-Eleven store to purchase a
six-pack of beer. After purchasing the beer, Mr. Spreitz encountered a man to whom he had
given rides to the man's cocaine dealer on previous occasions. When the man asked for a ride
again, Chris took him to the cocaine dealer. The man went inside, came back with some crack
cocaine and shared some with Chris. When questioned by his current attorney about how much
cocaine he smoked that night, Mr. Spreitz indicated that he had "two to three hits" of cocaine. Of
the six beers that Chris purchased at the Seven Eleven store, he consumed four of those prior to
the time of the crime. So to summarize, from 11 :00 AM on Wednesday until the time ofthe
homicide, Mr. Spreitz ingested 34 beers and 2-3 "hits" of crack cocaine.

In order to offer a reasonable assessment of the impact of the amounts of alcohol and
cocaine consumed by Chris on his cognitive and emotional behavior at the time of the crime, one
must first estimate what Mr. Spreitz's blood alcohol level would have been. To do that one must
understand that the average person metabolizes about 10-14 milliliters of 100 percent alcohol per
hour, independent of the blood level of alcohol. This rate is fairly consistent across individuals. It
takes an hour to metabolize the amount of alcohol contained in a 12 ounce of bottle of 5 percent
beer or a 6-ounce glass of 8-10 percent microbrew or fortified beer. If a person consumes more
aJcohol in a given hour than can be metabolized (i.e., than one drink) one's blood level of alcohol
will predictably increase. Consequently, there is a limit to the amount of alcohol an individual
can ingest in an hour without becoming "drunk." Thus, the kinetics of alcohol metabolism allow
not only an estimation of blood alcohol concentration (BAC), after drinking a known quantity of
alcoholic beverage, but also an estimation of the fall in BAC over time after drinking ceases. The
BAC is an index of motor and intellectual functioning and is the basis for the definition of
"intoxication." Currently, in all states of the United States a BAC of 0.08 grams% is defined as
"intoxication." However, one needs to understand that the behavioral effects of alcohol are not
"all-or-none." AJcohol progressively impairs a person's motor, emotional, and cognitive abilities

E - 36

(37 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 15 of 19
3

as a function of the BAC. As a result one can reliably estimate the BAC, given the number of
drink equivalents imbibed, the body weight, and the gender of an individual.
At the time of the crime Chris Spreitz weighed 170 pounds, according to his attorney,
Tim Gabrielsen, who determined that Chris' weight at the time of his arrest was included in a
police report. The Blood Alcohol Concentration (BAC) chart for men in Julien 's Primer ofDrug
Action (pg. 130) provides an estimated blood alcohol concentration as a function of weight and
the number of drinks consumed. Since the weights listed in the table closest to that of Chris are
160 pounds and 180 pounds, we will use the 180 pound weight because the higher one's body
weight, the lower the BAC. Hence, if we use the 180 pound body weight to calculate what Chris
Spreitz's BAC would have been at the time of the crime, it will provide a more conservative
estimate. Mr. Spreitz drank 12 beers between 2:00-6:00 PM. Ifhe had drunk this amount of beer
within one hour his BAC would have been .25 grams%. However, given that the body can
metabolize .015 grams% alcohol per hour, ingestion of 12 beers over a four hour period would
have put his blood level at .19 grams% (.25 grams%-.06 grams% = .19 grams%) at 6:00 PM.
Chris then drank two more beers from 6:00-7:30 PM which would have added .04 grams% to the
BAC of .19 grams% for a total of .23 grams%. However, during that 1.5 hour time period while
he was drinking the two beers, the amount of alcohol that would have been simultaneously
metabolized would have given Chris a BAC of .23 grams% - .02 grams% = .21 grams%. From
7:30 -10:30 PM Mr. Spreitz then ingested 16 beers at a nightclub while metabolizing three
alcoholic drinks during that time period. Hence, by 10:30 PM Chris' BAC would have been .54
grams% {.21 grams%+ .33 grams%)- .045 grams% (metabolized) for a total BAC of .495
grams%. This means that Mr. Spreitz BAC level was 6.18 times the level for legal intoxication
(.495/.08 = 6.18) at 10:30 PM. However, Chris purchased six more beers and consumed four of
these prior to the time of the crime. That means that a conservative estimate of his BAC at the
time of the crime was .495 grams% + .08 grams% (.02 grams% x 4 = .08) for a total of .575
grams%, which is an extraordinarily high BAC. Indeed, it is 7.18 times the legal limit for
intoxication.
Initially, one might wonder how Chris was able to drive a car or even why he was not
stuporous. But, in part, that is a function of tolerance to the chronic exposure of large amounts of
alcohol. Sometimes it is referred to as ''tissue tolerance." But the body adapts to alcohol
exposure such that the behavioral and even biological impact of alcohol is "less potent" for lack
of a better term. An individual who wasn't addicted to alcohol to the extent to which Mr. Spreitz
was addicted, could have died of respiratory depression at this BAC. But Chris' long term,
chronic, extensive addiction to alcohol resulted in a tolerance to impact ofalcohol that one would
observe in a lesser addicted or non-addicted person. This sort of effect is also observed in people
addicted to opiate drugs like heroin. Opiate addicts develop a tolerance to its effects such that
they can ingest an amount of drug that would result in respiratory depression and death in a nonaddicted person. Indeed, it is not uncommon for opiate addicts who have been incarcerated or in
treatmen4 where they had no access to the drug, then use the drug as soon as they are released, to
die of an overdose because their level of tolerance has been significantly reduced.
In addition to being intoxicated by alcohol, Mr. Spreitz also smoked crack cocaine with
an acquaintance just prior to the crime. Chris has estimated that he inhaled 2-3 "hits" of crack.
An average dose of crack administered in that manner would have been between 250-1000

E - 37

(38 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 16 of 19
4

milligrams of cocaine. When crack cocaine is smoked the drug molecules pass through the
membrane of the lungs and are directly absorbed into the blood stream and are sent to the brain
without any of the cocaine being metabolized by the liver. So absorption is rapid and complete.
Hence, inhalation of two to three hits of crack cocaine would have resulted in administration of a
dose of cocaine that could range from 250 -1000 milligrams. However, when cocaine is
concurrently ingested with alcohol, a unique ethyl ester ofbenzoylecognine, which is the
primary metabolite of cocaine, is produced by the liver enzymes that metabolize the drug. That
metabolite is called cocaethylene. Cocaethylene is pharmacologically as active as cocaine, itself,
with respect to its ability to block the presynaptic dopamine transporter. The dopamine
transporter is essentially a "pump" in the dopamine neurons ofthe brain that recycle the
neurotransmitter, dopamine. So this means that the brain of Chris Spreitz was not only
intoxicated with alcohol and cocaine, but also a third compound, cocaethylene. Effectively, he
had two different compounds simultaneously flooding his brain with dopamine, serotonin, and
norepinephrine. Cocaethylene is more toxic than cocaine, exacerbates the toxicity of cocaine
itself, and increases the craving for more cocaine.
Another important issue with respect to the influence of cocaine and cocaethylene on
behavior is the different half-lives of cocaine and cocaethylene. The half-life of a drug is the
amount of time that it talces for one-half of the dose administered to be eliminated from the body
as measured by its level in blood plasma The half-life for cocaine in the plasma is about 50
minutes. The half-life of cocaethylene is 150 minutes, which mean that the effects of
cocaethylene far outlast the effects of cocaine. However, the level of a drug in the plasma does
not necessarily reflect the levels of a drug that are present in the brain. In order to detennine the
level of a compound in the brain, one would have to measure its presence in cerebrospinal fluid,
which is an invasive procedure involving lumbar puncture. This is an important fact because
while cocaine is rapidly removed from the plasma, it is more slowly removed from the brain.
This means that once cocaine gets into the brain, it can continue to effect brain chemistry and
behavior until it diffuses out of the brain and is removed from the plasma The same is true for
cocaethylene. According to Julien, cocaine can be detected in the brain for 8 or more hours after
an initial dose of the drug. So with multiple "hits" of cocaine and multiple formations of
cocaethylene metabolites, both molecules will be present to some degree in the brain even if the
person does not seem to be exhibiting a "high." Since Chris Spreitz would have taken his three
doses of cocaine (conservative estimate 50 milligrams x 3 = 150 milligrams) at approximately
12:30 AM, a conservative estimate is that Chris would have been under the influence of cocaine
for more than four hours. Given that the formation ofcocaethylene would also be approximately
150 milligrams and its half-life is 150 minutes, Chris would have been under the influence of
cocaethylene for six hours. So when the police officer stopped Mr. Spreitz the night of the crime,
his BAC, conservatively estimated, would have been .575 grams% and he was under the
influence of cocaine and cocaethylene.
Mechanisms of Action of Alcohol in the Brain:

Identifying the mechanisms of action of alcohol (ethanol) in the brain has evolved as a
result of research conducted over the past few decades. Because it is both water-soluble and
lipid-soluble, it can dissolve into all body tissues. This fact led to the hypothesis that alcohol
exerted its effects through a general depressant action on neural membranes by distorting,

E - 38

(39 of 41)
Case: 09-99006, 02/01/2017 , ID: 10298318, DktEntry: 98-2, Page 17 of 19
5

disorganizing, perturbing, or fluidizing them. This mechanism of action could explain the nonspecific, generalized depressant activities of the drug, but it did not explain the evidence that
alcohol disturbed the synaptic activity of various neurotransmitters including the excitatory
transmitter, glutamate, the inhibitory neurotransmitter, gamma-aminobutyric acid (GABA), and
various intracellular transduction processes that modulate memory, cognitive performance and
motor performance.
Ethanol is a potent inhibitor of activity at the NMDA-glutamate receptor. It depresses the
responsiveness of the NMDA receptors to release glutamate, particularly in brain areas such as
the hippocampus, amygdala and the corpus striatwn. This action appears to underlie the
consequences of severe intoxication as seen in impairment of memory and motor perfonnance.
This attenuation of glutamate responsiveness is exacerbated by aJcohol's enhancement of
inhibitory GABA neurotransmission.
Alcohol activates the GABA-mediated increase in the influx of chloride ions across the
neuronal membrane which results in inhibition ofnerve cells. Behaviorally, this inhibition results
in sedation, muscle relaxation, and impairment of cognitive and motor skills. Ethanol and stress
may interact such that GABA-mediated inhibition may lead to the activation of opioid receptors
that, in tum, influence the rewarding effects associated with the stimulation of dopamine
neurons. Ethanol binds to a receptor subunit of the GABA-A receptor complex different from
that of other positive allosteric modulators of GABA like drugs such as Ativan and Xanax. As a
result of this GABA-A action, the activity of other transmitter systems is affected. The abuse
potential follows from the ultimate effect of augmenting the dopamine pathway from the ventraJ
tegmentaJ area to the nucleus accwnbens, amygdaJa, and to the frontal cortex.
A dysfunctional brain opioid system may also be involved in heavy alcohol drinking and
alcohol dependence such as that engaged in by Chris Spreitz. Ethanol may induce opioid release,
which in turn triggers dopamine release in the brain reward system, especially in the nucleus
accumbens and orbitofrontal cortex
There is also some literature that emphasizes the role of serotonin in the actions of
alcohol and as a mediator of alcohol reward, preference, dependence and craving. Chronic
alcohol consumption results in augmentation of serotonin activity, via stimulation of the
serotonin two (5-HT2) and serotonin three (5-HT3) receptors. These receptors are located on
dopamine neurons in the nucleus accumbens, which is the reward center of the brain. Serotonin
dysfunction has been postulated to play a role in the pathogenesis of some types of alcoholism.
Serotonin receptors also are involved in impulsivity, which is a core behavior that contributes to
the vulnerability to addiction and relapse, such that reduced serotonin activity is associated with
greater impulsivity.
Mechanism of Action of Cocaine in the Brain:

Cocaine potentiates the actions of three neurotransmitters in the brain, dopamine,
norepinephrine, and serotonin. Potentiation occurs as a result of cocaine's ability to block the
active transport (recycling) of these transmitters from the space between nerve cells (the
synapse) back into the nerve cell itself. It is thought that cocaine's blockade of the dopamine
transporter is crucial for its behavior-reinforcing and psychostimulant properties. Blockade ofthe

E - 39

(40 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 18 of 19
6

dopamine transporter by cocaine and cocaethylene markedly increases the levels of dopamine
within the synapses. Increased levels of dopamine in the nucleus accumbens of the brain and
other components of the dopaminergic reward system seem to be responsible for the euphoric
and psychostimuJant effects of the drug.
However, the ability of cocaine to block the serotonin transporter is also related to the
reinforcing effects of cocaine. Animals that lack the 5-HTlB receptor show a greater response to
cocaine. Some research data also suggest that people with altered serotonin receptor function
may have an increased susceptibility to cocaine dependence.
Increasing the activity of dopamine, serotonin, and norepinephrine simuJtaneously in the
brain impairs the ability of an individual to be able to think. plan and behave in a logical, rational
manner. Changing brain chemistry necessarily changes behavior such that the ability of a person
to deliberate, exercise judgment, coolly reflect and plan is seriously impaired. When the brain is
"flooded" with these neurotransmitters, the circuitry of the brain that normally inhibits
aggression and enables one to reflect upon the consequences of one's actions is effectively
"hijacked." This means that biochemically and neuropharmacologically, Chris Spreitz's
ingestion of cocaine contributed to his inability to control his behavior and enhanced his
aggression.
Conclusions:

Chris Spreitz ingested massive amounts of alcohol in concert with cocaine prior to the
crime for which he is currently incarcerated. In order to comprehend the various mechanisms
whereby the consumption of these drugs can trigger/enhance violent behavior, and impair
memory, one needs to understand the nexus of these drugs on the circuitry of the brain.
Alcohol's ability to inhibit the activity of glutamate neurons and enhance the activity of GABA
neurons augment one another to depress the cognitive processes of the brain, which impairs
executive functioning, impairs memory, and impairs the ability of the inhibitory pathways of the
brain to stop inappropriate behavior such as aggression. In effect, the brain circuitry that
mediates one's ability to make non-aggressive, appropriate choices is hijacked. Thus, one is at
the mercy of one's emotions, and the neural "brakes" that typically keep those emotions in
check, are no longer functioning effectively. So a person who might not have a history of
aggression can become very angry and aggressive under the influence of alcohol, particularly
given the amounts consumed by Mr. Spreitz.
Similarly, Mr. Spreitz's ingestion of cocaine would have enhanced the activity of
dopamine in the brain by blocking the dopamine transporter and likely elicited agitation,
impulsivity, anxiety, suspiciousness, paranoia and aggression. Cocaine ingestion makes it more
difficult to inhibit aggressive behavior. When cocaine is ingested with alcohol, the metabolite
cocaethylene is formed, which exacerbates the toxicity of the cocaine, i.e., it increases the
psychostimulant effects of cocaine described above and contributes to the hijacking ofthe brain
circuitry. Once aggression is triggered, an individual may engage in what is known as
stereotypic" behavior which means that the individual may repetitively engage in
aggression/injurious behavior even after a person with whom he is in confrontation may be
defenseless, incapacitated or deceased. With respect to the initiation of aggression, adding
4

'

E - 40

(41 of 41)
Case: 09-99006, 02/01/2017, ID: 10298318, DktEntry: 98-2, Page 19 of 19
7

cocaine and cocaethylene to the amount of alcohol ingested by Mr. Spreitz was just like
metaphorically adding fuel to the fire.
Alcohol also significantly impairs memory. Memory is impaired because the inhibition of
glutamate activity and the enhancement of activity at the GABA-A receptor disrupts the
processing and storage of memory. lbis occurs even when low doses of alcohol are consumed.
Given the large amounts of alcohol ingested by Mr. Spreitz, it is not surprising that he had
significant memory blackouts of what had occurred that night. Indeed, with the amount of
alcohol consumed by Chris, it is at first difficult to understand why he wasn't sedated. But
therein lie the effects of cocaine and cocaethylene. While the dopaminergic stimulant properties
of cocaine and cocaethylene (i.e., increased alertness, increased motor activity, racing thoughts,
enhanced motor activity) do not reverse the neurochemical depressant effects of alcohol, they
can mask the intensity of the depressant effects of alcohol, such that the level of Mr. Spreitz's
inebriation might not have appeared to the police officers to be as significant as it was. In effect,
the ingestion of cocaine with alcohol has the effect of rendering one a much more alert and
active "drunk."
Hence understanding and explaining the psychopbannacological effects of alcohol,
cocaine and cocaethylene upon Mr. Spreitz's behavior would have assisted Mr. Spreitz's trial
counsel in helping the sentencing court understand the significant impact of this drug "cocktail"
upon the likelihood of Mr. Spreitz engaging in violent and aggressive behavior. It also would
explain why Mr. Spreitz has virtually no memory of his actions that led to the victim's death and
no comprehension as to how he could commit the fatal acts, given his lack of a violent history. I
hope that this psychophannacological consultation helps to clarify the impact of neurochemistry
on behavior.

Respectfully,

Paula Lundberg-Love, Ph.D.
Professor of Psychology
Licensed Professional Counselor

E - 41

Case: 09-99006, 03/04/2019, ID: 11214063, DktEntry: 107, Page 1 of 2

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CHRISTOPHER J. SPREITZ,

MAR 4 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 09-99006

Petitioner - Appellant,

D.C. No. 4:02-CV-00121-JMR
District of Arizona,
Tucson

v.
CHARLES L. RYAN,

ORDER
Respondent - Appellee.

Before: PAEZ, BERZON, and TALLMAN, Circuit Judges.
Christopher Spreitz filed a motion to stay the proceedings and remand this
case to the district court for application of Martinez v. Ryan, 566 U.S. 1 (2012).
Ninth Cir. Dkt. 49. The State filed a response opposing the motion, ninth cir. dkt.
58, and Spreitz filed a reply, ninth cir. dkt. 66. Spreitz renewed his motion to stay
on February 1, 2017. Ninth Cir. Dkt. 98. The state also opposed this motion.
Ninth Cir. Dkt. 99.
Spreitz argues that his post-conviction counsel was ineffective for failing to
adequately develop the record supporting two claims of ineffective assistance of
trial counsel. We have carefully considered all of the briefs and evidence, and we
conclude that Spreitz has not made a sufficient showing to warrant a remand to the
district court.
F-1

Case: 09-99006, 03/04/2019, ID: 11214063, DktEntry: 107, Page 2 of 2

Therefore, the motions are DENIED.

-2F-2

Case: 09-99006, 08/03/2020, ID: 11774592, DktEntry: 128, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

CHRISTOPHER J SPREITZ,

No.

09-99006

D.C. No. 4:02-CV-00121-JMR
District of Arizona,
Tucson

Petitioner-Appellant,
v.
CHARLES L. RYAN,

ORDER

Respondent-Appellee.
Before: PAEZ, BERZON, and TALLMAN, Circuit Judges.
Appellant’s motion to reconsider the order denying his motion to remand
pursuant to Martinez v. Ryan, 566 U.S. 1 (2012), Dkt. #112, is DENIED.

G-1

